<html>
<title> - NOMINATION OF KEVIN K. McALEENAN, TO BE COMMISSIONER, CUSTOMS AND BORDER PROTECTION,. DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[Senate Hearing 115-409]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-409

                    NOMINATION OF KEVIN K. McALEENAN

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                 ON THE

                             NOMINATION OF

KEVIN K. McALEENAN, TO BE COMMISSIONER, CUSTOMS AND BORDER PROTECTION, 
                    DEPARTMENT OF HOMELAND SECURITY

                               __________

                            OCTOBER 24, 2017

                               __________

 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                    
                                     

            Printed for the use of the Committee on Finance
            
            
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-483 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5a3d2a351a392f292e323f362a7439353774">[email&#160;protected]</a>            
            
            


                          COMMITTEE ON FINANCE

                     ORRIN G. HATCH, Utah, Chairman

CHUCK GRASSLEY, Iowa                 RON WYDEN, Oregon
MIKE CRAPO, Idaho                    DEBBIE STABENOW, Michigan
PAT ROBERTS, Kansas                  MARIA CANTWELL, Washington
MICHAEL B. ENZI, Wyoming             BILL NELSON, Florida
JOHN CORNYN, Texas                   ROBERT MENENDEZ, New Jersey
JOHN THUNE, South Dakota             THOMAS R. CARPER, Delaware
RICHARD BURR, North Carolina         BENJAMIN L. CARDIN, Maryland
JOHNNY ISAKSON, Georgia              SHERROD BROWN, Ohio
ROB PORTMAN, Ohio                    MICHAEL F. BENNET, Colorado
PATRICK J. TOOMEY, Pennsylvania      ROBERT P. CASEY, Jr., Pennsylvania
DEAN HELLER, Nevada                  MARK R. WARNER, Virginia
TIM SCOTT, South Carolina            CLAIRE McCASKILL, Missouri
BILL CASSIDY, Louisiana

                     A. Jay Khosla, Staff Director

              Joshua Sheinkman, Democratic Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Hatch, Hon. Orrin G., a U.S. Senator from Utah, chairman, 
  Committee on Finance...........................................     1
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     2

                         CONGRESSIONAL WITNESS

Hirono, Hon. Mazie K., a U.S. Senator from Hawaii................     4

                         ADMINISTRATION NOMINEE

McAleenan, Kevin K., nominated to be Commissioner, Customs and 
  Border Protection, Department of Homeland Security, Washington, 
  DC.............................................................     6

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Hatch, Hon. Orrin G.:
    Opening statement............................................     1
    Prepared statement...........................................    29
Hirono, Hon. Mazie K.:
    Testimony....................................................     4
    Letter from David Y. Ige, Governor of Hawaii, to Senator 
      Hatch, October 13, 2017....................................    30
McAleenan, Kevin K.:
    Testimony....................................................     6
    Prepared statement...........................................    30
    Biographical information.....................................    31
    Responses to questions from committee members................    41
Wyden, Hon. Ron:
    Opening statement............................................     2
    Prepared statement...........................................   139

                             Communications

Harris, Norman W., III...........................................   141
Los Angeles Customs Brokers and Freight Forwarders Association, 
  Inc............................................................   141
United States Council for International Business (USCIB).........   142

                                 (iii)

 
                   NOMINATION OF KEVIN K. McALEENAN,
                           TO BE COMMISSIONER,
                     CUSTOMS AND BORDER PROTECTION,.
                    DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                       TUESDAY, OCTOBER 24, 2017

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:05 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. 
Orrin G. Hatch (chairman of the committee) presiding.
    Present: Senators Grassley, Enzi, Cornyn, Thune, Isakson, 
Portman, Toomey, Heller, Scott, Cassidy, Wyden, Stabenow, 
Cantwell, Nelson, Carper, Brown, Bennet, Casey, and Warner.
    Also present: Republican Staff: Jay Khosla, Staff Director; 
Chris Armstrong, Deputy Chief Oversight Counsel; Nicholas 
Wyatt, Tax and Nominations Professional Staff Member; Shane 
Warren, Chief International Trade Counsel; Queena Fan, 
Detailee; and Andrew Rollo, Detailee. Democratic Staff: Joshua 
Sheinkman, Staff Director; Michael Evans, General Counsel; Ian 
Nicholson, Investigator; Greta Peisch, International Trade 
Counsel; and Jayme White, Chief Advisor for International 
Competitiveness and Innovation.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
              UTAH, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The committee will come to order. I would 
like to welcome everyone here this morning. Today we are here 
to accomplish two important matters.
    First, we will have a hearing to consider the nomination of 
Kevin McAleenan to serve as Commissioner of U.S. Customs and 
Border Protection or CBP.
    In addition, if a quorum is present at any point during the 
hearing, we will move to executive session to consider and 
hopefully report three pending trade-related nominations. If we 
do not get a quorum, I intend to hold votes off the floor so we 
can move these nominations in short order. With that, I will 
turn to Mr. McAleenan's nomination.
    In 2015, this committee successfully drafted and reported 
the Trade Facilitation and Trade Enforcement Act, which was 
later signed into law by President Obama. Thanks to that 
effort, Mr. McAleenan, if confirmed, will be the first 
Commissioner to oversee CBP as a fully authorized agency.
    Mr. McAleenan, we want to welcome you to the Finance 
Committee. We appreciate your willingness to serve in this 
important position.
    CBP is the United States' unified border agency, charged 
with facilitating legitimate trade and travel, while enforcing 
U.S. trade laws and securing our borders.
    There is a great deal of work to be done to improve 
enforcement, but this mission should not come at the expense of 
legitimate trade and travel. Striking the right balance is 
vital to ensuring that the United States remains competitive 
with the rest of the world. Balancing facilitation and security 
will require CBP to work with stakeholders in and out of the 
government.
    As CBP seeks to strengthen and streamline trade 
enforcement, including the protection of intellectual property 
rights, the agency must not forget the important role that the 
private sector can play. As an example, the private sector uses 
information that CBP shares on counterfeits stopped at the 
border to prevent future shipments from happening. The private 
sector can also alert CBP to importers trying to circumvent our 
anti-dumping and countervailing duty laws.
    Coordination with other government agencies is also 
important. For example, the international mail system is used 
to traffic narcotics, counterfeits, and other products that 
pose health and safety risks to Americans. Congress authorized 
the Postal Service and CBP to collect electronic information on 
postal shipments in 2002, and these agencies must use this 
authority to close this security gap.
    CBP must also ensure that its regulations clearly outline 
the rights and responsibilities of stakeholders. For example, 
the Trade Facilitation and Trade Enforcement Act of 2015, the 
law I referred to earlier, improved enforcement against goods 
manufactured with forced labor. CBP needs to update its 
regulations to inform stakeholders about the type of 
information necessary to make a proper allegation against an 
import and to provide necessary guidance for stakeholders to 
address such allegations.
    Long story short, Mr. McAleenan has a tough job ahead of 
him. However, I believe he is well-prepared and well-qualified 
to serve in this capacity, and I look forward to discussing his 
qualifications and his views here today.
    With that, I am going to turn to Senator Wyden for his 
opening remarks. I will remind my colleagues, once again, that 
I intend to move to executive session at any point that a 
quorum is present.
    [The prepared statement of Chairman Hatch appears in the 
appendix.]
    The Chairman. Senator Wyden?

             OPENING STATEMENT OF HON. RON WYDEN, 
                   A U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman. I also 
want to note we are always glad to have Senator Hirono here. 
Mr. McAleenan, you are running with the right crowd when you 
have Senator Hirono in your corner.
    The Chairman. I would say.
    Senator Wyden. Mr. McAleenan, I have very much enjoyed our 
past discussions. This is--as you know so well--an 
exceptionally hard job, and I think you are up to it.
    I also want to express my appreciation for working with me 
to increase staffing at the port of Portland. This is a 
particularly important time for the port because we are trying, 
as you and I have discussed, to expand our role as a 
destination for international flights, including a new flight 
from Mexico that I hope is going to be finalized very soon.
    Our challenge with adequate staffing illustrates the acute 
need to hire more blue uniforms to enforce our trade laws and 
to facilitate travel. I am anticipating that these are matters 
that you are going to continue to focus on.
    Mr. Chairman and colleagues, I am going to be brief this 
morning. I just want to touch on two issues.
    The first is trade enforcement. The fact is that the 
administration has talked one tough game when it comes to 
trade, but so far the record has not lived up to the talk.
    If you are serious--genuinely serious--about getting trade 
done right, the prerequisite to doing it is having tough 
enforcement of the laws that are on the books today. And 
Customs and Border Protection is on the frontline of that 
effort.
    Last year, the Trade Facilitation and Trade Enforcement Act 
was signed into law. The Finance Committee wrote that 
legislation because it was clear that trade enforcement and the 
trade enforcement mission at this agency were getting short 
shrift and that this was a substantial threat to red, white, 
and blue jobs. The legislation was about making sure the agency 
was fast enough and equipped to deal with the modern trade 
cheats who are determined to undercut American workers by 
evading our trade laws.
    As you and I have talked about, Mr. McAleenan, this is 
something we know a little bit about, because a number of years 
ago we actually set up a dummy website to see how many trade 
cheats there were out there. And we were just flooded as a 
result of having, in effect, a sting operation to catch these 
characters.
    So a lot of good work has been put in place over the last 
few months since the bill was signed, but it seems to me a lot 
of those efforts have been stalled under this administration. 
That is something that has to change in order to protect red, 
white, and blue jobs in Oregon and across the country.
    Trade enforcement is about constant vigilance and staying 
ahead of the new tactics used by trade cheats to get around our 
laws. That is a reality. That is what we have found: 
consistently they are coming up with new ways to get around the 
existing enforcement regimes. That is why we are going to 
emphasize that with you this morning.
    My concern is, it looks like trade enforcement is an 
afterthought with this administration. The White House seems 
more focused on throwing money at a border patrol army and 
prototypes for a border wall that, hopefully, will never get 
built.
    Trade enforcement is going to fall by the wayside and jobs 
disappear if all of this business-as-usual continues. I think 
we learned during the trade debate, it does not matter what 
kind of deals you propose or what laws you put on the books 
unless you are really serious about enforcing them.
    So you have a lot of work to do--from rooting out products 
made with forced labor to preventing trade in illegally 
harvested timber and wildlife to protecting the health and 
safety of consumers who use imported products. I look forward 
to working with you to make sure that the agency effectively 
enforces our trade laws on those issues.
    The other topic that I feel needs to be addressed--and I 
will ask about it this morning--deals with searches at the 
border. There has been an onslaught of reports this year about 
Americans being stopped at the border and forced to unlock 
their personal electronic devices for inspections that clearly 
invade their personal privacy.
    I have introduced bipartisan legislation called the 
Protecting Data at the Border Act. The bill requires law 
enforcement to get a warrant before searching a device at the 
border, and it comes with strong protections to let Americans 
know when and how they consent to having their devices 
searched.
    This ought to be a common-sense step. I feel particularly 
strongly about this, Mr. McAleenan, because the court, the 
Supreme Court, has already ruled that law enforcement needs a 
warrant to search a phone after an arrest. Bottom line, the 
constitutional rights of Americans do not disappear at the 
border.
    So I am going to look forward to addressing that question 
with you. Again, Mr. McAleenan, thank you for joining the 
committee.
    We are glad to have Senator Hirono here. I think this 
nominee, colleagues, is a strong individual. I look forward to 
hearing his plans for the agency, if confirmed, and I plan to 
support him.
    Thank you.
    The Chairman. Well, thank you, Senator.
    [The prepared statement of Senator Wyden appears in the 
appendix.]
    The Chairman. Now we do have a quorum.
    [Whereupon, at 10:15 a.m., the hearing was recessed, 
reconvening at 10:25 a.m.]
    The Chairman. Today we have the pleasure of hearing from 
Mr. Kevin K. McAleenan, who has been nominated to serve as 
Commissioner of the U.S. Customs and Border Protection. Mr. 
McAleenan, we want to thank you for appearing here today.
    Additionally, I would like to welcome our good friend, 
Senator Hirono, who also hails from Hawaii. Senator Hirono will 
be providing the introduction for Mr. McAleenan. Senator 
Hirono, the floor is yours at this time.

              STATEMENT OF HON. MAZIE K. HIRONO, 
                   A U.S. SENATOR FROM HAWAII

    Senator Hirono. Chairman Hatch, Ranking Member Wyden, 
members of the committee, aloha. I am pleased to introduce to 
you one of Hawaii's own, Kevin K.--and the ``K'' stands for 
Kealoha, which is a good Hawaiian name--McAleenan, who has been 
nominated by the President to serve as Commissioner of U.S. 
Customs and Border Protection, CBP.
    Kevin has a deep connection to Hawaii and to public 
service. His father worked with at-risk youth at Stephenson 
Middle School and taught summer courses at the University of 
Hawaii.
    Prior to government service, Mr. McAleenan practiced law in 
California. He received his Juris Doctorate degree from the 
University of Chicago Law School, and a Bachelor of Arts degree 
from Amherst College.
    He has served at the leadership level of CBP, first as 
Deputy Commissioner, Chief Operating Officer, and now as the 
Acting Commissioner for over 4 years combined, leading CBP 
through a period of dynamic change, significant resource 
constraints, and increasing stakeholder expectations.
    For the past 6 months, Kevin has served as the Acting CBP 
Commissioner and oversees nearly 60,000 employees. He manages a 
budget of over $13 billion and ensures effective operations of 
CBP's efforts to protect national security while promoting 
economic prosperity.
    Kevin understands that CBP is not only tasked with keeping 
our country safe from threats beyond our border, but also to 
securely facilitating legitimate travel and commerce. To this 
end, Kevin is personally committed to working closely with 
external stakeholders, including the international trade and 
travel communities, State and local government and law 
enforcement, nongovernmental organizations, interagency 
partners, and members of Congress.
    I can attest to this commitment. Last December, CBP in 
collaboration and coordination with the Hawaii Department of 
Transportation, resumed inspection of international passengers 
arriving in Kona Airport after a 6-year hiatus. The success of 
this project between the State of Hawaii and CBP was fostered 
by Kevin and the strong team at CBP.
    Kevin is also committed to furthering CBP security 
cooperation with our international partners while also 
streamlining the Customs process for visitors to our country. I 
have worked with him on CBP's expansion of preclearance 
operations to Japan and have seen the successful growth of 
global entry programs to include a number of Asia-Pacific 
nations, most recently India.
    While I do not expect to support everything that CBP will 
be tasked by the President to do, Kevin's long career in law 
enforcement and willingness to constructively work with members 
of the Senate will equip him to lead the agency with integrity 
and commitment to service.
    A letter of support for Mr. McAleenan has been sent by the 
Governor of Hawaii, David Ige, in which he highlighted Kevin's 
``keen desire to serve the public with a spirit of aloha'' and 
the work he did to assist in restarting international flights 
from Japan to Kona International Airport.
    Mr. Chairman, I request that the Governor's letter of 
support for Mr. McAleenan's nomination be included in the 
record. That is my testimony.
    The Chairman. Without objection, it will be included.
    [The letter appears in the appendix on p. 30.]
    Senator Hirono. Thank you very much, Mr. Chairman, and 
aloha.
    The Chairman. Well, thank you, Senator Hirono. We 
appreciate you taking time to provide that great introduction, 
and we are grateful for you attending our hearing today. So 
thank you for being here.
    Mr. McAleenan, please proceed with your statement.

STATEMENT OF KEVIN K. McALEENAN, NOMINATED TO BE COMMISSIONER, 
CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY, 
                         WASHINGTON, DC

    Mr. McAleenan. Good morning, Mr. Chairman, Ranking Member 
Wyden, distinguished Senators of the committee. Thank you for 
considering my nomination to lead U.S. Customs and Border 
Protection today.
    Senator Hirono, thank you so much for the kind introduction 
and for highlighting my connections to my birth State. I have 
very much appreciated working with you and your colleagues in 
the State of Hawaii on international travel and trade over the 
past several years. Mahalo nui loa.
    Please allow me to introduce my wife of 15 years, Corina, 
who is not only behind me here today, but every day in 
everything I do. Thank you.
    My daughters Tatiana, 10 years old, and Caitlin, 7, will 
watch the recording--or at least part of it--when they get home 
from school this afternoon. Without their enduring support and 
patience and love, I would not have had the chance to pursue my 
tremendously rewarding career in public service, nor this 
opportunity to present myself to the committee today. It is 
truly a family commitment to support public service.
    I was raised in a family of public servants, each member 
drawn to a cause and driven to make a difference. My father, 
whose service began in the United States Army, 82nd Airborne, 
continues to serve the public today at 80-years strong as a 
hearing officer in the L.A. County Mental Health Court system.
    My mother worked at the university and college levels for 
decades, and my brother is a principal of a high school in 
Fresno County, CA working to ensure that children facing stark 
disadvantages achieve educational opportunities. My stepmother 
works in public elementary education. My sister works with 
autistic children while pursuing a degree in social work, and 
my youngest brother is considering a career in law enforcement. 
I am pretty proud of this group.
    Corina dedicated several years early in her career to 
working for the Department of Homeland Security at the U.S. 
Secret Service and continues to work full time while also being 
the best mom I know in order to enable my own government 
service.
    For me, that call to service came on September 11th. I was 
extraordinarily fortunate to have the opportunity to help lead 
a new focus on counterterrorism within the United States 
Customs Service and then support the transition to our unified 
border security agency as U.S. Customs and Border Protection.
    Over the past 15 years, I have been able to participate in 
the dynamic evolution of the agency, and I am honored to have 
had key opportunities to contribute to that transformation, 
both at headquarters and in the field. In my management and 
leadership roles, I have found it most rewarding to engage 
with, support, and advocate for the operators, the CBP 
officers, the border patrol agents, air and marine pilots and 
interdiction agents, trade and agriculture specialists, and 
mission support personnel--our people accomplishing the mission 
on the front line.
    The men and women of CBP, operating in all 50 States and 40 
countries globally, are the heart of our organization and are 
some of the finest professionals in government service anywhere 
in the world. If confirmed, it would be the greatest privilege 
of my professional life to represent and to continue serving 
alongside them as Commissioner.
    In addition to its people, CBP has a strong foundation of 
legal authorities, operational capabilities, and a mission-
focused culture, but we have significant opportunities--as the 
chair and ranking member have noted in their opening 
statements--with support from the administration and Congress, 
to do much more to enhance our trade facilitation and 
enforcement, counterterrorism, and border security missions. As 
an indispensable national security partner and the Nation's 
second-largest revenue collecting source, CBP must continue to 
innovate to accomplish its complex responsibilities and to 
recruit and sustain the world-class workforce it needs.
    I am honored and grateful for the President's nomination as 
well as the support from former Secretary Kelly and Acting 
Secretary Duke. If confirmed, working closely with this 
committee and our stakeholders, I would commit to addressing 
CBP's challenges with diligence and transparency and to 
supporting CBP's dedicated and extremely hardworking personnel 
to take our efforts and our organization to the next level.
    It has been a privilege to meet a number of members of this 
committee during the process, and I look forward to answering 
your questions today.
    The Chairman. Well, thank you, sir.
    [The prepared statement of Mr. McAleenan appears in the 
appendix.]
    The Chairman. I do have some obligatory questions that we 
ask all nominees who appear before this committee.
    First, is there anything that you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. McAleenan. No.
    The Chairman. Second, do you know of any reason, personal 
or otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. McAleenan. No.
    The Chairman. Third, do you agree without reservation to 
respond to any reasonable summons to appear and testify before 
any duly constituted committee of Congress, if confirmed?
    Mr. McAleenan. Yes.
    The Chairman. Finally, do you commit to provide a prompt 
response in writing to any questions addressed to you by any 
Senator of this committee?
    Mr. McAleenan. Yes.
    The Chairman. Well, thank you. We have the obligatory 
questions out of the way.
    The March 31st executive order pertaining to CBP shows that 
President Trump takes the enforcement of intellectual property 
rights as seriously as I do. I would like to hear your views on 
IPR enforcement, including the ability of CBP to share with 
rights-
holders the same information about voluntarily abandoned 
counterfeit products as CBP shares about seized counterfeit 
products--if you will.
    Mr. McAleenan. Absolutely. Thank you, Mr. Chairman.
    The enforcement of intellectual property rights is 
absolutely essential to our economic competitiveness. And the 
protection of American manufacturers and their innovation is a 
core responsibility of CBP.
    Last year, fiscal year 2017, we ended the year with the 
highest number of IPR seizures we have ever had, over 34,000, 
an 8-
percent increase from fiscal year 2016. And those seizures are 
driven largely by the explosion in e-commerce, small parcels 
shipped through both express consignment and mail. In light of 
those additional shipments, the workload on our workforce to 
seize or to abandon those goods has increased significantly.
    You noted the March executive order the President signed. I 
believe it is also this committee's strong intent to have us 
provide as much information as possible on those voluntarily 
abandoned goods to the rights-holders, so they understand 
threats to their IP that are present in the international 
supply chain. So CBP is working on a regulation that would 
enable us to provide not only the general information on the 
shipment, but also the parties involved when we have either 
seized or abandoned goods that violate international property 
rights.
    The Chairman. The final deployment of CBP's Automated 
Commercial Environment or ACE continues to be delayed. Can you 
please discuss the current status of ACE and when you 
anticipate that it will be finalized, including whether ACE 
will be able to accept the electronic submission and drawback 
claims by the statutory deadline?
    Mr. McAleenan. Thank you.
    During my tenure both as Assistant Commissioner and Deputy 
Commissioner, one of our absolute top priorities has been the 
completion of the Automated Commercial Environment and the 
Single Window, enabling the trade community to submit one time 
the data they need to be cleared not only by U.S. Customs and 
Border Protection, but by participating government agencies--47 
of them that have an interest in goods crossing our border.
    We are nearing the finish line, Mr. Chairman, of the 
implementation of ACE. It is one of the most complex IT 
projects, really, that I think the government has undertaken, 
given all the many connections we need to have with importers, 
Customs brokers, and partner government agencies.
    We are in the seventh of seven deployments in the second 
stage of that. In December, we are going to have a release, and 
then on February 24th, we intend to have our final ACE release 
in production. That would include the drawback capabilities 
that you referenced.
    The Chairman. The need to balance trade facilitation and 
trade enforcement cannot be overstated. Can you please discuss 
how you will ensure that CBP will continue to facilitate 
legitimate trade while simultaneously enhancing the trade 
enforcement?
    Mr. McAleenan. Mr. Chairman, I believe those two missions 
are vital to our success and are mutually supportive. We cannot 
secure the vast flow, the $4-trillion worth of goods crossing 
our border each direction each year, without also working to 
facilitate it.
    The strategy is the same: acquiring advanced data, 
analyzing it with a risk management mindset, building trust 
with the business community and the supply chain, and 
understanding who is operating in that environment. That allows 
us to both facilitate goods and to find products that might 
present a risk to the American public or contraband that is 
included in those shipments.
    I think we have matured a lot as an organization and are in 
a position to do both trade facilitation and enforcement as 
well as our border security missions effectively in the years 
ahead. We have a lot of work to do to continue implementing the 
requirements of the Trade Facilitation and Trade Enforcement 
Act.
    We are applying our intelligence and law enforcement 
capabilities built for that security mission to our trade 
enforcement mission. That is going to make us more efficient. 
We are really working closely with stakeholders to understand 
their concerns and their hiccups in the supply chain that we 
can help reduce.
    The Chairman. Well, thank you. Let me just ask one more 
question.
    I appreciate the difficult task that CBP has in 
implementing the removal of the consumptive demand provision. 
As you are aware, however, some allegations about the use of 
prohibitive labor over this past year have proven to be false.
    Now, I would like to hear your views on what CBP can do to 
establish a clear process for importers to address these 
various allegations.
    Mr. McAleenan. The removal of the consumptive demand 
exception was an important aspect of the Trade Facilitation and 
Trade Enforcement Act that enhances our ability to enforce 
forced labor elements in the supply chain to protect American 
businesses from unfair competition, and also to protect 
populations that would be subject to forced labor around the 
world.
    We have to aggressively enforce that, but we have to do it 
in a balanced way, making sure that when we do issue a withhold 
release order on a product, it is appropriate, that we know 
what is happening in that supply chain. We have tried to do it 
with balance, with a lot of research up front, which is what we 
are working on and will continue to do in a balanced manner.
    The Chairman. Well, thank you.
    We are lucky to have you accept this position. I think we 
ought to all be pleased that you are willing to serve.
    Senator Wyden?
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. McAleenan, Senator Brown and I put a lot of effort into 
closing the loophole to make sure that goods made with forced 
and slave labor did not get into the United States. As you 
know, this fight seems to have been the longest running battle 
since the Trojan War to do something that, frankly, is 
important so that this country does not have a moral blot that 
we have to explain, that somehow we are looking the other way 
in the face of forced or slave labor. And that is what Senator 
Brown and I were concerned about.
    My question to you is this: my understanding is that you 
all are looking at some regulations in order to carry this out. 
Could you give us some sense of what the agency is looking at 
in terms of these regulations, because this, of course, is 
where you always have lawyers and others trying to somehow 
skirt the intent of Congress? So tell us a little bit about 
what regulations you are looking at to carry out this important 
matter that Senator Brown and I have felt strongly about.
    Mr. McAleenan. Thank you, Senator. I am happy to describe 
our efforts in this area.
    Under our trade remedy law enforcement directorate, we set 
up a forced labor taskforce that is very focused on this 
mission. I would argue they are passionate about it. They see 
the importance of it. They have the clear signal from this 
committee in Congress and the administration to address forced 
labor in supply chains.
    In terms of what we are looking at on regulations, we want 
to make sure that we are able to apply all effective 
enforcement tools in a most precise and appropriate manner to 
this priority mission. I would offer the recent example on 
North Korean labor for your consideration.
    We read an article on October 4th that indicated that North 
Korean forced labor was being used in seafood production in 
China. We jumped all over that immediately, researching the 
companies involved. We put a shipment on hold the next day that 
was in route to the United States--we are up to six shipments 
that are on hold, as well as working with our Centers for 
Excellence and Expertise to evaluate all commodities and 
manufacturers in the region that are affected to see if we can 
identify elements of North Korean labor in those supply chains 
as well.
    That action was taken under our regular section 1499 
detention authority, not under the section 1307 withhold 
release order, because we were able to do it more quickly that 
way and address the shipments that were already on the water.
    That is the kind of thing we want to have available in our 
tool kit to address forced labor more broadly while still 
pursuing withhold release orders under 1307 when we have either 
an allegation or a self-initiated case that meets that 
standard.
    Senator Wyden. Let us go to this question on the 
warrantless device searches. And you and I have talked about 
this as well.
    Americans are concerned now that their constitutional 
rights are just stopping at the border. It seems to me that 
this border search exception is just not suited to the digital 
age.
    Now, I want you all to have the tools to be able to move 
when you think, for example, national security interests are at 
stake in these, what are called ``emergency circumstances.'' 
But what is the agency doing so that, as a matter of regular 
course, there is a level of reasonable suspicion before 
requesting to search or seek assistance to search a device?
    Mr. McAleenan. So we are using our border search authority 
across multiple requirements, to assess someone's 
admissibility, to assess the admissibility of goods entering 
the country, including electronic devices. We are trying to do 
that in the most judicious and measured way that we can.
    When we have searches that are more intrusive, say a 
personal search looking for drugs, a search of mail, for 
instance, or in this case a search of an electronic device, we 
often apply specific policy limitations beyond the 
constitutionally required or statutorily required limitations. 
We have such a policy in place for electronic searches.
    Now to be very clear, this happens to less than one one-
hundredth of 1 percent of travelers entering the country. And 
even a smaller percentage of those are U.S. citizens. It is 
something we use in a very measured fashion when there is an 
indicator of concern.
    So it is something, Senator, that I understand you are very 
interested in. It is something that we expect the committee's 
guidance on. And it is something that we are going to continue 
to implement very carefully with an eye towards evolving 
jurisprudence and the importance of this authority.
    Senator Wyden. We will talk some more about it. I think the 
only thing I, again, would say that concerns me--you say it is 
a small number of cases. I guess all of them are calling my 
office, because I am sure hearing from a lot of people.
    Let me ask you about one other matter, and that is the 
ENFORCE Act. I ask it because it seems to me you are the bright 
spot of the trade agenda as it relates to this administration. 
You are really moving on the ENFORCE Act.
    Because my time is short, could you give us a couple of 
examples of what you think are your major accomplishments using 
the ENFORCE Act thus far?
    Mr. McAleenan. Absolutely.
    Briefly, Senator, I think getting the interim final rule 
published on time, within 6 months of the finalization of the 
act, I think was a big start. Within weeks we were receiving 
allegations through the EPA process. We now have 14 
investigations ongoing. We have implemented interim measures, 
adjusted the rate of entries, issued trade alerts to do live 
entries, increased the bond rates or gone to a single 
transaction bond, or suspended liquidation for entries.
    Right out of the gate on these 14 cases, we have already 
protected $33 million in revenue. The single manufacturer of 
wire hangers in the U.S. is now protected from this 
transshipment that we were seeing with Chinese wire hangers. 
And it is something we are pursuing aggressively. We are going 
to maintain our adherence to the timelines in the statute, and 
we are seeing very good results from this process. We 
appreciate the authority in the statute to go after this 
unlawful trade.
    Senator Wyden. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Grassley?
    Senator Grassley. Congratulations.
    Senator Thune and I got passed section 605 of the Customs 
Act of 2015 so that we could get all of the interest that is 
owed to people who were harmed by the dumping of bee honey by 
China.
    The previous administration did not carry out 605. Last 
Friday, you sent Senator Thune and this Senator some new data-
mining from CBP's Automated Commercial Environment allowing you 
to identify the interest owed, and you presumably would 
disburse that as soon as possible. Can you give Senator Thune 
and me an accounting of all of the funds that have been and 
will be disbursed under the requirements of section 605?
    Mr. McAleenan. I can, Senator.
    Last year in 2016, under the CDSOA Act, we distributed 
$47.2 million in interest, and for section 605, $11.2 million 
alone. We absolutely recognize the importance of honey, a key 
agricultural commodity that is coming under pressure from 
dumping, from foreign competition.
    When I met with you, Senator, and other members of the 
Senate Finance Committee staff, a concern was raised that we 
were not interpreting section 605 correctly to provide all due 
interests from assurity payments to manufacturers in the United 
States. Working with our team, we reevaluated our legal 
interpretation and were able to expand our analysis of those 
payments.
    So using that methodology that you referenced in the 
letter, we were able to go back and look at all payments that 
were covered by assurities to isolate those that we could then 
reimburse interest on. So we absolutely are moving toward that 
reimbursement this year. We think we can do it by mid-spring 
and distribute that to honey producers in Iowa, North and South 
Dakota, Montana, and other States that are affected.
    Senator Grassley. Thank you very much.
    At the end of May, Homeland Security released the 2016 
Entry/Exit Overstay Report. The Department's current report 
only provides exit data for air- and seaports of entry, 
ignoring vast land ports of entry. For example, one port 
processes approximately 20,000 pedestrians and 70,000 
northbound vehicles entering the United States on any given 
day. However, without exit tracking, our government lacks the 
ability to confirm whether individuals have left when they are 
supposed to.
    What steps will you take to close this loophole and ensure 
that CBP starts reporting exit data and land port of entry?
    Mr. McAleenan. Thank you, Senator.
    I think we are making sound progress on our entry/exit 
across the board, not just at the air- and seaports where we 
have ongoing pilots to collect biometrics that are in the 
process of boarding travelers on these flights--it is going 
very well. But we are not going to forget the land border.
    We are, obviously, very focused on our information exchange 
with Canada and Mexico, which is a key part of that. We are 
also going to implement, this year, messaging to all third-
country nationals who might depart over the land border, 
explaining the procedures that they need to come into the port 
of entry--give us their biometrics on their departure. That 
will be a significant step forward.
    But we are also pushing on the technology so that we can 
address biometric recognition of pedestrians exiting the 
country, and ultimately vehicles that are in those outbound 
lanes.
    As Senator Cornyn and others know, our outbound land border 
ports of entry do not have the infrastructure that our inbound 
ports do, so we are going to have to have a creative and 
innovative technology solution, but we are not leaving that 
behind, Senator. That is a key aspect of our mission, and we 
are going to pursue it all.
    Senator Grassley. Will this biometric exit facial 
recognition pilot program to multiple land port entries be 
carried out between you and DHS?
    Mr. McAleenan. Absolutely.
    Our acquisition oversight at the Department is looking at 
that carefully. We are also partnering--I have been working 
closely with Administrator Pekoske since he got in the chair 
over at TSA about collaborating on this technology. We think 
our innovations in this area and the accessibility of the 
matching tool can be useful for TSA and other partners, working 
closely with the Office of Biometric and Identity Management to 
ensure it is consistent with their future developments and 
their biometric system.
    So yes, it absolutely has to be coordinated across the 
Department to be effective.
    Senator Grassley. Okay.
    The Chairman. Senator Stabenow?
    Senator Stabenow. Thank you, Mr. Chairman.
    I apologize for my voice this morning, but good morning, 
Mr. McAleenan. It is wonderful to see you again. I appreciate 
the conversation in my office and enjoyed hearing about your 
family's connections to Michigan.
    You have a very important job ahead of you, and certainly 
for Michigan, as we talked about. We have the busiest northern 
border in the United States in Detroit: Detroit to Windsor.
    I was pleased to see that in February, President Trump and 
Canada's Prime Minister Trudeau referenced the construction of 
the new bridge, Detroit's Gordie Howe International Bridge and 
Customs plaza, as a factor for building stronger ties between 
our two countries.
    Detroit, though, is not the only border crossing that is 
busy in Michigan. The Blue Water Bridge in Port Huron is the 
third busiest land crossing in the United States.
    When we are talking about the value of shipments, the 
Customs plaza there has had serious difficulties with high 
traffic and has been slated for expansion for years. A lack of 
Federal funding has stalled the project and affected the 
community due to lost property tax value when land was cleared 
in anticipation of the Customs plaza.
    So my question is, what are your plans for the Customs 
plaza at the Blue Water Bridge, and will you commit to working 
with me to make this long overdue Customs plaza a priority?
    Mr. McAleenan. Thank you, Senator.
    Absolutely. We have a rigorous prioritization process that 
goes on volume, that goes on the importance of the trade 
between Canada and the U.S., to prioritize port-of-entry 
infrastructure projects.
    The Blue Water Bridge in Port Huron, as you noted, has been 
a priority on that list for some time. I absolutely will commit 
to working with you. We are offering an annual report showing 
our priorities to our partners at OMB and the General Services 
Administration. Hopefully, we can continue to move forward with 
investments in infrastructure, because it has such an impact on 
international trade.
    Senator Stabenow. Thank you.
    Well, this was a start/stop project. So the community has 
been put in a very bad situation on top of the need for the 
Customs plaza.
    What commitment do we have from the President for the 
Gordie Howe International Bridge and Customs plaza that will be 
located there?
    Mr. McAleenan. Our commitment has been to work to put the 
officers, the technology, and everything we need into the 
budget to work efficiently as soon as that bridge is done so 
that we can support the opening as soon as they are done with 
the span.
    Senator Stabenow. Thank you.
    Moving to a different subject, again, talking about 
enforcement. I continue to hear about the growing trend of 
counterfeit parts, particularly in Michigan--auto parts being 
imported. We have seen a number of situations where other 
countries or companies set up fake websites that sell products, 
steal logos, and the company does not know that that is 
happening until someone returns a defective product. They would 
want a refund, but yet the company did not sell that to them. 
So on top of everything else, it poses serious safety risks.
    So CBP plays an important role in effective intellectual 
property enforcement. In one case, I got a call from a company 
in Livonia, MI that saw with their own eyes a booth at a trade 
show in the United States where a company was using their brand 
and their logo to sell counterfeit auto parts.
    They called me. I was able to intervene and communicate 
with the National Intellectual Property Rights Coordination 
Center, of which CBP is a member. They did an excellent job. 
They went right to the trade show, and they actually shut them 
down, which was very impressive to me to see how quickly they 
acted.
    But this continues to happen over and over again. On the 
issue of auto parts, the industry loses billions in sales each 
year. And I am sure that is true for other industries, and the 
Federal Trade Commission has estimated the use of counterfeit 
parts has resulted in as many as 250,000 fewer jobs in 
manufacturing.
    Will you commit to cracking down on counterfeit goods as a 
priority?
    Mr. McAleenan. I will absolutely commit to that. I am 
grateful to hear of the responsiveness of our team when they 
got that report.
    One of the main drivers with our Centers for Excellence and 
Expertise is to have that partnership with industry to receive 
that business intelligence and respond to it, because we want 
to shut down those counterfeit parts. They present safety 
risks, and they affect American manufacturers.
    Senator Stabenow. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Enzi?
    Senator Enzi. Thank you, Mr. Chairman.
    Thank you, Mr. McAleenan, for being willing to serve. We 
can tell from the questions how diverse your jurisdiction is, 
and how much you have to cover. So I think I will bring up one 
more issue.
    I am from Wyoming, which is the sixth largest State in the 
Nation. It is the least populated. So we have miles and miles 
and miles and miles, but we do have an international airport in 
the center of the State. It is Casper and Natrona County.
    They are in the process of expanding their foreign trade 
zone. They need to obtain a Customs port of entry designation 
status in order to qualify for this expansion. We have worked 
hard to make sure there was a Customs official there, and we 
want that to continue.
    My staff has had trouble getting a straight answer from CBP 
on the status of their designation. CBP officials have told my 
staff conflicting information about whether such a designation 
is likely.
    I would like for you to commit that your component will 
review this request and clearly communicate with my staff and 
my constituent about the status of the designation and any 
barriers that remain to the designation so that we can provide 
the airport with up-to-date and accurate information.
    Mr. McAleenan. I can commit to that. Obviously, foreign 
trade zones are critical to expanding exports and to increasing 
economic activity. I can assure you that we will clean up and 
clearly communicate on the requirements and our ability to work 
with Casper Airport to set that up. Executive Assistant 
Commissioner Todd Owen will be our point of contact.
    Senator Enzi. Thank you very much.
    Your agency is working closely with the Department of 
Commerce and the Department of Agriculture to monitor and 
enforce the recently amended antidumping and countervailing 
duty suspension agreements on sugar from Mexico. It is 
essential these agreements operate effectively to assure that 
the sugar policy can continue to operate at no cost to the 
government, and that domestic beet and cane farmers, beet 
processors, cane millers, and cane refiners are not injured by 
imports of dumped and subsidized sugar from Mexico.
    Can you assure me that enforcement of the sugar suspension 
agreements will be a high priority for CBP?
    Mr. McAleenan. I absolutely can. We are very focused on 
antidumping/countervailing duty enforcement across all 
industries.
    Senator Enzi. Thank you.
    No further questions.
    The Chairman. Thanks so much.
    Senator Cornyn?
    Senator Cornyn. Mr. McAleenan, thank you for being willing 
to serve. I know you come to this job with a lot of great 
experience, and I appreciate that, because I think it is one of 
the most important jobs in the Federal Government.
    It is no coincidence that I come from a State with 1,200 
miles of border with Mexico, and you know all of the issues as 
well as anybody. But I want to focus on the combination of 
security and trade.
    I think some people have the mistaken idea that you get one 
or the other. I think they go together, and it is very, very 
important for the Federal Government to not only invest in the 
infrastructure that we have heard referred to in the past on 
the northern and southern border, but also to provide the 
personnel to keep legitimate trade and travel moving, because 
it is an important part of our economic engine.
    At the same time, the American people clearly want us to 
secure the border between the ports of entry, which is 
necessarily the same thing. I would just commend for your 
consideration some legislation that we have been working on for 
some time called the--well, essentially, it is a smart border 
bill, working with the House and the Senate as we try to find a 
path forward on the deferred action, the so-called Dream Act 
kids who are now young adults whom the President has kicked 
over here to Congress for us to deal with.
    It seems to me like there is a perfect marriage of both the 
border security and enforcement bill along with some solution 
for these young adults who came here with their parents and, 
through no fault of their own, find themselves in a dead end. 
So I would just ask for your continued consideration of what we 
are trying to accomplish there and to keep working with us.
    Part of that, as you know, involves securing fast ports of 
entry. And you have alluded to this in your testimony earlier. 
Senator Wyden talked about the need to have more blue shirts at 
the border, and certainly we support that on the southern 
border as well.
    Can you, sort of, give us your perspective on this marriage 
of security and legitimate trade and travel, and why you 
believe that we should accomplish both, and we can do both of 
those together?
    Mr. McAleenan. Absolutely, Senator.
    It is very clear to us--and it is a mission that we have 
thoroughly internalized--that economic security, our economic 
competitiveness, and the fast and smooth flow of trade across 
our border are instrumental to our national security. So they 
are absolutely intertwined.
    I think the example I was offering on forced labor with 
North Korea puts it in stark relief, that if you are enforcing 
against a national security adversary, but doing so in a way 
that protects the U.S. economy, it is very well aligned.
    On our southwest border, obviously hundreds of billions of 
dollars of trade cross the border with Mexico. That is critical 
to U.S. exports and imports. And it is part of our 
responsibility to facilitate that while addressing the 
challenges we face on narcotics that affect our communities, 
challenges with illegal immigration, crossing our border, both 
at ports of entry, but as you referenced, the clear signal from 
the American people, the administration, that we need to 
continue to improve our border security between ports of entry, 
which is going to be a central focus of our organization going 
forward as well.
    To me, as you note, these things go hand in hand. You have 
to have good partnerships. You have to have trust.
    I have been to Mexico four times in the last 6 months, 
working closely with our law enforcement partners there. We 
need strong partners, and we need trust and communication with 
our law enforcement counterparts in Mexico to do this 
effectively.
    I think our relationship with Mexican Customs, Aduana, is 
as good as it has ever been. We are doing joint inspections, 
unified customs processing. On the U.S. side of the border, we 
are able to cut hours down for each truck crossing, and we are 
able to share information and increase the security of those 
shipments at the same time.
    That is the kind of thing we want to put in place to 
achieve those dual objectives that you outline.
    Senator Cornyn. And you are familiar with the GAO report on 
CBP action needed to improve wait-time data and measure 
outcomes of trade facilitation efforts? That is what you are 
referring to here, is it not?
    Mr. McAleenan. I am aware of that report. And that is a 
commitment of ours, to continually improve our ability to 
capture wait-times, to communicate them transparently and give 
real-time information for truck drivers so they know what to 
expect as they approach the border so we can increase 
utilization of those ports in off-hours.
    We get everybody, kind of, arriving at the same time, as 
you know. You have seen that at Laredo with the trucks lining 
up. We would like them to use the evening hours or the early 
morning hours to use that infrastructure more efficiently. That 
is something we want to be able to communicate effectively, and 
we sent a report up in response to the GAO analysis.
    Senator Cornyn. Well, we would welcome your continued 
advocacy within the administration and also with explaining to 
the American people why these are not mutually exclusive and 
how bilateral trade with Mexico alone supports roughly 5 
million jobs in the United States, and they are not all in 
Texas. They are throughout the country.
    Trade with Canada supports roughly 8 million jobs in the 
United States, and these are important. And they are achievable 
together, both security and trade. We appreciate your advocacy 
for that message.
    Thank you.
    The Chairman. Thank you, Senator.
    Senator Isakson?
    Senator Isakson. Thank you, Mr. Chairman.
    Congratulations on your nomination, and thank you for the 
job that you do for the country.
    As you probably are aware, the port of Savanah is the 
fourth largest container port in the United States of America. 
It went from 2.6 million containers in 2007 to 4 million 
containers this year. With the deepening and harbor expansion 
of that project--it will be finished in 3 years--they will be 
taking the Panamax ships of the 21st century that have 14,000 
containers per ship.
    So growth of that port has been unbelievable, and its use 
has been unbelievable. Yet, we still do not have any more 
officers in the border protection personnel in Savanah now than 
we had 10 years ago before that growth started.
    Can you address that? Are you familiar with what has been 
done to meet the demand down there, and what do you see for the 
future?
    Mr. McAleenan. Thank you, Senator.
    I am familiar with the tremendous investments and the 
growth in Savanah at the seaport. It is something we are 
monitoring closely as we build our staffing models every year.
    We do try to look not only at that growth, the container 
volume itself, but also at the predicted economic changes in a 
given region or port of entry. At this point, our Atlanta field 
office, which Savanah is very near--it has 100 percent of 
authorized staffing.
    But that does not mean that we think that we have enough 
staff. We have submitted a workload staffing model to Congress 
which reflects the need for another 2,500 CBP officers and 720 
agriculture specialists that would allow us to better process 
trade.
    But that is not the only way that we think we can improve 
efficiency and meet the need of that growth. We are doing even 
more on automation, and we have implemented processes where we 
are able to let trusted traders, trusted carriers, unload cargo 
even before the vessel has cleared. About 98 percent of that 
cargo is cleared before it even arrives in Savanah, based on 
all of the information we have on the supply chain and the 
shippers involved.
    So we are going to continue to drive that. We cannot be a 
barrier to that economic growth in Savanah.
    Senator Isakson. Well, your enforcement of Known Shipper 
and the other programs that are available is just fantastic. My 
comment about the number of personnel has nothing to do with 
the competence of the ones who are there, just the hope that we 
keep up with it as the demand goes up. Which leads me to 
Hartsfield International Airport, which is the largest airport 
in the world in terms of the number of travelers. We went 
through 100 million last year.
    Your enforcement there in terms of the number of personnel 
is still about the same as well. Now again, in terms of border 
protection violations, we have had little or no increase in 
violations even with the growth of that airport, but are you 
planning for that growth as time goes on?
    Mr. McAleenan. We are. And we have a very close partnership 
with the airport as well as Delta and the rest of the carriers 
there in Atlanta. It has some of our lowest wait-times among 
major airports because of the work they have done on the 
facility, because of the partnership with us to establish 
technology that can allow for us to facilitate those travelers 
more efficiently: the automated passport control kiosk and the 
mobile passport control kiosk.
    They are also partnering closely with us on biometrics that 
would work within the process of boarding travelers. So that 
partnership in Atlanta is key.
    Senator Isakson. Can I interrupt?
    Mr. McAleenan. Yes, Senator.
    Senator Isakson. Excuse me for interrupting, but that 
includes the U.S. Visit Program, the biometrics? Is that 
correct?
    Mr. McAleenan. It does. Yes, we are taking biometrics on 
all international air arrivals----
    Senator Isakson. That continues to be extremely effective 
in protecting the border through the airports. Is that not 
correct?
    Mr. McAleenan. Absolutely.
    Senator Isakson. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman. And again, 
congratulations on your nomination.
    When it comes to the State of Washington and ports, I 
always say, ``Ports are us,'' because with so many ports and so 
much traffic, it is essential that we have the swift movement 
of goods and services for our economy to be effective. And we 
spend a lot of time on this--so both on the efficiency and on 
the security side.
    I wanted to get your thoughts on the preclearance program 
that Senator Collins and I have worked on, which is shifting 
our borders to overseas airports so that we can be safer and 
more secure, funding of new personnel so we can better cover 
our seaports, which are key parts of our gap in personnel, I 
think, at Customs and Border Protection. And then also I wanted 
to make sure I understood your position as it relates to racial 
profiling and whether CBP is involved in racial profiling at 
our borders.
    Mr. McAleenan. Thank you, Senator.
    I will address all three. On the preclearance side, we 
think it is simply the most efficient and most secure way to 
process air travelers headed to the United States. And that is 
why in the last 3\1/2\ years I have spearheaded an effort to 
expand preclearance and expand the options for traveling to the 
United States in this secure and facilitative manner.
    The airports that have it--I will give you an example. 
Dublin Airport, for instance, is now the fifth largest last 
point of departure from Europe. It has grown almost threefold 
in the past decade. Their transfer traffic is up dramatically.
    Abu Dhabi International Airport, which had fewer than 
200,000 passengers just a few years ago, is annualizing toward 
a million already. Passengers are choosing this routing because 
they can arrive and go direct to their destination or their 
transfer flight, and we get to do our full checks before they 
even board that aircraft. So those flights are more secure and 
safer on the way to the U.S.
    So that is something we are going to continue to pursue. It 
is an economic driver and a security program at the same time.
    Additionally, with the partnership with foreign airports, 
we can add staff to cover those flights while maintaining our 
staffing levels domestically, which is a requirement under the 
statute. So that is a key focus, and we are going to continue 
to press for expansion if confirmed. And really it is something 
we recognize across our organization as an efficient program.
    In terms of seaports, that is part of that staffing 
requirement and request that we have offered annually in our 
Workload Staffing Model Report. We do agree that staffing of 
the seaports is absolutely critical.
    I would note, though, that it is the area where we have had 
probably the most significant long-sustained innovation on 
speeding containers through. Again, 98 percent of containers 
are cleared before they arrive. We have adjusted our algorithms 
on our radiation portal monitors so we have many, many fewer 
false positive alarms, called ``norm alarms''--so a very big 
reduction in secondary inspections.
    We are also letting on the west coast--through the AQUA 
Lane Program--carriers unload containers as soon as they arrive 
and connect to dock power so they do not have environmental 
hazards, which I know is very important in your State. So we 
are going to continue to advance on our seaports.
    In terms of racial profiling, it is absolutely prohibited. 
It is unconstitutional. We have a strong, clear policy against 
it, and we are going to maintain that, and we are going to 
maintain our relationship with the community in your State to 
make sure that any issues or concerns are promptly and 
appropriately followed up on.
    Senator Cantwell. So do you think if people were being 
asked at the border if they were a devote Muslim, if they were 
Sunni or Shia, if they prayed 5 times a day, did they have a 
mat, did they have a Quran in their luggage--what do you think 
those questions are?
    Mr. McAleenan. So I cannot speak to a specific incident 
from the generality, which we would want to do to give you a 
more specific answer. But religious questioning can be 
appropriate depending on the type of visa that someone is 
traveling on, depending on the information on the travel that 
helps us understand any risk presented better.
    But in general, any sort of religious questioning that 
seems to be not connected to any other indicators of risk would 
not be appropriate and is prohibited by policy as well.
    Senator Cantwell. Well, I think I am going to have to come 
back to you on what aspects of those are appropriate. Listen, I 
could not be more grateful for Customs and Border Protection in 
catching--in the Ressam case at Port Angeles. So, great work in 
catching something that did not match up. And just so that I am 
clear, I am for biometric standards, and we should be saying to 
Europe and everybody else, use biometric standards or you do 
not get your visa waiver program.
    But on this issue, I have also seen Customs and Border 
Protection, particularly in the Port Angeles area when we gave 
more money to the northern border, all of a sudden driving 
around in dark cars and no one even knew who they were, pulling 
people over just because they were brown-skinned, and people 
saying, I do not even know who you are. The sheriff did not 
even know what was going on.
    So we have to have fair treatment of the population as 
well. So we are going to follow up with you on this.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Cassidy?
    Senator Cassidy. As we know, you are charged with--your 
agency is charged with enforcing the Jones Act. And in 2009 and 
earlier this year, CBP proposed to modify or revoke certain 
Jones Act Ruling Letters. You have been there for several 
years. So it seems as if--I would like your thoughts as to how 
we bring this into compliance with the Jones Act.
    Again, CBP proposed to revoke these, but it has been put on 
hold. Your thoughts about that?
    Mr. McAleenan. Thank you, Senator.
    Yes, as you know, earlier this year we had a proposed 
change under section 1625 to a series of rulings going back 
decades on specific merchandise covered under the Jones Act, 
which we enforce. We received over 3,000 comments on that 
proposed change in the ruling. The decision was made at the 
Secretary level, in consultation with interagency partners, to 
not move forward with that at the time. It is something----
    Senator Cassidy. And what was the reason for that, because 
this has been on hold since 2009? Congress was pretty clear in 
its legislation as to what the law is. It seems, in a sense, as 
if CBP or the agencies, or the Department is making a decision 
as to whether or not to enforce laws that Congress has passed.
    Thoughts about that?
    Mr. McAleenan. Yes. I think, Senator, what you saw was a 
significant set of considerations that affect interagency 
interests, whether it is the correct process for undertaking 
this change from our OMB colleagues, whether it is the 
Department of Energy, the Department of Defense, or other----
    Senator Cassidy. Now, I get that, but there is a clear law 
written by Congress. And there might be concerns, but they were 
Congress's concerns.
    What I am hearing from you is that it may not be your 
department. It may be OMB and Energy, but nonetheless, just for 
the record, I will say that Congress passed a law. And those 
were the things of consideration for us. I think I know your 
sympathies, but at the same time, I have to kind of establish 
that.
    So let me ask. On September 7, 2017, CBP granted an appeal 
of and reversed penalties totaling more than $24 million for a 
Jones Act violation involving transportation of merchandise on 
the outer continental shelf by a foreign vessel.
    Can you tell us more about this case, and whether that 
appeal was granted due to one or more existing Ruling Letters 
issued by CBP?
    Mr. McAleenan. I do not have the specifics on that case as 
we sit here today, Senator. But I will go back and report to 
your office on that.
    Senator Cassidy. Okay.
    And then related to that, since you are going to report, if 
you could include this in the report, was the Ruling Letter one 
CBP had proposed to revoke or modify in either 2009, or January 
of this year, or both? I mean, that is of interest to us.
    Mr. McAleenan. I will include that.
    Senator Cassidy. Yes, and if you could, also include in 
that all written communication by CBP to the company involved 
in this matter.
    Secondly, changing the subject kind of significantly, I am 
told that the number of immigrants caught crossing the border 
is higher for the second straight month in June of 2017, after 
decreasing month by month since the election of President 
Trump. Have you heard from sector chiefs, and what are your 
thoughts as to why apprehensions have begun to increase again?
    Mr. McAleenan. Thank you, Senator.
    We are fully tallying our 2017 results, but in all 
likelihood, it is going to be the lowest level of illegal 
crossings between ports of entry in over 45 years. We believe 
that that drop in the initial months of this administration was 
due to very clear messaging on the intent----
    Senator Cassidy. Well, let me ask. I totally accept that, 
but in the last 2 months it seems to be rising once more. So 
granted that there has been a fall, what has happened the last 
2 months?
    Mr. McAleenan. Sir, I think that goes back to the 
announcement by the administration 2 weeks ago about the 
process of what immigration policy and system changes are going 
to be required to support the fine efforts of the men and women 
of the U.S. Border Patrol to apprehend people crossing the 
border. Those are things like asylum reform, adequate 
immigration judges to process cases timely and ensure removals 
happen, use of----
    Senator Cassidy. So just to make a connection between the 
question and your answer, are you saying because it might be 
getting tougher to achieve asylum reform, people are rushing in 
to get in under the current regime?
    Mr. McAleenan. I am saying that the clear intent to enforce 
immigration law has resulted in a significant reduction of 
crossings, but there are still some fundamental aspects of the 
system that need to be addressed, as the administration 
released 2 weeks ago. That includes family detention----
    Senator Cassidy. And then that would, hopefully, address 
this?
    Mr. McAleenan. Yes.
    Senator Cassidy. Let me ask, in my remaining seconds, 
Vietnam was one of the primary exporters of seafood to the U.S. 
In April of this year, one of Vietnam's top health 
administrators stated that antibiotics in food and their 
overuse to treat disease are increasing in Vietnam.
    When does CBP determine it is necessary to work with FDA to 
issue fines and generate import alerts and make arrests rather 
than just to destroy the product; i.e., how do we just catch 
the symptom as opposed to going after the bad actors 
themselves?
    Mr. McAleenan. I will follow up on that specific issue with 
FDA and get you more information, but in general, we want to 
apply the maximum enforcement posture we can by going beyond an 
interdiction of a shipment to look at the network, to look at 
how they are trying to exploit our laws, and to target them 
with investigative partners, whether it is FDA or HSI----
    Senator Cassidy. Now, one thing in medicine--I am a doc, so 
I am going to come at this from medicine. You, typically, would 
sample. And if you find that 5 percent of a product is bad, you 
do not just destroy the 5 percent. You say, 5 percent is bad. 
We are going after the whole lot. You presume that that sample 
is representative, as opposed to just an out-parcel.
    Now, it is my understanding, though, that the way the 
current system works is that 5 percent is destroyed, but it is 
not taken as representative of the entire. It seems, 
intuitively, that if 5 percent is bad, the whole lot is bad.
    Am I correct in understanding that only the 5 percent would 
be destroyed and not the whole lot? And if so, why is it not 
taken as representative?
    Mr. McAleenan. We have a robust sampling and testing with 
our labs. If they detect that a shipment, the parts they are 
sampling, includes inappropriate antibiotics, in the case you 
are offering, or other issues that are violative, we will 
destroy the whole shipment.
    We cannot extend that to all shipments from a certain 
country, but we can target that full shipment.
    Senator Cassidy. But presumably--and, Senator Brown, I am 
going a little bit long. Am I holding you up? I do not want to, 
so let me ask: if there is a bad actor that consistently is 
sending tainted product, is that bad actor targeted so that bad 
actor gets 100-percent review of their shipped products?
    Mr. McAleenan. Absolutely.
    Senator Cassidy. Okay. Thank you very much. I yield back.
    The Chairman. Thank you.
    Senator Brown?
    Senator Brown. Thank you, Mr. Chairman. I appreciate that.
    Welcome to the committee. The opioid crisis issue, as you 
know, is devastating communities everywhere. My State, in Ohio, 
between now and lunchtime, the odds are someone will die of an 
overdose--11 Ohioans by the end of today.
    Fentanyl is 50 times stronger than heroin. Any solution to 
the opioid crisis must include stopping fentanyl shipments from 
coming to the U.S. The Interdict Act, which Senator Portman and 
I partnered on with Senators Rubio and Capito would provide 
your agents with more resources and equipment to screen 
packages. You know all of this.
    Can you confirm that having more portable screening devices 
would increase and enhance CBP's ability to stop deadly drugs 
like fentanyl from entering the U.S.? And second, can you 
confirm it will be a priority for you as Commissioner to 
procure more of these devices for your agents?
    Mr. McAleenan. Technology to both identify fentanyl in 
shipments, to test it effectively, is absolutely essential to 
successful interdiction. And interdicting fentanyl and 
prioritizing capabilities that help us do it better will 
absolutely be a priority.
    Senator Brown. You will help me get this enacted into law?
    Mr. McAleenan. I cannot comment on specific legislation, 
Senator, but absolutely I would work with you and provide 
technical assistance, because we think these kinds of things 
would be very helpful to our mission.
    Senator Brown. Okay. Thank you.
    You and I spoke several times on the phone and in person 
about the importance of blocking all goods made with forced 
labor. And I thank both the chairman and the ranking member for 
their leadership on this issue and how we were able to update 
the law.
    You said it is a top priority of yours. But I remain 
concerned we have not seen any enforcement actions against 
forced labor in the last 10 months, not a single withhold 
release order, not a single WRO has been issued to stop forced 
labor imports from coming in.
    I am troubled by that. I know you said earlier you are 
trying to achieve a balance. I do not know what that means when 
it is zero on one side.
    My question is, will you commit to using WROs to block 
imports in every instance--this is not a balance--blocking 
imports in every instance that CBP has reasonable, but not 
conclusive evidence that they were made with forced labor?
    Mr. McAleenan. I can tell you right now that I commit fully 
to using section 1307 to enforce and protect forced labor 
elements in supply chains. And we are working very hard to 
identify, again, tobacco, seafood, palm oil, gold, vegetables, 
toys, sugar cane. We have 14 ongoing efforts across country and 
commodity combinations to better go after forced labor in 
supply chains. And as soon as we hit that standard which is 
from the statute, we will absolutely issue further WROs.
    I would just like to note, Senator, though, that the six 
shipments we have on hold of suspicion that they were made with 
North Korean forced labor, I would count as forced labor 
enforcement even if we did not use a WRO to affect it--all 
happening this month.
    Senator Brown. Okay.
    At best, that is a grand total of one. But I thank you for 
that comment.
    One other troubling point is, I have heard some of your 
staff are indicating they think WROs should be issued only when 
they know CBP can make a finding as well. The misreading of the 
statute could explain the complete lack of enforcement we have 
seen this year. This is just simply unacceptable. It is not 
what the statute meant or what the statute says.
    Findings require a higher evidentiary standard. And CBP's 
history of forced labor enforcement is, 34 WROs have been 
issued, but only 8 findings have been issued--you understand 
the huge discrepancy there.
    If CBP wants to issue a WRO until a finding can be issued, 
you will gut the most effective forced labor enforcement tool 
that you, that CBP has.
    So my question is, will you commit to issuing WROs when you 
have met the WRO evidentiary standard, and issue findings, 
then, when you have met the findings standard?
    Mr. McAleenan. Yes.
    Senator Brown. Thank you.
    Last question, Mr. Chairman, and thanks for your 
cooperation.
    There are plenty of sources of information about forced 
labor: outside advocacy groups with on-the-ground experts--
obviously, it is a complicated, big world out there, and we 
have a lot of those contacts around the world that feed us that 
information, as you do.
    The Bureau of International Labor Affairs at DOL produces 
an annual report that identifies sectors, as you know, with 
forced labor in them. Recent investigative reporting into 
sectors where forced labor is prominent is important. I have 
been frustrated that CBP is unwilling to initiate 
investigations into forced labor in the private sector despite 
readily available detailed information.
    So my last question--and thanks for your indulgence, Mr. 
Chairman--will you commit to this committee that CBP will use 
all sources, including the ones that I just delineated, all 
sources to investigate and self-initiate cases on forced labor?
    Mr. McAleenan. Yes, absolutely.
    Thank you for the introductions to civil society 
organizations that are expert in this field. We are going to 
continue to meet with them regularly.
    They have helped us focus on our trade partners, using 
their responsible sourcing capabilities and their supply chain 
and third-party audits to increase our intelligence and 
awareness of these issues. I can tell you that, even though 
there have not been additional WROs, it is not for lack of 
internal effort or a number of outstanding efforts that we are 
analyzing with different country commodity combinations 
currently.
    Senator Brown. Thank you. We are counting on you.
    Thank you.
    The Chairman. Thank you.
    Senator Portman?
    Senator Portman. Thank you, Mr. Chairman.
    While Senator Brown is still here, and in reference to 
comments that I am sure he made before I came in, and comments 
I heard earlier from Senator Wyden--first I want to welcome 
you. And we look forward to getting that ``Acting'' off of your 
business card, because we need you, but we really need your 
help on the ENFORCE Act, and the broader issue of enforcing our 
trade laws.
    You and I talked about this at length--it is not typically 
something that Customs and Border Protection specializes in, 
but we have to. And we have to because countries are 
circumventing our trade laws by moving to another country to 
export their products to avoid our tariffs even when we win 
trade cases.
    There are lots of examples of this. We have one in Ohio. It 
is American Spring Wire in Bedford Heights, OH. They won a 
trade case. And after they won the trade case, they celebrated. 
And then they found out, oh my gosh, even though they won the 
trade case with regard to Chinese importers, the production 
then shifted to Malaysia--same issue, same company.
    So it is a huge problem. Wheatland Tube in Warren, OH, U.S. 
Steel in Lorain, have run into this problem also. And we need 
your help on it. We have provided you the tools. We have given 
you this new law to be able to be more aggressive.
    I will not ask you to comment on that because I want to get 
into another issue. And I will ask for your comment on this.
    This has to do with the drug epidemic we face as a country. 
Sadly, the new wave of drugs coming in are synthetic heroines 
which are even more dangerous and even less expensive.
    In my State of Ohio, our State of Ohio, with Senator Brown 
and me, we now believe it is the number one cause of death 
among the other drugs. So prescription drugs, heroine--fentanyl 
and carfentanil and other synthetics--are now pushing those 
out.
    I talked to law enforcement last week--someone told me, 
Rob, it is actually being spread in every other drug now. So 
they are finding traces of fentanyl in other drugs, including 
cocaine, marijuana, and so on.
    It is a scourge, and it is something we can do something 
about. And as you know, back in 2002, this committee passed 
legislation that said, if you are a private carrier, you have 
to provide Customs and Border Protection, the DEA, local law 
enforcement, information so that they can stop these illegal 
drugs, but also other contraband coming into the country. And 
that is advanced electronic data that allows them to target 
packages or letters to know when there is a potential problem 
by saying what is in it, where it is from, where it is going.
    We did not require it of the post office in 2002, but we 
did say they should do it. And we said there should be a study 
on it.
    Well, here we are 15 years later with this crisis on our 
hands, and the post office still has not done it. Why is that a 
problem? Because fentanyl does not come in over land. Fentanyl 
comes almost exclusively through the mail system, and the 
traffickers have figured this out. They do not intend to use 
UPS or Fedex, DHL. They use the post office because the post 
office does not require that information.
    So I just cannot tell you--I have been out in the field 
with your guys. You should know--I told you about this. I have 
been at two screening facilities in Ohio where I have seen them 
at private carriers, DHL, UPS, pull the packages, have them 
tested, which is incredibly dangerous, because they have the 
information. They know where the suspect packages are.
    The post office has pushed back on this unbelievably. This 
committee has responsibility here, and the chairman has a lot 
on his plate right now with tax reform, but we need to mark up 
this bill, Mr. Chairman.
    It is called the STOP Act. It is very simple. It simply 
says the post office should do what we suggested they do 15 
years ago, and we have to do it now. This stuff is coming 
primarily from China, and it is coming primarily from the U.S. 
Postal Service, and it is going straight to P.O. boxes from 
traffickers and users and to abandoned warehouses in my State 
of Ohio.
    This poison is getting into our communities. It is, again, 
the number one cause of death, we believe, in terms of 
overdoses. So, again, you and I have talked about this. I would 
love for you to comment on this today and to tell us what you 
are going to do once we get that ``Acting'' off of your 
business card and you are able to roll up your sleeves and get 
engaged in helping to stop this deadly poison from coming into 
our communities.
    Mr. McAleenan. Thank you, Senator.
    Let me just say I share your concern on the scourge of 
fentanyl and its effect on our communities, especially in the 
State of Ohio, 100 percent.
    Since I have met you, I have met with Postmaster General 
Brennan four times, either in person or by phone, to try to 
talk about how we can increase that advanced electronic data to 
better identify potential risky shipments coming into the U.S. 
We have had some significant developments in this area.
    We are up to 44 percent of mail providing some advanced 
electronic data. That is a dramatic change because of China 
increasing their submissions. China is also the highest risk 
origin point for fentanyl, as you know, Senator.
    So we think those are very positive developments, but we 
are not going to stop there. We know we need to move toward a 
regulatory approach after requiring this data. We know we need 
to closely collaborate with Postal on capacity building for 
posts around the world. We need to continue to emphasize this 
at the World Customs Organization, where I would represent the 
U.S., as well as the Universal Postal Union, where the 
Postmaster General would be representing.
    We have to get there. We have to get comprehensive data to 
better target. And we appreciate your focus on that requirement 
in the Senate.
    Senator Portman. Do you support the STOP Act?
    Mr. McAleenan. I cannot support a specific piece of 
legislation, but I absolutely support the goals of the STOP Act 
in getting that advanced electronic data. And there are several 
other things in a strategy that we think would be helpful, 
along with the U.S. Postal Service and FDA, that we can offer 
to enhance our capability as well.
    Senator Portman. Your Acting Assistant Commissioner, Robert 
Perez, testified before us at the Homeland Security Committee 
that the STOP Act was a good idea. So has the Secretary of DHS, 
both former and current. This administration needs to help us 
to get this thing done and to be sure that we have the 
requirement in law that these packages are able to be 
identified by your people to be able to stop this poison from 
coming in.
    I will say also, Mr. Chairman, just quickly, you know, this 
is an issue that crosses party lines. We have 26 cosponsors, 
including members from this committee on both sides of the 
aisle, including Senator Brown and myself, and there is an 
urgency here. This is not like some other legislation we may 
talk to you about today. This is one that is killing people 
right now.
    We know we can help to keep some of this off the streets--
at a minimum, raise the price. I think this is such an urgent 
matter that I hope--should you be confirmed, and I believe you 
will be--that you will take this up and help us get this 
legislation passed.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you, Senator.
    Senator Wyden has some remarks.
    Senator Wyden. Thank you very much, Mr. Chairman.
    I just want to take a quick minute and talk about where I 
think our country is with respect to trade policy as of this 
moment. And in particular, contrary to Federal law, the 
American people are in the dark about what their government is 
asking for on NAFTA.
    As Chairman Hatch knows--and I have been very appreciative 
of his support on this--I insisted in the last Congress that 
the administration publish and regularly update public 
summaries of its trade objectives. And as of now, the 
administration is falling down horribly on this job, and the 
reason that this is so important--and as I say, I appreciate 
the chairman's support on this--is whatever a Senator's view is 
with respect to the trade issue--and I happen to think it is 
awfully important, because in my State one out of five jobs 
revolves around international trade--the trade jobs often pay 
better than do the nontrade jobs. I believe it ought to be 
possible for an American to go to their Senator's community 
meetings--I have these town hall meetings--and to be able to 
sit at that meeting with a copy of one of these summaries in 
their lap so that they can ask their duly elected Senators 
questions about what is actually being debated.
    The fact is, this administration is not following through 
on a Federal law that I felt particularly strongly about, and 
that the chairman and I worked together on. So, Mr. Chairman, 
it is my intention that unless this administration gets serious 
about following Federal law and the public's right to know as 
determined by the Congress of the United States, after Mr. 
McAleenan gets out of the committee--and I surely hope he does, 
because I think he has been responsive to our questions and, 
obviously, he has expertise--it is my intention to not support 
moving from the committee any additional trade nominees until 
Federal law is complied with and these summaries are actually 
updated.
    Mr. Chairman, again, I will be working closely with you on 
these matters. I appreciate being able to take a minute to 
address this concern.
    The Chairman. Well, thank you.
    As you can see, our ranking member feels very deeply about 
many matters, and this is one of them.
    I want to thank everybody for their participation today. I 
have appreciated the thoughtful comments and questions from my 
colleagues as well as the really good responses from Mr. 
McAleenan. You have been one of the best witnesses I have seen 
before the committee in a long time. I am really proud of you. 
I think it is wonderful that we can have your services and your 
help in this very, very critical and important area.
    My hope is that we can process Mr. McAleenan's nomination 
in short order and continue the important bipartisan work of 
this committee.
    For any of my colleagues who have written questions for the 
record, I ask that you submit them by close of business on 
October 27th.
    So with that, thank you for your appearance, Mr. McAleenan. 
You have done very, very well, and I hope to push you right 
through as soon as possible.
    With that, the hearing is adjourned.
    Mr. McAleenan. Thank you.
    [Whereupon, at 11:30 a.m., the hearing was concluded.]

                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


              Prepared Statement of Hon. Orrin G. Hatch, 
                        a U.S. Senator From Utah
    WASHINGTON--Senate Finance Committee Chairman Orrin Hatch (R-Utah) 
today delivered the following opening statement at a Finance Committee 
hearing to consider the nomination of Kevin K. McAleenan to serve as 
Commissioner of U.S. Customs and Border Protection:

    In 2015, this committee successfully drafted and reported the Trade 
Facilitation and Trade Enforcement Act, which was later signed into law 
by President Obama. Thanks to that effort, Mr. McAleenan, if confirmed, 
will be the first Commissioner to oversee CBP as a fully authorized 
agency.

    Mr. McAleenan, welcome to the Finance Committee. We appreciate your 
willingness to serve in this important position.

    CBP is the United States' unified border agency, charged with 
facilitating legitimate trade and travel, while enforcing U.S. trade 
laws and securing our borders. There is a great deal of work to be done 
to improve enforcement, but this mission should not come at the expense 
of legitimate trade and travel. Striking the right balance is vital to 
ensuring that the United States remains competitive with the rest of 
the world.

    Balancing facilitation and security will require CBP to work with 
stakeholders in and out of the government. As CBP seeks to strengthen 
and streamline trade enforcement, including the protection of 
intellectual property rights, the agency must not forget the important 
role that the private sector can play. As an example, the private 
sector uses information that CBP shares on counterfeits stopped at the 
border to prevent future shipments from happening. The private sector 
can also alert CBP to importers trying to circumvent our anti-dumping 
and countervailing duty laws.

    Coordination with other government agencies is also important.

    For example, the international mail system is used to traffic 
narcotics, counterfeits, and other products that pose health and safety 
risks to Americans. Congress authorized the Postal Service and CBP to 
collect electronic information on postal shipments in 2002, and these 
agencies must use this authority to close this security gap.

    CBP must also ensure that its regulations clearly outline the 
rights and responsibilities of stakeholders.

    For example, the Trade Facilitation and Trade Enforcement Act of 
2015, the law I referred to earlier, improved enforcement against goods 
manufactured with forced labor. CBP needs to update its regulations to 
inform stakeholders about the type of information necessary to make a 
proper allegation against an import and to provide necessary guidance 
for stakeholders to address such allegations.

    Long story short, Mr. McAleenan has a tough job ahead of him. 
However, I believe he is well-prepared and well-qualified to serve in 
this capacity, and I look forward to discussing his qualifications and 
his views here today.

                                 ______
                                 
  Letter Submitted by Hon. Mazie K. Hirono, a U.S. Senator From Hawaii

                            State of Hawaii

DAVID Y. IGE, GOVERNOR

                            October 13, 2017

The Honorable Orrin G. Hatch, Chairman
Committee on Finance
U.S. Senate
219 Dirksen Senate Office Building
Washington, DC 20510

Re:  Hearing to consider the nomination of Kevin K. McAleenan, of 
Hawaii, to be Commissioner of United States Customs and Border 
Protection, Department of Homeland Security; Nomination Number: PN489-
115

Dear Senator Hatch:

I am writing to provide my wholehearted support for the nomination of 
Acting Commissioner Kevin K. McAleenan to become the next Commissioner 
of the United States Customs and Border Protection (CBP), Department of 
Homeland Security. Through Acting Commissioner McAleenan's leadership, 
technical knowledge, and perseverance, we successfully reinstated CBP 
service to the Kona International Airport at Keahole, enabling the 
first nonstop foreign arrivals from Japan to Kona since 2010. The 
resumption of these flights to Kona has a wide-ranging, positive impact 
on Hawaii Island and the State as a whole by boosting tourism spending, 
creating jobs and generating millions of dollars for our economy.

Acting Commissioner McAleenan has always exhibited a keen desire to 
serve the public with the spirit of aloha. In my personal dealings with 
Acting Commissioner McAleenan, he has shown the highest level of 
character and commitment to his role in CBP. He was recognized for his 
leadership when he received the 2015 Presidential Rank Award and the 
2005 America Medal, Call to Service Award.

I respectfully request that you confirm him as the next Commissioner of 
the United States Customs and Border Protection.

            With warmest regards,

            David Y. Ige
            Governor, State of Hawaii

                                 ______
                                 
    Prepared Statement of Hon. Kevin K. McAleenan, Nominated to be 
  Commissioner, Customs and Border Protection, Department of Homeland 
                                Security
    Mr. Chairman, Ranking Member Wyden, and distinguished Senators of 
the committee, thank you for considering my nomination to lead U.S. 
Customs and Border Protection.

    I am humbled by and grateful for the President's nomination and 
would like to take this opportunity to thank President Trump, Chief of 
Staff Kelly, and Acting Secretary Duke for the faith and confidence 
they have placed in me.

    I was raised in a family of public servants, each member drawn to a 
cause and driven to make a difference. My father, whose service began 
in the U.S. Army, 82nd Airborne, continues to serve the public today--
at 80 years strong--in the LA County Mental Health System. My mother 
and brother have worked in the university and public school systems for 
years, working to help at-risk youth achieve educational opportunities. 
And my wife, who dedicated several years early in her career working 
for the Department of Homeland Security in the United States Secret 
Service.

    For me, the call to service came on September 11th. I was 
extraordinarily fortunate to--almost immediately--have the opportunity 
to help lead a new focus on counterterrorism within the U.S. Customs 
Service, and then support the transition to our unified border security 
agency as U.S. Customs and Border Protection within the Department of 
Homeland Security.

    Over the past 15 years, I have been able to participate in the 
dynamic evolution of the Agency, and I am honored to have had key 
opportunities to contribute to that transformation, both at 
headquarters and in the field. In my management and leadership roles, I 
have found it most valuable and rewarding to engage with, support, and 
advocate for the operators--the CBP Officers, Border Patrol Agents, Air 
and Marine Pilots and Interdiction Agents, Trade and Agriculture 
Specialists, and mission support personnel--accomplishing our mission 
on the front line.

    The men and women of CBP, operating in every State and 40 countries 
globally, are the heart of our organization and are some of the finest 
professionals in government service anywhere in the world. If 
confirmed, it would be the greatest privilege of my professional life 
to represent, and continue serving alongside, them as Commissioner.

    In addition to its people, CBP has a strong foundation of legal 
authorities, operational capabilities, and mission-focused culture, but 
much more needs to be done to enhance its trade facilitation and 
enforcement, counterterrorism, and border security missions. As an 
indispensable national security partner, and the Nation's second 
largest revenue-collecting source, CBP must continue to innovate to 
accomplish its complex and critical tasks and to recruit and sustain 
the world-class workforce it needs.

    If confirmed, working closely with this committee and our 
stakeholders, I am committed to addressing these challenges and to 
supporting CBP's dedicated and extremely hard-working frontline and 
support personnel to take our efforts, and our organization, to the 
next level.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Kevin Kealoha McAleenan.

 2.  Position to which nominated: Commissioner, U.S. Customs and Border 
Protection.

 3.  Date of nomination: May 22, 2017.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: September 5, 1971, Honolulu, Hawaii.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

        Undergraduate: Amherst College, September 1990 to May 1994; 
        B.A. cum laude, in political science. Double major in law, 
        jurisprudence, and social thought. Degree granted in May 1994.

        Professional: University of Chicago Law School, September 1995 
        to June 1998; Juris Doctor granted in 1998.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

        Acting Commissioner, U.S. Customs and Border Protection, 
        Washington, DC, January 2017-present.

        Deputy Commissioner, U.S. Customs and Border Protection, 
        Washington, DC, October 2014 to January 2017 (permanent), March 
        2013 to October 2014 (acting).

        Assistant Commissioner, Office of Field Operations, U.S. 
        Customs and Border Protection, Washington, DC, December 2011 to 
        March 2013 (acting and then permanent).

        Deputy Assistant Commissioner, Office of Field Operations, U.S. 
        Customs and Border Protection, Washington, DC, July 2010 to 
        March 2013.

        Executive Director, National Programs, Office of Field 
        Operations, U.S. Customs and Border Protection, Washington, DC, 
        May 2010 to July 2010.

        Vice president, The Sentinel HS Group, LLC, Vienna, VA, 
        February 2008 to May 2010.

        Area Port Director, Los Angeles International Airport, Office 
        of Field Operations, U.S. Customs and Border Protection, Los 
        Angeles, CA, October 2006 to February 2008.

        Executive Director, Office of Antiterrorism, U.S. Customs and 
        Border Protection, Washington, DC, August 2003 to October 2006.

        Counselor and Senior Policy Advisor, Office of the 
        Commissioner, U.S. Customs Service (November 2001 to March 
        2003), U.S. Customs and Border Protection (March 2003 to August 
        2003), Washington, DC.

        Associate (practicing attorney), Gunderson Dettmer et al., LLP, 
        Menlo Park, CA, March 2000 to October 2001.

        Associate (practicing attorney), Sheppard, Mullin, Richter, and 
        Hampton, LLP, Los Angeles, CA, November 1998 to February 2000.

        Research associate, University of California, Los Angeles, CA, 
        July 1996 to August 1996.

        Legal intern, SGS-Thomson Microelectronics, St. Genis-Pouilly, 
        France, March 1995 to August 1995.

        Legal assistant, Dewey Ballantine, Washington, DC, September 
        1994 to March 1995.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State or local 
governments, other than those listed above):

        See positions 1 through 5 and 7 through 9 listed above in 
        response to question number 9 for a description of government 
        positions with U.S. Customs and Border Protection and the U.S. 
        Customs Service.

        Additionally, during my tenure at Sentinel HS Group, LLC, I was 
        engaged on consulting projects for Federal Government agencies.

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

        From February 2008 to May 2010, I was an officer and partner of 
        Sentinel HS Group, LLC. During this time, I consulted for a 
        number of corporations.

        I was an associate with two law firms: Gunderson, Dettmer, 
        Stough, Villenueve, and Hachigian (March 2000-October 2001); 
        and Sheppard, Mullin, Richter, and Hampton (November 1998 to 
        February 2000).

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

        Member, California State Bar (inactive).

13.  Political affiliations and activities:

        a.  List all public offices for which you have been a 
        candidate.

       None.

        b.  List all memberships and offices held in and services 
        rendered to all political parties or election committees during 
        the last 10 years.

       None.

        c.  Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $50 or more for the past 10 
        years.


               Contributions to All Other Political Committees Except Joint Fundraising Committees
----------------------------------------------------------------------------------------------------------------
Contributor                                                                             Transaction
    Name      City   State   ZIP Code   Employer   Occupation       Committee Name          Date        Amount
----------------------------------------------------------------------------------------------------------------
McAleenan,   Marina  CA         90292  The         Area Port   Obama, Barack/Joseph R.   02/23/2008      $300.00
 Kevin        Del                       Sentinel    Director    Biden via Obama for
              Rey                       HS Group                America
McAleenan,   Marina  CA         90292  The         Area Port   Obama, Barack/Joseph R.   04/05/2008      $500.00
 Kevin        Del                       Sentinel    Director    Biden via Obama for
              Rey                       HS Group                America
McAleenan,   Marina  CA         90292  The         Area Port   Obama, Barack/Joseph R.   05/15/2008      $500.00
 Kevin        Del                       Sentinel    Director    Biden via Obama for
              Rey                       HS Group                America
McAleenan,   Marina  CA         90292  The         Area Port   Obama, Barack/Joseph R.   06/29/2008      $500.00
 Kevin        Del                       Sentinel    Director    Biden via Obama for
              Rey                       HS Group                America
McAleenan,   Marina  CA         90292  The         Area Port   Obama, Barack/Joseph R.   10/15/2008      $600.00
 Kevin        Del                       Sentinel    Director    Biden via Obama for
              Rey                       HS Group                America
McAleenan,   Vienna  VA         22181  The         Consultant  Oberman, Justin Pereira   12/31/2008      $250.00
 Kevin                                  Sentinel                via Oberman for
                                        HS Group,               Congress
                                        LLC
McAleenan,   Vienna  VA         22181                          Oberman, Justin Pereira   03/17/2009     -$198.00
 Kevin                                                          via Oberman for
                                                                Congress
----------------------------------------------------------------------------------------------------------------
    Total                                                                                              $2,452.00
    contrib
     utions
----------------------------------------------------------------------------------------------------------------


                                   Recipient of Joint Fundraiser Contributions
                        These Are the Final Recipients of Joint Fundraising Contributions
----------------------------------------------------------------------------------------------------------------
Contributor                                                                             Transaction
    Name      City   State   ZIP Code   Employer   Occupation       Committee Name          Date        Amount
----------------------------------------------------------------------------------------------------------------
McAleenan,   Vienna  VA         22181  The         Consultant  DNC Services Corp./       10/22/2008       $3,300
 Kevin                                  Sentinel                Democratic National
                                        HS Group,               Committee
                                        LLC
McAleenan,   Vienna  VA         22181  The         Consultant  DNC Services Corp./       11/04/2008      -$3,300
 Kevin                                  Sentinel                Democratic National
                                        HS Group,               Committee
                                        LLC
----------------------------------------------------------------------------------------------------------------
    Recipie                                                                                                $0.00
     nt
    total
----------------------------------------------------------------------------------------------------------------


14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

        2015, Presidential Rank Award, Distinguished Executive.

        2005, Service to America Medal, Call to Service Award.

        2014, Secretary's Homeland Security Silver Medal.

        2016, Travel Champion, U.S. Travel Association.

        2017, Larry Neushotz Memorial Award, for partnership with trade 
        from OHL.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

        I maintain a public LinkedIn page and post official updates as 
        Acting Commissioner, CBP.

        I do not have any published books or articles.

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

        Copies of speeches have been provided to the committee.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

        I believe that my 20 years of combined government, legal, 
        consulting, and international experience, combined with my 
        education and training, have prepared me well to serve as 
        Commissioner, U.S. Customs and Border Protection (CBP). In 
        almost 15 years in government, I have had the opportunity to 
        sit at the CBP and Department of Homeland Security leadership 
        tables and work directly for each CBP Commissioner, and with 
        all five Secretaries of Homeland Security.

        I have served, successfully, at the leadership level of CBP, 
        first as the Deputy Commissioner/Chief Operating Officer, and 
        now the Acting Commissioner, for over 4 years combined, leading 
        CBP through a period of dynamic change, significant resource 
        constraints, and increasing stakeholder expectations. During 
        that time, we have refocused effectively on trade facilitation 
        and enforcement, enhanced our border security and 
        counterterrorism posture, enhanced the capabilities of the CBP 
        National Targeting Center and delivered the Single Window-
        Automated Commercial Environment, transformed international air 
        passenger arrivals, and strengthened our organization and 
        mission support functions.

        During my government service, I have had significant experience 
        leading large international organizations and operations, 
        including directing a major field operation as Area Port 
        Director at LAX, the largest operational component of CBP in 
        the Office of Field Operations, and now, the entire agency with 
        personnel and activities in all 50 States and more than 50 
        countries around the world. I have also led an agency-wide 
        coordination office at Headquarters, which managed strategic 
        and operational planning, as well as incident management across 
        all components of CBP, and I have been detailed to interagency 
        task forces working on national policy. I am well-versed in all 
        aspects of CBP's operations in the field and its mission 
        support efforts. And I have led significant international 
        engagements and successfully negotiated international 
        agreements as head of delegation for the U.S. Government.

        I work closely and effectively with external stakeholders, 
        including the international trade and travel communities, State 
        and local governments and law enforcement agencies, 
        nongovernmental organizations, and interagency partners. I also 
        attend to oversight recommendations and concerns, partnering 
        with Congress, the Government Accountability Office, the DHS 
        Inspector General, the DHS Office of Civil Rights and Civil 
        Liberties, and the DHS Office of Privacy. CBP has become a more 
        transparent and responsive organization, and has adopted, on my 
        watch, best practices for transparency in areas as diverse as 
        use of force policy and training, and privacy impact 
        assessments.

        At a time when there is tremendous focus on CBP's trade, 
        counterterrorism, and border security missions, I am prepared 
        to lead the agency forward in accomplishing administration 
        priorities and addressing congressional mandates.

        The attached curriculum vitae provides further specifics and 
        details of my qualifications for the position.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

        I am currently a career government employee in the same agency 
        to which I am being nominated. I have no other employment 
        associations.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

        No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

        No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

        Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

        My wife works for Deloitte, a multinational consulting firm. 
        While she works for Deloitte Services, an entity solely focused 
        in the commercial or private sector, a separate component of 
        her firm does business with the Federal Government, including 
        CBP. While multiple reviews by ethics counsel have confirmed 
        that there is no substantive conflict of interest, to avoid any 
        appearance of conflict, I have maintained screening 
        arrangements involving Deloitte and recused myself from making 
        any procurement or source selection decisions involving 
        consulting work for CBP. I have also signed an ethics agreement 
        reinforcing this commitment.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

        In addition to my spouse working at Deloitte, for the past 7 
        years I have maintained a screening arrangement with my former 
        firm, Sentinel HS Group, LLC, and have been recused from any 
        procurement or source selection decisions involving projects 
        they may be involved in. A recent review by agency ethics 
        counsel has determined that any past connections are distant 
        enough, and attenuated to the point where it is not necessary 
        for a specific screening arrangement to be maintained.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

        None.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

        Ethics reviews with counsel have determined that I have no 
        known substantive or potential conflict of interest. To avoid 
        even the appearance of conflict due to my wife's employment, 
        however, I intend to maintain a screening arrangement vis-a-vis 
        Deloitte, and have entered into an ethics agreement confirming 
        my impartiality on matters involving their business.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

        None.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

        In 2007 (estimated), I was informed that I was briefly a 
        potential subject of an Office of Special Counsel investigation 
        into a prohibited personnel practice and was interviewed in 
        conjunction with the matter. I was later told that the 
        allegations were not substantiated, and that I, in fact, was no 
        longer the selecting official when the selection was made.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

        In April 1987 (age 15), I was briefly taken into custody and 
        issued a citation for littering, for which a fine was paid.

        In August 1989 (age 17), I was briefly taken into custody and 
        issued a citation for reckless driving, for which I paid a fine 
        and attended a safe driving class for juveniles.

        In January 1994 (age 22), I was briefly taken into custody and 
        cited for driving while my privilege to drive in the 
        Commonwealth of Massachusetts was suspended. I was driving on a 
        valid, current driver's license from the State of California 
        and was not aware that my privilege to drive in Massachusetts 
        had been suspended administratively. The suspension was the 
        result of an unpaid citation from 5 years prior for an expired 
        inspection sticker. I had received a $50 ticket for that 
        infraction as a 17 year-old high school student and asked my 
        mother to pay the ticket for me. Instead, she wrote a letter to 
        the court stating that we were no longer the owners of the 
        vehicle and had moved from the Commonwealth. Due to the unpaid 
        ticket, unbeknownst to me, my privilege to drive in 
        Massachusetts had been suspended. The matter was resolved by 
        paying the fine and explaining the situation to a judge.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

        The response provided here is made to the best of my knowledge 
        and recollection.

        I have not been involved, in my personal capacity, as a party 
        in interest in any administrative agency proceeding or civil 
        litigation.

        I have been involved as a party in interest in the civil 
        litigation matters listed below, all of which were brought in 
        my official capacity with U.S. Customs and Border Protection 
        (CBP); in these cases, I was named as a defendant in my 
        official capacity along with other senior U.S. Government and 
        Department of Homeland Security personnel. In gathering the 
        information for this response, I retrieved case file 
        information currently available through the Public Access to 
        Court Electronic Records (PACER) system as well as requested 
        the assistance of the CBP Office of Chief Counsel in 
        identifying cases responsive to this request. The information 
        below has been separated to indicate which cases were filed 
        during my tenure as Acting Commissioner of U.S. Customs and 
        Border Protection, which began on January 20, 2017.

        As noted in the responses below, some of the cases named my 
        predecessor, R. Gil Kerlikowske, as a defendant in his official 
        capacity, and it is my understanding that I am substituted as a 
        matter of course for Mr. Kerlikowske in those matters, since I 
        am now the Acting Commissioner. Out of an abundance of caution, 
        I have included those cases here. In addition, there may be 
        additional civil cases that name the former Commissioner of CBP 
        in his official capacity for which a new Commissioner would be 
        substituted.

Cases Filed Before January 20, 2017:

Bryan, et al. v. United States (D.V.I.) (filed July 23, 2010) (Case No. 
1:10-cv-00066-WAL-RM) (case involving border search of cruise ship 
cabin).

        Although I was not named as a party in this case, I executed an 
        affidavit for this case in my official capacity. The case was 
        appealed by plaintiffs to the United States Court of Appeals 
        for the Third Circuit (Case No. 17-1519), where it is currently 
        pending.

Perez, et al. v. United States, et al. (S.D. Cal.) (filed June 17, 
2013) (Case No. 3:13-cv-01417-WQH-BGS) (action involving cross-border 
shooting).

        I was dismissed from this case on September 22, 2016.

        Additionally, Paredes Nino, et al. v. U.S. Customs and Border 
        Protection, et al. (S.D. Cal.) (filed Feb. 27, 2013) (Case No. 
        3:13-cv-00469-WQH-BGS) is a related Federal Tort Claims Act 
        (FTCA) claim. I was dismissed from this suit on April 14, 2014.

Mares v. United States, et al. (2d Cir.) (filed June 30, 2014; 
terminated Oct. 5, 2015) (Case No. 14-2396) (case involving Border 
Patrol encounter of individual in New York).

Mares v. United States, et al. (W.D.N.Y.) (filed Oct. 28, 2015; 
terminated June 14, 2016) (Case No. 6:15-cv-06656) (action alleging 
unlawful arrest and seizure after a roadside interaction involving two 
U.S. Border Patrol agents on April 16, 2010).

        On the date of the encounter, I was not employed by CBP.

Bramlett v. U.S. Department of Treasury, et al. (E.D. Pa.) (filed Jan. 
21, 2016; terminated Apr. 25, 2017) (Case No. 2:16-cv-00257-WB) (action 
alleging plaintiff was improperly prevented from submitting shipments 
of damaged coins to the U.S. Mint's Mutilated Coin Redemption Program 
prior to the Mint's suspension of the program).

Adee Honey Farms, et al. v. United States, et al. (CIT) (filed July 15, 
2016; Case No. 16-00127 consolidated with CIT Case Nos. 16-00129, 16-
00130, and 16-00131 on Sept. 21, 2016; amended consolidated complaint 
filed Feb. 6, 2017) (action alleging that delinquency interest 
collected pursuant to 19 U.S.C. Sec. 1505(d) is subject to distribution 
under the Continued Dumping and Subsidy Offset Act (``CDSOA'')).

        This case expressly named R. Gil Kerlikowske in his official 
        capacity as the Commissioner, CBP along with naming the United 
        States generally and CBP generally.

Christopher Ranch, LLC, et al. v. United States, et al. (CIT) (filed 
July 15, 2016; Case No. 16-00129 consolidated with CIT Case Nos. 16-
00127, 16-00130, and 16-00131 on Sept. 21, 2016; amended consolidated 
complaint filed Feb. 6, 2017) (action alleging that delinquency 
interest collected pursuant to 19 U.S.C. Sec. 1505(d) is subject to 
distribution under the CDSOA).

        This case expressly named R. Gil Kerlikowske in his official 
        capacity as the Commissioner, CBP along with naming the United 
        States generally and CBP generally.

Monterey Mushrooms, Inc., et al. v. United States, et al. (CIT) (filed 
July 15, 2016; Case No. 16-00130 consolidated with CIT Case Nos. 16-
00127, 16-00129, and 16-00131 on Sept. 21, 2016; amended consolidated 
complaint filed Feb. 6, 2017) (action alleging that delinquency 
interest collected pursuant to 19 U.S.C. Sec. 1505(d) is subject to 
distribution under the CDSOA).

        This case expressly named R. Gil Kerlikowske in his official 
        capacity as the Commissioner, CBP along with naming the United 
        States generally and CBP generally.

A & S Crawfish, et al. v. United States, et al. (CIT) (filed July 15, 
2016; Case No. 16-00131 consolidated with CIT Case Nos. 16-00127, 16-
00129, and 16-00130 on Sept. 21, 2016; amended consolidated complaint 
filed Feb. 6, 2017) (action alleging that delinquency interest 
collected pursuant to 19 U.S.C. Sec. 1505(d) is subject to distribution 
under the CDSOA).

        This case expressly named R. Gil Kerlikowske in his official 
        capacity as the Commissioner, CBP along with naming the United 
        States generally and CBP generally.

Jacobsen, et al. v. U.S. Department of Homeland Security, et al. (9th 
Cir.) (filed Nov. 29, 2016) (Case No. 16-17199) (challenging 
checkpoints and the creation of enforcement zones that exclude 
protestors).

        The complaint named former CBP Commissioner R. Gil Kerlikowske 
        in his official capacity.

Janfeshan v. Department of Homeland Security, et al. (E.D.N.Y.) (filed 
Dec. 14, 2016) (Case No. 1:16-cv-06915-ARR-LB) (challenge to CBP 
encounter of traveler at JFK International Airport).

Anibowei v. Lynch, et al. (N.D. Tex.) (filed Dec. 23, 2016) (Case No. 
3:16-cv-03495:.0) (challenge to CBP encounter of traveler at Dallas/
Fort Worth International Airport).

Cases Filed After January 20, 2017:

Unless otherwise noted, these cases relate to implementation of 
executive orders that were issued on January 27, 2017 and March 6, 2017 
(Protecting the Nation from Foreign Terrorist Entry into the United 
States) and remain pending before the court. Cases are listed in 
chronological order of date of filing.

Abushamma v. Trump, et al. (E.D.N.Y.) (filed Jan. 28, 2017; terminated 
Feb. 8, 2017) (Case No. 1:2017-cv-00488).

Ahmed v. Trump, et al. (E.D.N.Y.) (filed Jan. 28, 2017; terminated Jan. 
31, 2017) (Case No. 1:2017-cv-00493).

Alqaissi, et al. v. Trump, et al. (E.D.N.Y.) (filed Jan. 28, 2017; 
terminated Jan. 30, 2017) (Case No. 1:17-cv-00487-RRM).

Alknfushe v. Trump, et al. (E.D.N.Y.) (filed Jan. 28, 2017; terminated 
Feb. 8, 2017) (Case No. 1:2017-cv-00483).

Al Saeedi v. Trump, et al. (E.D.N.Y.) (filed Jan. 28, 2017; terminated 
Jan. 30, 2017) (Case No. 1:2017-cv-00484).

Ali Khoshbakhti Vayeghan v. Kelly, et al. (C.D. Cal.) (filed Jan. 28, 
2017) (Case No. 2:17-cv-00702-SJO-GJS).

Aziz, et al. v. Trump, et al. (E.D. Va.) (filed Jan. 28, 2017; 
terminated June 1, 2017) (Case No. 1:17-cv-00116-LMB-TCB).

Bayani v. Trump, et al. (E.D.N.Y.) (filed Jan. 28, 2017; terminated 
Jan. 31, 2017) (Case No. 1:2017-cv-00492).

Noohi v. Trump, et al. (N.D. Ill.) (filed Jan. 28, 2017; terminated 
Mar. 20, 2017) (Case No. 1:17-cv-00694); related case with same parties 
(filed Jan. 28, 2017; terminated Jan. 31, 2017) (Case No.1:17-cv-
00695); related case with same parties (filed Jan. 28, 2017; terminated 
Mar. 21, 2017) (Case No. 1:17-cv-00696).

Darweesh, et al. v. Trump, et al. (E.D. N.Y.) (filed Jan. 28, 2017) 
(Case No. 1:17-cv-00480-CBA-LB).

Doe 1, et al. v. Trump, et al. (W.D. Wash.) (filed Jan. 28, 2017; 
terminated Jan. 30, 2017) (Case No. 2:17-cv-00126-TSZ).

Emamjomeh, et al. v. Trump, et al. (E.D.N.Y.) (filed Jan. 28, 2017; 
terminated Feb. 6, 2017) (Case No. 1:17-cv-00494-CBA).

Hemaidan v. Trump, et al. (N.D. Ill.) (filed Jan. 28, 2017; terminated 
Jan. 31, 2017) (Case No. 1:17-cv-00693).

Jalayer v. Trump et al. (E.D.N.Y.) (filed Jan. 28, 2017; terminated 
Feb. 1, 2017) (Case No. 1:17-cv-00490-CBA).

Louhghalam, et al. v. Trump, et al. (D. Mass.) (filed Jan. 28, 2017; 
terminated Mar. 20, 2017) (Case No. 1:17-cv-10154-NMG).

Rashekhi v. Trump, et al. (E.D.N.Y.) (filed Jan. 28, 2017; terminated 
Jan. 30, 2017) (Case No. 1:17-cv-00489-CBA).

Sabounchi v. Trump, et al. (E.D.N.Y.) (filed Jan. 28, 2017; terminated 
Jan. 30, 2017) (Case No. 1:2017-cv-00486).

Alinejad v. Trump, et al. (E.D.N.Y.) (filed Jan. 29, 2017; terminated 
Jan. 30, 2017) (Case No. 1:2017-cv-00498).

Farmad, et al. v. Trump, et al. (C.D. Cal.) (filed Jan. 29, 2017; 
terminated Feb. 28, 2017) (Case No. 2:17-cv-00706-SJO-GJS).

Hassanpour v. Trump, et al. (N.D. Tex.) (filed Jan. 29, 2017; 
terminated Jan. 31, 2017) (Case Nos. 3:17-cv-00270-K; 3:17-xc-00269).

Hatahet v. Trump, et al. (E.D.N.Y.) (filed Jan. 29, 2017; terminated 
Jan. 31, 2017) (Case No. 1:17-cv-00495-CBA).

Morshed v. Trump, et al. (E.D.N.Y) (filed Jan. 29, 2017; terminated 
Jan. 31, 2017) (Case No. 1 :17-cv-00503-CBA).

Ali, et al. v. Trump, et al. (W.D. Wash.) (filed Jan. 30, 2017) (Case 
No. 2:2017-cv-00135).

Doe v. Trump, et al. (N.D. Ill.) (filed Jan. 30, 2017; terminated Feb. 
17, 2017) (Case No. 1:2017-cv-00770).

Tawfeeq v. U.S. Department of Homeland Security (N.D. Ga.) (filed Jan. 
30, 2017) (Case No. 1:17-cv-00353-TCB).

Dhaif Allah Ahmed Mohammed, et al. v. United States of America, et al. 
(C.D. Cal.) (filed Jan. 31, 2017; terminated Feb. 3, 2017) (Case No. 
2:2017-cv-00788).

Hagig v. Trump, et al. (D. Colo.) (filed Jan. 31, 2017) (Case No. 
1:2017-cv-00289).

Badr Dhaifallah Ahmed Mohammed, et al. v. United States of America, et 
al. (C.D. Cal.) (filed Jan. 31, 2017) (Case No. 2:2017-cv-00786).

Azimi, et al. v. Trump, et al. (W.D.N.Y.) (filed Jan. 31, 2017; 
terminated Feb. 2, 2017) (Case No. 1:17-cv-00096).

Amer Al Hommsi v. Trump, et al. (N.D. Ill.) (filed Jan. 31, 2017; 
terminated Feb. 9, 2017) (Case No. 1:2017-cv-00801).

Arab American Civil Rights League, et al. v. Trump, et al. (E.D. Mich.) 
(filed Jan. 31, 2017) (Case No. 2:2017-cv-10310).

Abou Asali, et al. v. U.S. Department of Homeland Security, et al. 
(E.D. Pa.) (filed Jan. 31, 2017; terminated Apr. 12, 2017) (Case No. 
5:2017-cv-00447).

Albaldawi v. Trump, et al. (N.D. Tex.) (filed Jan. 31, 2017; terminated 
Mar. 7, 2017) (Case No. 3:2017-cv-00281).

Asgari v. Trump, et al. (D. Mass.) (filed Feb. 1, 2017; terminated June 
1, 2017) (Case No. 1:2017-cv-10182).

Unite Oregon v. Trump, et al. (D. Or.) (filed Feb. 1, 2017) (Case No. 
3:2017-cv-00179).

Robertson v. Kelly, et al. (W.D. Wash.) (filed Feb. 2, 2017) (Case No. 
2:17-cv-00163-RAJ-BAT).

Al-Mowafak, et al. v. Trump, et al. (N.D. Cal.) (filed Feb. 2, 2017) 
(Case No. 3:2017-cv-00557).

Zadeh, et al. v. Trump, et al. (D.D.C.) (filed Feb. 3, 2017; terminated 
Apr. 18, 2017) (Case No. 1:17-cv-00243-TSC).

Doe, et al. v. Trump, et al. (W.D. Wash.) (filed Feb. 7, 2017) (Case 
No. 2:17-cv-00178-JLR).

Pars Equality Center, et al. v. Trump, et al. (filed Feb. 8, 2017) 
(Case No. 1:17-cv-00255-TSC) (Administrative Procedure Act case).

Doe, et al. v. Kelly, et al. (9th Cir.) (filed Mar. 3, 2017) (Case Nos. 
17-15381; 17-15383) (challenge brought by individuals temporarily held 
at Tucson Sector stations).

International Refugee Assistance Project, et al. v. Kelly, et al. (C.D. 
Cal.) (filed Mar. 4, 2017) (Case No. 2:17-cv-01761-JLS-AFM).

Atanackovic, et al. v. Kelly, et al. (D.D.C.) (filed Mar. 8, 2017) 
(Case No. 1:17-cv-00419-TFH) (Administrative Procedure Act case).

Cancino Castellar, et al. v. Kelly, et al. (S.D. Cal.) (filed Mar. 9, 
2017) (Case No. 3:17-cv-00491-BAS-BGS) (complaint challenges process of 
alien detention).

International Refugee Assistance Project v. Kelly, et al. (D.N.J.) 
(filed Mar. 15, 2017) (Case No. 2:17-cv-01709-JLL).

Doe v. Department of Homeland Security, et al. (3d Cir.) (filed Mar. 
15, 2017; terminated Apr. 25, 2017) (Case No. 17-1578).

Universal Muslim Association of America, Inc., et al. v. Kelly, et al. 
(D.D.C.) (filed Mar. 24, 2017) (Case No. 1:2017-cv-00537).

Twitter, Inc. v. U.S. Department of Homeland Security, et al. (N.D. 
Cal.) (filed Apr. 6, 2017; terminated Apr. 7, 2017) (Case No. 3:17-cv-
01916) (action challenging issuance of CBP summons, voluntarily 
dismissed by Twitter one day after it was filed).

Center for Biological Diversity, et al. v. Kelly, et al. (D. Ariz.) 
(filed Apr. 12, 2017) (Case No. 4:17-cv-00163-CKJ) (complaint seeking 
declaratory and injunctive relief under the National Environmental 
Policy Act related to issuance of executive order on January 25, 2017 
(Border Security and Immigration Enforcement Improvements)).

Montes Bojorquez v. U.S. Customs and Border Protection, et al. (S.D. 
Cal.) (filed Apr. 18, 2017) (Freedom of Information Act litigation).

Am. Drew, et al. v. United States, et al. (CIT) (filed April 18, 2017) 
(Case No. 17-00086) (action alleging that delinquency interest 
collected pursuant to 19 U.S.C. Sec. 1505(d) is subject to distribution 
under the CDSOA).

Hilex Poly Co., LLC, et al. v. United States (CIT) (filed April 20, 
2017) (Case No. Case No. 17-00090) (action alleging that delinquency 
interest collected pursuant to 19 U.S.C. Sec. 1505(d) is subject to 
distribution under the CDSOA).

Rodriguez v. Brooks, et al. (D. Ariz.) (filed Apr. 21, 2017) (challenge 
to CBP review of individual's access to secure area at Phoenix Sky 
Harbor International Airport).

Other Matters:

I previously served as a witness in an Equal Employment Opportunity 
(EEO) case in a matter against DHS, but I was not the selecting 
official in that case. Even though I only served as a witness in that 
case, I am disclosing it here out of an abundance of caution. In 
addition, I was the selecting official in two EEO cases involving non-
selections. One of these matters included one EEO complaint and two 
related MSPB appeals. The Office of Chief Counsel of CBP has advised me 
that EEOC Management Directive 110 contains restrictions on the 
disclosure of information related to a complaint file outside of the 
EEO complaint process; if additional information on these matters is 
desired, please let me know.

Finally, because of my position as the Acting Commissioner of CBP, I 
may be named in the case title or caption of an EEO or Merit Systems 
Protection Board (MSPB) case filed by a CBP employee but otherwise 
would not have had any involvement in the matter.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

        No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

        Copies of each supportive letter for my nomination have been 
        supplied to the committee.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

        Yes; certainly. I have testified over a dozen times over the 
        past 6 years, met with or had teleconferences with members of 
        both houses several dozen times, and given in excess of 50 
        briefings to members and staff. I would fully intend to 
        continue, and even enhance my robust communication, and be 
        responsive to congressional oversight.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

        Yes.

                                 ______
                                 
        Questions Submitted for the Record to Kevin K. McAleenan
               Questions Submitted by Hon. Orrin G. Hatch
    Question. Over New Year's weekend, CBP's systems crashed, delaying 
thousands of travelers and wreaking havoc on the inspection process at 
ports of entry. While the system outage was not the result of a 
malicious attack, with the improvements technology has made in travel 
facilitation, we are becoming more dependent on this type of 
technology.

    If confirmed, how would you address the need to modernize 
technology to improve travel facilitation and while at the same time 
being able to address existing travel volume and increased traffic 
during peak travel times and projected travel increases at gateway 
airports?

    Answer. I recognize that maintenance as well as modernization of 
technology at our ports of entry (POEs) is critical to ensuring that 
CBP can handle high transaction volumes, especially during the holiday 
seasons. CBP is committed to enhancing availability in our critical 
systems. Additionally, CBP utilizes a layered defense for vetting 
travelers arriving in the United States which begins when travel 
documents or authorizations are issued and continues as reservation 
data and advance passenger information is received from airlines prior 
to passengers boarding the plane. Along with backup systems that can be 
used when passengers arrive in the United States, the advance vetting 
reduces the risk of the system issues noted in the subject report for 
vetting and inspecting travelers at our ports of entry.

    If confirmed, I further intend to press forward on our 
modernization efforts at airports. The success of the Automated 
Passport Control and Mobile Passport Control applications, only with 
sustained growth in Global Entry, and operational innovations such as 
modified egress, have allowed CBP to maintain or reduce wait times 
despite continued increases in travelers. With the support of Congress, 
we have an opportunity to use biometrics to further enhance the 
arrivals process while we also implement biometric exit. These 
innovations will be supported by a new cloud infrastructure which will 
support better backup processes and reduce downtime.

    Question. The Border Interagency Executive Council (BIEC) was first 
established by executive order in February 2014 to address 
International Trade Data System (ITDS) issues.

    Do you believe that this function should be expanded further to 
cover all government agencies to address key issues and to work toward 
the goal of a true single window?

    Answer. I believe that Border Interagency Executive Council (BIEC) 
is an important interagency forum that allows participants to address 
key issues and enhance our single window efforts from a technical, 
operational, and partnership perspective. Representatives from the 
departments of Agriculture, Commerce, Energy, Health and Human 
Services, Homeland Security, Interior, Justice, State, Transportation, 
and Treasury, along with representatives from the Consumer Product 
Safety Commission, the Environmental Protection Agency, the Office of 
Management and Budget, and the National Security Council regularly 
participate in the Border Interagency Executive Council (BIEC) 
Principals Meetings.

    From February 2014 through December 2016, the U.S. Government's 
Partner Government Agencies (PGAs) worked collaboratively through the 
Border Interagency Executive Council (BIEC) to deliver the Single 
Window and to automate each agency's import and export reporting 
requirements through the Automated Commercial Environment (ACE). These 
changes underscore the necessity of continued progress required to ease 
the submission and management of data required by the U.S. Customs and 
Border Protection (CBP) and the Partner Government Agencies (PGA) to 
efficiently and securely import or export cargo through the Single 
Window.

    The BIEC has continued in fiscal year 2017 and 2018 under the 
current administration as a significant forum for ongoing coordination 
in executing priority projects approved by the BIEC Principals. Such 
projects address operational and automation issues relating to U.S. 
importing and exporting requirements of the International Trade Data 
System (ITDS) Single Window, developed under ACE. With the deployment 
of the majority of Single Window core capabilities, the BIEC has 
refocused its established BIEC priorities.

    At the April 25, 2017, Principals Meeting, the BIEC established 
priorities that align with today's trade environment and support a 
vibrant and competitive U.S. economy. Each priority is headed by a 
Working Group Lead who is responsible for spearheading the work and 
managing or delegating Working Group actions. Working Group members 
actively participate and contribute to project updates, which are 
provided to the BIEC working level on a monthly basis. All government 
agencies can be included in working groups or sub-groups as issues 
warrant. Consistent with your question, I intend, if confirmed, to 
emphasize continued outreach to all Participating Government Agencies 
on the existence of this forum and the opportunity to address key 
issues relating to the single window in a collaborative interagency 
process.

    Question. What do you see as the biggest opportunities in the 
negotiation to improve customs cooperation with Mexico and Canada, 
improve trade facilitation, and strengthen trade enforcement?

    Answer. While the Office of the U.S. Trade Representative (USTR) 
leads free trade agreement negotiations for the United States, CBP is 
also at the negotiating table. The CBP Office of Trade is leading a 
team of trade experts from across the Homeland Security enterprise that 
participate in the NAFTA 2.0 negotiations, including in discussions 
related to customs and trade facilitation provisions and on other 
issues that impact CBP's customs operations.

    Though CBP cannot speak directly to text proposals that are 
actively under negotiation, CBP continues to support USTR by 
participating in negotiating sessions, reviewing all of the proposed 
NAFTA text through the interagency process, and even drafting some of 
our own text to ensure that the new agreement is consistent with our 
legal authorities, policies, procedures, and operational realities. CBP 
will continue to engage USTR in the negotiation process to obtain a 
NAFTA 2.0 that enhances CBP's customs enforcement mission at our 
borders while also raising regional trade facilitation standards.

    Specifically, CBP seeks NAFTA 2.0 outcomes that reflect CBP's 
risked-based approach to customs enforcement, emphasize our focus on 
priority trade enforcement issues (including free trade agreement 
preferences, intellectual property rights, antidumping and 
countervailing duties, wildlife trafficking, and forced labor), enhance 
our ongoing trade facilitation efforts with our Canadian and Mexican 
partners to further automate, streamline, and harmonize all three 
countries' customs processes and procedures, and promotes a regional 
approach to security.

    Question. The Trade Facilitation and Trade Enforcement Act of 2015 
raised the de minimis level to $800, providing additional opportunities 
to receive expedited clearance at the U.S. border through section 321.

    How is CBP working with other agencies to ensure a smooth process 
for clearing low risk shipments expeditiously?

    Answer. Facilitation of cargo is a key part of CBP's trade mission. 
Streamlining and promoting frictionless trade are CBP's goals 
especially in light of changing technologies and business processes. 
CBP has been working closely with the trade community and participating 
government agencies to facilitate low value cargo while ensuring that 
shipments facilitated by e-commerce are complying with CBP and other 
agency regulatory requirements.

    Question. CBP is engaged in discussions with the trade about 
automating the section 321 de minimis procedures across all modes of 
transportation.

    What procedures are being adopted in regards to the land, sea, and 
rail shipments?

    Answer. Recognizing the intent of Congress to support frictionless 
trade, particularly in the e-commerce environment through the increase 
of the de minimis to $800, CBP is working with both the trade community 
and PGAs in providing a streamlined mechanism for low value shipments. 
Our operational approach is that the bulk of shipments will not require 
significant advanced information to allow CBP to assess risk. CBP will 
provide an automated mechanism to allow the trade community to provide 
additional information about shipments which have other agency 
regulatory requirements--allowing other government agencies to assess 
the risk and ensure their regulatory requirements are met.

    Question. GAO found that CBP generally had not met the staffing 
levels set by Congress for trade positions and that these shortfalls 
could impact CBP's ability to effectively enforce trade laws (e.g., 
fewer cargo inspections).

    If confirmed, what would be your plan to meet the staffing levels 
set by Congress for trade positions?

    Answer. I plan to work closely with both the Senate Finance and 
Appropriations Committees to ensure our full staffing for trade 
positions is appropriately resourced and that CBP's recruiting and 
hiring efforts prioritize these critical positions. CBP has worked to 
reduce shortfalls in critical operational trade occupations over the 
last year, as well as emphasizing closing the remaining gaps within the 
Office of Trade. CBP has also initiated a modeling effort to 
demonstrate the economic benefits of trade staffing.

    We remain committed to working on strategies to ensure full 
staffing of all authorized positions. For example, CBP has made some 
strides in staffing for Import Specialists, and as of November 7, 2017, 
has made 43 tentative selections to fill the current 93 vacancies. Of 
these, ten (10) have an entry on duty (EOD) dates set. Selections 
remain in progress for the remaining 50 vacancies which we anticipate 
completing by the end of Calendar Year 2018.

    CBP has dedicated a significant amount of resources to accomplish 
the requirements within the law, but the reality is that we simply were 
not staffed to meet those requirements provided for to timely meet some 
of the goals of the Trade Facilitation and Trade Enforcement Act of 
2015. Additionally, we are working to better define our existing 
challenges which have resulted in gaps in the trade related positions, 
set by the SAFE Port Act of 2006 and the Homeland Security Act, and are 
creating a long-term hiring and resource plan to support and increased 
authorized trade position on a sustained basis with a target for 
completion by the end of February 2018. Toward that end, the 
President's FY 2018 budget request included funding for an additional 
140 positions across multiple disciplines in the Office of Trade to 
support duty evasion, intellectual property rights, and forced labor 
enforcement among other priorities.

    Question. In its efforts to strengthen trade enforcement efforts, 
what is CBP doing to ensure that performance targets are included (when 
applicable) in plans covering high-risk issue areas and plans to 
develop a long-term hiring plan for trade positions?

    Answer. CBP is working to better define our existing challenges 
which have resulted in gaps in the trade related positions, set by the 
SAFE Port Act of 2006 and the Homeland Security Act, and are creating a 
long-term hiring and resource plan to support trade position hiring on 
a sustained basis, with a target for completion by the end of February 
2018. Significantly, the fiscal year 2018 President's budget request 
includes 140 positions that will be dedicated to implementing various 
parts of TFTEA, including trade enforcement, security, and facilitation 
positions.

    CBP has also taken steps to quantify the impact these positions to 
the U.S. economy through the development of an Economic Benefit Model 
(EBM). The model is based on an activity-based costing framework, and 
economic theory and production functions reliant on data sourced from 
the Federal Government, academia, and global trade organizations and is 
used by OT as a decision support tool to inform planning processes, 
allocate resources across directorates, and prioritize initiatives and 
investments. Using FY 2016 inputs and data from the EBM aligned to the 
positions outlined above, OT estimates a potential economic impact of 
$2.3 billion in benefits to producers, consumers, and government. These 
benefits are a measure of increased production and higher profits for 
domestic industry, resulting from the flow of cheaper intermediate 
goods (trade facilitation), and protection for domestic producers from 
competition against illegal and subsidized goods (trade enforcement and 
security). I would welcome the opportunity to provide a more in-depth 
briefing on the EBM to you or your staff.

    Question. CBP has identified the need to hire over 2,000 CBP 
Officers.

    How does CBP intend to address those hiring needs? How does CBP 
plan to deploy these officers in key growth areas, such as the Salt 
Lake City airport, which has not seen growth in officers in the past 
few years despite the increase in passenger volume and forecasted 
growth in cargo?

    Answer. CBP is fully committed to refining our hiring process and 
finding better, more effective ways to recruit and retain frontline and 
mission support personnel. I recognize our staffing challenges not only 
impact the Salt Lake City region, but the Nation as a whole.

    CBP remains focused on having the right mix of resources at and 
between our Nation's POEs. As the CBP mission continues to evolve to 
meet the threat to the Nation and facilitate legitimate trade and 
travel, we must continually assess personnel staffing requirements. The 
WSM is a data-driven model that incorporates the most recent year's 
workload data to determine staffing requirements and considers factors 
for future facility enhancements and projected volume growth in cross-
border commercial and passenger traffic. Updated WSM results continue 
to show a need for additional OFO capability to fully meet the 
standards set by statute, regulation, and CBP policies, assuming 
maintenance of current processes, procedures, technology, and 
facilities. The most recent results--factoring in the additional 2,000 
CBPOs funded by the FY 2014 Omnibus--show a need for 2,516 additional 
CBPOs through FY 2018. The administration's submission of the updated 
2017 WSM demonstrated an important commitment to the requirements it 
identified, as did the statement of intent in the President's FY18 
budget to submit proposals for authorizing language that would provide 
user fee funding to address the gap as we have in past years.

    At the same time, CBP is continuing to address 1,132 CBPO positions 
that are vacant as of September 30, 2017. It is my top mission support 
priority, and will remain so if confirmed, to achieve full authorized 
and funding staffing levels for all frontline law enforcement 
positions. Additionally, CBP continues to implement Business 
Transformation Initiatives (BTIs) by focusing on faster processing in 
the air, pedestrian, vehicle, and cargo environments. CBP makes a 
concerted effort to implement the newest and most advanced technologies 
at the Nation's POEs to create efficiencies. Along with technological 
advancements, CBP is deploying biometrics and processing enhancements 
and expanded Trusted Traveler Programs. These transformative 
initiatives and technological advancements provide the platform from 
which CBP can achieve operational success in the face of increased 
border and air traffic, budget constraints, and demand for new and 
expanded services at existing and proposed POEs. CBP's BTIs have saved 
more than 1 million inspectional hours through FY 2016 and are 
estimated to save more than 500,000 inspectional hours or (over 400 
CBPOs) through FY 2018.

    To support increased staffing needs, CBP continues implementation 
of alternative funding strategies to increase revenue sources. CBP 
continues to support the Donations Acceptance Program and the 
Reimbursable Services Program made permanent with the enactment of the 
Cross-Border Trade Enhancement Act of 2016 (Pub. L. 114-279). Many 
airports have taken advantage of and benefited from this program. Salt 
Lake City International Airport (SLC) qualifies for additional overtime 
hours to support expanded staffing during selected hours or to conduct 
operations outside of the operational day. Our Office of Field 
Operations has engaged SLC management on this opportunity, and the 
airport may submit an application at any time, and CBP will review it 
at the following evaluation window.

    Question. CBP has recently had significant outreach with the NGO 
community regarding forced labor issues.

    Can you please describe CBP's outreach plan to engage the private 
sector and stakeholder community in the development of forced labor 
policies and procedures and to improve CBP's targeting?

    Answer. CBP has taken a number of steps to enhance enforcement of 
forced labor in supply chains since the Trade Facilitation and Trade 
Enforcement Act of 2015 (TFTEA) was enacted. CBP is committed to 
working with Congress, private sector, Civil Society Organizations, and 
interagency stakeholders to craft the most effective approach to 
modernize the regulations to protect human rights and to protect U.S. 
workers from unfair competition.

    CBP has undertaken an active communications effort to ensure 
importers are aware of the risks associated with forced labor, what 
their compliance responsibilities are and how they can validate that 
their supply chains are free of forced labor. These efforts include 
sustained engagement with the Commercial Operations Advisory Council 
and public dialogue on the issues. We want to ensure that importers and 
the broader trade community have clarity on forced labor concerns. CBP 
published technical corrections to the forced labor regulations to 
remove the consumptive demand loophole and is now outlining substantive 
changes to allow for an agile enforcement response. I have further 
directed the Customs Trade Partnership Against Terrorism team to ensure 
that forced labor issues are incorporated into their engagement with 
our trusted supply chain partners.

    My staff is actively engaged in the DHS-led Forced Labor 
Interagency Working Group, which includes ICE, Department of State, 
DOJ, U.S. Agency for International Development, Department of Treasury, 
General Services Administration, and Department of Labor. CBP works 
closely with these agencies, when appropriate, to evaluate forced labor 
cases and allegations.

    We have also leveraged intelligence units within our Office of 
Trade and OFO's National Targeting Center, Counter Networks Division. 
In the last 2 years, CBP has detained $6,307,926 in goods suspected of 
violating 19 U.S.C. Sec. 1307. Most recently, CBP detained 11 shipments 
of seafood suspected of being processed by companies in China using the 
labor of North Korean nationals. The shipments are valued at $564,775 
and are detained at four ports of entry. Further, OFO issued an Action 
memorandum to the Centers directing them to issue requests for 
information to approximately 235 importers. This effort focuses on 
manufacturers and importers with links to the areas within China 
suspected of using the labor of North Korean nationals to manufacture 
goods destined for the United States.

    CBP also continues to meet with Civil Society Organizations to 
ensure we are aware of trends, insights, and concerns that these groups 
possess into forced labor issues. If confirmed, I will continue to 
implement aggressive and broad-based enforcement efforts to address the 
challenge of goods manufactured with forced labor entering our supply 
chain.

    Question. What steps will CBP continue to take to ensure the trade 
community understands how it is approaching enforcement of the forced 
labor import prohibition to improve transparency and deterrence 
together?

    Answer. CBP has taken a number of steps to enhance enforcement of 
forced labor in supply chains since TFTEA was enacted and to 
communicate about these efforts to the trade community. CBP engaged 
specific industry sectors through our Centers of Excellence and 
Expertise and our regulatory auditors to conduct bi-directional 
education and assess best practices of risk mitigation and compliance 
related to forced labor in the global supply chain.

    CBP has undertaken an active communications effort to ensure 
importers are aware of the risks associated with forced labor, what 
their compliance responsibilities are and how they can validate that 
their supply chains are free of forced labor. These efforts include 
sustained engagement with the Commercial Operations Advisory Council 
and public dialogue on the issues. We want to ensure that importers and 
the broader trade community have clarity on forced labor concerns. CBP 
published technical corrections to the forced labor regulations to 
remove the consumptive demand loophole and is now outlining substantive 
changes to allow for an agile enforcement response. I have further 
directed the Customs Trade Partnership Against Terrorism team to ensure 
that forced labor issues are incorporated into their engagement with 
our trusted supply chain partners.

    If confirmed, I remained committed to ensuring that CBP continues 
to engage with the trade community in order to ensure transparency and 
foster our mutual goals of predictability, consistency, and deterrence 
of unfair or violative trade practices in supply chains.

    Question. It continues to be a challenge for CBP to acquire data 
elements to get advanced electronic data from the U.S. Postal Service 
to better target shipments.

    What steps is CBP taking to address these issues so that CBP can 
better target mail shipments to prevent violative and dangerous goods 
from entering our country?

    Answer. CBP is working closely with the United States Postal 
Service (USPS) to better target mail shipments destined for the United 
States. CBP and USPS signed an MOU on September 1, 2017, outlining 
roles and responsibilities between the agencies and better aligning out 
enforcement efforts. Additionally, I have worked closely with the 
Postmaster General, Megan Brennan, meeting or speaking with her 
numerous times in the past 2 months, to cultivate a more robust 
relationship and enhance our ability to function in tandem.

    Toward that end, CBP and the U.S. Postal Service (USPS) are 
pursuing joint priorities, including, first and foremost, the increased 
collection of advanced electronic data (AED) on mail parcels, along 
with technology and facility enhancements, and collaborative inspection 
and investigative efforts. With respect to AED, CBP has offered to 
support USPS capacity building and diplomatic efforts with foreign 
postal partners. Recently, increases in submission of AED on parcels 
from China has resulted in a dramatic increase in the total percentage 
of AED received by the U.S. Government--now over 40 percent. Our 
discussions also include the impact of relevant legislation and 
outreach to international partners and world organizations such as the 
Universal Postal Union to allow for the collection of advanced 
electronic data or AED.

    Furthermore, CBP is currently conducting special operations in the 
International Mail Facility environments throughout the year focusing 
on intellectual property rights and fentanyl enforcement and we will 
continue to conduct these operations. CBP is also looking to increase 
staffing at the International Mail Facilities to help address the 
increased volume of shipments.

    Question. Section 303 of the Customs bill closes a statutory 
loophole regarding the seizure and disclosure of information related to 
circumvention devices.

    Can you please provide us with CBP's timeline for implementation of 
this new provision?

    Answer. CBP has completed drafting of the Notice of Proposed 
Rulemaking necessary to make this change, and is working through the 
Office of Management and Budget-led interagency process to finalize and 
publish that rule in the Federal Register. While I cannot offer a 
specific timeline with confidence, I assure you that, if confirmed, I 
will pursue finalization of the rule expeditiously, as we continue to 
do with all of the regulatory changes directed by the Trade 
Facilitation and Trade Enforcement Act of 2015.

    Question. You recently noted that CBP is in the process of 
developing a new strategy to address the rapid growth of e-commerce.

    How do you envision this new strategy affecting CBP's current IPR 
enforcement efforts?

    Answer. We believe the strategy should engage new partners in e-
commerce supply chains to ensure full compliance with trade laws and 
regulations.

    The most significant challenges to CBP in the area of trade 
enforcement come from the dramatic changes ongoing in the global supply 
chain. The most prevalent is the dramatic growth in e-commerce and 
direct to consumer imports. E-commerce is largely responsible for the 
increase in the volume of small shipments entering the U.S. stream of 
commerce. As the agency with physical control over U.S. imports, CBP 
must adapt to the growth of imports through e-commerce business. The 
potential threat of harm to the public due to the challenges in the e-
commerce environment is real. From terrorist plots that have involved 
small packages to the seizure of thousands of non-compliant goods with 
health and safety issues or intellectual property rights violations, 
CBP must continue to address threats in e-commerce shipments to preempt 
such risks to the Nation's safety and security.

    To address these evolving challenges, CBP officially established 
the E-Commerce and Small Business Branch within the Office of Trade and 
directed it to develop and implement a new e-commerce strategy. The 
developed strategic goals and objectives, will position CBP to address 
the challenges in the e-commerce environment now and into the future. 
We believe the strategy should engage new partners in e-commerce supply 
chains to ensure full compliance with trade laws and regulations.

    Additional intellectual property rights (IPR) exams and special 
operations targeting the small package environment will help to address 
the critical risk of counterfeit goods. By leveraging a strong 
partnership with Homeland Security Investigations at the National 
Intellectual Property Rights Center (IPRC), CBP will direct targeting 
and operational resources to areas of greatest concern. CBP will also 
work with the U.S. Postal Service to increase the amount of advanced 
electronic data received from foreign posts and work to identify 
emerging technologies that can provide enhanced inspection capabilities 
of parcels.

                                 ______
                                 
                Questions Submitted by Hon. Richard Burr
                             adcvd imports
    Question. Customs and Border Protection has the role of collecting 
antidumping and countervailing duties on imports that are unfairly 
subsidized or sold at less than fair market value. These duties are 
important to level the playing field for American producers who would 
otherwise be faced the adverse impact of unfair trade practices. A GAO 
report from last year estimated that there were $2.3 billion in anti-
dumping and countervailing duties owed to CBP, and I've written to DHS 
before on the effect uncollected duties of wooden bedroom furniture has 
on manufacturers in my State. I realize there are a number of 
challenges to collecting these duties, and I appreciate the work that 
CBP has done to address the outstanding duties owed. However, for our 
trade remedies to be meaningful, it is essential that they be enforced, 
and the failure to collect these duties harms North Carolina 
businesses.

    Can you assure me that if confirmed, you will continue to make the 
collection of outstanding duties a priority?

    Answer. Yes, if confirmed, I can assure you that I will continue to 
make collection of outstanding duties a priority. To that end, as part 
of CBP's enforcement related to the Enforce and Protect Act (EAPA), CBP 
has initiated over 14 EAPA investigations, including some related to 
wooden bedroom furniture, all of which have resulted in interim 
measures. I am committed to continuing this enforcement effort.

    Question. And can you explain how you will improve upon CBP's 
record in duty collection?

    Answer. Duty collection is a critical, but complicated, component 
of anti-dumping/countervailing duty (AD/CVD) enforcement. In order to 
be more effective in our enforcement efforts, CBP is exploring creative 
ways to adjust bonding requirements to mitigate the risk of non-payment 
that certain importers present. For example, CBP has identified options 
for risk-based bonding as part of its implementation of section 115 of 
the Trade Facilitation and Trade Enforcement Act (``TFTEA'') (Pub. L. 
114-125). CBP's intent is to statistically predict the risk of future 
non-payment of duties, taxes, and fees and adjust bond amounts to 
protect government revenue and apply AD/CVD orders effectively. In 
addition, as required by Executive Order 13785, the Department of 
Homeland Security (DHS) has submitted a report to the White House 
outlining a plan for risk-based bonding to provide greater security for 
payments of final AD/CVD. CBP has automated the securing of bonds 
within ACE (e-Bonds) that centralizes CBP's management of bonds and 
ensures bonds are properly executed thus facilitating the collection of 
monies owed secured by bonds.

    When CBP identifies revenue risks from AD/CVD imports, CBP is 
proactively requesting additional security in the form of single 
transaction bonds from importers. Despite repeated court challenges, 
CBP continues these efforts to secure AD/CVD revenue. CBP has also been 
successful in recent years in taking sureties to court to collect 
delinquent AD/CVD when sureties do not fulfill their legal obligation 
to pay amounts owed. CBP has had great success in aggressively pursuing 
sureties in these cases to establish a clear monetary incentive for 
sureties to make prompt payment upon demand. CBP will continue to 
actively pursue collection of uncollected AD/CVD duties against 
delinquent importers and sureties.

    For certain high-risk commodities, CBP is also taking steps, such 
as ``live entry'' for certain steel products, to ensure payment of 
duties prior to the time of release.

    Through implementation of the Enforce and Protect Act (EAPA), CBP 
has also successfully halted the flow of illicit goods within months of 
initiating the investigations into evasion of the antidumping and 
countervailing duty orders. For example, in the EAPA investigations 
into the transshipment of wire hangers through Thailand and Malaysia 
from China for nine U.S. importers, CBP stopped the evasion of over $33 
million in antidumping duties annually.

                                 ______
                                 
                Questions Submitted by Hon. John Cornyn
    Question. As you know, through the first 4 months of 2017 we saw a 
significant decline in the number of apprehensions made on the 
Southwest border. This apprehension metric helps us determine how 
secure our border is. However, recently CBP has reported an upward 
trend in apprehensions which suggests that there might be a surge of 
aliens again trying to enter the United States illegally.

    To what do you attribute this steady increase in border 
apprehensions?

    Answer. I believe that a number of factors are driving border 
crossing trends this year. The first 4 months after the inauguration of 
President Trump resulted in a sharp decrease in apprehensions, largely 
due to the administration's clear messaging on the intent to enforce 
immigration laws. The increases we have seen over the last several 
months are comprised primarily of family units and unaccompanied alien 
children (UACs) from the Northern Triangle countries of Central 
America. As the administration recently noted in its release of 
immigration principles and policies, systemic improvements are needed 
in the process for handling aliens asserting credible fear at the 
border, UACs, and other populations, including increased immigration 
court capacity. The recent increases may also be partially attributable 
to U.S. seasonal labor demands and traditional push/pull factors, as 
well as active efforts by human smuggling organizations to increase 
volume.

    Question. Border security and ``the wall'' have been a main topic 
of discussion for this administration. In my bill--the Building 
America's Trust Act--I provide for a multi-layered approach to border 
security, focusing not only on physical barriers, but also on 
technology like drones, ground and vehicle radar, and other types of 
surveillance equipment to help the border patrol quickly identify and 
apprehend those seeking to enter the United States illegally.

    Do you believe that only a physical barrier, such as a wall, is the 
best path forward to securing our southern border?

    Answer. Securing the border requires an integrated approach 
including infrastructure such as border wall and road access, 
surveillance technology, response capability and personnel. The U.S. 
Border Patrol maintains a Capabilities Gap Analysis Process that begins 
with input from the sector level, and has identified the necessary 
capabilities to secure the border. The four key Master Capabilities 
are: Domain Awareness, Impedance and Denial, Access and Mobility, and 
Mission Readiness. The border wall provides an important capability to 
impede or deny illegal crossings in those areas where it is applied, as 
demonstrated in San Diego, Tucson, El Paso, and Yuma Sectors, but it is 
not effective alone, and is not an appropriate solution for every area 
of the border. Where it is applied, the border wall must be supported 
by the ability to detect activity through advanced surveillance 
technology, and the ability to respond effectively with mobile, trained 
personnel. In this way, the most effective means of achieving 
operational control of the border does not rely on any single 
capability, piece of technology, or infrastructure. It is a mixture of 
all of those things, executed by a properly trained and properly 
equipped mission ready workforce.

    Question. Would you agree that my multi-layered approach is the 
best way to ensure that CBP gains 24/7 situational awareness and 
operational control of the border?

    Answer. Yes, layering resources strategically according to 
operational requirements enables the U.S. Border Patrol to detect, 
identify, classify, and track persons entering the United States 
illegally between the POEs and effect the appropriate response and 
resolution to secure our Nation's borders. This approach utilizes 
manpower, technology, and tactical infrastructure deployed in areas of 
greatest risk to ensure the highest degree of success. A constant cycle 
of conducting intelligence analysis, capability gap analysis, and 
mission analysis ensures that resources are providing the expected 
results, or need revisiting.

    Question. As you know, the U.S. Government currently employs many 
various forms of technology along the southern border. Everything from 
fixed and mobile tower systems with radars and cameras, to UAVs, to 
Aerostats, to mention a few. But I understand that integrating all of 
this available technology and information has been a challenge and in 
some cases impossible.

    Do you have a plan to integrate the available resources to provide 
CBP the best possible situational awareness for gaining and maintaining 
operational control of the border?

    Answer. This is an important area of effort for CBP, directly 
contributing to a key capability for border security. It would be a 
priority for me, if confirmed, and we have numerous efforts ongoing in 
this area. For example, CBP developed the Tracking, Sign-cutting, and 
Modeling (TSM) application as a solution to the Border Patrol's problem 
of sorting, organizing, presenting, and disseminating its massive 
volume of intelligence information. TSM is a capability shared between 
the Intelligent Computer Assisted Detection (ICAD) and Enterprise 
Geospatial Information Services (eGIS) development teams. TSM 
facilitates comprehensive geospatial monitoring of ground detection and 
tracking operations and provides situational awareness to all relevant 
parties. TSM tracks incursion events, rolling-up every intelligence 
source available, relating them to specific groups, and displaying it 
all on an eGIS map. Existing technologies sensor information is either 
manually (IFT and RVSS) or automatically (UGS and i-UGS) reported into 
TSM. Currently, efforts are underway to integrate existing sensor 
capabilities to eliminate operator manual inputs into TSM to provide 
CBP the best possible situational awareness for gaining and maintaining 
operational control of the border. TSM also has plans to more fully 
integrate with the Border Patrol Enforcement Tracking System (BPETS) 
and e3, CBP's portal that collects and transmits biographic, encounter, 
and biometric data of individuals encountered at the border.

    A vital component of DHS's domain awareness capabilities, AMO's Air 
and Marine Operations Center (AMOC) integrates surveillance 
capabilities and coordinates a response to threats to national security 
with other CBP operational components, including USBP, Federal, and 
international partners to detect, identify, track, and support 
interdiction of suspect aviation and maritime activity in the 
approaches to U.S. borders, at the borders, and within the interior of 
the United States. Coordinating with extensive law enforcement and 
intelligence databases and communication networks, AMOC's command and 
control operational system, the Air and Marine Operations Surveillance 
System (AMOSS), provides a single display capable of processing up to 
700 individual sensor feeds and tracking over 50,000 individual targets 
simultaneously. The eight TARS sites represent approximately 2 percent 
of the total integrated radars in AMOSS, yet were able to account for 
detecting 53 percent of all suspect target detections. As we continue 
to deploy border surveillance technology, particularly along the 
Southwest border, these investments in fixed and mobile technology, as 
well as enhancements of domain awareness capabilities provided by the 
AMOC allow CBP the flexibility to shift more agents from detection 
duties to interdiction of illegal activities on our borders.

    Perhaps the most important advancements come in the area of data 
integration and exploitation. Downlink technology, paired with the 
BigPipe system, allows AMO to provide a video feed and situational 
awareness to its law enforcement partners in real-time. In addition, 
the Minotaur mission integration system will allow multiple aircraft to 
share information from multiple sources, providing a never before seen 
level of air, land, and maritime domain awareness. As the Minotaur 
system evolves, it will provide even greater awareness for a greater 
number of users.

    AMO also combats airborne and maritime smuggling with an integrated 
long-range radar architecture comprised of ground-based radars and 
elevated radars deployed on tethered aerostats. AMO, in partnership 
with DOD, operates and maintains a network of more than 120 long range 
radars providing a wide-area, persistent surveillance capability to 
detect and identify cooperative and non-cooperative aircraft traveling 
within or near the United States and crossing its borders. This network 
provides AMO the capability to detect and respond to air and maritime 
threats to the homeland, including organizations attempting to traffic 
contraband into the United States.

    AMO's Tethered Aerostat Radar System (TARS) monitors the low-
altitude approaches to the United States and denies this airspace for 
illicit smuggling. With eight aerostat sites--six along the Southwest 
border, one in the Florida Keys, and one in Puerto Rico--the TARS 
elevated sensor mitigates the effect of the curvature of the earth and 
terrain-masking limitations associated with ground-based radars, 
enabling maximum long-range radar detection capabilities.

    Question. One of the biggest issues I hear about from agents in the 
Rio Grande Valley of Texas is the inability to fully eradicate the 
invasive and nonnative carrizo cane and salt cedar plants. These plants 
must be removed from the riverbanks in order to provide full visibility 
and sightlines for our agents. In my border bill, I require DHS to work 
with the relevant Federal, State, and local agencies to begin 
eradicating carrizo cane and salt cedar along the Rio Grande River.

    How long would it take for DHS to develop a plan and contract with 
the relevant government and private entities to begin eradicating this 
invasive plants along the Rio Grande?

    Answer. In 2007, CBP partnered with DHS's Science and Technology 
Directorate and the U.S. Department of Agriculture (USDA) to execute 
the carrizo cane control program to address carrizo cane (Arundo donax) 
along the Southwest border.

    A pilot study was completed in 2009 along a stretch of the Rio 
Grande River in the USBP's Laredo sector. The study was conducted to 
evaluate the effectiveness of two methods of cane control, the 
mechanical removal of cane and cutting of cane stems and applying 
herbicide. The pilot study provided CBP and USDA with valuable removal 
method performance.

    Subsequent to the pilot study, CBP funded USDA to research and 
develop a biological control method for cane using Arundo wasp and 
Arundo scale, which feed on the roots and stems of the cane and 
suppress new growth. During initial studies, these insects were 
released via aircraft as well as dispersed by USDA personnel in heavily 
infested sections of the Rio Grande River Basin.

    In 2012, USDA conducted additional pilot studies of topping cane at 
various heights to determine how best to maximize the effectiveness of 
the biological control agents. Through these studies, USDA determined, 
the biological control agents are most effective when the cane is 
topped at 3 feet.

    Through the pilot studies completed by USDA, CBP, and USDA have 
developed a combined strategy of mechanical topping and biological 
control that provides immediate visibility for BPAs into areas of cane 
and aids in the long term control. Because control of cane is difficult 
and complete eradication may be unrealistic, primary objectives for 
managing cane are focused on suppression of existing infestations and 
reducing the spread of cane through control of healthy plant 
communities.

    Last year, CBP participated in a number of coordination meetings 
and calls with interested State, local, and congressional stakeholders 
focused on educating stakeholders on CBP efforts and maintaining a 
continued dialogue and information among stakeholders.

    As of December 2016, CBP has realized a reduction of approximately 
32 percent in above ground biomass with the eradication of 2.5 million 
tons of carrizo cane. Visibility into remaining cane is now 
approximately 24-36 feet. We anticipate receiving updated data from 
USDA on the reduction of cane is expected in December 2017.

    CBP and USDA anticipate executing an inter-agency agreement by the 
end of the second quarter of FY 2018 to execute a program for the 
mechanical topping of carrizo cane along the Rio Grande River. The cane 
control area encompasses five U.S. Border Patrol (USBP) sectors: El 
Paso, Big Bend, Del Rio, Laredo, and Rio Grande Valley. CBP will 
identify priority areas to be addressed by several USDA topping crews. 
USDA crews will mechanically top (i.e., trim) the cane to a height of 3 
feet (approximately 1 meter) using a mechanical cutter bar mounted on a 
four-wheel drive tractor. A small amount of cane control may also occur 
with hand-held trimmers. The mechanical cane control method will 
rapidly decrease cane height to ensure sufficient visibility of 
critical areas in the Rio Grande basin and provide access to these 
areas by BPAs and allow the biological control agents to be most 
effective for the long term eradication of carrizo cane.

    This current approach is limited by funding availability and 
personnel resources. Currently, CBP anticipates funding USDA $1 million 
annually to support mechanical topping. This rate of funding does not 
allow CBP to control carrizo cane to the extent required by USBP to 
operate efficiently and safely where cane is present. Should additional 
funding for this effort be provided, CBP would execute one or more 
contracts with private companies for the topping of cane to more 
rapidly address Border Patrol's need for visibility along the entire 
Rio Grande River. Contracts with private companies would be executed 
before the end of FY 2018 with work beginning before the end of the 
calendar year 2018.

    Question. Does DHS have sufficient resources and the authorities 
needed to make this happen in the next year?

    Answer. DHS/CBP have the necessary authorities to continue its 
working partnership with USDA on the control of carrizo cane. In 
addition, DHS/CBP has the necessary authorities to enter into contracts 
with private entities that may be needed for additional support in this 
effort.

    DHS/CBP has identified $1 million from our base budget for 
operations and support to continue our partnership with the USDA which 
would allow for continued progress. Additional funding would be 
required to expedite the process of controlling carrizo cane through 
the use of private contracts for mechanical topping.

    Question. I am glad to hear that we are finally making progress on 
deploying biometric exit. I'm especially pleased to hear that DHS's 
pilot programs have proved to be successful and that facial recognition 
technology seems to be the solution we have been seeking to create an 
effective exit program.

    When does DHS expect to have facial recognition technology deployed 
at all major airports in the United States?

    Answer. CBP is working towards full implementation of biometric 
exit in the air environment within the next 4 years. CBP has deployed 
biometric exit technical demonstrations at one departure gate to the 
following airports: Hartsfield-Jackson Atlanta International Airport 
(Atlanta), Washington Dulles International Airport, Houston George Bush 
Intercontinental Airport, Chicago O'Hare International Airport, Las 
Vegas McCarran International Airport, Houston William P. Hobby Airport, 
and John F. Kennedy International Airport (JFK). Coordination and 
partnership with CBP stakeholders including airlines and airports is 
critical to the success of deployment of biometric exit in the air 
environment.

    CBP has also launched a partnership with the Transportation 
Security Administration at JFK to test facial biometric matching to 
determine how CBP's facial recognition biometric exit might be 
leveraged for checkpoint operations. Beginning in early 2018, CBP is 
working to fully scale out air biometric exit and will spend 2018 
working with stakeholders to get commitment to deploy biometric exit 
technology.

    Question. When does DHS expect to begin deploying this facial 
recognition technology at land ports of entry?

    Answer. CBP will be implementing a Third Country National (TCN) 
departures program by the end of 2017 at three land border POEs 
(Champlain, NY; Brownsville, TX; and San Ysidro Pedestrian West). CBP 
will utilize a mobile device to take two index fingerprints from 
departing TCN encountered by CBP officers during existing pulse and 
surge outbound operations.

    In FY 2018, CBP will deploy biometric facial recognition technology 
at the entry and departure points of three southern land border 
crossings (DeConcini and Morley Gate ports of entry (POEs)) in Nogales, 
AZ and the San Luis POE. While a comprehensive deployment schedule is 
still under development, the initial deployments at DeConcini and San 
Luis will commence by summer 2018.

    The deployment of facial recognition in the pedestrian land border 
environment is aimed at achieving the following goals:

          Confirming the arrival and departure of pedestrians subject 
        to exit requirements at land ports of entry using facial 
        recognition without negatively impacting the flow of traffic 
        across the border.
          Reducing the threat posed by imposters arriving on foot by 
        verifying the identity of travelers and comparing their photo 
        to the travel document being used for travel.
          Validating the concept of ``face as a token'' for 
        verification of traveler's identity and closing the arrival/
        departure reporting gap in the pedestrian environment.

    Question. Has DHS considered public-private partnerships to help 
implement biometric exit at land ports of entry?

    Answer. CBP is considering public private partnerships for 
biometric exit in the land environment. For example, CBP is researching 
the use of mobile applications to facilitate biometric exit 
confirmations, similar to the Mobile Passport Control application in 
the air environment, which was developed from a public private 
partnership. There is opportunity for a similar arrangement in land. 
Additionally, CBP is exploring areas where facial recognition might be 
used to facilitate driver and cargo processing. Some stakeholders have 
also signaled their interest to possibly work with CBP on exit 
implementation. CBP welcomes private sector input and partnership on 
these initiatives.

    Question. Has DHS considered ``staging'' commercial, vehicle and 
pedestrian traffic to facilitate biometric exit at land ports of entry?

    Answer. CBP is examining all options to implement biometric exit in 
the land environment that does not negatively impede the flow of 
legitimate trade and travel. Capitalizing on CBP's successful 
streamlining of the I-94 document issuance process, including issuing 
those documents away from the POEs where there is ample parking, CBP is 
evaluating the effectiveness of using those same facilities in order to 
implement biometric exit in the land environment.

    Question. Could CBP create EZ-pass lanes to automatically capture 
information like license plate numbers and photographs of exiting 
vehicle traffic?

    Answer. CBP currently utilizes license plate readers in a number of 
outbound lanes in order to capture outbound vehicle information. The 
limitation of license plate readers is license plates do not provide 
the identity of the occupants of the vehicles which is required to 
confirm timely exit. Accordingly, CBP is exploring technologies that 
might enable facial recognition screening in vehicles at speed. For 
example, CBP has worked with government and private sector 
organizations and will be leveraging the DHS Silicon Valley program to 
identify any new and emerging technologies in this area.

    Question. Has DHS considered expanding the NEXUS program to allow 
for travelers to be pre-screened prior to exiting the United States?

    Answer. CBP and Canada currently have a biographic information 
exchange program for third country nationals. Currently, Canada 
provides the United States with their inbound biographic information on 
non-Canadians so that the United States can use that information as 
departure information. Canada has not yet shared Canadian Citizens' 
data.

    CBP has made this a priority in working with the Canadian 
Government for several years, and is looking forward to Canada 
completing the necessary legal process to allow for sharing their 
biographic inbound data for Canadian citizens. This will strengthen 
CBP's knowledge of departing Canadian citizens and cover all northern 
border crossers, including NEXUS members when it is fully implemented.

    Question. With the total number of Border Patrol agents falling to 
less than 20,000 nationwide at the end of FY16, we must do everything 
that we can to retain quality law enforcement professionals that make 
up today's border patrol.

    In my border bill, I've included the Anti-Border Corruption 
Reauthorization Act, which would allow CBP to hire former law 
enforcement personnel who previously passed polygraph tests as part of 
their positions. Do you support efforts like these to hire already 
qualified personnel to these positions?

    Answer. Hiring is my top mission support priority for CBP and I 
could not agree more that we must do everything we can to recruit and 
retain a world-class law enforcement workforce.

    CBP regularly reviews staffing levels and hiring practices 
(including the security vetting, which includes the polygraph exam as 
part of the background investigation process) and we are open to 
streamlined hiring of professionals with a demonstrated track record of 
trustworthiness. I support Congress's effort to allow waivers for 
former law enforcement personnel who previously passed polygraph tests 
as part of their positions. DHS values the demonstrated commitment and 
trustworthiness that these applicants bring to the mission, and the 
quality of vetting already performed at the State, local, and Federal 
levels for these individuals in sensitive positions. The flexibility to 
waive the polygraph for individuals in these limited populations would 
potentially expedite their onboarding and allow CBP to direct more 
resources toward processing other groups of applicants, preventing 
potential bottlenecks in the hiring pipeline.

    I believe this approach enables CBP to weigh pre-employment risks 
and implement mitigation measures in order to improve its hiring 
capacity without lowering standards. Additionally, retaining the 
requirement for all law enforcement applicants to undergo a Tier 5 
background investigation (the highest level), coupled with random drug 
testing, periodic reinvestigations, and the continuous evaluation of 
employees for criminal conduct, will assist in mitigating any potential 
risk.

    I will ensure we remain judicious in any expansion of this 
authority and have shown this discretion in our application of the 
current waiver authority under the FY 2017 National Defense 
Authorization Act (Pub. L. No. 114-328) granting the waiver for 
approximately 20 percent of all requests to date.

    To be clear, I do not favor lowering our standards for frontline 
personnel, but rather that we work to fill these critical national 
security personnel slots with seasoned law enforcement officers and 
military personnel who can help keep the Nation's borders and ports of 
entry (airports, seaports, and land ports) safe.

    Question. The agents of the U.S. Border Patrol, including the 
roughly 10,000 in my home State of Texas alone, do a dangerous job and 
make personal sacrifices that affect not only them but their families. 
We must take care of our people and their loves ones. Furthermore, we 
must ensure that our hard-working agents are not only rewarded but 
encouraged to serve a full career with the Border Patrol and not leave 
early to pursue opportunities at other law enforcement agencies.

    As Commissioner, what do you personally intend to do to retain 
quality law enforcement professionals at the Border Patrol?

    Answer. I agree that ensuring we take steps to retain quality law 
enforcement professional within the Border Patrol, and CBP more 
broadly, is paramount--especially when we have made the initial 
investment in training these agents and officers, it is in our interest 
to have them remain within CBP rather than depart for other components 
in the Department or other agencies. I have asked both the U.S. Border 
Patrol (USBP) and the Office of Human Resources Management (HRM) to 
work on how to best address the challenges of retention and understand 
why agents depart and what we can do to address that. One of the top 
concerns I am hearing is that agents leave CBP due to both the lack of 
mobility and the challenges of working in remote locations.

    I would like to thank Congress for your support of our pilot 
Operational Mobility Program. The $25 million in initial funding 
provided in the FY 2017 Omnibus to establish this program is critical 
since an identified lack of mobility accounts for approximately 74 
percent of USBP non-retirement attrition. I look forward to this 
program assisting in our efforts to help retain these agents, and 
believe it provides multiple benefits as it addresses our agents' 
mobility concerns, provides the ability to meet evolving national 
security threats, and builds better agents with a broader experience 
base.

    I will continue to concentrate on retaining the workforce by 
offering operational based mobility/relocations for frontline agents 
and explore options to make CBP and the USBP the employer of choice. I 
look forward to working with you and your staff further on potential 
solutions.

    Additionally, CBP's ability to meet its ever increasing and complex 
mission is dependent on a strong and resilient workforce. Suicide 
remains a serious problem for law enforcement officers and CBP is no 
exception. I will continue to seek best practices and leverage tools 
that will assist in building workforce resiliency and reduce the stigma 
associated with help-seeking behavior. The well-being of the men and 
women of CBP is a top priority for me.

    Question. On May 21, 2017, severe storms struck both in the City of 
Laredo, TX and the City of Nuevo Laredo, Mexico, causing significant 
damages to the facilities of border crossings in my State. The damages 
specifically were to Bridge III in Nuevo Laredo and the World Trade 
Bridge in Laredo. As a result of these storms, operations were 
significantly hindered and the flow of goods and services across the 
border was interrupted.

    Is the Laredo World Trade Bridge POE back at 100 percent 
operational capacity?

    Answer. The World Trade Bridge POE is at 100 percent operational 
capacity, with CBP operating out of temporary facilities while 
restoration activity continues on site.

    Question. Have all of the facilities been refurbished?

    Answer. Repair activities remain in progress, with an expected 
completion date of December 2017.

    Question. At the end of last year, my bill, the Cross-Border Trade 
Enhancement Act, was signed into law. The legislation was the product 
of years of effort to expand a very successful pilot program that 
allowed for public-private partnerships at land, air, and sea ports of 
entry. In fact, as a result of its enactment, many new stakeholder 
entrants have been able to find new ways to improve traffic flows and 
expand capacity at ports of entry.

    How is the implementation of the Cross-Border Trade Enhancement Act 
going and do you believe benefits of this legislation been fully 
realized?

    Answer. The Cross-Border Trade Enhancement Act made permanent and 
expanded CBP's authority to enter into partnerships to accept donations 
and provide reimbursable services under its Donations Acceptance and 
Reimbursable Services Programs respectively. To date the CBP Donations 
Acceptance Program (DAP) has approved 17 donation proposals totaling 
$150 million in planned public and private sector investment in U.S. 
POEs and important CBP initiatives. Ten of the 17 proposals have been 
approved since enactment of the Cross-Border Trade Enhancement Act in 
December 2016, while the others were approved under a predecessor pilot 
authority provided by Congress. The 10 DAP projects range from 
infrastructure improvements, partnerships for the provision of 
biometrics services and data and donations of luggage for canine 
training purposes. Partnerships entered into under DAP have and will 
continue to enhance border security and promote the safe and efficient 
flow of passenger travel and commercial trade.

    Since the pilot program began in 2013, CBP's Reimbursable Services 
Program has entered into agreements with more than 60 stakeholders, 
providing over 368,000 additional processing hours at the request of 
our stakeholders-accounting for the processing of more than 8 million 
travelers and over 1.1 million personal and commercial vehicles. This 
success would not have been possible without the Cross-Border Trade 
Enhancement Act being signed into law. In 2017, CBP tentatively 
selected 64 stakeholders across 54 ports of entry for participation in 
the RSP (34 air POEs, 4 for air and sea POEs, 1 for land POE, and 15 
for sea POEs). CBP continues to see a steady stream of applications for 
new agreements under this legislation, so while recent results have 
been very encouraging, continued growth and expanded utilization of 
this program is expected to allow CBP to approve new and enhanced 
services, which could not be provided without the Cross-Border Trade 
Enhancement Act.

    Question. Will you continue to support public-private partnerships 
as a tool to boost staffing levels and upgrade existing infrastructure?

    Answer. Yes; CBP will continue to explore public-private 
partnerships as a viable mechanism and tool by which to provide new and 
enhanced services and modernize the agency's POE infrastructure. Where 
there is a return on investment for private sector to partner with us 
to increase service levels or infrastructure capacity, we want to be 
responsive and we appreciate the authority that Congress has granted.

    Question. Four rounds of negotiations between the United States, 
Mexico, and Canada have now been completed on the North American Free 
Trade Agreement (NAFTA). As you know, NAFTA has had a major impact on 
my State in particular. Texas has led the Nation in exports since 2002. 
In 2015 alone, exports totaled more than $251 billion. The State's 
largest market was Mexico. In fact, about half of all U.S.-Mexico trade 
moves through Texas ports of entry.

    Could you share your thoughts on the customs aspects of a soon-to-
be-renegotiated North American Free Agreement?

    Answer. While the Office of the U.S. Trade Representative (USTR) 
leads free trade agreement negotiations for the United States, CBP is 
also at the negotiating table. The CBP Office of Trade is leading a 
team of trade experts from across the Homeland Security enterprise that 
participate in the NAFTA 2.0 negotiations, including in discussions 
related to customs and trade facilitation provisions and on other 
issues that impact CBP's customs operations. Though CBP cannot speak 
directly to text proposals that are actively under negotiation, CBP 
continues to support USTR by participating in negotiating sessions, 
reviewing all of the proposed NAFTA text through the interagency 
process, and even drafting some of our own text to ensure that the new 
agreement is consistent with our legal authorities, policies, 
procedures, and operational realities. CBP will continue to engage USTR 
in the negotiation process to obtain a NAFTA 2.0 that enhances CBP's 
customs enforcement mission at our borders while also raising regional 
trade facilitation standards.

    Question. What would CBP like to see reflected in a new NAFTA?

    Answer. CBP seeks NAFTA 2.0 outcomes that reflect CBP's risked-
based approach to customs enforcement, emphasize our focus on priority 
trade enforcement issues (including free trade agreement preferences, 
intellectual property rights, antidumping and countervailing duties, 
wildlife trafficking, and forced labor), enhance our ongoing trade 
facilitation efforts with our Canadian and Mexican partners to further 
automate, streamline, and harmonize all three countries' customs 
processes and procedures, and promotes a regional approach to security.

    Question. I'm encouraged by CBP's efforts to reduce redundant 
inspections at the border but still maintain a high level of security. 
As you know, duplicative inspection processes are a big concern for 
private industries.

    Could you comment on your expectations for the expansion of joint 
inspections at U.S. ports conducted by CBP and their Mexican and 
Canadian counterparts?

    Answer. On August 23, 2017, CBP and Mexico Customs (SAT) signed a 
Memorandum of Understanding (MOU) regarding Unified Cargo Processing 
(UCP). CBP and Canada Customs (CBSA) have finalized a MOU on UCP and 
expect to sign it by the end of 2017. UCP is a program which allows for 
joint inspections (either inbound or outbound operations) by CBP 
personnel with foreign Customs personnel on U.S. soil.

    SAT currently lacks the infrastructure in Mexico to process all the 
cargo and UCP allows for a single operational location. Instead of 
trucks carrying cargo making multiple stops, in both Mexico and the 
United States, UCP allows for a single streamlined inspection that 
reduces wait times significantly and enhances security. It also fosters 
information exchange on customs and security issues with Mexican 
Customs. UCP with SAT is operational at the Laredo (truck, air, and 
rail cargo), Rio Grande City (truck cargo), Texas; Nogales (truck and 
rail cargo), Douglas (truck cargo), San Luis (truck cargo), Arizona; 
and Calexico (truck cargo), California, POEs. CBP is in discussion with 
SAT on potential UCP expansion to El Paso, Columbus, Santa Teresa, 
Brownsville, Progresso, Pharr, Eagle Pass, Otay Mesa, Tecate, Phoenix, 
and Port Fourchon (ocean cargo) POEs. These potential UCP locations 
will be jointly determined by CBP and SAT based upon operational 
impact, available personnel, and available space.

    Canadian Customs is interested in outbound operations specific to 
the rail environment as they do not have any non-intrusive inspection 
equipment such as x-ray technology. UCP allows for Canadian Customs to 
see all x-ray images from the rail and they can adjudicate concerns 
much more rapidly. On the Northern Border, CBP is discussing UCP with 
CBSA for applicability at Champlain (rail cargo), Buffalo, New York, 
POEs.

    CBP is looking to take the concept of UCP to a location where all 
three Customs Agencies can be located in one location. The UCP has 
helped reduce truck crossing wait times. Some trucking companies 
reported to CBP that they have seen the crossing time reduced from 3 
hours to as little as 30 minutes.

    Question. Constituents in my State are relying on the timely 
implementation of Drawback Simplification section of the Trade 
Facilitation and Enforcement Act of 2015 (``TFTEA''). However, the 
regulations implementing this section are still under review by the 
Department of Treasury, and may not be finalized on February 24, 2018 
even though required by statute. Furthermore, in a recent meeting with 
members of your CBP and Treasury, the trade was advised that 
Accelerated Payment may be withheld for claims filed on and after the 
February 24, 2018 date even if the regulations are not final. As you 
know several changes to the drawback laws have been made over the 
years, and even when regulations implementing the changes were not 
finalized accelerated payment was still made.

    Will CBP follow past practice and precedent by guaranteeing 
accelerated payments of drawback refunds even if the regulations are 
not final?

    Answer. We intend to deliver the regulations timely. CBP completed 
the drafting in July and initiated Department of Treasury review on 
July 31, 2017. Since then, CBP and Treasury have had multiple meetings 
on several substantive matters raised by Treasury on the package. CBP 
has submitted 3 rounds of passbacks to Treasury. Since that time we 
have completed implementation of multiple rounds of comments.

    We are awaiting Treasury's final concurrence and engaging the 
Office of Management and Budget (OMB) to ensure a streamlined review 
process commensurate with the importance of the regulations. Even as we 
work toward timely completion, we are actively contingency planning and 
are considering making the accelerated payment (AP) available for TFTEA 
drawback claims once a final rule is effective. CBP will accept TFTEA 
drawback claims as of February 24, 2018.

                                 ______
                                 
             Questions Submitted by Hon. Benjamin L. Cardin
    Question. The Homeland Security Committee Minority Office estimated 
that President Trump's wall could cost up to $70 billion. As we've 
discussed previously, during my CODEL to El Paso, I heard directly from 
CBP officers that they would rather see investments in technology over 
a wall.

    Do you think spending $70 billion on 3rd-century technology is an 
effective use of U.S. taxpayer dollars?

    Answer. Securing the border requires an integrated approach 
including infrastructure such as border wall and road access, 
surveillance technology, response capability, and personnel. The U.S. 
Border Patrol maintains a Capabilities Gap Analysis Process that begins 
with input from the sector level, and has identified the necessary 
capabilities to secure the border. The four key Master Capabilities 
are: Domain Awareness, Impedance and Denial, Access and Mobility, and 
Mission Readiness. The border wall provides an important capability to 
impede or deny illegal crossings in those areas where it is applied, as 
demonstrated in San Diego, Tucson, El Paso, and Yuma Sectors, but it is 
not effective alone, and is not an appropriate solution for every area 
of the border. Where it is applied, the border wall must be supported 
by the ability to detect activity through advanced surveillance 
technology, and the ability to respond effectively with mobile, trained 
personnel. In this way, the most effective means of achieving 
operational control of the border does not rely on any single 
capability, piece of technology, or infrastructure. It is a mixture of 
all of those things, executed by a properly trained and properly 
equipped mission ready workforce.

    Question. In terms of the proposed border wall, do you anticipate 
CBP and DOJ having to assert eminent domain against private landowners?

    Answer. At this stage, DHS/CBP cannot state with certainty how many 
landowners will be impacted by new border wall construction 
requirements. The preferred method of obtaining interest in real 
property is through negotiating an offer to sell based upon the 
property's fair market value. We avoid, with few exceptions, any 
acquisition of real property through eminent domain. However, in 
situations where voluntary acquisition is not possible, DHS/CBP may 
have to consider acquisition through condemnation.

    Question. During a recent CODEL to Mexico City and El Paso, I heard 
how critical our bilateral cooperation is to dealing with a broad range 
of critical national security issues, as well as managing challenges of 
Central American migration. I have serious concerns about how President 
Trump's negative comments could put this cooperation at risk, 
ultimately jeopardizing U.S. national security.

    What is your assessment of U.S-Mexico collaboration?

    Answer. CBP's collaboration with Government of Mexico counterparts 
at the operational levels is as strong as it has ever been and we 
continue to work with them to develop and implement shared strategic, 
prioritized efforts, operations, and programmatic collaboration. The 
United States and the Government of Mexico (GOM) are committed to 
expanding our partnerships and working with each other to address 
issues regarding our borders. In 2017, I traveled to Mexico on three 
occasions (April, June, and August), to meet with key counterparts 
(including Mexican Customs, Immigration, Police, and other agencies) 
and to discuss border security and immigration enforcement. During my 
trip in August, I attended meetings with officials from Mexico's 
Secretariat of Foreign Affairs (SRE), Secretariat of the Interior 
(SEGOB), and National Immigration Institute (INM). These discussions 
focused on CBP's use of force, border management, and border violence 
prevention. I have also met with senior Mexican Government officials on 
numerous occasions in Washington, DC over the past 10 months.

    CBP's partners include the Mexican Federal Police (FP), Customs 
(SAT), Army (SEDENA), Navy (SEMAR), National Immigration Institute 
(INM), Office of the Attorney General (PGR), and Intelligence and 
Research Service (CISEN). The following objectives underpin CBP's 
efforts:

        1.  Disrupting Transnational Criminal Organizations (TCOs) and 
        Deterring Terrorist and Weapons of Mass Destruction from 
        entering the United States through coordinated border efforts, 
        bilateral surveillance and operations, and increased 
        coordination with GOM partners such as FP, SEMAR, SEDENA, and 
        INM.
        2.  Increasing border security by expanding joint programs such 
        as the Southern Border Mentor Initiative, the Joint Security 
        Program (JSP), and Cross Border Coordination Initiative.
        3.  Facilitating increased trade and more efficient customs 
        processing through innovative initiatives, including the North 
        America Single Window, Cargo Manifest Harmonization, and 
        Unified Cargo Processing (UCP). CBP also is supporting Mexican 
        risk management, the development of trusted traveler and 
        shipper programs, partnerships with the private sector, the 
        development of new technology at POEs.
        4.  Continuing targeting efforts by supporting successful 
        programs--such as the Automated Targeting System-Global and the 
        exchange of liaison officers to between targeting centers.
        5.  Building the capacity of Mexican INM and SAT partners to 
        enhanced shared border security.
        6.  Supporting Preclearance expansion by engaging with Mexican 
        ministries and airport authorities and conducting bilateral 
        preclearance agreement negotiations. The new Mexico City 
        airport was selected by DHS as a priority location for 
        preclearance expansion in 2016. Discussions are ongoing towards 
        establishing preclearance at the new airport.

    Question. Instead of spending money to hire 500 new Border Patrol 
agents, wouldn't this money be better spent at the Ports of Entry, 
where CBP intercepts the vast majority of drugs and contraband?

    Answer. CBP has critical staffing needs across its frontline law 
enforcement positions, both at and between ports of entry. In addition 
to supporting the President's Budget Request for an additional 500 
Border Patrol agents and 94 Air and Marine Interdiction Agents, CBP 
does indeed need to continue to hire CBP Officers and Agricultural 
Specialists at ports of entry. The most recent results from the Office 
of Field Operations' Workload Staffing Model justifies the need for an 
additional 2,516 CBP Officers at our ports through FY 2018 and we are 
making progress towards our authorized levels that was last increased 
by Congress through additional funding in the FY 2014 Omnibus. CBP also 
plans to continue to offer fee-based proposals for targeted staffing 
increases for CBP Officers and Agriculture Specialists.

    Question. After the 9/11 attacks, don't you agree that the agency 
moved too quickly to hire new recruits without the proper vetting and 
standards, and then paid the price later in terms of employee 
misconduct?

    Answer. CBP learned important lessons from previous times of growth 
and much has improved in the past 15 years. CBP has worked internally 
to increase communication throughout all areas of the hiring process 
(e.g., recruiting, testing, security, on-boarding, etc.). CBP has added 
additional security items to the process (e.g., new automated vetting 
system, polygraph examination, etc.). Technology has allowed for 
greater information sharing across the government during the background 
investigation process. CBP law enforcement applicants undergo a 
thorough pre-employment examination process including a cognitive exam, 
a structured panel interview, an automated vetting procedure, a 
statutorily required polygraph exam, and a Tier 5 level background 
investigation. CBP believes our process is one of the most rigorous in 
the Federal Government.

    Question. Can you give us an update on the use of body-worn cameras 
and improved oversight over the Border Patrol? In my experience in 
Baltimore after the Freddie Gray case and pending DOJ consent decree, 
these cameras can help to reduce complaints, de-escalate conflicts (and 
enhance officer safety), and ensure compliance with use of force 
procedures.

    Answer. I am committed to pursuing the use of camera systems, 
including body-worn cameras, where operationally appropriate. 
Currently, we are actively pursuing the use of Incident-Driven Video 
Recording Systems (IDVRS), including both vehicle-mounted camera (VMC) 
and body-worn camera (BWC) systems in order to enhance transparency, 
accountability, and credibility with the public. In April 2018, CBP's 
Law Enforcement Safety and Compliance (LESC) Directorate will conduct 
an operational evaluation with USBP, OFO, and Air and Marine Operations 
(AMO) to test the effectiveness of IDVRS and determine the appropriate 
portfolio of VMCs and BWCs in CBP law enforcement environments. The 
results of the evaluation will also be used to inform and further 
refine CBP policy and technology requirements for IDVRS. Before the 
evaluation can begin, many things must be accomplished. Currently CBP 
is working to complete lab-testing, resolve issues related to camera 
security, Technical Reference Model restrictions, procedural vendor 
security concerns, and CBP wireless network connectivity issues. The 
Privacy Impact Assessment for this initiative is being revised and must 
be published by DHS before field deployments can begin. CBP's Office of 
Information and Technology (OIT) is working to address USBP checkpoint 
circuit and storage upgrades that are needed to avoid impacting 
operations and to transfer the camera data captured with each 
activation. Currently, these tasks are on schedule to be completed 
prior to the field evaluation in April 2018. The field evaluation is 
scheduled to be completed in September 2018, with a full report and 
revisions to policy, technology requirements, and updated deployment 
strategies.

    Question. Can you give me some examples of best practices you have 
implemented in order to address misconduct by Border Patrol agents?

    Answer. As the largest law enforcement agency in the United States, 
CBP has a responsibility to the public it serves and to fellow law 
enforcement agencies to be a leader in adopting best practices in 
training, tactics, equipment, integrity, and transparency. Our 
effectiveness depends on maintaining the trust of the public. Toward 
that end, CBP has implemented a number of best practices over the past 
5 years and continues to enhance our efforts in this area.

    CBP's approach to promoting workforce integrity is predicated on 
rigorous pre-
employment screening of job applicants to weed out unsuitable 
candidates, increased emphasis on integrity awareness training, 
proactive anticorruption detection measures, and timely and thorough 
investigations of criminal and serious misconduct allegations. CBP 
takes all allegations of employee misconduct seriously. Under a uniform 
system, all allegations of misconduct are recorded in a secure, 
centralized database. All allegations are then immediately referred to 
the DHS Office of Inspector General for an investigative determination. 
Under DHS policy, the OIG maintains the ``right of first refusal'' on 
all allegations involving DHS employees. Allegations declined for 
investigation by the OIG are then returned to CBP OPR for appropriate 
handling.

    The Trade Facilitation and Trade Enforcement Act of 2015 (Pub. L. 
114-125) authorized CBP OPR to investigate criminal and administrative 
matters and misconduct by CBP employees. OPR investigators average over 
20 years of criminal investigative experience and are equipped with a 
full complement of investigative tools, including the latest in 
forensic and cyber-technology. OPR also utilizes the 
intelligence-gathering and manpower resources of the FBI through its 
membership in 20 of the FBI's 22 Border Corruption Task Forces and 
maintains strong, collaborative working relationships with the DEA, ICE 
HSI, and other Federal and local authorities. OPR also leverages its 
vast array of data collection resources by deploying full-time analysts 
to proactively identify suspicious or anomalous activity that could be 
indicative of corruption or serious misconduct. After OPR completes its 
criminal or administrative investigation, the Office of Human Resources 
Management and the Office of Chief Counsel work collaboratively with 
OPR and management to propose and impose discipline when appropriate. 
OPR continues to study known cases of corruption to inform proactive 
detection of potential misconduct and corruption.

    Based on the CBP Integrity Advisory Panel (IAP) recommendations of 
the agency's complaints and discipline process CBP has made many 
improvements to the process. For instance, we have increased 
transparency for use of force incidents, are moving forward with hiring 
additional criminal investigators, making technical improvements to its 
case management system, reissued the directive on reporting misconduct, 
and HRM is revising the Table of Penalties and Offenses and the 
discipline review process.

    In February 2015, CBP established a Use of Force Incident Team 
(UFIT) program and a Use of Force Review Board (UFRB) process in an 
effort to increase transparency and accountability. The UFIT and UFRB 
is a CBP-wide response plan to investigate, monitor, report, evaluate, 
and review use of force incidents involving CBP officers and agents. 
With regards to use of force incidents, the UFIT investigation results 
can provide recommendations concerning tactics, training, equipment, 
and/or safety issues. The investigations can also identify potential 
misconduct and administrative violations that may result in 
disciplinary or other corrective actions taken against employees.

    In 2015, in order to address the misconduct associated with 
domestic violence or alcohol related driving offenses (DUI) promptly 
and consistently, USBP consulted with the Offices of Internal Affairs, 
Chief Counsel, Human Resources Management, as well as gained the 
perspectives of District Attorneys in California, Arizona, and Texas in 
order to standardize administrative consequences for the entire USBP. 
The Standardized Post-Employee Arrest Requirements (SPEAR) outlines a 
standardized process for identifying and taking appropriate 
administrative action following the arrest of a USBP employee for 
domestic violence or DUI. It is designed to ensure consistent 
management action post-arrest. Through the application of SPEAR and 
consistent messaging through video and slides on the Information 
Display System about the program, alcohol related driving offenses have 
decreased 14 percent from FY 2016 to FY 2017. As with arrests of all 
CBP employees, arrests involving USBP employees decreased in FY 2017. 
With 110 reported arrests, USBP decreased 19 percent overall and 8 
percent in Domestic/Family Misconduct arrests. USBP continues to 
implement its SPEAR program and actively runs musters regarding drug 
and alcohol related misconduct.

    Question. What are some of the most stubborn problems that you face 
in terms of corruption and misuse of deadly force, and in your 
experience which types of agents or offices are most vulnerable?

    Answer. CBP has a workforce of dedicated men and women who are 
among the finest civil servants in the world, who carry out their 
duties with the utmost professionalism and efficiency. With support of 
Congress, CBP has improved its ability to prevent corruption and, due 
to a number of proactive efforts, has seen consistent reductions in 
uses of deadly force.

    With regard to the use of deadly force, over the past 3\1/2\ years, 
CBP has taken a number of steps to ensure our law enforcement personnel 
are prepared for potential use of force encounters to protect them and 
the public they serve. Some of these steps include the following:

          Creation for the Law Enforcement Officers Safety and 
        Compliance Directorate (LESC) to Manage CBP's Use of Force 
        Program--In March 2014, CBP established what is now the LESC to 
        manage the agency's use of force program. The LESC is 
        responsible for the development and articulation of CBP's use 
        of force policy and oversees a comprehensive and fully 
        operational program that conducts training standardization 
        audits, incident reviews to identify enhancements to existing 
        training, data analysis, use of force instructional delivery, 
        and weapon accountability and procurement to ensure use of 
        force training, equipment, and policies meet CBP's operational 
        requirements.

          Joint Integrity Case Management System and the Assaults and 
        Use of Force Reporting System--In January 2014, CBP, in 
        conjunction with Immigration and Customs Enforcement (ICE), 
        enhanced the data collection and reporting capabilities of the 
        Joint Integrity Case Management System (JICMS). JICMS is the 
        system that tracks allegations of excessive force. That same 
        year, in October 2014, CBP integrated JICMS with the data 
        systems that captures information on assaults against officers 
        and agents to create the new Assaults and Use of Force 
        Reporting System (AUFRS) which is integrated with the Use of 
        Reporting System (UFRS). This new system allows CBP to conduct 
        comparative analyses of how officers and agents respond to 
        assaults. This analysis will help the agency identify ``best 
        practice'' responses to threats and better inform enhancements 
        to policies, training, tactics, and equipment. It also has the 
        capacity to track use of force investigations from start to 
        finish.

          Use of Force Incident Tracking System--In February 2015, the 
        Use of Force Incident Tracking System (UFITS) was implemented 
        to track the investigations of use of force incidents involving 
        CBP employees.

          Media Engagement in Response to Use of Force Incidents--
        ``Maximum Disclosure, Minimum Delay''--OPA updated its Standard 
        Operating Procedures (SOP) in June 2015 to enhance CBP's 
        release of information following a significant use of force 
        incident. The SOP requires the respective OPA public affairs 
        specialist--in coordination with the respective field commander 
        and OPR special agent in charge--to issue a statement detailing 
        the basic facts of the incident within one hour of headquarters 
        notification. After subsequent information has been confirmed, 
        the field leadership, in coordination with OPA and OPR, will 
        issue a more detailed statement and/or hold a press briefing 
        within 12 hours of the initial statement. This new posture has 
        improved the timeliness and substance of public engagement in 
        response to fatal use of force incidents.

           Previously, CBP was dependent upon local law enforcement 
        agencies to conduct investigations involving CBP personnel. 
        CBP's role was minimal, relying solely on other agencies to 
        conduct thorough investigations, which resulted in significant 
        internal delays to complete use of force investigations. These 
        delays, along with minimal CBP participation in the 
        investigations, hampered CBP senior leadership's ability to 
        address use of force incidents effectively. With the authority 
        to Investigate Criminal Misconduct and Review of Use of Force 
        Cases, CBP now has at its disposal a variety of tools to review 
        and investigate use of force incidents. Some of those tools 
        include:

          Use of Force Incident Teams (UFIT)--To better respond to CBP 
        use of force incidents, UFITs were created to provide an 
        administrative review process that uses proven investigative 
        protocols and evidence gathering standards to objectively, 
        impartially, and thoroughly examine use of force incidents in a 
        timely and transparent manner. UFIT is a CBP-wide, multi-office 
        investigative unit, operating under the leadership of an OPR 
        incident commander, whose purpose is to conduct a thorough, 
        factual, and objective investigation into a use of force 
        incident involving death or serious injury; prepare a 
        comprehensive report appropriate for the type of incident 
        involved; and promptly report and subsequently track 
        observations, recommendations, and instructions, including any 
        suggested policy changes or the need for referral for further 
        administrative or disciplinary review.

           The UFIT responds to all use of force incidents involving 
        serious injury or death; coordinates with local or Federal 
        authorities having investigative jurisdiction to ensure the use 
        of force investigation is thorough and complete; serves as 
        ``eyes and ears'' of CBP executive leadership and allows for 
        CBP leadership to make initial statements of facts.

           The UFIT review process provides the affected CBP agents and 
        officers more timely feedback about the use of force incidents, 
        helping them move on, both professionally and personally. 
        Getting our officers and agents back to work dispels 
        unwarranted mistrust, lifts the cloud of suspicion, and 
        improves their units' readiness--and that benefits all of CBP 
        and the public we serve.

          Use of Force Review Board (UFRB)--The National UFRB (NUFRB) 
        is a CBP committee established to review all significant use of 
        force incidents resulting in serious physical injury or death, 
        or any incident involving the discharge of a firearm in a non-
        training setting. All findings and recommendations are provided 
        to CBP Senior Leadership. Local UFRBs will address lesser use 
        of force incidents that do not result in serious physical 
        injury or death or the discharge of a firearm.

           The UFRBs review use of force incidents for three issues: 
        (1) was use of force within policy; (2) was misconduct 
        associated with the application of force; and (3) what lessons 
        can be learned from the incident in terms of techniques, 
        tactics, policy, training and equipment?

           The findings of the UFIT investigation are presented to the 
        National UFRB (NUFRB). The NUFRB is comprised of Office of 
        Professional Responsibility Assistant Commissioner; Office of 
        Border Patrol, Chief of Operations; Office of Air and Marine, 
        Executive Director; Office of Field Operations, Executive 
        Director; DOJ/Civil Rights Division; Office of Air and Marine, 
        Management Official; Use of Force Center of Excellence 
        Director; Office of Chief Counsel; Laboratory Scientific 
        Services, Executive Director; Labor and Employee Relations, 
        Director; Office of Public Affairs, Management Official; ICE/
        Office of Professional Responsibility; DHS/Office for Civil 
        Rights and Civil Liberties; and DHS/Office of Inspector 
        General.

           The NUFRB reviews each significant use of force incident 
        resulting in serious physical injury or death to determine the 
        following: (1) if the application of force in each individual 
        incident was consistent with the CBP Use of Force Policy; (2) 
        provide any recommendations concerning tactics, training, 
        equipment, and/or safety issues; and (3) refer potential 
        misconduct and administrative violations to CBP OPR for further 
        handling as appropriate.

          Reporting Protocols for Use of Force Allegations: In August 
        2014, CBP initiated new reporting protocols to ensure all 
        complainants who allege excessive force are interviewed prior 
        to being processed for removal. All CBP components have been 
        directed to immediately notify the Office of Professional 
        Responsibility upon receipt of a complaint of alleged excessive 
        force and to not remove individuals until OPR has had the 
        opportunity to conduct an investigative interview of the 
        complainant.

          Public Transparency and Accountability: CBP has posted 
        guidance on its website to allow the public to easily file a 
        complaint or provide feedback at https://help.cbp.gov/app/home. 
        The agency uses the feedback to improve performance across the 
        enterprise.

    The CBP Information Center also has increased its Spanish-language 
capacity to provide improved service, accountability and transparency 
to those who speak Spanish via the fully integrated Spanish-language 
service at https://helpspanish.cbp.
gov/.

          New Reporting Protocols for Excessive Force Allegations.

    Additionally, as part of our agency's focus and commitment to 
transparency we have also increased our engagement with the public, 
interagency partners, Non-
Governmental Organizations (NGOs), and the Media.

          Stakeholder Outreach.
          CBP Integrity Advisory Panel.
          Border Violence Prevention Technical Working Group.
          Interface with the Government of Mexico.
          Media engagement.

    CBP takes allegations of employee misconduct, to include 
allegations of excessive force, seriously. Under a uniform system, 
allegations of misconduct are documented and referred to the DHS Office 
of Inspector General (OIG) for independent review and assessment. Cases 
are either retained by the DHS OIG for investigation or referred back 
to CBP's Office of Professional Responsibility for further handling.

    CBP's administrative review process of Use of Force incidents 
begins after all Federal and local authorities decline criminal 
prosecution. CBP's Use of Force Review Board (UFRB) considers whether 
the application of force was within CBP policy and constitutionally 
permissible, identifies potential issues involving training, tactics 
and equipment, and refers any disciplinary issues (e.g., excessive 
force) to the Joint Intake Center (JIC). Use of force information for 
specific incident may be available upon request under the Freedom of 
Information Act (FOIA).

    Allegations of criminal misconduct, serious misconduct, 
administrative misconduct, and informational incidents can be 
immediately reported using one of the following methods:

      Call the toll-free Joint Intake Center Hotline at 1-877-2INTAKE 
or send a fax to (202) 344-3390;
      Send an email message to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="78321711160c5631160c19131d381c100b561f170e">[email&#160;protected]</a>;
      Write to P.O. Box 14475, 1200 Pennsylvania Avenue, NW, 
Washington, DC 20044; or
      Call the DHS Office of Inspector General (OIG) at 1-800-323-
8603.

    CBP has also recently implemented a new extended curriculum for the 
Border Patrol Academy that includes extensive scenario-based training.

    Taken together all of these measures have resulted in reduced 
instances of the use of deadly force, and increased transparency and 
accountability when deadly force is used. If confirmed, I intend to 
sustain and enhance these initiatives as they are critical to earning 
and maintaining the trust of the public, a fundamental prerequisite for 
effective law enforcement.

    Question. Recently my staff traveled to Mexico's southern and 
northern borders where they heard numerous complaints that women, 
families and unaccompanied children fleeing violence and persecution 
have been denied the opportunity to apply for asylum or other forms of 
humanitarian protection at ports of entry along the U.S.-Mexico border. 
These reports are disturbing.

    How will you address allegations of CBPOs illegally and improperly 
turning away asylum seekers? To what extent are CBPOs using an 
expedited removal process?

    Answer. Over the last 2 years, CBP has referred over tens of 
thousands of applicants for admission who expressed fear of return to 
U.S. Citizenship and Immigration Services for review by an asylum 
officer. CBP carries out its mission of border security while adhering 
to U.S. and legal international obligations for the protection of 
vulnerable and persecuted persons.

    DHS addresses any and all allegations of misconduct through a 
consistent, stratified review, and investigative process. All 
allegations, regardless of the mode through which they are received, 
are channeled through the Joint Intake Center (JIC), a central 
processing center, responsible for receiving, documenting, and 
referring all allegations of employee misconduct. Once an allegation is 
assessed and assigned for investigation, CBP conducts a thorough and 
impartial investigation. Upon completion of the investigation, CBP 
Office of Professional Responsibility conducts a subsequent review of 
the findings to develop alternate investigative strategies or identify 
additional investigative leads.

    When appropriate, CBP proactively follows up on all allegations 
submitted to the Joint Intake Center for sharing with the Office of 
Inspector General and to track investigative follow through. 
Additionally, CBP conducts regular engagements with NGOs both at the 
sector and field office level, and at headquarters.

    Question. Border Patrol makes public few details about deaths or 
the methodology it uses to count deaths. Incomplete data on migrant 
deaths may affect Border Patrol's ability to understand the scale of 
the problem in different sectors while making it more difficult to 
locate remains.

    How can you improve migrant death reporting?

    Answer. CBP defines a border-related death as a suspected, 
undocumented migrant who died: (1) while in furtherance of an illegal 
entry; (2) within a designated target zone whether or not the Border 
Patrol was directly involved; and/or (3) outside the designated target 
zone when the Border Patrol has direct involvement with the incident.

    USBP will notify law enforcement and the coroner's office within 
the jurisdiction of the located deceased individual. Local law 
enforcement conducts an appropriate death-related investigation and the 
county coroner assumes responsibility for the deceased. USBP contacts 
the coroner's office to request cause of death and identity 
determination. USBP will also contact the consulate office of the 
deceased individual's native country for notification.

    Once the medical examiner/coroner determines the cause of death, a 
suspected cause of death is cited in the Border Safety Initiative 
Tracking System (BSITS), a USBP managed client-server database that 
serves as the central repository through web-based applications for 
collecting, managing, and disseminating critical incident data related 
to suspected, undocumented migrant deaths and Border Patrol rescues in 
selected counties along the U.S. border with Mexico. The data is used 
for analyzing the number and locations of deaths and rescues, 
categorizing deaths and rescues, identifying trends, and identifying 
high-risk areas.

    As part of the Customs and Border Protection attention to 
humanitarian needs, the Missing Migrant Program (MMP) was established 
by U.S. Border Patrol (USBP) in June 2015, as a pilot program within 
the Tucson Sector and subsequently rolled out to South Texas in June 
2016.

    MMP institutionalizes procedures for third party missing migrant 
reports, providing a focal point of collaboration and integration, to 
prevent deaths and increase rescues of missing migrants. MMP also 
assists county medical examiner offices, forensic pathologists, and 
foreign consulates in the identification and family reunification of 
deceased migrants. Information obtained from this multi-agency and 
multi-national effort provides closure to families and helps to shape 
CBP operations.

    In June 2017, USBP Headquarters agreed to make this pilot into an 
official program under its Foreign Operations Division (FOD). FOD has 
been working with Tucson and South Texas Sectors to identify best 
practices and develop an Internal Operating Procedure (IOP) for the 
MMP. As of November 2017 the MMP has expanded to the El Paso and Yuma 
Border Patrol Sectors with a full roll out across the entire Southwest 
border completed by the summer of 2018.

    USBP has several programs and initiatives focused on increasing 
border safety and minimizing the risk of migrant deaths. As an example, 
USBP has more than 246 BORSTAR Unit agents who are trained and 
certified for advanced search and rescue operations. BORSTAR agents are 
located strategically along the Southwest border and are on call and 
available to respond to high-risk emergent situations for extended 
periods. In FY 2017 alone, USBP completed over 3,000 rescues. USBP 
medical initiatives provide emergency medical response training to 
agents throughout the entire border region specifically focusing on 
high-risk areas. USBP currently has more than 1,200 certified Emergency 
Medical Technicians, as well as paramedics and first responders. USBP 
also has 85 active rescue beacons strategically placed throughout the 
Southwest border, to save the lives of illegal aliens in distress.

    I am committed to continuing these efforts to provide robust search 
and rescue response capabilities to mitigate risk in remote and austere 
environments as well as continuing to develop innovative ways to 
address these challenges proactively. I will continue to ensure CBP 
complements DHS efforts to provide public awareness through 
communicating the dangers of crossing the Southwest border both within 
the United States and abroad. USBP complements the DHS media campaign 
plan to reach out to potential migrants in their home countries to 
discourage them from attempting to enter the United States illegally in 
the first place.

    Question. Will you pledge to conform CBP enforcement practices with 
the recommendations of the Task Force on 21st Century Policing? The 
Task Force recommended that: ``To embrace a culture of transparency, 
law enforcement agencies should make all department policies available 
for public review and regularly post on the department's website 
information about stops, summonses, arrests, reported crime, and other 
law enforcement data aggregated by demographics.''

    Answer. Since 2014, CBP has implemented and continues to implement 
significant policy, procedural and programmatic reforms with respect to 
transparency initiatives CBP has taken and variety of steps and 
implemented policies to increase transparency and accountability. For 
example, to improve the public's access to information, CBP has posted 
policies, reports, and statistics consistent with the recommendation 
from the Task Force cited in the question, including:

         1.  Use of Force Policy, Guidelines, and Procedures Handbook, 
        https://www.cbp.gov/sites/default/files/documents/
        UseofForcePolicyHandbook.pdf.
         2.  Use of Force Review, Cases, and Policy From the Police 
        Executive Research Forum, https://www.cbp.gov/sites/default/
        files/documents/PERFReport.
        pdf.
         3.  Use of Force Case Summaries, https://www.cbp.gov/newsroom/
        stats/cbp-use-force/case-summaries.
         4.  Use of Force Statistics, https://www.cbp.gov/newsroom/
        stats/cbp-use-force.
         5.  CBP Discipline Overview FY 2015, https://www.cbp.gov/
        sites/default/files/assets/documents/2017-May/FY15-discipline-
        report-5-4-17.pdf.
         6.  Standards to Prevent, Detect, and Respond to Sexual Abuse 
        and Assault in Confinement Facilities, https://www.gpo.gov/
        fdsys/pkg/FR-2014-03-07/pdf/2014-04675.pdf.
         7.  CBP Policy on Zero Tolerance of Sexual Abuse and Assault, 
        https://www.cbp.gov/employees/eeo/ztp/cbp-policy-zero-
        tolerance-sexual-abuse-and-assault.
         8.  CBP Enforcement Statistics, https://www.cbp.gov/newsroom/
        stats/cbp-enforcement-statistics.
         9.  Southwest Border Migration Statistics, https://
        www.gpo.gov/fdsys/pkg/FR-2014-03-07/pdf/2014-04675.pdf.
        10.  Arrests of criminal aliens by U.S. Border Patrol, https://
        www.cbp.gov/newsroom/stats/cbp-enforcement-statistics/criminal-
        alien-statistics.
        11.  Homeland Security Advisory Council--Interim Report of the 
        Integrity Advisory Panel, http://www.dhs.gov/sites/default/
        files/publications/DHS-HSAC-CBP-IAP-Interim-Report.pdf.

    If confirmed, I plan to sustain and continue to enhance our 
commitment to transparency related to our law enforcement mission.

    Question. Will you pledge to provide more transparent data on the 
use of force by CBP agents, including the perceived race or ethnicity 
of all individuals stopped, and the resulting disposition of the stop 
or search, including the length of the encounter (i.e., search, arrest, 
use of force)?

    Answer. CBP's authority to enforce the law appropriately bears the 
responsibility of accountability, which includes integrity and a 
commitment to continued transparency. The current CBP Use of Force 
Policy Handbook is available for public view on CBP.gov. In addition, 
CBP continues to provide the public with updated monthly use of force 
statistics and summaries for use of force cases reviewed by the CBP 
National Use of Force Review Board, which can be found here: https://
www.cbp.gov/newsroom/stats/cbp-use-force. In FY 2017, the CBP National 
Use of Force Review Board (NUFRB) convened three times, deliberating on 
a total of 12 CBP use of force incidents. Additionally, the CBP Use of 
Force Incident Team (UFIT) review boards--known as Local Use of Force 
Review Boards (LUFRB) reviewed 162 use of force incidents. CBP released 
the results of a number of incidents reviewed by the NUFRB and will 
release remaining cases once they have completed the full review 
process. The case summaries can be found here https://www.cbp.gov/
newsroom/stats/cbp-use-force/case-summaries.

    Currently, CBP does not collect the race or ethnicity of 
individuals who are encountered in the course of CBP's law enforcement 
operations. CBP does capture and routinely releases information on the 
nationalities of persons apprehended crossing between ports of entry or 
subject to adverse immigration actions at ports of entry.

    Question. Will you pledge to review my legislation, the End Racial 
and Religious Profiling Act (ERRPA, S. 411), and let me know if you can 
incorporate ideas or best practices from this legislation into CBP 
practices?

    Answer. I can commit to review this proposed legislation, consider 
if we can incorporate ideas and best practices, and have my team work 
with your staff to provide any appropriate technical assistance.

    Question. As you may know, drawback law is the refund of duties, 
taxes, and certain fees paid on importation of articles into the United 
States when those articles, or like-kind articles, are exported or 
destroyed.

    Drawback, and other duty deferral regimes, are a long-standing 
feature of U.S. law that enable U.S. manufacturers to compete on a 
``level playing field'' with their foreign competitors. By refunding 
duties, taxes and fees paid on imports when there is a similar-classed 
export, drawback strongly promotes U.S. exports, manufacturing, capital 
investment, and job creation.

    Congress most recently expanded drawback privileges in 2016 with 
the passage of TFTEA, providing even greater opportunities for U.S. 
exporters to take advantage of this statutory benefit.

    If you are confirmed as Commissioner of U.S. Customs and Border 
Protection, will you and your office support our U.S. manufacturers and 
workers by maintaining and enforcing legislation such as duty drawback 
and deferral programs in order to promote growth in U.S. manufacturing 
and exports?

    Answer. As Acting Commissioner of CBP, and, if confirmed, I am 
committed to upholding the laws of the United States, including 
drawback as a longstanding trade facilitation law. Drawback, and other 
duty deferral regimes, are important features of U.S. law that enable 
U.S. manufacturers to compete on a ``level playing field'' with their 
foreign competitors. By refunding duties, taxes and fees paid on 
imports when there is a similar-classed export, drawback strongly 
promotes U.S. exports, manufacturing, capital investment, and job 
creation.

    CBP takes very seriously its dual role of trade facilitation and 
protection of the revenue. I have been, and will continue to work 
closely with CBP's subject matter experts and those in the Department 
of Treasury to expeditiously and effectively implement TFTEA's drawback 
benefits provided by Congress to the U.S. business community. CBP will 
continue to be committed to administering the drawback and duty 
deferral laws and will actively work with the Department of Treasury, 
and other relevant Partner Government Agencies, to effectively support 
growth in U.S. manufacturing and exports.

                                 ______
                                 
             Questions Submitted by Hon. Patrick J. Toomey
    Question. The Delaware River ports make up one of the largest fresh 
fruit importation areas in the United States, bringing in over $2 
billion worth of fruit goods each year. While imports have increased 
dramatically over the past couple years and terminal operators are 
making significant investments to increase storage capacity and cargo 
handling, the number of full-time CBP agriculture inspectors has 
remained stagnant. Low staff levels make it difficult for my 
constituents to process shipments of foreign fruits in a timely manner. 
This increases the amount of fruit that spoils before it can be moved 
to cold storage and creates an incentive for distributors to import 
their products through ports outside of Philadelphia.

    Does CBP plan to increase the number of permanent agriculture 
inspectors stationed in Philadelphia, and if so, when do you expect 
that increase to occur?

    Answer. Yes, CBP has articulated existing requirements to increase 
the number of permanent Agriculture Specialists, including in the area 
port of Philadelphia. While CBP is currently at its full authorized and 
funded staffing level for agriculture specialists nationwide, the 
annual Agriculture Resource Allocation Model (AgRAM) shows a gap of 
over 700 CBP Agriculture Specialists (CBPAS) to effectively carry out 
our mission nationwide, including at the area port of Philadelphia. The 
Animal and Plant Health Inspection Service (APHIS) fee allotments to 
CBP from the APHIS Agricultural Quarantine Inspection (AQI) user fee 
revenues are providing full cost recovery for CBP AQI operations, but 
only at the current staffing floor of 2,414 CBPAS. CBP intends to 
consider multiple options for increasing funding, including potential 
fee based or appropriated solutions. CBP anticipates an increase in 
staffing of CBPAS at Philadelphia if additional funds become available 
for hiring.

    Currently trade stakeholders and terminal operators utilize 
Reimbursable Services Agreements and CBP has provided temporary duty 
personnel to supplement and support existing staffing year round to 
cover peak periods and increases in perishable imports.

    CBP's Reimbursable Services Program has entered into eight 
agreements with Delaware River terminal operators to provide additional 
inspection services during peak seasons. CBP entered into agreements 
with the following stakeholders: Independent Container Line, Ltd., Penn 
Terminals, Inc., Greenwich Terminals LLC, Network Shipping Ltd. (Del 
Monte Fresh Produce), Gloucester Terminals LLC, Turbana Corp., 
Interoceanica Agency (Isabella Shipping Company), and Diamond State 
Port Corp.

    Question. How does CBP determine staffing levels at our Nation's 
ports, specifically for agriculture inspectors?

    Answer. To objectively identify baseline staffing requirements for 
CBP agriculture protection operations, CBP developed the AgRAM. Like 
the CBP Workload Staffing Model, the AgRAM is an analytical tool 
developed by CBP to calculate the required number of CBP Agriculture 
Specialists based on the volume and composition of arrivals. The model 
takes into account both the legally mandated inspection of regulated 
cargo as defined by United States Department of Agriculture (USDA)--
Animal and Plant Health Inspection Services (APHIS) and the risk-based 
inspection of passengers and cargo. The model takes into account the 
volume of cargo, conveyance, and passenger arrivals in all environments 
as reported by Operations Management Report data. The AgRAM also 
utilizes USDA APHIS data to determine the various work counts in all 
environments and incorporates pest risk levels as determined by the 
USDA. The AgRAM:

          Accounts for the volume of cargo, conveyance, and passenger 
        arrivals in all environments;
          Incorporates pest risk levels as determined by APHIS to 
        ensure sufficient staffing is allocated for inspection of high, 
        medium, and low risk commodities, passengers, and conveyances;
          Factors AQI Trade Facilitation Programs, e.g., the National 
        Agriculture Release Program (NARP); and
          Incorporates a utilization factor to ensure staffing levels 
        can process peak workloads within acceptable time frames, 
        additionally it has the capability of determining overtime 
        staffing needs.

    The AgRAM was subject to an independent assessment by Deloitte 
Consulting, LLP, in fiscal year 2015. The assessment determined the 
AgRAM's methodology and approach to identifying staffing needs is 
thorough and efficient. Internally, the AgRAM is updated each year with 
the previous fiscal year's data and reviewed to ensure the integrity of 
the results. The model results are then validated by CBP before being 
certified by DHS prior to submission to Congress each fiscal year. The 
most recent results of CBP's Agricultural Resource Allocation Model 
show a need for an additional 721 CBP Agriculture Specialists through 
FY 2018.

    The AgRAM, combined with other information about resources, 
threats, and passenger volume are incorporated into leadership review 
of how to best allocate CBPAS resources.

    Question. What other policies and automated technologies is CBP 
considering to help streamline the inspection process for agricultural 
products in an effort to reduce processing times?

    Answer. CBP has delivered several key agriculture-centric 
automation and interoperability programs. The efforts have resulted in 
significant savings by automating data sent to USDA for mandatory 
inspections of cargo and for the pest identification process. The 
implementation of a single, unified data repository to further automate 
trade and passenger reporting functions, work accomplished, transport/
export commodity tracking, and exam findings recordation. The goal is 
an automated environment that facilitates agriculture data management 
for purposes of targeting/selectivity, analysis, reporting, and 
performance measures, and to support the Agriculture Resource 
Allocation Model (AgRAM).

    The National Agriculture Cargo Targeting Unit (NACTU) is 
specifically focused on agricultural quarantine targeting (animal and 
plant pest/disease risk). The NACTU researches import cargo shipments 
and analyzes national quarantine activity to identify those shipments 
posing significant risk. These agricultural quarantine risks relate to 
shipments with pests, contaminants, and prohibited agricultural 
products (including through smuggling activities).

    OFO's Agriculture Programs and Trade Liaison (APTL) and the Office 
of Information and Technology (OIT) partnered to build a single window 
for targeting vessels, recording vessel inspection data, and 
communicating vessel risk(s) directly with ATS-4. This technology is 
replacing the paper CBP Form AI-288 and re-orienting the Ship 
Inspection Report (288) into an electronic collection of vessel 
inspection data. CBP has deployed and commenced the interface 
capability between targeting systems Vessel Risk List, and 
electronically capturing, communicating to other ports and maintaining 
inspection metrics such as: mobile targeting for high risk commercial 
vessels with Asian Gypsy Moth (AGM), Khapra Beetle, Mediterranean fruit 
fly, and international garbage violating vessels. In addition, this new 
technology automatically populates/generates the information into paper 
report format, eliminating duplication of work for CBP Agriculture 
Specialists (CBPAS), such as return to the office and manually record 
inspection results in both CBP and APHIS databases, as well as manual 
communication with a variety of stakeholders. Economically the 
contractor research estimated $2.3 million annually in time savings for 
CBPAS through 288 app utilization during all three phases of 
operations: targeting, inspection, and recording/reporting out 
significant exam results.

    The Agriculture Pest Exclusion Coordinating Specialists (APECS) 
facilitates trade by ensuring that cargo is not delayed pending 
identification of non-quarantine plant pests. Since its development CBP 
working with APHIS has significantly increased the number of cargo 
shipments released at participating ports. The Pharr, Texas Cargo 
Import achieved a reduction in cargo processing dwell time from 5 hours 
to 20 minutes.

    Question. As you know, CBP contracts with Centralized Examination 
Stations (CESs) in an effort to consolidate cargo inspections at 
single, private warehouse facilities, which may be located miles away 
from the dockside terminal. It is my understanding that the CES in 
Philadelphia is only used for intensive exams that require special 
inspectors, while non-intrusive and most agriculture exams remain at 
the terminal. That said, terminal operators in Philadelphia are 
concerned that CBP will eventually move all agriculture inspections to 
the off-site CES facility, which could raise transportation costs for 
importers and increase delays for inspections.

    Will you commit to working with the terminal operators in 
Philadelphia before implementing new inspection policies and 
procedures?

    Answer. CBP is committed to working with its public and private 
stakeholders before implementing such procedural changes. Local CBP 
management currently engages in monthly, quarterly, or as needed 
agriculture-focused meetings with the maritime operations community; 
CES focused meetings; and will begin having a reoccurring Customs 
Broker meeting. These engagements provide many opportunities for CBP to 
provide operational updates and for the trade community, including 
terminal operators, to provide feedback and express concerns.

    Question. In Philadelphia, does CBP intend to move all non-
intrusive and agriculture inspections from the dockside terminals to 
the CES?

    Answer. CBP Philadelphia does not plan to move all non-intrusive 
and agriculture inspections from dockside terminals to the CES. A few 
advantages of having a CES are that the operation allows CBP to 
consolidate staffing and resources, eliminate commute time to numerous 
terminals and warehouses, and reduce inspection and cargo hold times 
when multiple team and/or agencies require inspection. Having the CES 
is one element of addressing staffing and resource limitations. 
However, other factors would need to be analyzed before considering 
moving other exams to the CES. As port operations are constantly 
changing, CBP is also constantly reviewing its procedures. If the time 
were to come to consider moving additional inspections to the CES, CBP 
will communicate that with the trade community, and stakeholders will 
have the opportunity to provide feedback.

    Question. Can you explain how CBP monitors and audits CES 
facilities once they have been designated by CBP?

    Answer. Pursuant to title 19, Sec. 1467, of the United States Code 
(19 U.S.C. 1467), CBP has a right to examine any shipment imported into 
the United States. Per CBP regulations, it is the responsibility of the 
importer to make the goods available for examination. No distinction is 
made between commercial and personal shipments. If a shipment is 
selected for examination, it will generally be moved to a CES for the 
CBP exam to take place. A CES is a privately operated facility, not in 
the charge of a CBPO, at which merchandise is made available to CBPOs 
for physical examination. The CES facility will unload the shipment 
from its shipping container and will reload it after the exam. The CES 
concept fulfills the needs of both CBP and the importer by providing an 
efficient means to conduct exams in a timely manner. The CBP Port 
Director has the authority to review the CES and make adjustments 
within regulation if necessary. A CBPO is located at the CES facility 
to monitor and execute all necessary examinations. CBP reviews cargo 
turnaround times and expresses concerns to the CES operator for 
improvements. In Philadelphia, CBP and local stakeholders conduct 
periodic meetings with the trade community so that concerns can be 
expressed and addressed timely. The last single-focused meeting was 
held with the trade community on August 24, 2017, where stakeholders 
were able to express feedback on current operations. On September 14, 
2017, CBP attended two meetings with the Delaware River and Bay 
Maritime Exchange, the quarterly Maritime Operations meeting and the 
CBP-USDA Agriculture Working Group meeting. The last CES single-focused 
meeting was November 7, 2017, and a CBP/Philadelphia Brokers 
Association meeting was November 9, 2017.

                                 ______
                                 
               Questions Submitted by Hon. Sherrod Brown
    Question. In your testimony, you mentioned that you used your 
authority under 19 U.S.C. 1499 to block imports of seafood made with 
North Korean forced labor in China. Why did you use section 1499 
instead of section 1307 to block the imports?

    Answer. CBP has multiple legal tools to combat the importation of 
prohibited merchandise, including merchandise made with North Korean 
labor in violation of section 302A of the Countering America's 
Adversaries through Sanctions Act (Sanctions Act) and merchandise 
subject to 19 U.S.C. Sec. 1307. CBP received shipments where it had 
reason to believe that the merchandise was prohibited from entry 
pursuant to the Sanctions Act. CBP utilized its well established 
authority under 19 U.S.C. Sec. 1499 to detain the merchandise so that 
its admissibility can be determined. Where CBP has information to 
believe that merchandise was manufactured with forced labor, CBP may 
act under 19 U.S.C. Sec. 1307 to withhold release of the merchandise 
into the commerce of the United States pursuant to regulations 
promulgated under section 1307. The authority under 19 U.S.C. Sec. 1499 
is appropriate for this case and allowed CBP to act quickly to block 
the importation until a final admissibility decision is made, but, I 
can confirm that CBP intends to continue to use section 1307 withhold 
release orders whenever appropriate.

    Question. Have 30 days lapsed since the imports were blocked?

    Answer. No. Thirty days will lapse on November 13, 2017.

    Question. If not, does CBP expect to request an extension of the 
30-day window to obtain more time to review the evidence you have 
compiled on the forced labor allegations?

    Answer. CBP is still evaluating information related to the detained 
shipments to determine their admissibility. At the 30-day deadline, CBP 
will take whatever action is warranted with respect to the merchandise 
based on information that CBP has developed, and pursuant to the 
various legal authorities governing the detention or release of 
merchandise. If the information does not support a release of the goods 
within 30 days, then this is treated as a decision to exclude the 
merchandise for purposes of 19 U.S.C. Sec. 1514, and the importer may 
protest the exclusion.

    Question. Are you now preparing to issue a withhold release order 
against Chinese seafood imports more broadly?

    Answer. With respect to the shipments that are currently detained 
as discussed during the hearing, CBP is using our existing legal 
authorities to enforce the rebuttable presumption, established by the 
Sanctions Act, that merchandise made with North Korean labor is 
prohibited from entry. Further, CBP is actively collecting and 
developing additional information on the region in question and 
shipments related thereto. To the extent that said information 
reasonably indicates that Chinese seafood imports violate 19 U.S.C. 
Sec. 1307, CBP would issue a withhold release order.

    Question. Recent news reports have alleged that Haribo gummy bears 
are produced in part with forced labor in Brazil. Has CBP taken the 
same approach to the gummy bear news reports that it did in response to 
the news reports of North Korean forced labor being used in Chinese 
seafood products?

    Answer. With respect to the allegations of forced labor in the 
carnauba wax industry, the CBP Commissioner must first issue a withhold 
release order (WRO) before CBP port directors may detain suspect 
merchandise to determine admissibility. CBP remains committed to take 
vigorous action to enforce 19 U.S.C. Sec. 1307. CBP's approach to news 
reports alleging forced labor in the Brazilian carnauba wax industry 
differs from its approach with respect to alleged North Korean labor 
because the Sanctions Act presumes that merchandise made with North 
Korean labor violates 19 U.S.C. 1307 and is therefore prohibited, 
whereas allegations with respect to the Brazilian Carnauba wax industry 
are not subject to the Sanctions Act presumption and prohibition.

    Question. Has CBP blocked any imports of Haribo gummy bears under 
section 1499 or section 1307 as a result of the reports?

    Answer. CBP has begun to review this serious allegation and has 
been in contact with our partners at Immigration Customs Enforcement 
(ICE)--Homeland Security Investigations (HSI) to further consider the 
available information. To date, we have not detained any shipments 
related to the recent news on the Brazilian carnauba wax industry and 
downstream products because we have not developed information which 
supports this action at this time.

    Question. Thank you for your response to the letter Senator Portman 
and I and some of our colleagues sent on July 11, 2017 regarding 
implementation of the Enforce and Protect Act (EAPA). In that letter, 
we asked CBP to revise its rule EAPA to ensure that ``interested 
parties,'' as included in the statute, are able to participate in the 
duty evasion allegations. In your response you identified several ways 
that interested parties could participate in the investigation but did 
not commit to revising the rule to reflect the statute's broader term. 
Is it your position that CBP will not revise the rule to reflect the 
statute's intent that a much broader group of interested parties can 
participate in the investigation?

    Answer. Our current definition of ``parties to the investigation,'' 
is based on the statute's use of the phrase ``interested party that 
filed an allegation,'' includes the interested party who filed the 
allegation and the alleged evader, to clarify that fundamental 
procedural rights under EAPA are limited to only the party that filed 
an allegation. CBP is evaluating whether to amend the regulatory 
definition of ``parties to the investigation,'' for its final 
rulemaking.

    Question. How many times since EAPA was passed have ``interested 
parties'' used the ways included in your response letter to participate 
in the allegations?

    Answer. We would not necessarily be aware of situations where 
parties to the investigation were provided information by third parties 
and then filed it in our proceedings. As for the other methods, we have 
not yet encountered this. We have recently clarified these alternate 
methods for providing information to CBP on our EAPA website. As we 
gain experience with more investigations, we anticipate that parties 
will avail themselves of these options in the future.

    Question. In our letter we also expressed concern that CBP was 
requiring allegations to identify the importer in order for them to be 
considered by your agency. In your response you indicated that you were 
working on a potential legislative change that would allow CBP to 
initiate duty evasion allegations where the importer is not identified. 
Why do you believe you need legislation to make this change to CBP's 
allegation proceedings?

    Answer. The EAPA interim final regulations currently require the 
identification of the importer in the allegation because a party might 
argue that CBP's identification of the importer's name violates the 
Trade Secrets Act. Thus, a legislative change exempting this from the 
Trade Secrets Act would permit CBP to reveal the identity of the 
importer who may be entering merchandise as to evasion and avoid 
potential violation of the Trade Secrets Act.

    Question. What is the status of the potential legislative fix that 
you mentioned?

    Answer. CBP has developed a legislative proposal that is currently 
being vetted through the interagency clearance process.

    Question. And since EAPA was signed into law, how many duty evasion 
allegations has CBP refused to act on because the importer was not 
identified?

    Answer. There has not been an allegation where CBP has declined to 
initiate upon an investigation the importer was not identified. Any 
cognizable allegation received by CBP will be pursued, and CBP has 
tools which may allow it to identify an importer and pursue appropriate 
enforcement actions. The Trade Secrets Act only limits the 
identification of the importer by CBP through EAPA, not the pursuit of 
the underlying allegation or violation.

                                 ______
                                 
              Questions Submitted by Hon. Claire McCaskill
    Question. While your nomination is considered by the Finance 
Committee, many of the decisions you make and the policies that you 
will implement fall under the jurisdiction of the Homeland Security and 
Governmental Affairs Committee, of which I am the ranking member.

    Will you provide a prompt response in writing to any questions 
addressed to you by any Senator of the Homeland Security and 
Governmental Affairs Committee, regardless of party?

    Answer. I have worked closely with the Senate Committee on Homeland 
Security and Governmental Affairs in the past, and understand its 
important role in conducting oversight of CBP. If confirmed, I will 
ensure that CBP provides appropriate information in response to 
requests from the committee, regardless of party affiliation.

    Question. The Justice Department's Office of Legal Counsel has 
published an internal memo stating that the executive branch has no 
obligation to respond to requests for information from individual 
members of Congress, including ranking members of committees. This 
represents an effort to stonewall minority and other members of 
Congress as we perform oversight of Federal agencies. If confirmed, one 
of your central tasks will include facilitating responses to 
congressional requests for information. Do you commit to fully respond 
to requests for information from members of congressional oversight 
committees, regardless of party?

    Answer. I have worked closely with the Congress in the past, have 
testified over a dozen times, and given over 50 briefings to members 
and staff, as well as hundreds of written responses and reports. I 
understand and appreciate its important role in conducting oversight of 
CBP, and, if confirmed, I will ensure that CBP provides appropriate 
information in response to requests from the committee, regardless of 
party affiliation.

    Question. The President has ordered the hiring of 5,000 additional 
Border Patrol agents and 10,000 new immigration officers. There are 
approximately 23,000 officers that currently comprise the CBP Office of 
Field Operations, although CBP is authorized to have just over 24,000 
officers. The CBP staffing model that you helped to develop recommended 
that CBP have more than 27,000 officers in place. That appears to leave 
CBP around 4,000 officers short from the recommended amount.

    President Trump has only proposed increases in staffing for Border 
Patrol and ICE. Does that concern you?

    Answer. CBP remains focused on having the right mix of resources at 
and between our Nation's POEs. As the CBP mission continues to evolve 
to meet the threat to the Nation and facilitate legitimate trade and 
travel, we must continually assess personnel staffing requirements. CBP 
utilizes its Workload Staffing Model (WSM) to ensure CBPO staffing 
resources are aligned within the existing threat environments, while 
maximizing cost efficiencies. The WSM is a data-driven model that 
incorporates the most recent year's workload data to determine staffing 
requirements and considers factors for future facility enhancements and 
projected volume growth in cross-border commercial and passenger 
traffic. Updated WSM results continue to show a need for additional OFO 
capability to fully meet the standards set by statute, regulation, and 
CBP policies, assuming maintenance of current processes, procedures, 
technology, and facilities. The most recent results--factoring in the 
additional 2,000 CBPOs funded by the FY 2014 Omnibus--show a need for 
2,516 additional CBPOs through FY 2018. The administration's submission 
of the updated 2017 WSM demonstrated an important commitment to the 
requirements it identified, as did the statement of intent in the 
President's FY18 budget to submit proposals for authorizing language 
that would provide user fee funding to address the gap as we have in 
past years.

    At the same time, CBP is continuing to address 1,132 CBPO positions 
that are vacant as of September 30, 2017. It is my top mission support 
priority, and will remain so if confirmed, to achieve full authorized 
and funding staffing levels for all frontline law enforcement 
positions.

    CBP has worked aggressively over the past several years to 
implement a multifaceted recruitment strategy that improves frontline 
hiring processes and enhances its ability to meet hiring goals. CBP 
continues to strengthen all aspects of hiring, which includes 
initiatives designed to attract more qualified applicants, expedite the 
pre-employment timeline, refine the hiring process to address all 
potential bottlenecks, and reduce the attrition rate of the existing 
workforce. Staffing the frontline with well-qualified individuals of 
the highest integrity remains a top priority for CBP.

    Additionally, CBP continues to implement Business Transformation 
Initiatives (BTIs) by focusing on faster processing in the air, 
pedestrian, vehicle, and cargo environments. CBP makes a concerted 
effort to implement the newest and most advanced technologies at the 
Nation's POEs to create efficiencies. Along with technological 
advancements, CBP is deploying biometrics and processing enhancements 
and expanded Trusted Traveler Programs. These transformative 
initiatives and technological advancements provide the platform from 
which CBP can achieve operational success in the face of increased 
border and air traffic, budget constraints, and demand for new and 
expanded services at existing and proposed POEs. CBP's BTIs have saved 
more than 1 million inspectional hours through FY 2016 and are 
estimated to save more than 500,000 inspectional hours or (over 400 
CBPOs) through FY 2018.

    To support increased staffing needs, CBP continues implementation 
of alternative funding strategies to increase revenue sources. CBP 
continues to support the Donations Acceptance Program and the 
Reimbursable Services Program made permanent with the enactment of the 
Cross-Border Trade Enhancement Act of 2016 (Pub. L. 114-279).

    Since the pilot program began in 2013, CBP's Reimbursable Services 
Program has entered into agreements with more than 60 stakeholders, 
providing over 368,000 additional processing hours at the request of 
our stakeholders--accounting for the processing of more than 8 million 
travelers and over 1.1 million personal and commercial vehicles. In 
2017, CBP tentatively selected 64 stakeholders across 54 ports of entry 
for participation in the RSP (34 air POEs, 4 for air and sea POEs, 1 
for land POE, and 15 for sea POE). To date the CBP Donations Acceptance 
Program (DAP) has approved 17 donation proposals totaling $150 million 
in planned public and private sector investment in U.S. POEs and 
important CBP initiatives. Ten of the 17 proposals have been approved 
since enactment of the Cross-Border Trade Enhancement Act in December 
2016, while the others were approved under a predecessor pilot 
authority provided by Congress. The 10 DAP projects range from 
infrastructure improvements, partnerships for the provision of 
biometrics services and data, and donations of luggage for canine 
training purposes. Partnerships entered into under DAP have and will 
continue to enhance border security and promote the safe and efficient 
flow of passenger travel and commercial trade.

    CBP continues to see a steady stream of applications for new 
agreements under this legislation, so while recent results have been 
very encouraging, continued growth and expanded utilization of this 
program is expected to allow CBP to approve new and enhanced services, 
which could not be provided without the Cross-Border Trade Enhancement 
Act.

    Question. Why should staffing at Border Patrol and ICE be 
increased, but not the Office of Field Operations?

    Answer. CBP remains focused on having the right mix of resources at 
and between our Nation's POEs and continues to address 1,132 CBPO 
positions vacant as of September 30, 2017.

    Updated WSM results submitted to Congress earlier this year 
continue to show a need for additional OFO capability to fully meet the 
standards set by statute, regulation, and CBP policies, assuming 
maintenance of current processes, procedures, technology, and 
facilities. The most recent results--factoring in the additional 2,000 
CBPOs funded by the FY 2014 DHS Appropriations Act--show a need for 
2,516 additional CBPOs through FY 2018. Again, the administration did 
submit the updated WSM and intends to submit proposals for authorizing 
language that would provide user fee funding to address the gap as we 
have in past years.

    Question. Does President Trump's budget proposal give CBP the 
resources it needs to achieve operational control of our ports of 
entry, which he required in his January 25th executive order and 
defined as ``the prevention of all unlawful entries into the United 
States, including entries by terrorists, other unlawful aliens, 
instruments of terrorism, narcotics, and other contraband.'' \1\ If it 
does not, what additional resources would be required to do so?
---------------------------------------------------------------------------
    \1\ Executive Order 13767, 82 Fed. Reg 8793 (January 25, 2017).

    Answer. As you know, CBP has the dual mission of preventing 
suspected terrorists, terrorist weapons, and other contraband from 
entering the United States, while also facilitating the flow of 
legitimate trade and travel into and out of the United States. CBP 
ensures that all persons and cargo enter the United States legally and 
safely through official checkpoints and POEs. CBP's over 60,000 highly 
trained employees ensure that the agency performs its mission with 
---------------------------------------------------------------------------
vigilance, integrity, and professionalism.

    The FY 2018 budget request will enable the Non-Intrusive Inspection 
Division (NIID) to recapitalize the relocatable VACIS and some mobile 
NII systems, average age over 10 years with Multi Energy Portals (MEP), 
at land border crossings and seaports. This recapitalization provides 
an opportunity to significantly increase NII capacity at POEs. The MEP 
concept scans the tractor at a lower energy (safe exposure for the 
driver) and the trailer at higher energy (for the seaport 
configuration, only the container is scanned). This concept supports a 
higher throughput by reducing the total time to scan by eliminating the 
need for the driver to leave the truck. The technical throughput of the 
system will sustain between 100-125 vehicles per hour. Since the system 
works at a higher energy for cargo, it will increase the equivalent 
steel penetration capability from approximately 2 inches (VACIS) to 11 
inches. In addition, the MEP is expected to have a lower sustainment 
cost because it has fewer mechanical parts and a modular construction. 
Finally, the concept is designed to free up manpower currently 
dedicated to NII roles such as ground guides for enforcement 
operations. The MEP will be ``CBP Network ready,'' which will support 
transferring image files via the network, either individually or en 
masse, and will eventually integrate with CBP enforcement systems 
further increasing efficiency and freeing additional manpower for 
enforcement operations.

    The MEP is the enabling technology that will allow CBP to introduce 
the Model Port concept, which is being funded by the city of Donna, TX, 
through the Donation Assistance Program (DAP). Unlike typical cargo 
POEs the Model Port will not have primary and will allow for the 
significant increase in the number of containers scanned while at the 
same time reducing the processing times for trucks crossing the 
southern border.

    The resources requested in the FY 2018 President's Budget Request 
will allow enhanced security at the ports of entry. CBP maintains a 
robust process for developing requirements for increased security 
across a 5-year time horizon to further increase security, within the 
constraints of available appropriated funding.

    Question. How many additional personnel would be required?

    Answer. The portion of the FY 2018 President's budget request 
relating to CBP indicates requests an additional 714 full time 
equivalent (FTE) employees in FY 2018. This includes personnel for AMO, 
Office of Intelligence, Office of Professional Responsibility (OPR), 
USBP, OFO's National Targeting Center, and the Office of Trade. 
Additionally, the administration submitted the updated 2018 WSM and 
intends to submit proposals for authorizing language that would provide 
user fee funding to address the gap as we have in past years.

    Question. Is it even possible to achieve full operational control 
of ports of entry?

    Answer. The Office of Field Operations (OFO), within CBP, is 
relentlessly self-critical in looking for more efficient and effective 
ways to accomplish our mission at the ports of entry. CBP continues to 
enhance the security of its processes at ports of entry, beginning at 
the point of origin for travelers and goods destined for the United 
States.

    It is important to note that most of what OFO does every day is 
mandated by statute. Every person and good seeking to be admitted into 
the United States must present themselves to a CBP Officer. Each day, 
more than 1 million people arrive at 328 U.S. POEs by air, land, and 
sea where OFO employees prevent the entry of terrorists and instruments 
of terror, welcome travelers, and facilitate the flow of goods 
essential to our economy 24/7. An additional $11 billion worth of 
international trade also crosses our border each day.

    CBP Officers at the POEs are the face at the border for all cargo 
and travelers entering the United States. While serving in this 
ambassador role to the Nation's trade community and internationally 
traveling public, over 30,000 CBP Officers, Agriculture Specialists, 
Trade and Revenue Staff, and Mission Support Staff, support CBP's 
critical anti-terrorism mission; enforce import and export laws and 
regulations of the United States; implement immigration policy and 
programs; and protect the United States from foreign animal and plant 
pests, diseases, and invasive species that could cause serious damage 
to U.S. crops, livestock, pets, and the environment.

    CBP has considerable risk management capability and physical 
control of the movement of people and goods seeking to enter our 
country through lawful ports of entry. If confirmed, I will continue to 
work with you, your staff, and Congress to outline requirements for 
further improvement.

    Question. Are you concerned that our ports of entry are 
understaffed? Why or why not?

    Answer. CBP is always concerned about having the right mix of 
resources at and between our Nation's POEs. Sufficient staffing at the 
POEs continues to be a key element of a prosperous economy and secure 
border. As one of the questions noted above, I had a leadership role in 
the development of the CBP WSM, the first rigorous, comprehensive 
effort to accurately capture our staffing requirements at ports of 
entry. This work was driven by demonstrated operational need, 
externally reviewed, and supported by extensive academic research into 
the economic impact and benefits of CBP Officer staffing. CBP staffing 
increases at ports of entry contribute directly and indirectly to the 
U.S. economy. This report is now provided annually, along with 
initiatives implemented to enhance our processes, and an assessment of 
how we can continue to innovate to improve service.

    In 2013 and 2014, the extent to which staffing and wait times 
affect the local and national economy was studied by the National 
Center for Risk and Economic Analysis of Terrorism Events (CREATE), a 
DHS Center of Excellence in Research and Education. In 2013, CREATE 
completed a report titled ``The Impact on the U.S. Economy of Changes 
in Wait Times at Ports of Entry.'' Their analysis found that an 
increase or decrease in staffing at the POEs has an impact on wait 
times and therefore on the U.S. economy. The impacts begin with changes 
in tourist and business travel expenditures and with changes in freight 
costs. These changes, in turn, translate into ripple, or multiplier, 
effects in port regions and the overall U.S. economy. In summary, 
CREATE found that the impacts on the U.S. economy of adding 33 CBPOs 
(their baseline) are $65.8 million increase in Gross Domestic Product 
(GDP), $21.2 million in opportunity cost savings, and 1,094 annual jobs 
added. While the U.S. Travel Association found every 33 overseas 
travelers creates one new American job (Travel Means Jobs, 2012), 
CREATE's findings equate to 33 new American jobs per CBPO added.

    Leveraging that analysis, CREATE published an additional report 
titled ``Passport Inspection Wait Time at U.S. International Airports 
and Its Economic Impacts'' in February 2014. The analysis found that 
average passport inspection wait time at U.S. airports rose by 25 
percent from 2010 to 2013, and the amount of time waited by travelers 
by 45 percent. Given projected increases in passenger volumes through 
2018, they estimated that CBP-OFO resources will need to grow by 4 
percent per year to stabilize wait times at their current levels. The 
analysis also found that an increase or decrease in staffing at the 
airports has an impact on wait times and, therefore, on the U.S. 
economy. The impacts begin with direct changes in tourist and business 
travel expenditures of foreign to the United States, as well as some 
offsetting increased travel by U.S. resident tourist and business 
travel abroad. These changes, in turn, translate into ripple, or 
multiplier, effects on the overall U.S. economy. Numerous other studies 
have been conducted on the economic impact of wait times at the POEs.

    In addition, the economic impact of CBP staffing, CBP is committed 
to ensuring the security of our Nation's borders, while continuing to 
facilitate legitimate travel and trade. Sufficient staffing resources 
are a vital component of ensuring that CBP maintains the highest level 
of vigilance along the borders. This can only be achieved with a 
specific strategy to maximizing the use of current resources through 
overtime and optimal scheduling practices; pursue alternative sources 
of financing through legislative proposals adjusting user fees; and 
continuing to implement transformative initiatives to reduce costs and 
mitigate staffing requirements.

    As noted above, the most recent results of CBP's Workload Staffing 
Model for CBPOs and Agricultural Resource Allocation Model--factoring 
in the additional 2,000 CBPOs funded by the FY 2014 Omnibus--show a 
need for 2,516 additional CBPOs and 721 CBP Agriculture Specialists 
through FY 2018. To close the gap for CBPOs, CBP proposed minimal 
increases for the IUF and COBRA user fees with the submission of the FY 
2018 President's budget to Congress which would allow CBP to fund the 
positions identified in the FY 2017 Resource Optimization Strategy 
without requiring the use of appropriated funding.

    Question. In your position as Acting Commissioner, have ever you 
raised a concern about staffing levels with former Secretary Kelly or 
Acting Secretary Duke?

    Answer. CBP is grateful for former Secretary Kelly's support and 
the continued support of Acting Secretary Duke on a variety of issues, 
not the least of which are CBP's staffing requirements. DHS is well-
versed in the staffing needs of CBP, including those embodied in the 
WSM and other reports. We have discussed our staffing needs with DHS on 
many occasions and have briefed them on our models. We have also 
discussed our hiring challenges with DHS and their guidance and 
partnership in effectuating a resolution to these challenges continues 
to be critical. We also discuss staffing levels in the context of the 
annual budget submission and the decisions made within the FY 2018 
President's budget request in support of CBP's most critical needs.

    Question. If so, what was your concern?

    Answer. As noted above, we have consistently engaged with DHS 
leadership. Within the FY 2018 President's budget request, we have 
outlined our intentions to increase the USBP and AMO workforce, the 
National Targeting Center (which is part of OFO), our trade and revenue 
staffing, and a number of mission critical support positions. CBP 
continues to use our workload staffing models and use fee requests to 
seek balances support of our resource needs.

    Question. Given that President Trump's budget proposal includes no 
additional funding for CBPOs at ports of entry, it's clear that if you 
have raised staffing concerns, you have been unsuccessful to encourage 
any addition of staffing at ports of entry. If you are confirmed, how 
can we expect you to adequately elevate this important issue and 
advocate for the critical needs at our ports of entry?

    Answer. During my tenure as Acting Commissioner, CBP has received 
consistent support for operational and staffing needs both at and 
between ports of entry. While the FY 2018 proposal includes initiative 
hiring requests for Border Patrol Agents and Air and Marine Pilots and 
Interdiction Agents, as noted above, the administration's submission of 
the updated 2017 WSM demonstrated an important commitment to the 
requirements it identified, as did the statement of intent in the 
President's FY18 budget to submit proposals for authorizing language 
that would provide user fee funding to address the gap as we have in 
past years.

    As mentioned above, I led the development of the WSM, and remain 
convinced of its validity and principles, including the economic 
benefits of adequate CBP staffing at ports of entry. I am a subject 
matter expert in these issues, have had direct access to and support 
from leadership at DHS and OMB since I became Acting Commissioner, and, 
if confirmed, would feel fully empowered to continue to elevate and 
advocate with regard to CBP Officer staffing.

    Question. Senator Roberts and I helped get a bill passed that 
codified DHS's responsibilities related to securing the food and 
agriculture sector. CBP Agriculture Specialists play a critical role in 
helping to secure our food and agriculture sectors.

    According to the staffing model for CBP's Office of Field 
Operations that you were responsible for developing, we have a deficit 
of more than 600 CBP Agricultural Specialists. If you are confirmed, 
what will you do to make sure that hiring additional Agriculture 
Specialists is a priority for CBP?

    Answer. If confirmed, recruiting, hiring, and sustaining our front 
line workforce, including CBP Agriculture Specialists (CBPASs), will 
remain my top mission support priority. CBP Agriculture operations are 
largely funded by an Animal and Plant Health Inspection Service (APHIS) 
Agricultural Quarantine Inspection User Fee (AQIUF). APHIS recently 
reassessed user fee rates to try and encompass costs associated with 
Agriculture Quarantine Inspection operations for both APHIS and CBP. In 
2015, the new/adjusted fees went into effect, but have not resulted in 
sufficiently increased collections to allow for additional hiring. To 
date, APHIS fee allotments from the user fee revenues have not fully 
covered the cost of CBP agriculture operations at the current staffing 
level; which is below the AgRAM recommendation. I intend to continue to 
engage USDA to address this discrepancy, and CBP and APHIS have agreed 
to revisit AQIUF fee rates in FY 2018.

    In the interim, CBP is attempting to optimize operational 
efficiencies and assess risks to better assign mission priorities. 
Additionally, the gap in CBP Agriculture Specialist staffing will be 
partially mitigated through the expansion of agriculture-related 
Business Transformation Initiatives (BTI) such as mobile technology 
which has benefitted the trade community while providing savings for 
CBP.

    For example, in FY 2016, CBP conducted an analysis at Port 
Everglades where mobile tablet technology initially was deployed. The 
study found that the use of the tablet to conduct agricultural releases 
of cargo as opposed to the use of a systems release for cargo release 
creates a 98 percent time savings within the release process. 
Specifically, the average release time drops from 4 to 6 hours to 5 
minutes. According to trade community interviews, the use of the tablet 
for the 21,000 tailgate inspections last year at Port Everglades 
resulted in approximately $20 million savings in additional landed 
costs (reduction of overtime for equipment and local warehouse 
personnel, late gate fees, truck-related costs, and other non-CBP costs 
that commonly occur in 20 percent of agriculture shipments). When 
compared to the initial investment of $226,000, OFO has delivered a 
significant return for its initial investment at just a single POE and 
continues to expand these capabilities nationwide.

    Question. President Trump's budget proposal does include $110 
million for Non-Intrusive Inspection Systems that scan cargo as it 
passes through ports of entry.

    Will President Trump's funding request achieve 100% screening of 
cargo and passengers at all ports of entry?

    Answer. The $110 million for Non-Intrusive Inspection (NII) systems 
does not allow CBP to scan with NII technology, 100 percent of cargo 
and passengers at all ports of entry for contraband--without impact to 
trade and travel. CBP does screen 100 percent of cargo and examines, 
through physical search or NII means, 100 percent of cargo that is 
deemed high-risk. In addition, CBP scans more than 99 percent of the 
cargo arriving into the United States via seaports, land borders, and 
mail express facilities for the presence of radiation.

    Currently, CBP operates 305 Large Scale NII systems at POE and 
Border Patrol Checkpoints throughout the United States. Containerized 
cargo or truck cargo identified as high risk by CBP is x-rayed to 
determine if further search is necessary. With the current x-ray 
technology deployed it would be virtually impossible for CBP officers 
to x-ray all containers prior to their release. The systems are 
standalone and primarily located in secondary inspection. As currently 
deployed, conducting 100 percent scanning with NII systems would create 
substantial cargo release delays throughout the United States.

    However, CBP is actively working to assess new technology and 
concepts of operations to increase the volume scanned. At present, CBP 
is conducting technology demonstrations on a new Large-Scale drive-
through x-ray system(s) to determine the effectiveness of utilizing NII 
systems in primary inspection to scan a larger portion of vehicles.

    The new systems are Drive-Through Multi Energy Portal Systems 
(MEPS). The key difference with these new systems allows the driver to 
stay in the vehicle while it is being x-rayed. The cab and driver will 
pass through the portal which will be x-rayed at a low dose and as the 
truck proceeds through the portal the truck and cargo will be x-rayed 
at a higher dose. These systems have passed radiation safety tests and 
ANSI safety standards. In effect, CBP can increase NII scanning from 
approximately 15-20 trucks per hour, as we do now, to potentially >50 
trucks per hour (based on vendor specifications). In fiscal year 2018, 
these MEPS will be tested at two ports of entry along the Southern 
border and at a major east coast seaport. Based on the results, CBP 
plans to deploy the system(s) at high-volume ports of entry along the 
Southwest border and major seaports which will allow CBP to scan a 
higher portion of arrival cargo and personal vehicles arriving at the 
United States. The $110 million would allow CBP to install this new 
type of technology at many major ports of entry throughout the United 
States which will significantly increase the number of inbound 
containers x-rayed without jeopardizing the facilitation of cargo and 
vehicles.

    Question. What will it take to get to a 100-percent screening 
standard?

    Answer. The Department takes its responsibility to ensure the 
security of all goods and containers entering the United States very 
seriously, and is committed to mitigating any threat to our citizens 
and national interests. DHS remains committed to advancing container 
security toward compliance with the law. DHS has produced numerous 
reports and analysis across the last two administrations on what 100 
percent scanning, which is currently under Secretarial waiver, would 
entail. While DHS continues to work on improving scanning technologies 
at seaports, the Department is expanding its efforts through broader 
interagency engagement to optimize solutions for securing all goods 
entering the United States. In so doing, DHS and its partners are 
considering more holistic approaches to addressing this challenge, that 
may include changes to policy and risk-based approaches to scanning 
cargo entering the country, creating a layered security risk based 
approach.

    CBP does currently perform 100 percent screening of passengers and 
cargo through a variety of systems and processes using a layered risk 
management approach. Currently, CBP operates 305 Large Scale NII 
systems at ports of entry and Border Patrol Checkpoints throughout the 
United States. Containerized cargo or truck cargo identified as high 
risk by CBP is x-rayed to determine if further search is necessary. 
With the current x-ray technology deployed it would be virtually 
impossible for CBP officers to x-ray all containers prior to their 
release. The systems are standalone and primarily located in secondary 
inspection. As currently deployed, conducting 100 percent scanning with 
NII systems would create substantial cargo release delays throughout 
the United States.

    CBP remains committed to maximizing pre-lading examinations of all 
high-risk cargo and increasing the percentage of containers scanned 
before they are laden on vessels destined for the United States.

    Question. Regarding maritime security, do you plan to implement the 
9/11 Act requirement for 100 percent scanning of all cargo container 
shipments or will you continue to support CBP's current approach of 
identifying and examining high-risk shipments?

    Answer. DHS remains committed to advancing container security 
toward compliance with the law. To move toward 100 percent scanning of 
cargo containers, DHS must not only enhance its own programs and layers 
of defense, but collaboratively build new partnerships with foreign 
governments and private sector entities. These partnership efforts must 
address the specific nuclear/radiological threat central to the 
objectives of the 100 percent scanning requirement by increasing the 
amount of U.S. bound cargo scanned, improving global scanning capacity 
overall, reducing the volume of radiological/nuclear materials out of 
regulatory control, and improving security in other vectors. In 
addition, we must take a more comprehensive view of the broader risk 
landscape to identify and build resilience against other threats that 
could disrupt the entire global supply chain.

    Question. Can you give a sense of the scale of how much more 
traffickers rely on routes that go through ports of entry, than those 
that cross in more remote border areas?

    Answer. Based on intelligence reporting and seizure data, the CBP 
Office of Intelligence assesses that most hard drugs (cocaine, heroin, 
methamphetamine, and synthetic opioids) are smuggled through the POEs 
along the Southwest border (SWB). We believe that the relatively small 
size and high value of these loads make smuggling through the POEs the 
most viable means to move these drugs. In the case of marijuana, the 
bulk nature and relative low value of this drug means that it is 
predominately smuggled into the United States between the POEs. In the 
case of fentanyl and other synthetic opioids, these drugs are generally 
smuggled through the POEs at the land borders in privately-owned 
vehicles (POVs) and are normally part of poly-drug loads. An increasing 
number of seizures of hard narcotics and synthetics are being made in 
the express consignment and international mail environments as well.

    We assess with high confidence that when traffickers engage in hard 
narcotics smuggling via land borders, they rely on routes through the 
POEs more often than traffickers that utilize remote border areas. The 
terrain and geography in remote areas often provide operational 
impediments to the trafficker, and when you pair the terrain obstacle 
with the fact that narcotics traffickers rely on in many cases physical 
security scouts and counter intelligence tactics to monitor the 
movements of narcotics, both factors greatly increase the preference to 
move narcotics through POEs in a semi-controlled smuggling operation, 
rather than in between or around a POE.

    Question. If we increase enforcement between ports of entry by 
expanding the Border Patrol, how do you expect transnational criminal 
organizations (TCOs) will respond?

    Answer. By increasing enforcement between the POEs by expanding the 
U.S. Border Patrol, TCOs will likely shift operations to locations with 
less Border Patrol presence. Also, TCOs may increase the use of ``non-
conventional smuggling tactics'' such as tunnels, Unmanned Aerial 
Systems, and semi-submersible vessels. TCOs may also incite violence 
towards Border Patrol Agents when encountered in an attempt to avoid 
capture or loss of narcotics load. CBP may also see a change in tactics 
to increase human smuggling operations at POEs and the recent trend of 
increased narcotic smuggling between POEs may reverse.

    Question. If we increase enforcement between ports of entry by 
building a border wall, how do you expect TCOs will respond?

    Answer. TCOs will likely respond much the same way to the increase 
enforcement between POEs by building a border wall as they would to an 
increase of enforcement between the POEs by expanding the Border 
Patrol. In the past, TCOs have adapted and shifted operations to 
locations they feel are more vulnerable between the POEs or increase--
in volume and sophistication--smuggling attempts at the POEs. Increased 
enforcement either through a manpower surge or an expansion in 
infrastructure could lead to a change of tactics, such as more frequent 
smuggling attempts with smaller loads. An increase in agent assaults as 
TCOs become more desperate to get their commodities (narcotics or 
people) across the border successfully is also likely. CBP may also see 
a change in tactics to increase human smuggling operations at POEs, and 
the recent trend of increased narcotic smuggling between POEs may 
reverse.

    Question. The President requested $1.6 billion to build 74 miles of 
border wall and replacement fencing in 2018. At $21.6 million per mile, 
that's more than triple what it cost to build existing fencing. I 
understand that the Border Patrol in April compiled a list of 
operational requirements for the Southwest border.

    Will you commit to allowing my staff to review the data related to 
the Southwest Border Capability Roadmap if you are confirmed as CBP 
Commissioner?

    Answer. Yes, I will commit to allowing your staff to review the 
data. My team has already taken steps to provide context as well as 
data. On October 26, 2017, U.S. Border Patrol provided your staff 
members an extensive briefing regarding the Capability Gap Analysis 
Process as well as the Capabilities Roadmap. At this time, U.S. Border 
Patrol walked through some of the data provided by the sectors in 
support of this process. Due to the amount of data provided, follow up 
meetings are being scheduled to further walk through the border 
investment strategy and the data that supports additional 
infrastructure and technology requests. I am committed to providing 
Congress the data needed to understand our requirements and the 
strategy we are employing to meet those requirements.

    Question. What data, metrics, and cost-benefit analyses were used 
to determine that 74 miles of wall and replacement fencing is the best 
and most cost-effective method for deterring the illegal entry of 
people, drugs, and contraband into the country?

    Answer. The U.S. Border Patrol maintains a Capabilities Gap 
Analysis Process (CGAP) that begins with input from the sector level, 
and has identified the necessary capabilities to secure the border. The 
four key Master Capabilities are: Domain Awareness, Impedance and 
Denial (I&D), Access and Mobility, and Mission Readiness. The USBP 
developed a comprehensive, repeatable methodology to help assess its 
Southwest border Impedance and Denial needs. A key component of this is 
a decision support tool, developed to help evaluate and prioritize 
investments. Since implementation of CGAP in 2014, USBP field 
commanders have consistently identified impedance and denial, domain 
awareness, access and mobility and mission readiness as priority 
capability gaps at and along the Southwest border. The analysis is 
intended to assist USBP in identifying locations along the Southwest 
border that would benefit from an impedance and denial solution and 
prioritizing the locations where I&D solutions are needed most. This 
analysis helped inform the requirements that were advocated for in both 
the FY 2017 Budget Amendment and the FY 2018 Budget Request.

    The 74 miles requested includes 60 miles of border wall requirement 
in the Rio Grande Valley and 14 miles in San Diego. In the case of RGV, 
the wall requirement will support continued barrier requirements 
originating from field commanders of the busiest and most vulnerable 
areas of the Southwest border. In FY 2016 the Rio Grande Valley Sector 
had over 186,000 apprehensions and seizures of over 327,000 pounds of 
narcotics.

    The 14 miles of wall in San Diego will replace dilapidated barrier 
to recapitalize on previous investments and to sustain operational 
gains that have been achieved in that area. In FY 2016 this portion of 
barrier had over 800 breeches in the existing infrastructure and no 
longer met USBP's operational requirements.

    The USBP has analyzed statistical information evaluating the 
impacts of border barrier on border security operations. That analysis 
shows that past use of barrier has had many positive effects that 
include increased operational control and improved quality of life, 
including safety, for border communities. USBP has seen illicit drug 
and human smuggling activity shift from areas where border walls are 
deployed to other areas with limited or no border walls.

    Securing the border requires an integrated approach including 
infrastructure such as border wall and road access, surveillance 
technology, response capability and personnel. The border wall provides 
an important capability to impede or deny illegal crossings in those 
areas where it is applied, as demonstrated in San Diego, Tucson, El 
Paso, and Yuma Sectors, but it is not effective alone, and is not an 
appropriate solution for every area of the border. Where it is applied, 
the border wall must be supported by the ability to detect activity 
through advanced surveillance technology, and the ability to respond 
effectively with mobile, trained personnel.

    Given the dynamic nature of the border environment, all operational 
analyses must be regularly revisited. USBP will repeat the impedance 
and denial analysis annually as part of its requirements management 
process to leverage the latest threat and risk information and inform 
future budget requests.

    Question. Will the Federal Government exercise eminent domain to 
seize private property in order to build the wall that President Trump 
has ordered?

    Answer. DHS only acquires real property that is necessary to meet 
DHS mission requirements. The preferred method of obtaining interest in 
real property is through negotiating an offer to sell based upon the 
property's fair market value. DHS avoids, with few exceptions, any 
acquisition of real property through eminent domain. However, in 
situations where voluntary acquisition is not possible, DHS/CBP may 
have to consider acquisition through condemnation.

    Question. How many private land owners will have their property 
seized in order to build the wall?

    Answer. At this stage, DHS/CBP cannot state with certainty how many 
landowners will be impacted by new border wall construction 
requirements. However, as previously noted, the preferred method of 
obtaining interest in real property is through negotiating an offer to 
sell based upon the property's fair market value. DHS avoids, with few 
exceptions, any acquisition of real property through eminent domain.

    Question. How many miles of additional border barrier do you intend 
to build along the Southwest border?

    Answer. U.S. Border Patrol has assessed the entire Southwest border 
to determine requirements for impedance and denial. CBP is currently 
developing a comprehensive assessment of potential requirements for the 
border wall as part of the Border Security Improvement Plan required by 
the FY 2017 Omnibus. Any future construction of barrier will be 
performed in a manner which is responsive to the operational priorities 
as identified by Border Patrol leadership.

    Question. How long will it take to build the wall?

    Answer. The length of time required to build the border wall is 
predicated on the availability of funding with which to execute 
construction projects, the total mileage of wall that will be built, 
and any necessary land acquisition.

    Question. How much will it cost?

    Answer. At this time, CBP cannot provide a total cost for border 
wall construction. CBP is currently developing a comprehensive 
assessment of potential requirements for the border wall as part of the 
Border Security Improvement Plan required by the FY 2017 Omnibus. That 
said, the Southwest border is a dynamic environment and each mile of 
border requires a tailored solution. Costs will vary depending on the 
type of barrier required by the terrain, traffic, and threats as well 
as specific construction and land acquisition requirements.

    Question. In your view, what are the most effective types of 
technology that can and should be deployed along the Southwest border 
in order to increase border security?

    Answer. One of the most effective ways we could enhance border 
security would be by extending broadband wireless capability into more 
remote areas of the border. One of our challenges is transmitting data 
we collect from sensors to command centers and to individual agents and 
officers. In fact, we often must construct substantial communications 
infrastructure in order to deploy our most capable systems along the 
border. Providing extensive and secure broadband capability would 
provide us greater flexibility and enhance the reach of our sensor 
technologies.

    Extending and increasing the capability of our tactical 
communications network is also important. Our agents and officers need 
reliable communications for operational efficiency and agent/officer 
safety.

    With respect to sensors, the most effective systems are those that 
allow us to detect activity and then to characterize it. Typically, 
radars and cameras are useful in this regard. Long range radars (to 
detect activity) and cameras that give us high resolution images at a 
distance (so we can see, for example, whether someone is carrying a 
weapon or not) tend to be very effective in this regard.

    Where radars may not be effective (due to terrain or other 
obstructions), other types of detection technology are useful. For 
example, acoustic or seismic sensors can help us detect tunneling and 
low flying aircraft.

    The specific choice of technology in a given area is highly 
dependent on terrain, geology, and threat. While we can describe 
generally the types of technology that are effective, the actual 
deployment approach (for example: mobile, fixed, or relocatable; 
ground-based or air-based) can vary with the specific needs of 
individual operational environments.

    Question. If confirmed, what method will you use to evaluate each 
technology's effectiveness?

    Answer. I will continue to use both quantitative and qualitative 
measures to evaluate the effectiveness of technology.

    When we deploy technology, we establish expectations for its 
performance based on predictions, analysis, modeling and simulation, 
and agent/officer feedback. Those expectations set a baseline and we 
then measure the performance against those expectations.

    One element of our evaluation is a formally defined process called 
``operational test and evaluation (OT&E).'' In OT&E, we have our front-
line personnel operate the system in the actual operational environment 
and collect data to determine if the system meets our expectations, and 
how well it supports our mission performance. Some of the things we 
measure are very precise technical characteristics--like effective 
range of radars, sensitivity of x-ray equipment, or accuracy of 
predictive analytical models, for example. Others are based on feedback 
from the agents and officers--like ease of use of information of 
systems and clarity of camera images.

    We also evaluate how the deployment of technology changes the level 
of border security. We can measure things like changes in number of 
apprehensions, number of incursions detected, and percentage of 
detected incursion that are interdicted. We also rely on the expert 
judgment of our front-line officers and agents, who can tell us whether 
illegal activity has increased or decreased based on their experience 
and other evidence (like changes in terrain as foot paths are created 
or become overgrown, amount of trash and other material left behind, 
results of interviews with those apprehended).

    Based on what we learn from this evaluation process, we update our 
plans, expectations, and requirements for future technologies to ensure 
we are selecting the most cost-effective tools to support our mission.

    Question. GAO concluded in a February 2017 report that CBP has not 
developed metrics that could be used to systematically evaluate 
existing border fencing's contributions to border security. GAO 
recommended that the Chief of the Border Patrol develop appropriate 
metrics and use them to make resource allocation decisions.

    What steps will you take, if confirmed, to comply with GAO's 
recommendation and to develop performance metrics to evaluate the 
effectiveness of the physical wall that President Trump has ordered?

    Answer. If confirmed, I will work to ensure we have appropriate 
metrics in place to make effective and appropriate resource allocation 
decisions. The aforementioned CGAP is intended to identify gaps and 
other trends between the ports of entry. Once the gaps have been 
identified, analyzed and prioritized, USBP views these gaps through the 
lens of available resources including personnel, persistent 
surveillance, and impedance and denial (i.e., wall)--to address those 
threats. The time to procure and available funding shape the immediate 
response, while we address the long-term strategic needs. We already 
use metrics like the Interdiction Effectiveness Rate \2\ and State of 
the Border risk analysis to guide and shape the balancing of resources 
to meet the actions of the extremely nimble transnational criminal 
organizations. ``Operational Control'' of the border, as directed by 
both the Secure Fence Act of 2006 (8 U.S.C. 1701) and Executive Order 
13767 (section 4),\3\ is an additional metric that is used to guide our 
prioritized investment. When balancing competing interests, DHS and CBP 
will use these and other specific methodologies to identify and 
validate border control initiatives and investments.
---------------------------------------------------------------------------
    \2\ Interdiction Effectiveness Rate (IER) is the percent of 
detected illegal entrants who were apprehended or turned back after 
illegally entering the United States between Southwest border ports of 
entry. IERs are calculated by taking the sum of apprehensions and 
turnbacks, and dividing by the sum of apprehensions, turnbacks, and 
gotaways.
    \3\ The Secure Fence Act and the executive order both define 
``operational control'' as the ``prevention of all unlawful entries 
into the United States.''

    Among other benefits, physical barriers contribute to USBP 
increasing certainty of arrest of anyone crossing the border illegally. 
In defining illegal immigration as the threat for the purposes of this 
question, we know that the threat migrates, generally seeking the path 
of least resistance for entering our country illegally. Maintaining a 
high certainty of arrest between the POEs depends upon USBP's ability 
to accomplish mission essential tasks with the USBP having the 
appropriate capabilities to gain, maintain, and expand operational 
control of the border. The border wall will provide an important 
capability to impede or deny illegal crossings in those areas where it 
is applied, as demonstrated in San Diego, Tucson, El Paso, and Yuma 
Sectors, but it is not effective alone, and is not an appropriate 
solution for every area of the border. Where it is applied, the border 
wall must be supported by the ability to detect activity through 
advanced surveillance technology, and the ability to respond 
---------------------------------------------------------------------------
effectively with mobile, trained personnel.

    In this way, the most effective means of achieving operational 
control of the border does not rely on any single capability, piece of 
technology, or infrastructure. It is a mixture of all of those things, 
executed by a properly trained and properly equipped mission ready 
workforce.

    Question. A September 2017 report by the Office of Immigration 
Statistics estimates successful illegal border entries fell from 1.8 
million in 2000 to 170,000 in 2016--a 91-percent decline. The report 
found that ``the Southwest land border is more difficult to illegally 
cross today than ever before.''

    What are the main factors, in your view, that are driving the 
sizable decrease in border apprehensions and estimated illegal entries 
over the past 17 years?

    Answer. The most critical factors driving the sizeable decrease in 
apprehensions of illegal crossings, and related successful entries 
between ports of entry, on the Southwest border have been the 
consistent investment over four administrations to increase the 
capability of the USBP to secure the border. These investments have 
been supported by sophisticated strategies and operational innovations. 
The foundation for the positive trends cited in the question was the 
forward deployment approach first utilized in 1993. Additionally, 
beginning in the early 2000s, the steady increases of Border Patrol 
Agents, tactical infrastructure, access and border roads, vehicles and 
air assets, situational awareness technology, and geospatial 
intelligence, increased interdictions at the border, and community and 
international liaisons have attributed to the decrease leading up to 
this point. These strategies have assisted the USBP in applying an 
enhanced deployment posture at the border. These investments have been 
supported and enhanced by development of a comprehensive consequence 
delivery system to increase deterrence for those crossing our border 
illegally. The results have been higher rates of interdiction 
effectiveness, increased costs for crossing the border illegally, and 
reduced recidivism. The effectiveness of these efforts depend on CBP's 
partnership with ICE which has increased its capacity to detain and 
remove.

    Question. Do you believe the southern border wall that President 
Trump has ordered is necessary given the sharp decline in border 
apprehensions and estimated illegal entries?

    Answer. Securing the border requires an integrated approach 
including infrastructure such as border wall and road access, 
surveillance technology, response capability and personnel. The U.S. 
Border Patrol maintains a Capabilities Gap Analysis Process that begins 
with input from the sector level, and has identified the necessary 
capabilities to secure the border. The four key Master Capabilities 
are: Domain Awareness, Impedance and Denial, Access and Mobility, and 
Mission Readiness. The border wall provides an important capability to 
impede or deny illegal crossings in those areas where it is applied, as 
demonstrated in San Diego, Tucson, El Paso, and Yuma Sectors, but it is 
not effective alone, and is not an appropriate solution for every area 
of the border. It is most effective where there are populated areas 
near the line on the U.S. side of the border, where illegal crossers 
can vanish within residential and commercial areas.

    Where it is applied, the border wall must be supported by the 
ability to detect activity through advanced surveillance technology, 
and the ability to respond effectively with mobile, trained personnel. 
In this way, the most effective means of achieving operational control 
of the border does not rely on any single capability, piece of 
technology, or infrastructure. It is a mixture of all of those things, 
executed by a properly trained and properly equipped mission ready 
workforce.

    Question. Given the Office of Immigrations Statistics' assessment, 
do you agree with the President's assessment that people are ``pouring 
across the border''?

    Answer. The significant improvements recognized in the recent 
Office of Immigration Statistics report are promising, and reflect the 
benefits of sustained investment in border security capabilities based 
on operational requirements, combined with the effective operational 
strategies applied by the U.S. Border Patrol, along with improvements 
in enforcement policies and consequence delivery. Despite these 
improvements, we continue to see over 25,000 apprehensions of illegal 
crossings per month between ports of entry, a number that has been 
growing monthly, as well as increasing amounts of hard narcotics 
seizures. These threats--over 830 people a day--include previously 
deported criminals, hardened smugglers employed by ruthless cartels, 
and other potential security risks. It remains CBP's responsibility to 
effectively interdict and deter these crossings, in concert with 
immigration enforcement partners and supported by appropriations and 
authorities from Congress as we strive toward operational control, the 
effective deterrence or interdiction of all illegal crossings.

    Question. A report published earlier this year by researchers with 
the Center for Migration Studies concluded that two-thirds of the 
undocumented immigrants who arrived in the United States in 2014 did 
not illegally cross a border. Rather, they were admitted on non-
immigrant visas and then overstayed their period of admission or 
otherwise violated the terms of their visas.

    Would the physical wall that President Trump has ordered decrease 
the number of immigrants who enter the country illegally but then 
overstay a visa?

    Answer. The border wall is a key capability to provide impedance 
and denial between ports of entry. While it does not directly respond 
to the challenge of those who enter our country legally on visas or 
under the visa waiver program and then overstay, it hinders, if not 
outright impedes an option for illegal entry where applied.

    To address the challenge of overstays, if confirmed, I am committed 
to working with my colleagues in U.S. Immigration and Customs 
Enforcement, U.S. Citizenship and Immigration Services, the Department 
of State, and across the interagency to continue enhancing our 
enforcement efforts. Over the last 3 years, CBP has made great strides 
in the ability to identify overstays by visa category and country of 
origin, as now reported annually to Congress. CBP has a real-time 
referral process to ICE for overstays, based on a prioritized 
framework. We are also making significant strides toward implementation 
of biometric exit as required by statute. If confirmed, I would 
continue to direct efforts to pursue implementation of the systems and 
programs designed to address overstays as required by statute and 
executive order.

    Question. Why or why not?

    Answer. As noted above, while the physical border wall is not a 
capability that directly applies to overstays, they are related. While 
a border wall is a key security capability, it is not an all-
encompassing security solution that should be pursued alone. Instead, 
securing the border between ports of entry requires an integrated 
approach including infrastructure such as border wall and road access, 
surveillance technology, response capability and personnel. As the 
question suggests, the ports of entry and our immigration benefit 
programs must also maintain strong security postures and capabilities 
based on enhanced technology, systems, and interagency processes. Both 
the Congress and the President have given specific guidance to enhance 
security at ports of entry, including implementation of biometric exit, 
and to improve the vetting of foreign nationals seeking to travel to 
the United States. If confirmed, I would remain committed to pursuing 
border security through balanced investments, enhanced programs, 
improved operations, and innovative partnerships at ports of entry as 
well as between.

    Question. If confirmed, what resources do you plan to commit and 
what initiatives do you plan to undertake to address the issue of visa 
overstays?

    Answer. If confirmed, I would continue to support the expansion of 
existing efforts, as well as introduction of implementation of enhanced 
technology, programs, and operations aimed at reducing visa overstays. 
Today, regardless of whether a visitor is traveling via the visa waiver 
program (VWP) or under a visa, for almost all visa categories, 
overstays are automatically identified the day their period of 
admission expires if there is no indication of the traveler having 
departed within the time frame established on their admission to the 
United States. These figures are generated using CBP's Arrival and 
Departure Information System using travel data from CBP records and 
commercial carrier manifests. This data is correlated against other DHS 
systems to eliminate individuals who have received extensions or 
adjusted status and remain lawfully in the United States. The overstay 
lists are run through CBP's Automated Targeting System which applies 
ICE-defined criteria to prioritize the records. This information is 
then provided daily to ICE for appropriate action.

    In addition to providing overstay information to ICE for action, 
CBP is expanding its review of visa overstays for those cases where the 
individual has since departed the United States. CBP currently reviews 
select visa overstays and as appropriate places 3- or 10-year travel 
bans on their ability to re-enter the U.S. System improvements and 
capacity enhancements are underway to expand the classes and numbers of 
visa overstays undergoing this review.

    CBP is also taking steps to improve travelers' awareness of their 
admission status. In May 2017, CBP launched a new online capability for 
VWP travelers to look up their compliance with their current admission. 
A simple button on a CBP webpage that says, ``How much longer may I 
remain in the United States?'' CBP has started sending email 
notifications to VWP overstays to advise them they have exceeded their 
authorized period of admission and their permission to utilize the Visa 
Waiver Program is no longer valid. This program is being expanded to 
notify visa holders as well, prior to their term of admission expiring 
it is nearing their time to depart. Ten days prior to becoming an 
overstay, if a traveler is still in the United States they will be 
notified by email and referred to a new online capability for details 
on their expected departure date. This program is intended to support 
visa and VWP travelers alike.

    Additional initiatives addressing overstays include the sharing of 
relevant overstay details with systems used by other DHS components, as 
well as other government agencies such as the Department of State, and 
used by them in the performance of their respective missions. For 
example, systems are accessed at consular offices when individuals 
apply for a visa (or subsequent visas), and lookouts placed within 
these databases indicate status of current or historical visas as it 
pertains to the traveler's compliance with the length of time 
associated with the terms of any previous admissions. Furthermore, 
select overstay information is made available to requesting Department 
of State consular offices for all travelers originating from a 
particular region of interest to individual consular posts.''

    Further, CBP is working towards full implementation of biometric 
exit in the air environment within the next 4 years. CBP has deployed 
biometric exit technical demonstrations at one departure gate to the 
following airports: Hartsfield-Jackson Atlanta International Airport 
(Atlanta), Washington Dulles International Airport, Houston George Bush 
Intercontinental Airport, Chicago O'Hare International Airport, Las 
Vegas McCarran International Airport, Houston William P. Hobby Airport, 
and John F. Kennedy International Airport (JFK). Coordination and 
partnership with CBP stakeholders including airlines and airports is 
critical to the success of deployment of biometric exit in the air 
environment.

    CBP has also launched a partnership with the Transportation 
Security Administration at JFK to test facial biometric matching to 
determine how CBP's facial recognition biometric exit might be 
leveraged for checkpoint operations. Beginning in early 2018, CBP is 
working to fully scale out air biometric exit and will spend 2018 
working with stakeholders to get commitment to deploy biometric exit 
technology.

    Question. The U.S.-Canadian border stands as the longest undefended 
border in the world, covering nearly 4,000 miles of land and water.

    How do you plan to address the vulnerabilities on the northern 
border?

    Answer. CBP works closely with DHS to help ensure the Department is 
maximizing the benefits of its coordination efforts with northern 
border partners through interagency forums, international agreements, 
and the resource planning process. CBP had representation on the DHS-
led northern border security threat assessment integrated product team 
that is intended to inform subsequent strategy.

    Based on the findings of the DHS Northern Border Threat Analysis, 
former Secretary Kelly recognized the need to update the Northern 
Border Strategy and directed its revision be complete by January 5, 
2018. CBP has continued to work with DHS to inform and develop resource 
planning and will implement these policies and plans to identify, 
assess, and integrate available partner resources at the northern 
border. The updated Strategy should be based on an intelligence-driven 
threat assessment of the Northern Border (as articulated in the 
Northern Border Threat Analysis). That analysis points to our need to 
investigate, interdict, disrupt, and dismantle terrorist, 
transnational, and other criminal organizations that may utilize the 
northern border to harm the United States.

    Question. How will your approach differ from that used on the 
Southwest border?

    Answer. The revised Northern Border Strategy and its associated 
implementation plan will serve as key management tools and should 
recognize the unique nature and challenges of the northern border, 
including its diverse geography, remote expanses, high volume of cross-
border trade and travel, and our long history of social, cultural, and 
economic ties with Canada. This context will inform appropriate border 
security solutions. The Strategy should also support enhanced domain 
and situational awareness, intelligence, and information sharing. 
Whether concerning terrorism, drug trafficking, human trafficking, 
human smuggling, or other illicit transnational threats, information 
sharing and data integration are critical to our ability to secure the 
northern border.

    Each type of terrain presents its own detection and interdiction 
challenges, inhibiting the utilization of a single set of security 
measures along the full length of the border. In order to address the 
unique northern border terrain, from sparsely populated open plains and 
rugged mountains, to major metropolitan centers and vast lakes heavily 
utilized for recreational activities, CBP's approach focuses on:

          Enhance cross-border land, air, and maritime domain 
        awareness and improve intelligence and information sharing. 
        Network current and future persistent wide area surveillance 
        systems with sensors deployed on aircraft, vessels, and the 
        AMOC to ensure they share the same operational picture.
          CBP actively participates in and promotes integrated 
        operations with Canadian, Federal, State, local, and tribal 
        partners resulting in the identification, interdiction, 
        investigation, and disruption of terrorist actions and illicit 
        cross-border activities.
          <ctr-circle>  Cooperate with Canadian counterparts at the 
        port level, such as the Integrated Border Enforcement Teams 
        (IBET) and the Cross Border Law Enforcement Advisory Committee, 
        which allow flexibility and unity of effort in a resource-
        constrained environment.
          <ctr-circle>  Enhance participation on task forces and 
        intelligence groups by maintaining agency participation in the 
        Northern Border Coordination Center, Drug Enforcement Agency 
        Task Forces, IBET, and BEST programs.
          Intelligence, risk assessments, and capability gap 
        assessments assist CBP decision makers in optimizing and 
        appropriately prioritizing the mix of technology, equipment, 
        and personnel utilized at various points along the northern 
        border.
          In order to continue encouraging the use of the northern 
        border as an avenue for efficient and lawful trade, finance, 
        immigration, and travel, CBP continues to promote public and 
        private sector engagement with domestic and international 
        partners and stakeholders.
          Harmonize trade and travel facilitation and security 
        requirements with Canada and pursue solutions for addressing 
        policy differences with impacts on trade and travel security.
          Increase public and private sector participation in trusted 
        traveler and trusted traders programs.

    Question. Do you believe that CBP has prioritized adequate 
resources for the northern border?

    Answer. CBP maintains robust capabilities on the Northern Border 
consistent with the considerable amount of legitimate cross-border 
trade and travel, and current relative levels of illegal cross border 
activity, threats, and trends. CBP strives to maximize the benefits of 
its coordination efforts with northern border partners, in particular 
the Government of Canada and in particular Canada Border Services 
Agency (CBSA) through interagency forums, international agreements, and 
resource planning processes. The revised Northern Border Strategy and 
its associated implementation plan will serve as key management tools 
that will allow CBP to align programs, assess capability gaps, and fill 
those gaps in a responsible, cost-effective manner.

    Specific to CBP with respect to trade facilitation, economic 
growth, and jobs, CBP has worked to achieve increased harmonized 
benefits to NEXUS members, enhanced facilities to support trusted 
trader and traveler programs, implementation of additional pre-
inspection and pre-clearance initiatives, facilitated cross-border 
business, the provision of a single window (ACE) through which 
importers can electronically submit all information to comply with 
customs and other participating government agency regulations, and 
coordination of border infrastructure investment and upgraded physical 
infrastructure at key border crossings, among other initiatives.

    Question. In recent years, there has been a migration surge from 
the Northern Triangle of Central America--El Salvador, Guatemala and 
Honduras--to the United States, particularly by unaccompanied minors 
and parents with young children.

    What role have violence and economic conditions in the region 
played in this migration?

    Answer. CBP's experience is that both push and pull factors play a 
role in contributing to migration. While violence and weak economies in 
the Northern Triangle are among the primary push factors that drive 
citizens, economic opportunity and inconsistency of application of U.S. 
immigration law have been significant pull factors. If confirmed, I am 
committed to working across the interagency to address both the push 
and pull factors leading to migration from the Northern Triangle.

    Question. A few months ago, Senators Tester, Heitkamp, and I wrote 
you a letter about Border Patrol radio failures. The letter discussed 
severe shortfalls in secure, reliable communications systems along the 
southern and northern borders that have been brought to our attention 
by the National Border Patrol Council and individual Border Patrol 
agents. We have heard reports that the radios many agents use can't 
talk with State and local law enforcement, and, in remote areas of the 
border, the radios often simply don't work. In some cases, agents have 
had to rely on unencrypted personal cell phones to speak to each other. 
This is a clear threat to agent safety and border security.

    Will you commit to resolving this problem within 90 days of your 
confirmation?

    Answer. If confirmed, I commit to the pursuit and attainment of 
secure and reliable communications by leveraging traditional land 
mobile radio and innovative technology such as Long-Term Evolution 
(LTE). It is important to note, however, that remedying all northern, 
southern and coastal communications and interoperability with 
acceptable solutions is not attainable in 90 days. For context, CBP 
environments and network infrastructure vary across the enterprise. The 
State and local law enforcement agencies our Sectors/Branches/Field 
Offices need to interoperate with vary across the Nation. Acquiring the 
necessary real estate, site surveys, environmental clearances, 
equipment, and supplies for reliable communications towers and networks 
can't be done adequately in that time frame in remote and rural areas. 
That said, I commit to working on all of these concerns through 90 days 
and beyond until we establish a communications network that our agents 
and officers can continue to rely on and safely perform their duties 
during daylight, through the hours of darkness, in urban areas, and 
through the most remote locations along our borders.

    Toward that end, CBP is developing a stop gap measure through the 
use of alternate technologies such as satellite-based, handheld/mobile 
units in field locations where no Land Mobile Radio (LMR) and/or 
cellular coverage exists. CBP actively uses satellite-based handheld 
radios as a stopgap measure in high mission tempo areas where LMR/LTE 
capabilities are non-existent. CBP satellite radios are currently 
supported under a Defense Information Systems Agency (DISA) contract 
expires FY 2018. DISA contract will have to be renegotiated in FY19. 
Additionally, CBP is working with the Department of Homeland Security 
(DHS) to construct future tactical communications architecture to 
standardize technology, security, and leverage or consolidate 
infrastructure components. CBP regularly coordinates with other DHS 
agencies, such as Science and Technology (S&T), for future 
interoperability and training requirements. CBP TALMEC is actively 
coordinating with FirstNet to leverage their planned deployment of 
FirstNet sites in locations were CBP has active communications gaps.

    Question. What specifically will you do to resolve this problem?

    Answer. CBP continues to work diligently towards mitigating any 
shortfalls in secure and interoperable radio communications. In 
September 2016, the former CBP Commissioner, at my recommendation along 
with the Agency Leadership Council, directed the establishment of the 
Tactical Air, Land and Marine Enterprise Communications (TALMEC) group 
to act as the single and authoritative voice for all CBP tactical 
communications representing its stakeholders which include AMO, OFO, 
and USBP. As such, CBP is committed to leveraging this group in the 
pursuit and attainment of secure and reliable communications 
recognizing there are various coverage and interoperability gaps across 
the CBP operational environments. USBP leads CBP-wide planning, 
budgeting, coordination, and oversight for all operational components 
to harmonize requirements across the tactical communications portfolio 
to achieve maximum interoperability and functionality in the most cost 
effective manner possible. The TALMEC mandate is to be prioritized in 
direct relation to strategic goals, risk, and threat assessments. CBP 
environments and network infrastructure vary across the enterprise. 
This includes interoperability with Federal, State, local, and tribal 
civil (F/S/L/T) authorities as well as cross border communications with 
Canada and Mexico. As coverage gaps and/or interoperability gaps are 
identified, CBP TALMEC will initiate engineering studies and coordinate 
with other CBP programs and other F/S/L/T agencies to consolidate or 
leverage existing infrastructure where available. With the recent 
procurement of dual band and multi-band radios, CBP radios are being 
distributed certified to operate on State and local law enforcement 
radio networks strengthening interoperability. The added dual and 
multi-band frequency allows Sectors/Field Offices/Branches to work with 
the corresponding State and local law enforcement entities on 
agreements to leverage a State or local radio network to further 
mitigate CBPs LMR coverage gaps. Additionally, efforts to expand 
coverage and mitigate existing communications gaps along the northern 
and southern border are underway in Laredo, TX, Ajo, AZ, Alamogordo, 
NM, Indio, CA, Malta, MT, Havre, MT, Plentywood, MT and West Palm 
Beach, FL.

    Question. President Trump has stated that ``there's no better place 
for solar than the Mexico border--the southern border. And there is a 
very good chance we can do a solar wall, which would actually look 
good. But there is a very good chance we could do a solar wall. . . . 
We are seriously looking at a solar wall.''

    Does the administration currently have plans to build a solar wall?

    Answer. CBP is moving forward as appropriate in the President's 
executive order to ``construct a physical wall'' where appropriate to 
enhance security along the U.S. border with Mexico. The border wall 
system designs standards are developed for specific segments of border 
on the basis of operational requirements and operational and 
engineering feasibility. To date, CBP does not have a design standard 
that incorporates solar panels, although it remains an option for 
future specifications, including to power integrated surveillance 
technology.

    Question. If so, please describe the current status of that 
project.

    Answer. As noted above, to date, CBP does not have a design 
standard that incorporates solar panels.

    Question. President Trump has repeatedly stated that Mexico will 
pay for the border wall. On June 16, 2015, the day he launched his 
presidential campaign, Donald Trump declared, ``I will build a great, 
great wall on our southern border, and I will make Mexico pay for that 
wall. Mark my words.'' He repeated the claim--and made similar 
statements--again and again throughout his campaign. During his 
campaign, Trump engaged in call-and-response chants with his 
supporters. ``Who's going to pay for the wall?'' he asked. ``Mexico!'' 
they yelled. ``Who's going to pay for the wall?'' ``Mexico!''

    To date, has the Government of Mexico provided the United States 
Government with any payments to build the proposed southern border 
wall?

    Answer. I am not aware of any payments provided by the Government 
of Mexico in support of the proposed border wall along the southern 
border.

    Question. If so, please indicate how much the Mexican Government 
has paid.

    Answer. I am not aware of any payments provided by the Government 
of Mexico in support of the proposed border wall along the southern 
border.

    Question. Has the Mexican Government indicated that it will provide 
the United States Government with any payments to build to proposed 
southern border wall?

    Answer. I am not aware of any payments that the Government of 
Mexico has agreed to make to construct the proposed southern border 
wall.

    Question. If so, please indicate when the Mexican Government will 
provide such payments.

    Answer. I am not aware of any payments that the Government of 
Mexico has agreed to make to construct the proposed southern border 
wall.

    Question. Specifications for the wall President Trump has ordered 
have varied over the course of his campaign and since he was elected. 
In 2015, he suggested the wall would span almost the entire length of 
the nearly 2,000-mile Southwest border. He later refined that 
suggestion, stating that a wall from 700 to 900 miles would be 
sufficient. More than half of the U.S.-Mexico border features natural 
barriers, such as mountains and the Colorado and Rio Grande rivers. 
President Trump has said the wall will be built from precast concrete 
and steel. In February 2016, he said the wall will stand 35 to 40 feet 
tall. At another point in the campaign, he said it could reach 50 feet. 
Asked at the final Republican presidential debate about former Mexican 
President Vicente Fox's denouncement of the wall, Trump said, ``The 
wall just got 10 feet taller.'' According to one report, the wall could 
reach as high as 80 feet.

    Do you support building a wall 50 feet high?

    Answer. To explore additional design options for the border wall, 
CBP issued two Requests for Proposals to Industry, one for concrete 
wall solutions and a second for alternative materials. Prototypes 
construction will inform expansion of the border wall tool kit and may 
influence designs for future deployment.

    The prototypes were recently completed and testing and evaluation 
will begin in late November 2017. The results of the test and 
evaluation will be used to determine if any prototype design or 
attributes of any design merit inclusion in the border wall tool kit 
for possible future construction. CBP will be testing a variety of 
factors. The two most significant for USBP are how easy it is to climb 
and how readily it can be breeched using hand held power tools.

    Depending on the environment, in CBP's experience, walls of varying 
heights can be effective. We currently have infrastructure deployed at 
varying heights up to 18 feet.

    Question. Do you support building a wall along the entire southern 
border?

    Answer. As both the President and then-Secretary Kelly have stated, 
the administration does not envision a wall across the entirety of the 
U.S. southern border. CBP is currently developing a comprehensive 
assessment of potential requirements for border wall as part of the 
Border Security Improvement Plan required by the FY17 appropriations 
bill. This plan will include requirements developed by USBP for 
prioritized impedance and denial capability deployment that will 
provide the greatest benefits to border and national security. That 
said, the Southwest border is a dynamic environment and each segment of 
border requires a tailored solution.

    Question. President Trump stated that his administration has 
stopped illegal border crossings by at least 78%.

    What percentage of illegal border crossings have stopped under his 
administration?

    Answer. While CBP is still finalizing FY 2017 year-end numbers for 
apprehensions and interdiction effectiveness rates, it looks like 
apprehensions and illegal crossings will be at their lowest levels in 
45 years. The first 4 months of the President's term saw a drop of 51 
percent in apprehensions.

    Question. While Acting Commissioner, did you ever inform the 
President, the DHS Secretary, or the Acting Secretary that a public 
statement that the President made was inaccurate?

    Answer. I do not believe I have informed the President, the former 
DHS Secretary, or the current Acting Secretary of any public statements 
from the President that I believed were inaccurate.

    Question. In March 2016, the CBP Integrity Advisory Panel (IAP), a 
panel established by the Homeland Security Advisory Council (HSAC) and 
composed by a group of law enforcement experts, presented a report to 
the HSAC, which was adopted unanimously. In this report, the IAP 
identified that the rapid growth of CBP without commensurate focus on 
accountability and disciplinary mechanisms has led to serious criminal 
and disciplinary problems within the agency and that CBP, the largest 
law-enforcement agency in the Nation, is ``vulnerable to a corruption 
scandal that could potentially threaten the security of our Nation'' 
and that ``[t]he CBP discipline system is broken.''

    How do you plan to address integrity concerns and strengthen 
accountability and transparency at CBP?

    Answer. CBP learned important lessons from previous times of growth 
and much has improved in the past decade. CBP recognizes that we must 
work to identify and mitigate integrity concerns throughout the 
lifecycle of an employee not just at any one point--during the hiring 
process, continuously throughout employment to ensure continued 
suitability/eligibility, and with precision to investigate allegations 
of misconduct or corruption. Building on this, CBP must hold employees 
accountable and be transparent with the public when lapses occur.

    CBP has worked internally to increase communication throughout all 
areas of the hiring process (recruiting, testing, security, on-
boarding, etc.). CBP has added additional security items to the process 
(new automated vetting system, polygraph examination, etc.) and 
leveraging technology has allowed for greater information sharing 
across the government during the background investigation process. CBP 
continues to conduct pre-employment polygraph examinations and 
background investigations to applicants for law enforcement positions. 
Effective July 1, 2017, OPR implemented the National Security 
Adjudicative Guidelines on the adjudication of all initial background 
investigations for CBP applicants, appointees, and contractors and 
periodic reinvestigations of current employees in National Security 
designated positions and/or requiring access to classified information. 
The updated guidelines establish a single common set of adjudicative 
criteria for all positions which require an initial or continued 
eligibility to classified information (security clearance) or 
eligibility to hold a sensitive position. Application of these factors 
will facilitate a more thorough assessment of an individual's 
reliability, trustworthiness, and loyalty to the United States, 
particularly as it applies to national security. This implementation 
will impact all applicants and appointees to sensitive positions within 
CBP, as well as all current employees encumbering sensitive employees, 
regardless of whether the position requires access to classified 
information. Employees in these positions must maintain eligibility for 
a sensitive position as a condition of employment. This includes all 
CBP law enforcement positions and any other position designated as 
sensitive (e.g., Non-Critical Sensitive, Critical-Sensitive, and 
Special-Sensitive). Additionally, employees in sensitive positions will 
be subject to continuous evaluation (CE). CE utilizes a set of 
automated records checks and business rules to assist in the ongoing 
assessment of an individual's continued eligibility.

    OPR and component offices regularly provide integrity awareness 
training at briefings and in musters in Washington, DC, in the field, 
at managerial training, and new employee orientation. In these 
sessions, the Standards of Conduct are reviewed and employees are 
reminded of their responsibility to report misconduct. Leadership 
sessions focus on how CBP supervisors and managers must set the 
expectations for conduct and hold employees accountable for violations. 
From a proactive standpoint, OPR continues to study known cases of 
corruption and analyzes trends in off-duty misconduct to inform 
detection of potential misconduct and corruption and to develop lessons 
learned for integrity musters and messaging. OPR raises awareness of 
corruption through its Trust Betrayed web page featuring instances in 
which employees were convicted of engaging in criminal activity that 
involved the misuse of official position. In these postings, OPR 
describes the activity and the consequences as a means to deter future 
cases and let employees know that such actions will not be tolerated.

    As a result of interactions with the IAP and in response to its 
recommendations, CBP has made many improvements to the complaints and 
discipline process, increased transparency for use of force incidents, 
and is expanding the cadre of criminal investigators. CBP has 
integrated Spanish language capability in the Call Center and has 
implemented the Complaint Management System in the field to better 
address complaints from the public. Internally, CBP is working to 
revise its Table of Penalties and Offenses and is also reexamining the 
discipline review process to improve accountability across the agency. 
With respect to increasing transparency, CBP has developed a robust 
program to review use of force incidents and has implemented 
communication protocols when incidents occur and is on track to publish 
its first annual report on OPR activities and key statistics on 
misconduct and corruption. CBP continues to hire additional criminal 
investigators, has developed new specialty operational units, and is 
working to enhance its case management system.

                                 ______
                                 
              Questions Submitted by Hon. Thomas R. Carper
    Question. Last spring, the CBP Integrity Advisory Panel found that 
the agency needs to improve accountability among its law enforcement 
workforce. President Trump issued a directive earlier this year 
directing to rapidly increase the number of Border Patrol agents by 
5,000 agents, or roughly one quarter. Currently, CBP is unable to hire 
even the statutory floor of 21,370 agents. Rapid hiring as directed by 
the President will likely worsen the agency's accountability problem, 
particularly if hiring standards are lowered in order to achieve 
increases. If confirmed, will you work to implement the recommendations 
made by the Integrity Panel, including incorporating additional random 
polygraph examinations for current Border Patrol agents?

    Answer. CBP requested the Integrity Advisory Panel review and 
worked closely with the Homeland Security Advisory Council to ensure a 
robust assessment by a distinguished panel. CBP has aggressively 
pursued implementation of the Panel's thoughtful recommendations and to 
date has completed actions to address 42 out of 53 recommendations 
provided, including those targeted to augment staffing, update 
policies, enhance training, and increase transparency. Six 
recommendations remain in progress, while CBP is not currently pursuing 
the remaining five.

    With regard to ensuring integrity for in-service personnel, CBP 
agents and officers undergo a 5-year periodic reinvestigation at the 
Tier 5 level. CBP is also working to implement a robust Continuous 
Evaluation (CE) program which will be anchored by automated vetting 
checks for criminal activity, financial information, and other 
pertinent information. CBP has not ruled out the prospect of 
reconsidering implementation of post-employment polygraph testing of 
incumbent law enforcement personnel in the future.

    Question. If not, what other or additional accountability and 
integrity measures do you intend to implement?

    Answer. CBP's approach to promoting workforce integrity is 
predicated on rigorous pre-employment screening of job applicants to 
weed out unsuitable candidates, increased emphasis on integrity 
awareness training, proactive anticorruption detection measures, and 
timely and thorough investigations of criminal and serious misconduct 
allegations. CBP takes all allegations of employee misconduct 
seriously. Under a uniform system, all allegations of misconduct are 
recorded in a secure, centralized database. All allegations are then 
immediately referred to the DHS Office of Inspector General for an 
investigative determination. Under DHS policy, the OIG maintains the 
``right of first refusal'' on all allegations involving DHS employees. 
Allegations declined for investigation by the OIG are then returned to 
CBP OPR for appropriate handling.

    The Trade Facilitation and Trade Enforcement Act of 2015 (Pub. L. 
No. 114-125) authorized CBP OPR to investigate criminal and 
administrative matters and misconduct by CBP employees OPR 
investigators average over 20 years of criminal investigative 
experience and are equipped with a full complement of investigative 
tools, including the latest in forensic and cyber technology. OPR also 
utilizes the intelligence-gathering and manpower resources of the FBI 
through its membership in 20 of the FBI's 22 Border Corruption Task 
Forces and maintains strong, collaborative working relationships with 
the DEA, ICE HSI, and other Federal and local authorities. OPR also 
leverages its vast array of data collection resources by deploying 
full-time analysts to proactively identify suspicious or anomalous 
activity that could be indicative of corruption or serious misconduct. 
After OPR completes its criminal or administrative investigation, the 
Office of Human Resources Management and the Office of Chief Counsel 
work collaboratively with OPR and management to propose and impose 
discipline when appropriate. OPR continues to study known cases of 
corruption to inform proactive detection of potential misconduct and 
corruption.

    CBP is also working to implement a robust Continuous Evaluation 
(CE) program which will be anchored by automated vetting checks for 
criminal activity, financial information, and other pertinent 
information.

    Based on the CBP Integrity Advisory Panel (IAP) recommendations of 
the agency's complaints and discipline process CBP has made many 
improvements to the process. For instance, we have increased 
transparency for use of force incidents, are moving forward with hiring 
additional criminal investigators, making technical improvements to its 
case management system, reissued the directive on reporting misconduct, 
and HRM is revising the Table of Penalties and Offenses and the 
discipline review process.

    In February 2015, CBP established a Use of Force Incident Team 
(UFIT) program and a Use of Force Review Board (UFRB) process in an 
effort to increase transparency and accountability. The UFIT and UFRB 
is a CBP-wide response plan to investigate, monitor, report, evaluate, 
and review use of force incidents involving CBP officers and agents. 
With regards to use of force incidents, the UFIT investigation results 
can provide recommendations concerning tactics, training, equipment, 
and/or safety issues. The investigations can also identify potential 
misconduct and administrative violations that may result in 
disciplinary or other corrective actions taken against employees.

    In 2015, in order to address the misconduct associated with 
domestic violence or alcohol related driving offenses (DUI) promptly 
and consistently, USBP consulted with the Offices of Internal Affairs, 
Chief Counsel, Human Resources Management, as well as gained the 
perspectives of District Attorneys in California, Arizona, and Texas in 
order to standardize administrative consequences for the entire USBP. 
The Standardized Post-Employee Arrest Requirements (SPEAR) outlines a 
standardized process for identifying and taking appropriate 
administrative action following the arrest of a USBP employee for 
domestic violence or DUI. It is designed to ensure consistent 
management action post-arrest. Through the application of SPEAR and 
consistent messaging through video and slides on the Information 
Display System about the program, alcohol related driving offenses have 
decreased 14 percent from FY 2016 to FY 2017. As with arrests of all 
CBP employees, arrests involving USBP employees decreased in FY 2017. 
With 110 reported arrests, USBP decreased 19 percent overall and 8 
percent in Domestic/Family Misconduct arrests. USBP continues to 
implement its SPEAR program and actively runs musters regarding drug 
and alcohol related misconduct.

    Question. CBP officers at our ports of entry facilitate the 
movement of legitimate trade to the tune of several trillion dollars, 
and millions of travelers, across our borders each year. They also 
provide front-line defense against the opioid epidemic that has 
devastated many in this country, by detecting and interdicting 
dangerous and illegal drugs coming across our border. You were 
instrumental in developing a workload staffing model to predict 
staffing and resource needs within CBP. Has a new staffing plan been 
created since that time that indicates a need for 5,000 additional 
Border Patrol agents?

    Answer. USBP continues to refine its staffing methodology to 
determine its requirements to conduct border enforcement operations. 
USBP is currently working on the Personnel Requirements Determination 
(PRD). This decision tool will support a staffing model with expert 
field input and a combination of existing data and field input. Absent 
this decision tool and corresponding staffing model, USBP utilized 
existing apprehension data and effectiveness ratios, as well as hours 
spent patrolling the U.S. border. This information, combined with 
decision-maker judgement and experience, allows for both quantitative 
and qualitative analysis to ultimately inform the proposed increase for 
additional personnel. The PRD will answer: (1) what conditions and 
workload are significantly related to current staffing levels; (2) what 
do SMEs say are the current, minimal, optimal, and operational control 
levels for staffing and what evidence exists to support these 
estimates; (3) what would be the optimal distribution of additional 
BPAs across sectors and stations based on operational conditions; and 
(4) as conditions and workload change, what are the effects on staffing 
requirements by sector, station, and zone.

    Question. Is there a timeline to complete a new staffing plan?

    Answer. To determine a comprehensive staffing plan we first must 
understand the requirements of our leaders in the field. As we collect 
data for use in our decision support tool known as the Personnel 
Requirements Documentation we are also developing a scalable 
organizational structure that allows staffing based on available 
resources. The decision support tool will reach ``BETA'' testing in 
July 2018 and is scheduled to be completed on or before September 2019.

    Question. If so, would you commit to providing the results of that 
model to Congress?

    Answer. Yes, I would provide the results of that model to Congress.

    Question. If confirmed, do you intend to work to ensure that 
staffing and resource allocation decisions at CBP are based on risk, 
threat, and need?

    Answer. Yes. If confirmed, I will work to ensure that threat, risk, 
and need are primary considerations in staffing and resource decisions 
at CBP. As we continue to address the ever-changing threats along the 
borders, I will ensure the resources allocations are based on a bona 
fide operational need to uphold the laws of this Nation and protect the 
United States and the American people.

    Question. How does the current staffing model account for trends in 
apprehensions at the border?

    Answer. The current staffing model, as well as the future Personnel 
Requirements Determination, relies on apprehension and other border 
census data as a key staffing requirement driver. The number of 
apprehensions is a first order measure that drives several workload 
variables, to include processing, temporary holding, and transportation 
requirements. Data on traffic levels and trends, is combined with a 
sector by sector capabilities gap analysis that takes into account the 
number of Agents needed to secure areas within a particular area of 
responsibility. These totals can include the number of Agents required 
to mitigate cross-border risks, such as: (1) agents forward-deployed 
immediately at the border; (2) agents to process and care for those 
arrested; and (3) agents who are responding to illicit cross-border 
traffic identified by technology such as long-range cameras, mobile 
scopes, and aerostats, to name a few. As additional technology is 
deployed with the appropriate impedance and denial infrastructure, 
field leadership continues to evaluate the staffing needs based on the 
operational dynamics, threat, and risk.

    Question. The Justice Department's Office of Legal Counsel has 
published an internal memo stating that the executive branch has no 
obligation to respond to requests for information from individual 
members of Congress, including ranking members of committees. This 
represents an effort to stonewall minority and other members of 
Congress as we perform oversight of Federal agencies. If confirmed, one 
of your central tasks will include facilitating responses to 
congressional requests for information. Do you commit to fully respond 
to requests for information from members of congressional oversight 
committees, regardless of party?

    Answer. Congressional committees play an important role in the 
oversight of Federal agency programs. I have a strong record of working 
with members of Congress in a bipartisan, bicameral nature to 
facilitate this important function. If confirmed, I will work with 
members of committees to provide appropriate information, regardless of 
party.

    Question. Do you commit to providing prompt and meaningful 
responses to congressional inquiries from any member of Congress?

    Answer. CBP will make every effort to be responsive to 
congressional inquiries in a timely manner.

    Question. The administration again in late September issued an 
Executive Proclamation implementing a travel ban affecting eight 
countries, six of which are 
Muslim-majority. According to the administration, this proclamation is 
based on findings from a ``worldwide review'' of foreign countries' 
security, information sharing, and other practices conducted by the 
Secretary of Homeland Security. Parts of this report were shared with 
foreign governments. However, administration officials have informed 
congressional staff that the DHS products cited in the proclamation, 
and used to inform and develop the travel ban, will not be provided to 
Congress. Federal courts have now blocked implementation of three 
separate versions of this ban, and it is clearly appropriate that 
members of Congress have a chance to review these documents in order to 
determine whether there is a threat basis for these travel bans. Please 
describe what role, if any, CBP played in the worldwide review and in 
development of the proclamation, directly or indirectly.

    Answer. CBP provided limited support, as requested, to the DHS 
Office of Strategy, Policy, and Plans who has the lead for the Section 
2 Report and related efforts (which is cited in the question as 
``worldwide review''), providing comments and information such as basic 
statistical data, which may have been used in the worldwide review. CBP 
provided pre-decisional, deliberative comments on the review and its 
findings in the clearance process. Questions related to section 2 and 
the worldwide analysis should be directed to the DHS Office of 
Strategy, Policy, and Plans.

    Question. Will you commit to provide any documents CBP developed as 
part of the travel ban review to Congress, within reason, and in a 
classified setting as appropriate?

    Answer. I would defer to DHS who maintained lead for this 
assessment.

    Question. In January, former Secretary of Homeland Security General 
John F. Kelly stated before the Senate Homeland Security and 
Governmental Affairs Committee that border security starts 1,500 miles 
to the south, including in Central America--and that we must work with 
our partners there to address some of the ``push'' factors that lead 
people there to undertake the dangerous journey to our southern border. 
The President's FY18 budget request included only $460 million to 
address the root causes of migration from Central America, a nearly 30 
percent cut from the amount provided last year. Both the House and the 
Senate appropriations committees have largely restored last year's 
funding in their fiscal year 2018 marks. Please describe your views on 
the importance of working to address the root causes of migration from 
Central America as part of a complete border security strategy.

    Answer. The ``push'' factors that drive migration from Central 
America to our southern border include security and economic factors, 
both of which CBP can play a role in addressing.

    Regarding security, CBP efforts in the region focus on enhancing 
U.S. and local law enforcement abilities to disrupt and interdict human 
trafficking and contraband smuggling. Through partnerships with the 
Department of State and local agencies, CBP pursues these initiatives 
through vetted local law enforcement units, Mobile Interdiction Teams 
(MIT), and by providing advisory guidance, training, and best practices 
to law enforcement personnel. The overarching goal is two-fold: (1) 
improving the security situation in the region to reduce threats to 
citizens and create a more conducive environment for economic growth; 
and (2) increasing awareness and information about migration and 
smuggling activities in the region that may affect the United States.

    In terms of economic conditions in the region, wait times for 
customs clearance can be long, duties and fees applied can be perceived 
as arbitrary, risk management and targeting systems are outdated or 
non-existent, and communication between agencies at POEs is often 
lackluster--creating an inefficient environment for international trade 
and reduced customs revenues for these countries. CBP aims to work with 
Central American governments to address these issues as an important 
step to encourage investment, trade, and economic growth. CBP is 
working with U.S. and Central American partners to share best practices 
to increase efficiency, predictability, and transparency for trade at 
POEs in Central America.

    Question. Do you believe that funding to support the Alliance for 
Prosperity is important to securing our southern border?

    Answer. Yes, supporting the efforts of the Northern Triangle 
governments to enhance their economic and security environment will 
serve to address the push factors that drive migration, smuggling, and 
illicit trade from the region to the United States. The Alliance for 
Prosperity also shows a commitment by the Northern Triangle countries 
themselves to address economic and security challenges in the region. 
At the same time, we need to be addressing the pull factors with 
consistent messaging and enforcement efforts.

    Question. President Trump has issued an executive order calling for 
the construction of a wall along the entire border between the United 
States and Mexico. Every estimate agrees that such an undertaking would 
cost several billion dollars. Additional wall construction could sever 
wildlife habitat and irreparably damage numerous national parks, 
wildlife refuges, forests and wilderness areas that are found along our 
border. The U.S. Fish and Wildlife Service estimates that at least 89 
threatened and endangered species and 108 species of migratory birds 
could be affected by additional border wall construction and 
accompanying activities, including some of the most endangered 
creatures in the world such as the jaguar and ocelot. Wall construction 
could also have severe negative consequences for important regional 
ecotourism economies. For example, a wall through the Santa Ana 
National Wildlife Refuge, which is a premier destination for birders, 
would cut the Refuge off from its visitor center. Should wall 
construction move forward, what will you do to minimize and mitigate 
damage to wildlife and related ecotourism economies?

    Answer. CBP is committed to environmental and cultural stewardship 
while performing our core missions of border security and the 
facilitation of legitimate trade and travel. Additionally, CBP works 
diligently to integrate responsible environmental practices--including 
incorporating sustainable practices--into all aspects of our decision-
making and operations.

    For border infrastructure projects, CBP's commitment to 
environmental stewardship manifests in a number of different ways. 
Prior to any construction, CBP conducts natural and cultural resource 
surveys and assesses potential impacts. As part of this assessment of 
potential impacts, CBP regularly consults with other Federal, Tribal, 
State, and local agencies, as well as non-governmental organizations 
(NGOs) to ensure protection of the Nation's natural and cultural 
resources.

    Further, CBP through its own experience and in working with 
resource agencies and other stakeholders, has developed a number of 
environmental best management practices which are implemented during 
project design and construction to reduce potential impacts. These best 
managements practices, which are designed help CBP minimize or avoid 
potential impacts, have been incorporated into contracts for current 
border infrastructure and CBP intends to include them in future wall 
construction plans. And, where potential impacts cannot be minimized or 
avoided, CBP, where practicable, plans and implements mitigation 
measures to offset impacts.

    CBP has always regarded environmental stewardship as one of its top 
concerns not only during construction projects but also during our day-
to-day operations. Our agents and officers frequently work out in the 
environment and understand the importance of protecting the environment 
while protecting the border. CBP will strive to eliminate or minimize 
impacts to the environment as a result of the implementation of border 
wall construction.

    Question. Is CBP currently conducting preparation or construction 
activities for wall or physical barrier construction in the Santa Ana 
National Wildlife Refuge?

    Answer. In the FY 2018 budget request, CBP identified 60 miles of 
border barrier systems in the Rio Grande Valley (RGV) region of Texas, 
to include the area near the northern boundary of the Santa Ana 
National Wildlife Refuge (NWR), as an operational requirement 
(approximately 3 miles). Planning activities for those locations are 
underway and are funded by CBP's FY 2017 reprogramming. These 
activities include geotechnical analysis (completed), border/levee wall 
system design, and preliminary title research. These planning 
activities are not limited to the operational requirements near the 
northern boundary of the NWR. CBP is also conducting these activities 
for the additional miles in RGV.

    Question. Please describe what activities are underway, and the 
authority under which those activities are taking place.

    Answer. Planning activities for those locations are underway and 
are funded by CBP's FY 2017 reprogramming. These activities include 
geotechnical analysis (completed), border/levee wall system design, and 
preliminary title research. These planning activities are not limited 
to the operational requirements near the northern boundary of the NWR. 
CBP is also conducting these activities for the additional miles in 
RGV.

    Question. Please provide an update regarding a cost assessment for 
border wall construction.

    Answer. At this time, CBP cannot provide a total cost assessment 
for border wall construction. CBP is currently developing a 
comprehensive assessment of potential requirements for the border wall 
as part of the Border Security Improvement Plan required by the FY 2017 
Omnibus. That said, the Southwest border is a dynamic environment and 
each mile of border requires a tailored solution. Costs will vary 
depending on the type of barrier required by the terrain, traffic, and 
threats, as well as specific construction and land acquisition 
requirements.

    Question. Has the cost assessment been completed?

    Answer. At this time, CBP cannot provide a total cost assessment 
for border wall construction. CBP is currently developing a 
comprehensive assessment of potential requirements for the border wall 
as part of the Border Security Improvement Plan required by the FY 2017 
Omnibus.

    Question. Press reports indicate that Border Patrol agents took a 
10 year old little girl with cerebral palsy into physical custody after 
an emergency surgery on Tuesday, October 24th. Press reports indicate 
that the Border Patrol agents waited at the hospital to assume custody 
of the child after her emergency surgery despite the fact that her 
biological parents are in the United States, appear to be ready and 
willing to assume custody, and have not had their parental rights 
terminated. The United States Supreme Court has consistently held that 
the relationship between the parent and child is constitutionally 
protected.

    Do you believe that immigrants, with or without legal status, have 
a constitutional right to their child? If no, please state your legal 
reasoning.

    Answer. Many press reports on this matter have been inaccurate. On 
October 24, 2017, shortly after 3:00 a.m. Rosa Maria Hernandez (a 
juvenile) and her adult cousin, Aurora Cantu, were encountered as 
passengers riding from Laredo, TX to Driscoll Children's Hospital in 
Corpus Christi, TX via a contracted private medical transport vehicle 
(4-door sedan) for a scheduled gallbladder surgery. The vehicle was not 
an ambulance. All vehicles traveling northbound on Highway 59 are 
required to stop at the Border Patrol checkpoint for an immigration 
inspection of all occupants. An immigration inspection on the vehicle 
revealed the juvenile was illegally in the United States. The two other 
occupants were determined to be USCs. Agents subsequently determined 
that Rosa was an ``unaccompanied alien child'' (UAC), since she was not 
with a parent or legal guardian. Upon this determination, Border Patrol 
agents followed the law as well as all UAC established guidelines and 
policies in escorting the juvenile to receive her medical care and then 
proper placement with U.S. Department of Health and Human Services 
(HHS).

    CBP takes its responsibility to protect children and ensure that 
they are not trafficked very seriously. The government has a robust 
system in place that balances the needs to protect children with the 
important interest of maintaining family unity. The William Wilberforce 
Trafficking Victims Protection Reauthorization Act of 2008 (TVPRA) 
provides certain protections for children who, like this one, are 
encountered by CBP and do not have lawful status. This child was not 
accompanied by her parents or a legal guardian when she was 
encountered, nor did they arrive to take custody of the child. 
Accordingly, consistent with law and policy, Border Patrol transferred 
her to the HHS Office of Refugee Resettlement for proper care and 
placement.

    Question. Cite which specific statute permits CBP to assume custody 
of a child when the child's parents are ready, willing, and able to 
assume physical custody of the child?

    Answer. Rosa Maria's parents were not present or able to assume 
custody after surgery. As the 10-year-old was not accompanied by a 
parent or legal guardian, and was not legally in the United States, CBP 
is required by the William Wilberforce Trafficking Victims Protection 
Reauthorization Act of 2008, to take the unaccompanied child (UAC) into 
custody.

    Border Patrol agents allowed Rosa Maria to continue to the hospital 
so that she could receive her scheduled medical care. The agents 
remained with the unaccompanied child as she was in their custody and 
protection, and in the absence of a legal guardian, until such time as 
she could be transferred to the U.S. Department of Health and Human 
Services (HHS) Office of Refugees and Resettlement (ORR). This period 
of time presented an additional opportunity for a parent or legal 
guardian to come forward to take custody of Rosa Maria; however, during 
the entire time Rosa Maria was at the hospital, no parent or guardian 
contacted Border Patrol or came to the hospital in a manner that would 
make him or her ``available to provide care and physical custody'' of 
Rosa Maria. In this circumstance, Border Patrol had no choice but to 
continue to designate Rosa Maria as a UAC.

    The TVPRA requires CBP to transfer all UAC to the custody of HHS-
ORR. The TVPRA leaves no discretion for any Federal agency to decline 
to turn over a UAC in its custody to ORR, or to otherwise transfer 
custody of that UAC to any individual or entity other than ORR. Thus, 
once CBP determined that Rosa Maria's parents were not present and 
would not appear to take custody of her, and therefore that she was a 
UAC, CBP was obligated by law to transfer her into the custody of ORR.

    Question. Provide the legal rationale for how this case complies 
with the Flores Agreement which favors release of the child and 
especially to the natural parents?

    Answer. CBP takes its obligations to comply with the Flores 
Settlement Agreement seriously. However, in the present case the 
TVPRA's requirement that a child may only be released by CBP to her 
parent or legal guardians governs.

    As mentioned above, Rosa Maria's parents were not present or able 
to assume custody at the checkpoint or during Rosa Maria's scheduled 
medical care at the hospital. As such, Rosa Maria was designated a UAC. 
CBP was required by the William Wilberforce Trafficking Victims 
Protection Reauthorization Act of 2008, to take the unaccompanied child 
into custody until such time as she could be transferred to the Health 
and Human Services Office of Refugees and Resettlement.

    Question. The Sensitive Locations policy as currently written on 
the DHS website, indicates that staff must acquire approval prior to 
carrying out an enforcement action at a sensitive location.

    Did Border Patrol agents obtain permission to conduct enforcement 
actions with the 10 year old girl who has cerebral policy at the 
hospital after her emergency surgery?

    Answer. Enforcement actions were not conducted at a sensitive 
location, which in this case was Driscoll Children's Hospital. The 
unaccompanied child was encountered and taken into custody at an 
immigration checkpoint--a CBP operational location--and was already in 
Border Patrol custody when she was escorted to the hospital so that she 
could receive her scheduled medical care. Because no parent or guardian 
of Rosa Maria was present at either the checkpoint or hospital, and no 
parent or guardian of Rosa Maria contacted Border Patrol during this 
time, CBP reasonably determined that Rosa Maria was a UAC at the time 
she was encountered at the checkpoint and remained a UAC while in 
Border Patrol custody at the hospital. As such, CBP was obligated by 
law to place Rosa Maria into the care of the U.S. Department of Health 
and Human Services Office of Refugee Resettlement after her medical 
procedure.

    Question. Do you believe that the detention and arrest of a 10 year 
old child with cerebral palsy at a hospital complies with the policy 
concerning sensitive locations? If yes, provide a detailed description 
of your reasoning.

    Answer. CBP routinely transports persons in its care or custody, 
including thousands of persons a year rescued from the elements or 
smugglers, for medical evaluation and care at hospitals and other 
medical facilities. These efforts to protect the health and safety of 
the individuals transported to the hospital in CBP custody do not 
implicate the sensitive locations policy in any way.

    Again, enforcement actions were not conducted at a sensitive 
location, which in this case was Driscoll Children's Hospital. The 
unaccompanied child was encountered and taken into custody at an 
immigration checkpoint--a CBP operational location--and was already in 
Border Patrol custody when she was escorted to the hospital so that she 
could receive her scheduled medical care. Because no parent or guardian 
of Rosa Maria was present at either the checkpoint or hospital, and no 
parent or guardian of Rosa Maria contacted Border Patrol during this 
time, CBP reasonably determined that Rosa Maria was a UAC at the time 
she was encountered at the checkpoint and remained a UAC while in 
Border Patrol custody at the hospital. As such, CBP was obligated by 
law to place Rosa Maria into the care of the U.S. Department of Health 
and Human Services Office of Refugee Resettlement after her medical 
procedure.

    Question. In January, the President issued an executive order 
mandating that CBP hire 5,000 additional Border Patrol agents, about a 
25% increase over the current force, citing a need for additional 
agents. CBP is currently unable to hire to, or retain, its statutorily 
required number of 21,370 Border Patrol agents.

    Given the use of current CBP agents to apprehend a minor following 
emergency surgery, please summarize CBP's policies regarding 
enforcement priorities.

    Answer. CBP operations between ports of entry are focused on 
interdicting illegal border crossings at or near the immediate border 
and on routes of egress into the United States. While the U.S. Border 
Patrol (USBP) may arrest all individuals found to have entered the 
United States illegally during border security operations, the vast 
majority of apprehensions involve recent border entrants. Each person 
who is apprehended is subject to the Consequence Delivery System (CDS), 
which ensures the most appropriate actions are applied to each case. 
CDS standardizes USBP's decision-making process specific to each 
apprehended subject by consistently and systematically applying 
consequences and evaluating each consequence's effectiveness and 
efficiency. CDS measures the consequences applied to persons illegally 
entering the United States against defined alien classifications. CDS 
includes the analysis of a variety of possible administrative, 
criminal, and programmatic consequences and incorporates a number of 
pre-existing initiatives and programs. CBP referrals for further 
immigration enforcement action are subject to prioritization and 
adjudication by both U.S. Immigration and Customs Enforcement and the 
Executive Office of Immigration Review.

    Question. Specifically, please describe how CBP assesses threat and 
risk in determining whether to carry out enforcement action, and any 
other factors taken into account.

    Answer. As discussed above, each person who is apprehended is 
subject to the Consequence Delivery System, which ensures the most 
appropriate actions are applied to each case. CDS standardizes USBP's 
decision-making process specific to each apprehended subject by 
consistently and systematically applying consequences and evaluating 
each consequence's effectiveness and efficiency. CDS measures the 
consequences applied to persons illegally entering the United States 
against defined alien classifications. CDS includes the analysis of a 
variety of possible administrative, criminal, and programmatic 
consequences and incorporates a number of pre-existing initiatives and 
programs. CBP referrals for further immigration enforcement action are 
subject to prioritization and adjudication by both U.S. Immigration and 
Customs Enforcement and the Executive Office of Immigration Review.

                                 ______
                                 
                 Questions Submitted by Hon. Ron Wyden
    Question. Unlike sales at duty-free stores at U.S. airports, which 
are limited to personal use quantities, sales at such stores at U.S. 
land ports of entry are unlimited. I understand that ICE and CBP have 
found that sales of tobacco products at duty-free stores on the 
Southwest border have resulted in diversion back into the United States 
as well as the smuggling of such products into Mexico, some of which is 
linked to organized crime, including the use of these sales for money 
laundering. These problems are exacerbated by the fact that there are 
no limits on the quantities of such duty-free products that can be sold 
along the border.

    If confirmed, would you support the imposition of personal use 
restrictions at duty-free stores at ports of entry other than airports?

    Answer. I am aware of this challenge, and would be happy to work 
with you, Senator Wyden, and other members of the committee to address 
these concerns. As you note, the current statute only provides for a 
personal quantity limit for airport duty free stores. Under my 
oversight in the Office of Field Operations, we did conduct enforcement 
operations and share information with Mexican authorities where 
appropriate on duty free purchases that seemed designed to evade 
Mexican laws or perhaps be diverted back to the United States. 
Accordingly, I am familiar with the issues and would support a review 
of potential solutions, such as a limit on sales that would create 
barriers to these smuggling and money laundering efforts.

    Question. On May 20, 2016, Senator Wyden sent then-Commissioner 
Kerlikowske a letter regarding concerns about the increasing volumes of 
fentanyl and other illicitly-produced opioids entering the United 
States. A recent Morbidity and Mortality report compiled by Centers for 
Disease Control and Prevention researchers found sharp increases in 
fentanyl-related deaths, a trend that press reports suggest continues 
to this day. Please update the agency's response to Senator Wyden's May 
2016 letter, including providing data current through September 30, 
2017, for all of the data-related requests.

    Please provide up to date figures on the amount of illicit 
synthetically made opioids that CBP has seized during fiscal year (FY) 
2016. Which illicit synthetic opioids are most frequently seized?

    Answer. The most frequently seized synthetic opioid is fentanyl. 
Overall CBP-OFO Fentanyl seizures have increased by 159 percent when 
comparing FY 2016 to FY 2017. This surge is driven by the 408 percent 
increase in fentanyl seizures in the Express Consignment, 180 percent 
increase in the Mail environment, and 126 percent in the Southwest-
Land-Border.


                   OFO Fentanyl Seizures (Kgs) by Mode
------------------------------------------------------------------------
                          FY 2016               FY 2017
                  --------------------------------------------  % Change
Mode of Transport    Weight     Total      Weight     Total      (Kgs)
                     (Kgs)    Incidents    (Kgs)    Incidents
------------------------------------------------------------------------
POV--land             145.92         14     323.69         52       122%
------------------------------------------------------------------------
Other--land            25.42          6      63.49         13       150%
------------------------------------------------------------------------
Express                21.42         40     108.88        118       408%
 consignment
------------------------------------------------------------------------
Mail                   15.33         51      42.93        227       180%
------------------------------------------------------------------------
Air (other)             0.15          5       0.38          2       153%
------------------------------------------------------------------------
    Total             208.25        116     539.38        412       159%
------------------------------------------------------------------------


    Please provide a geographic breakdown.


 Origin Countries From Which the Seized Synthetically Made Opioids Were
                                 Shipped
------------------------------------------------------------------------
                                     FY 2016      FY 2017    Grand Total
          Top Countries               (Kgs)        (Kgs)        (Kgs)
------------------------------------------------------------------------
Mexico (through the border)             171.35       387.44       558.79
------------------------------------------------------------------------
China (shipped from)                     31.09       121.46       152.55
------------------------------------------------------------------------
Hong Kong (shipped from)                  4.12        26.69        30.81
------------------------------------------------------------------------



 Destination State or District Within the United States of the  Illicit
               Synthetically Made Opioids That Were Seized
------------------------------------------------------------------------
                                     FY 2016      FY 2017    Grand Total
              State                   (Kgs)        (Kgs)        (Kgs)
------------------------------------------------------------------------
California                              164.89       332.72       497.61
------------------------------------------------------------------------
Arizona                                   9.04        63.00        72.04
------------------------------------------------------------------------
Tennessee                                12.88        47.16        60.04
------------------------------------------------------------------------
Ohio                                      3.45        29.38        32.83
------------------------------------------------------------------------
Kentucky                                  0.22        29.70        29.92
------------------------------------------------------------------------
New York                                  8.25        16.74        24.99
------------------------------------------------------------------------
Illinois                                  2.78        15.19        17.97
------------------------------------------------------------------------
Florida                                   2.67         1.65         4.32
------------------------------------------------------------------------
Massachusetts                             3.76                      3.76
------------------------------------------------------------------------
Texas                                                  1.79         1.79
------------------------------------------------------------------------
New Jersey                                             0.85         0.85
------------------------------------------------------------------------
Georgia                                                0.62         0.62
------------------------------------------------------------------------
Oregon                                                 0.37         0.37
------------------------------------------------------------------------
Michigan                                  0.25                      0.25
------------------------------------------------------------------------
Indiana                                   0.00         0.14         0.14
------------------------------------------------------------------------
Alaska                                    0.06                      0.06
------------------------------------------------------------------------
Minnesota                                              0.05         0.05
------------------------------------------------------------------------
Hawaii                                                 0.01         0.01
------------------------------------------------------------------------
    Grand Total                         208.25       539.38       747.63
------------------------------------------------------------------------


    These statistics are constantly evolving as lab results are 
confirmed and records reconciled.

    Question. On January 2, 2017, a multi-hour passport processing 
system outage led to long delays for international passengers entering 
the United States. A recent Office of Inspector General (OIG) report 
estimated the outage ``affected approximately 119,774 international 
travelers nationwide'' including ``[a]bout 13,000 passengers who 
arrived at Miami International Airport'' where long lines ``created 
hazards and security concerns . . . including difficulties with crowd 
control, temperature, health emergencies, and officer and public 
safety.'' Miami airport officials alone estimated that ``258 CBPOs 
worked 762 overtime hours, resulting in more than $58,000 in overtime 
pay.'' Media reports suggest that long delays at other airports around 
the country may have led to similar situations. Given that U.S. 
airports handle more than 300,000 incoming international air passengers 
every day, such outages are extremely troubling and must be addressed.

    Please describe the issues that led to the nationwide outage in 
January.

    Answer. The root cause was determined to be a culmination of 
workload and background processes competing for system resources. The 
competing processes included the high transaction volume due to holiday 
traffic, application code with an inefficient way of accessing the 
database, storage limitations, and a resource intensive background 
``clean up'' process. Our Office of Information Technology has 
addressed the specific issues that led to the outage. CBP has also 
committed to enhancing availability in our critical systems as well as 
improving the availability and speed of our back up capabilities.

    Question. Please disclose any instances in which a similar issue 
has taken place.

    Answer. There have been no recent instances in which a similar 
issue took place. As noted above, on January 2, 2017, a unique 
combination of circumstances involving the culmination of workload and 
background processes competing for system resources caused the outage.

    Question. Please describe the steps that Customs and Border Patrol 
has taken and additional steps it plans to take to ensure such an 
outage does not occur again.

    Answer. To ensure such an outage does not occur again, CBP has 
taken the following steps:

          Implemented a programming change to address the error 
        handling to include defensive logic in the application code 
        that will protect against the condition that caused the 
        problem.
          Increased system resources (memory and computer processing) 
        available for the application.
          Updated the background ``clean up'' process to occur more 
        frequently in shorter bursts; minimizing the consumption of 
        resources.
          Increased sensitivity on monitoring alert settings to 
        initiate a production support call earlier.
          Initiated improvements to backup capabilities.

    Question. Lastly, please describe the steps--either on their own or 
in conjunction with other agencies--that CBP has taken to ensure the 
health and safety of passengers and employees if such an outage takes 
place again.

    Answer. OFO performs certain functions related to restricting, 
regulating and interdicting cross-border flows of people and products. 
During the performance of a range of inspectional activities, a 
priority is the safety and health of the American public, travelers and 
personnel. We strive to make proactive and continuous improvements to 
enhance safety at our ports. Particularly in airports, we work closely 
with our airport authority partners, whom we rely on for certain 
services as we work in their facilities. OFO works with our 
stakeholders, offering the opportunity to contribute and provide 
feedback in areas of services and participation in tabletop exercises. 
At most major arrival airports, joint procedures have been developed 
and exercised with terminal operators and carriers.

    Question. Please provide any after-action reports related to the 
January 2nd passport system outage, either for specific ports of entry/
airport, or for the agency as a whole.

    Answer.

                   U.S. Customs and Border Protection

                  Office of Information and Technology

                       Office of Field Operations

            Traveler Processing Problems on January 2, 2017

                          AFTER ACTION REPORT

Incident Summary:

On January 2, 2017, from approximately 1700 to 2100 EST, TECS--the 
system used to process travelers at Ports of Entry (POEs)--experienced 
a system degradation/outage with airline manifest processing and Air/
Sea primary applications which had an impact on traveler processing. 
The degradation/outage was not caused by a cyber-attack or other 
malicious activity.

CBP took immediate action to address the issue and CBP officers 
continued to process international travelers using alternative 
procedures at airports experiencing the disruption. CBP officers worked 
to process travelers as quickly as possible while maintaining the 
highest levels of security, but travelers at some ports of entry 
experienced long wait times.

During the technology disruption, CBP had access to national security-
related databases and all travelers were screened according to security 
standards.

CBP Office of Information and Technology (OIT) Duty Officers initiated 
a troubleshooting call at 1700 EST on January 2, 2017. Actions were 
taken during the troubleshooting that did provide some temporary 
relief. The problem continued, however, so at 2040 EST on January 2nd, 
portions of Primary traveler processing were moved to mitigation mode, 
which involved switching TECS query services and manifest processing to 
the CBP mainframe. While this option was discussed earlier in the 
troubleshooting call, at the time the technical team thought the other 
corrective actions implemented would resolve the issue.

Root Cause:

The root cause was determined to be a culmination of workload and 
background processes competing for system resources. The competing 
processes included the high transaction volume due to holiday traffic, 
application code with an inefficient way of accessing the database, 
storage limitations, and a resource intensive background ``clean up'' 
process.

It has been noted that the system did not encounter similar conditions 
during the Thanksgiving and Christmas holidays with similar volume of 
travelers. OIT determined the corrective actions and they include the 
measures noted below.

Office of Information Technology

Actions Following Outage:

  Conducted a cyber security analysis of the incident and found no 
indications of any malicious activity.

  January 2nd:

    <ctr-circle>  Updated the background ``clean up'' process to occur 
more frequently in shorter bursts; minimizing the consumption of 
resources.

    <ctr-circle>  Increased sensitivity on monitoring alert settings to 
initiate a production support call earlier.

  January 6th--Implemented a programming change (as recommended by 
Oracle subject matter experts) to address the error handling to include 
defensive logic in the application code that will protect against the 
condition that caused the problem. The airports were activated in a 
phased approach starting with Atlanta and Miami. As airports were 
activated, they were monitored closely to ensure that corrective 
actions effectively addressed the root cause.

  Added additional infrastructure for Air/Sea processing to support 
larger volumes of traveler processing.

  Identified and implemented improvements to system monitoring. The 
monitoring that was used on January 2nd did not provide an accurate 
understanding of the seriousness of the problems at the airports. To 
ensure faster and more responsive actions going forward, OIT 
implemented the below changes to the monitoring of airport processing 
systems:

    <ctr-circle>  Established manual review of both Automated Passport 
Control (APC) and Traveler Primary Arrival Client (TPAC) status on a 
regular basis, with hourly reports on the system health checks.

    <ctr-circle>  Reduced the time threshold for when to initiate an 
alert about a system problem (i.e., after 2 minutes of being in red 
status).

    <ctr-circle>  Added monitors to all critical areas within the Data 
Center for better display of monitoring tools.

    <ctr-circle>  Configured application performance management tools 
to automate issuance of alerts for unresponsive or slow business 
transactions impacting end users, database connection issues, 
application error rates, and server crashes.

    <ctr-circle>  Monitoring of social media for first-hand accounts of 
traveler impacts as a fail-safe for alerts about airport processing 
problems.

  Identified and implemented improvements to troubleshooting call 
procedures, including:

    <ctr-circle>  OIT will call major locations to validate that the 
problems seen through monitoring match the operational reality. For the 
January 2nd incident, OIT monitors were only showing a slowdown, but 
the reality was that the system was unavailable to process travelers.

Office of Field Operations

Miami International Airport

The outage at Miami International Airport lasted over 5 hours and 
affected 13,000 travelers. Although port management quickly implemented 
mitigation protocols, delays resulted in potentially unsafe conditions. 
Flights were permitted to arrive in the FIS without metering. 
Processing was slowed by the carriers scrambling to locate paper I-94 
forms for non-immigrant travelers. Processing was also slowed due to 
some officers having issues accessing Automated Targeting System (ATS) 
and the Portable Automated Lookout System (PALS). Due to the large 
number of people, HVAC systems in the North Terminal were unable to 
produce enough cool air, and some passengers required medical attention 
due to the high temperatures.

Miami OFO Actions Implemented Following Outage:

  PALS workstations will be routinely tested.

  During a full outage when PALS is deployed, all available officers 
that are performing other assigned duties will be redirected to 
primary.

  Immediate communication with stakeholders will be effected.

  At a minimum a GS14 will be on site to work with stakeholders.

  During a complete outage and the FIS is full, Miami Dade Aviation 
Department (MDAD) has pre-positioned water in five designated areas. 
These are areas where the passengers will be held and not allowed into 
the FIS until the FIS traffic is reduced and it is safe to move.

  Miami Dade Police Department (MDPD) and CBP resources will be 
deployed to the FIS and the five designated areas for crowd control.

  A Miami Dade Fire Department (MDFD) paramedic team will be deployed 
to the FIS.

  MDAD will make PA announcements in the five areas concerning the 
status of processing.

  Airline stakeholders will be on site to answer passengers' onward 
flight questions.

OFO Headquarters Actions Following Outage:

  A review of port response indicated that ports followed mitigation 
guidelines as specified in CBP Directive 3340-041.

  OIT and OFO developed a process to eliminate the need for paper I-
94s by using the advance passenger manifest information to generate 
electronic I-94s once system functionality is restored.

  OFO worked with OIT to develop a more robust mitigation process by 
phasing out ATS-QQ and implementing Mobile Primary and Mobile Query 
applications.

    <ctr-circle>  These Mobile applications can be used on a desktop or 
mobile device, utilize document readers to quickly input passenger 
data, and allow the officer to record class of admission during 
mitigation.

    <ctr-circle>  Mobile applications can also utilize CBP or port Wi-
Fi in the event of local network issues, and if used on mobile devices 
can utilize battery power in the event of a power failure.

  In January 2017, OFO convened a working group to update national 
mitigation guidance.

    <ctr-circle>  The guidance mandates timely systems outage 
notification to stakeholders, including air carriers, port authority, 
and terminal operators.

    <ctr-circle>  This also provides direction for the use of the new 
mobile mitigation tools.

  OFO and OIT developed new mitigation modes for APC and TPAC, OFO's 
main resources for primary processing in the air and sea environments. 
These automated modes allow APC and TPAC to process passengers in a 
timely manner in the event that manifest information is unavailable due 
to an outage.

  OFO worked with OIT to develop a new version of PALS, a CD-ROM based 
data source used for network or power outages. This new PALS replaces 
the monthly mailing of CD's to ports with a one-time distribution of 
encrypted USB data sticks which are automatically updated with new 
enforcement records every 2 weeks. Unlike the old PALS, this new 
application can be used with a document reader to expedite traveler 
data input.

  OFO is working with OIT to develop port level system dashboards to 
provide local port management with real-time visibility on system 
health and strength.

  OFO is working with OIT to develop a real-time Airport Wait Times 
Dashboard. This dashboard will replace the current historical dashboard 
on www.cbp.gov and provide accurate real-time wait time information for 
the traveling public.

    Question. I have described how I believe ``digital is different.'' 
Do you believe, as Chief Justice Roberts has said in the Supreme Court 
case Riley, that ``cell phones differ in both quantitative and a 
qualitative sense from other objects?''

    Answer. CBP understands that electronic devices often contain 
personal information and, for that reason, has taken steps for many 
years to ensure that border searches of electronic devices are 
conducted in a judicious and transparent manner. As reflected in CBP's 
governing policy directive addressing this issue, which has been 
available to the public since 2009, CBP has provided specific guidance 
to our officers about conducting these searches in addition to 
supporting robust oversight and monitoring to ensure that CBP continues 
to respect the privacy of international travelers while performing its 
vital law enforcement mission. Furthermore, CBP takes steps to ensure 
that it only searches information residing on the device itself, and 
our agency has applied policy limitations that are above and beyond 
those which are constitutionally required. Border searches of 
electronic devices affect less than one-hundredth of one percent of 
travelers entering the United States, a significant majority of which 
do not concern U.S. citizens. Additionally, we carefully monitor the 
evolving jurisprudence around digital media, and I am committed to 
ensuring that strong policies and transparent practices governing our 
examinations of these devices are in place and improved iteratively.

    Question. As you know, the Protecting Data at the Border Act I have 
introduced with Senator Paul requires a warrant to search a device at 
the border. Understanding that your agency can move far more quickly 
than Congress, will you revise your internal policies to require a 
level of suspicion nationwide before requesting or seeking assistance 
to search a device?

    Answer. CBP is aware of the proposed Protecting Data at the Border 
Act and respects the rights of our citizens. The concerns at issue are 
why we conduct border searches of electronic devices in a limited, 
judicious manner and ensure searches of electronic devices adhere to 
the strict and clearly defined guidelines set forth in CBP Directive 
3340-049. That said, searches of electronic devices at the border 
routinely result in significant enforcement actions despite the rarity 
of their use.

    As an example of the care with which CBP applies this authority, 
when requesting subject matter assistance in furtherance of a border 
search of electronic devices, CBP Directive 3340-049 authorizes CBP 
officers to transmit electronic devices or copies of information 
contained therein to other Federal agencies only when they have 
reasonable suspicion of activities in violation of the laws enforced by 
CBP. Moving forward, and in recognition of the requirement described in 
section 802(k) of the Trade Facilitation and Trade Enforcement Act of 
2015 (TFTEA), which requires CBP to review and update at least every 3 
years its standard operating procedures relating to searches of 
electronic devices at ports of entry, we are currently reviewing CBP 
Directive 3340-049 and intend to revise and update it to reflect 
evolving operational practices on this important and sensitive issue.

    Question. The 9th Circuit has required reasonable suspicion for 
searches of devices at the border. As such, people in Portland 
currently get greater protection than travelers flying into New York or 
Chicago. Airports in the 9th Circuit are some of the busiest in the 
United States, with tens of millions of international travelers 
entering the country through them each year. If CBP has been able to 
protect our borders and, more broadly, U.S. national security, while 
following a reasonable suspicion standard in the 9th Circuit, why could 
the agency not also adopt the same standard elsewhere in the country?

    Answer. CBP dutifully adheres to judicial rulings and will continue 
to carry out our mission of protecting the homeland as permitted by 
law. CBP is responsible for ensuring the safety and admissibility of 
the goods and people that enter the United States. Doing so in an 
increasingly digital world depends on our ability to lawfully inspect 
goods--electronic or otherwise--entering the United States. Moreover, 
under U.S. immigration law, applicants for admission bear the burden of 
proof to establish that they are clearly eligible to enter the United 
States, and all items entering the country are subject to inspection. 
In compliance with the requirements of the Trade Facilitation and Trade 
Enforcement Act of 2015, CBP is actively engaged in reviewing its 
governing policy on the border search of electronic devices, to include 
setting appropriate policy limitations for these searches, particularly 
when forensic review is involved.

    Question. When meeting with my staff, CBP personnel stated that the 
agency does occasionally perform border searches of Americans' 
electronic devices at the request of other governmental agencies.

    Answer. CBP has the authority to inspect and examine all 
individuals and merchandise entering or departing the United States, 
including all types of personal property such as electronic devices. 
See, e.g., 8 U.S.C. Sec. Sec. 1225; 1357; 19 U.S.C. Sec. Sec. 482; 507; 
1461; 1496; 1581; 1582; 1589a; 1595a; see also 19 CFR Sec. 162.6, 
stating that ``[a]ll persons, baggage, and merchandise arriving in the 
Customs territory of the United States from places outside thereof are 
liable to inspection and search by a Customs officer.'' CBP exercises 
its border search authority in accordance with its statutory and 
constitutional authority. More specifically, pursuant to CBP Directive 
3340-049, the use of other Federal agency analytical resources, such as 
translation, decryption, and subject matter expertise, may be needed to 
assist CBP in reviewing the information contained in electronic devices 
or to determine the meaning, context, or value of information contained 
in electronic devices. CBP's Directive specifies how officers may 
pursue seeking such assistance.

    Question. In each of the last 5 calendar years, how many searches 
of electronic devices at the border did CBP perform at the request of 
another Federal agency?

    Answer. CBP does not have a tracking mechanism to account for 
electronic devices searched at the border with the assistance of 
another Federal agency. However, the total number of border searches of 
electronic devices performed for the past 5 fiscal years are as 
follows: 5,085 for FY 2012; 5,709 for FY 2013; 6,029 for FY 2014; 8,503 
for FY 2015; 19,033 for FY 2016 and 30,151 for FY 2017. Although the 
trend has been for an increasing number of searches, it remains that 
CBP examines the electronic devices of less than one-hundredth of one 
percent of travelers arriving to the United States. Over the past few 
years, CBP has adapted and adjusted our actions to align with current 
threat information, which is often based on intelligence. As the threat 
landscape changes, so does CBP. Additionally, travelers are carrying 
more devices and more CBP officers have been trained on electronic 
device searches as more travelers than ever before are arriving at U.S. 
ports of entry with multiple electronics. Searches of electronic 
devices at the border routinely result in significant enforcement 
actions despite the rarity of their use.

    Question. What does CBP require of the requesting Federal agency 
before stopping an American at the border and searching their 
electronic devices?

    Answer. The decision to conduct a border search of an electronic 
device rests exclusively with CBP and is conducted in accordance with 
applicable law and policy, including CBP Directive 3340-049. CBP 
decisions to perform border searches of electronic devices can benefit 
from information provided by other law enforcement agencies.

    Question. Must the request be made in writing and do they have to 
describe what information or evidence of a crime they are looking for?

    Answer. CBP liaises with other Federal agencies in many ways, 
including through the Joint Terrorism Task Force (JTTF). CBP exercises 
its authority to search electronic devices in concert with law and 
policy and driven by CBP operational need to inspect goods and persons 
crossing our border. CBP decisions to perform border searches of 
electronic devices can benefit from information provided by other law 
enforcement agencies.

    Question. During the past 5 years, have CBP personnel ever 
surreptitiously installed surveillance software or malware onto a 
traveler's device during a border search?

    Answer. To my knowledge, CBP personnel have not surreptitiously 
installed surveillance software or malware onto a traveler's device 
during a border search.

    Question. Alternatively, has CBP assisted another government agency 
in covertly installing malware onto a traveler's electronic device?

    Answer. To my knowledge, CBP personnel have not assisted another 
government agency in covertly installing malware onto a traveler's 
electronic device.

    Question. In your due diligence responses to questions submitted by 
staff on June 20, 2017, you enclosed a copy of a muster marked ``For 
Official Use Only'' detailing procedures for handling devices at the 
border. I request that you make that muster public and submit it into 
the record of this hearing alongside your responses to these questions.

    If you choose not to make that muster public, please describe your 
rationale for continuing to mark it ``For Official Use Only.''

    Answer. The muster speaks to internal operational policy and 
protocol and contains law enforcement sensitive material. Nevertheless, 
CBP has explained publicly that its border searches extend to the 
information that is physically resident on the device, and does not 
extend to information that is solely located on remote servers (known 
as solely ``in the cloud''), which is the subject of that muster.

    Question. Additionally, please describe for the public what 
procedures are included in the muster that ensures agents only search 
for information not found exclusively on remote servers.

    Answer. Border searches of electronic devices extend to searches of 
the information residing on the physical device when it is presented 
for inspection or during its detention by CBP for a border inspection. 
To ensure that data residing only in the cloud is not accessed, 
officers are instructed to ensure that network connectivity is disabled 
to limit access to remote systems.

    Question. How many times did border officers search electronic 
devices during FY 2017?

    Answer. CBP processed 388,379,188 travelers during FY 2017 and 
conducted 30,151 border searches of electronic devices during that time 
period.

    Question. Of those border device searches, how many were supported 
by reasonable suspicion?

    Answer. CBP does not compile this specific data set, but strictly 
adheres to court orders in how it conducts border searches.

    Question. Of those border device searches, how many were of U.S. 
citizens?

    Answer. There were 6,003, or fewer than 20 percent.

    Question. Many of our discussions have included reference to your 
privacy policy governing device searches at the border. The American 
public deserves more certainty than guidelines can provide, which is 
why I wrote the Protecting Data at the Border Act. Will you make public 
any changes to the privacy policy immediately, and before they are 
implemented in the field?

    Answer. If confirmed, I do intend to make the updated policy 
public. As CBP works to develop policies and programs that achieve 
DHS's mission to protect the homeland, CBP will continue to work 
vigorously to minimize the impact on an individual's privacy. In 
particular, CBP will continue to safeguard a traveler's personal 
information. We are currently reviewing CBP Directive 3340-049 to 
reflect evolving practices and in compliance with the Trade Enforcement 
and Trade Facilitation Act of 2015.

    Question. When your officers ask travelers and citizens if they can 
search their devices at the border, most travelers don't know they can 
refuse. Being asked by an agent to search your intimate possessions is 
relatively frightening situation for most people, especially when 
they're just trying to catch connecting flights or make important 
appointments.

    It is your policy that people can refuse, but if they do refuse, 
you can take their device, correct?

    Answer. CBP may request the traveler's assistance in presenting his 
or her effects--including electronic devices--in a condition that 
allows inspection of the item and its contents. If a CBP officer is 
unable to determine whether an item being brought into the United 
States is admissible to this country, as presented for inspection, the 
officer may detain the item pending a determination of its 
admissibility in accordance with the law. To the extent that CBP 
detains an electronic device, it provides a custody receipt to the 
traveler, as outlined in CBP Directive 3340-049.

    Question. I understand you don't believe you need consent to search 
a digital device, but I think it's important that people know their 
rights, and that CBP can't demand people assist in unlocking a device 
at the border. Will you to commit to making sure that individuals know 
their rights, and your authorities, before they're asked to provide 
assistance in searching a device?

    Answer. CBP profoundly respects the constitutional rights and 
privacy of our citizens, and when the fact of a search can be disclosed 
to the traveler without hampering national security, law enforcement, 
or other operational considerations, we continue to provide 
comprehensive information to travelers who have experienced a search of 
their electronic device by offering a tear sheet that clearly explains 
and details the authority supporting the search of their electronic 
device. This tear sheet is publicly available at: https://www.cbp.gov/
sites/default/files/documents/inspection-electronic-devices-
tearsheet.pdf. In short, CBP provides the traveler with details on how 
they can request additional information or report concerns about the 
search.

    Question. Mr. McAleenan, I'm very concerned about the direction our 
country is headed given the sharp increase in anti-immigrant rhetoric 
I've witnessed over the last year. From my family's experience and from 
my experience seeing the sacrifices people make to come to our country, 
the issue of immigration is one that is near and dear to my heart. 
Today, we continue to see this cycle of families and individuals 
fleeing their home countries in hopes they too can find a better, safer 
life in a new country. It's an amazing thing about our country--that no 
matter the many challenges we face, the United States is still the 
place where immigrants yearn to be.

    This is why it is so offensive to me to hear stories about 
immigration agents stalking locations that are part of daily life in 
this country, in order to find and harass suspected immigrants. A few 
months ago, I introduced a bill to block immigration agents from 
stalking sensitive locations like schools, hospitals, and religious 
institutions without prior approval. The Protecting Sensitive Locations 
Act ensures that immigrants have access to education, criminal justice, 
and social services without fear of deportation. The Department of 
Homeland Security's existing policy on sensitive locations would be 
codified and expanded to ensure that people are not afraid to go to the 
doctor, to send their children to school or attend a place of worship.

    What is your approach to enforcement in sensitive locations?

    Answer. CBP's sensitive locations policy remains in place and I 
have no plans to change it at this time. I fully support our officers 
and agents efforts to enforce the laws of the United States through 
their dedicated work in the field. Our policy has guidance for 
operations at or near certain locations to ensure that the interruption 
of daily lives of most Americans is reduced to the greatest extent 
possible.

    Question. Do you believe that hospitals, schools, courthouses, 
places of worship, and organizations assisting crime victims and 
providing services to children, pregnant women, and those with 
disabilities should be off limits to enforcement actions, unless 
exigent circumstances require it?

    Answer. CBP's sensitive locations policy remains in place and I 
have no plans to change it at this time. I fully support our officers 
and agents' efforts to enforce the laws of the United States through 
their dedicated work in the field. Our policy has guidance for 
operations at or near certain locations to ensure that the interruption 
of daily lives of most Americans is reduced to the greatest extent 
possible.

    CBPOs and Agents enforce all applicable U.S. laws, including 
against illegal immigration, narcotics smuggling and illegal 
importation. Inevitably, enforcement actions and investigative 
activities may, at times, lead to an apprehension at or near community 
locations or establishments which have been deemed as sensitive 
locations. CBP policy does not preclude its Officers and Agents from 
conducting enforcement actions at or near these locations, but directs 
that careful consideration be undertaken, including consultation with 
supervisors where appropriate. In all cases, Agents and Officers are 
expected to exercise sound judgment and common sense while taking 
appropriate action, and exigent circumstances requiring an Agent or 
Officer to enter a sensitive location must be reported immediately to 
ensure visibility and oversight.

    Question. How do you plan to ensure that CBP officers respect 
immigrant rights in sensitive locations?

    Answer. CBP's sensitive locations policy remains in place and I 
have no plans to change it at this time. CBPOs and BPAs do not actively 
patrol or station themselves outside of locations deemed sensitive 
under CBP policy. As noted above, however, if information is received 
regarding a violation of Federal law at or near those locations, CBP 
policy does not preclude its Officers and Border Patrol Agents from 
conducting enforcement actions at or near these locations, but directs 
that careful consideration be undertaken, including consultation with 
supervisors where appropriate. In all cases, Agents and Officers are 
expected to exercise sound judgment and common sense while taking 
appropriate action, and exigent circumstances requiring an agent or 
officer to enter a sensitive location must be reported immediately to 
ensure visibility and oversight.

    Question. The Republican budget includes massive cuts to domestic 
spending programs that are essential to millions of Americans--programs 
like Meals on Wheels, LIHEAP, and Medicaid. However, the budget also 
makes room for increased spending for misguided border and immigration 
enforcement.

    Given CBP's recent issues with corruption, including more than 140 
agents arrested or convicted on corruption charges, how will you ensure 
that this funding is only used to hire well-qualified candidates?

    Answer. CBP has a workforce of dedicated men and women who are 
among the finest civil servants in the world, and who carry out their 
duties with the utmost professionalism and efficiency. Recruiting, 
hiring, and sustaining a world class law enforcement workforce is CBP's 
top mission support priority, and would remain mine, if confirmed. I 
would ensure appropriate funding is only used to hire a well-qualified 
workforce by continually reviewing and enhancing our hiring process. 
CBP law enforcement applicants undergo a thorough pre-employment 
examination process including a cognitive exam, a structured panel 
interview, an automated vetting procedure, a polygraph exam, and a Tier 
5 level background investigation. I believe our process is one of the 
most rigorous in the government.

    I do not favor lowering our standards for frontline personnel, and 
remain committed to key background and security steps such as a 
federally certified polygraph examination. Any waiver authority granted 
by Congress where applicants demonstrate a track record of service and 
trustworthiness would be utilized in a judicious manner.

    Question. Since the President took office, the administration has 
largely stopped prioritizing the deportation of undocumented immigrants 
with criminal records and routinely fails to take into consideration 
circumstances like children in the United States and community ties. Do 
you believe that the best use of CBP resources is to arrest and deport 
every undocumented immigrant they come across, no matter the 
circumstances?

    Answer. U.S. Border Patrol (USBP) operations between ports of entry 
are focused on interdicting illegal border crossings at or near the 
immediate border and on routes of egress into the United States. While 
USBP may arrest all individuals found to have entered the United States 
illegally during border security operations, the vast majority of 
apprehensions involve recent border entrants. Each person who is 
apprehended is subject to the Consequence Delivery System (CDS), which 
ensures the most appropriate actions are applied to each case. CDS 
standardizes USBP's decision-making process specific to each 
apprehended subject by consistently and systematically applying 
consequences and evaluating each consequence's effectiveness and 
efficiency. CDS measures the consequences applied to persons illegally 
entering the United States against defined alien classifications. CDS 
includes the analysis of a variety of possible administrative, 
criminal, and programmatic consequences and incorporates a number of 
pre-existing initiatives and programs. CBP referrals for further 
immigration enforcement action are subject to prioritization and 
adjudication by both U.S. Immigration and Customs Enforcement and the 
Executive Office of Immigration Review.

    Question. In recent years, the CBP has taken a number of 
questionable actions that infringe on the rights of U.S. citizens, 
permanent residents, and immigrants like roving border patrols, racial 
profiling, and unlawful detentions. To reign in the administration's 
unfair immigration policy, I co-sponsored legislation with my colleague 
Senator Menendez to counter them. The PROFILED Act guarantees basic due 
process rights and protections for any individual impacted by 
immigration enforcement and detention operations. Targeting American 
citizens, immigrants and refugees because of the way they look goes 
against the very founding ideas of who we are as Americans. It's only 
right that when people are unfairly targeted by law enforcement in our 
country, they have the full protection of our laws.

    The best practices for Federal law enforcement agencies clearly 
identify that training, data collection, and accountability are the 
only way to make a profiling policy work.

    Will you implement implicit-bias training for CBP employees to 
address the obvious racial profiling that harasses members of our 
border communities?

    Answer. CBP policy prohibits the consideration of race or ethnicity 
in law enforcement, investigation, and screening activities, in all but 
the most exceptional circumstances. CBP's Standards of Conduct further 
highlights CBP's prohibition on bias-motivated conduct and explicitly 
requires that ``Employees will not act or fail to act on an official 
matter in a manner which improperly takes into consideration an 
individual's race, color, age, sexual orientation, religion, sex, 
national origin, or disability, union membership, or union 
activities.'' The use of race and ethnicity information in violation of 
this policy may subject CBP employees to discipline under the Standards 
of Conduct. CBP will continue to provide training to ensure continued 
adherence to our existing policies on this topic.

    Question. Will you collect data on individual stops so that CBP can 
understand if their practices are even effective?

    Answer. CBP documents individual stops in the Intelligent Computer 
Assisted Detection (ICAD) system. Our collection practices continue to 
evolve to ensure we efficiently and effectively identify and respond to 
threats to border security. The amount and type of data collected for 
individual stops, including vehicle stops and pedestrian interactions, 
is frequently reviewed and amended when necessary, within the bounds of 
our authority. Data we track and collect from our significant 
encounters includes time, location and outcome, as well as multiple 
other details. CBP has considered adding fields to track specific 
descriptions of subjects and vehicle occupants. We determined that it 
would not be appropriate as it could encourage the reliance of the 
perception of ethnicity as a consideration in our stops. Ethnicity is 
not a primary consideration in our stops and there are no immediate 
plans for additional specific additional data fields. CBP will 
reinforce its collection activities for stops to ensure that we are 
collecting sufficient data to ensure our practices are effective and 
unbiased.

    Question. Considering the CBP has authority to stop and conduct 
searches within 100 miles of any land or coastal border, I am alarmed 
at how far and wide CBP's roughly 20,000 agents' authority to hassle 
Americans reaches. Oregon is a coastal State, and I can't imagine 
explaining to voters there that border agents could in fact set up a 
mobile checkpoint in Portland--80 miles inland--and subject them to the 
kind of harassment a checkpoint encounter entails. Roving checkpoints 
have severely impacted border residents' quality of life, disrupted 
legitimate business, and gained the CBP little more than minor drug 
prosecutions against citizens.

    Will you continue to support their use as Commissioner?

    Answer. USBP checkpoints, both fixed and temporary, are a proven, 
effective layer in our multi-layered approach to securing the border 
and interdicting unlawful entry. Checkpoints are strategically placed 
where potentially illegal cross border traffic is most likely to 
converge as it makes egress away from the border into the United 
States. Travelers in vehicles are briefly questioned as to their 
citizenship to ensure those out of status are prevented from further 
entry into the interior of the country in violation of U.S. immigration 
laws. As the Supreme Court recognized in United States v. Martinez-
Fuerte, immigration checkpoints are both a constitutional and necessary 
law enforcement tool to detect illegal aliens seeking to enter the 
United States. 428 U.S. 543 (1976). Accordingly, Border Patrol Agents 
may ask individuals about their citizenship and request documents 
proving their right to be in the United States.

    If confirmed, I would support the continued use of immigration 
checkpoints as an important part of a layered border security approach 
where they provide interdiction capabilities on routes of egress away 
from the border. I would not support their use in operationally 
inefficient or ineffective manner.

    Question. If so, on what evidence of their effectiveness would that 
decision be based?

    Answer. The decisions on when and where to operate immigration 
checkpoints are based on routes of egress from the border, recent and 
historical operational results, and current intelligence. Checkpoints 
are strategically placed where potentially illegal cross border traffic 
is most likely to converge as it makes egress away from the border into 
the United States. USBP immigration checkpoints are effective. Border 
Patrol Agents conduct thousands of immigration enforcement actions 
annually resulting in the arrest of criminal aliens, smugglers, and 
thousands of individuals that have entered the country unlawfully. USBP 
also makes significant seizures of illegal drugs at checkpoints each 
month. In FY 2017, BPAs apprehended over 6,000 illegal aliens and 
seized over 75,000 pounds of illegal narcotics.

    Question. In recent years, reports of extremely poor conditions for 
individuals held in CBP short-term custody facilities have 
proliferated, including from facilities in Oregon. Hundreds of 
thousands of individuals are held in CBP short-term custody facilities 
each year. These facilities, which are designed to detain individuals 
for up to 72 hours but in practice are often used to hold people for up 
to 2 weeks or longer, lack comprehensive standards, as well as 
effective oversight and transparent data collection on detention 
activities.

    Reports from the Northwest Detention Center in Tacoma, Washington 
have found that conditions for detainees are troubling, to say the 
least. Detainees there have reported conditions including poor hygiene 
and lack of access to medical care, recreation and nutritious food. DHS 
itself has acknowledged ``recurring problems'' and oversight failures. 
Multiple Federal cases are pending, one of which credited evidence of 
``widespread and deplorable conditions.''

    What will you do to ensure that conditions in these facilities are 
appropriate and consistent with American law and values?

    Answer. CBP operates short-term holding facilities as defined in 
the Trade Facilitation and Trade Enforcement Act of 2015 (TFTEA). TFTEA 
states in part that `` `short-term detention' means detention in a CBP 
processing center for 72 hours or less'' (19 U.S.C. 4301). The vast 
majority of individuals apprehended or arrested by CBP are removed, 
transferred to another agency, or released from these short-term 
holding facilities within this 72-hour time frame.

    CBP treats all individuals with dignity and respect, and ensures 
that all such facilities meet all relevant legal and policy 
requirements, including the requirements of the Flores v. Reno 
Settlement Agreement, the Prison Rape Elimination Act, and CBP National 
Standards on Transport, Escort, Detention, and Search (TEDS). 
Additionally, both CBP's Office of Field Operations and U.S. Border 
Patrol ensure that all agents and officers appropriately monitor the 
conditions in hold rooms, and enter pertinent information into the 
appropriate systems of record on a regular basis. Conditions in CBP 
holding facilities are reviewed internally, and are subject to both DHS 
Civil Rights and Civil Liberties, and Office of Inspector General 
oversight.

    If confirmed, I will remain committed to the humane care and 
treatment of individuals in these short-term holding facilities.

    Question. Will CBP commit to increasing transparency regarding its 
detention facilities, in terms of public data reporting as well as 
release of inspections that monitor conditions?

    Answer. CBP has several compliance mechanisms in place, including a 
Self-
Inspections Program and inspections by CBP's Management Inspection 
Division (MID). DHS's Office of Inspector General has also conducted 
spot inspections of CBP facilities. Additionally, CBP prepares an 
annual report assessing CBP efforts to prevent, detect, and respond to 
sexual abuse in holding facilities. This report addresses CBP's efforts 
to assess and improve the effectiveness of its sexual abuse prevention, 
detection, and response policies, practices, and training, and is 
posted in CBP's public Care in Custody webpage.

    Question. Please specify what and when such reporting can be 
expected.

    Answer. CBP reports assessing CBP efforts to prevent, detect, and 
respond to sexual abuse in holding facilities, pursuant to the 
Department of Homeland Security (DHS) Standards to Prevent, Detect, and 
Respond to Sexual Abuse and Assault in Confinement Facilities (6 CFR 
Sec. 115.188), are prepared annually and made readily available to the 
public through the CBP Care in Custody webpage. Additionally, CBP will 
post final reports of holding facility audits conducted by independent 
auditors assessing CBP's implementation of the Standards to the 
agency's public website.

    Question. Will you increase transparency by permitting non-
governmental/third-party inspections and publishing statistics on 
detention operations?

    Answer. CBP engages with non-governmental organizations (NGOs) 
frequently, including providing briefings on our facilities. I 
personally hosted our last NGO roundtable in October. Additionally, CBP 
publishes a range of data on our CBP.gov website that provides 
information on demographics and locations of apprehensions and adverse 
immigration actions.

    Question. I appreciate your working with me on staffing at the Port 
of Portland. I understand international passenger arrivals at the 
Portland Airport increased 48 percent from 2013 through 2016. The Port 
of Portland says CBP has done an outstanding job of managing this 
dramatic growth with a static staffing level. I expect that it will 
continue to be a challenge to safely, securely, and efficiently process 
new services as the needs grow.

    If confirmed, will you continue to work with me to ensure the 
Portland Airport is properly staffed to accommodate the immediate and 
future growth in demand for CBP services?

    Answer. I appreciate your interest in this topic, and, if 
confirmed, I look forward to continuing to work with you to ensure 
CBP's ability to facilitate legitimate trade and travel in the future. 
Appropriate staffing of our Nation's ports is among the most 
significant challenges that we face and is essential to providing a 
secure and expeditious gateway for trade and travel so critical to the 
U.S. economy.

    Question. CBP is on the front line of enforcement of our trade 
laws, but I worry that trade issues are getting short shrift from this 
administration. The President promises to pour more money than ever 
into border security, at a time when border crossings are at lows not 
seen since the 1970s. He has ordered the hiring of 5,000 more Border 
Patrol agents, in addition to the planning, designing and construction 
of a border wall, including millions for prototypes.

    In my view, this is a gross misallocation of scarce resources. CBP 
has consistently failed to meet minimum staffing requirements set out 
in statute for trade functions, and is well below the optimal level for 
carrying out trade enforcement. The difficulties you and I have 
discussed in staffing the Port of Portland is emblematic of the failure 
to meet staffing goals. What we are seeing overall is an increase in 
challenges for trade enforcement, and a decrease in CBP's capabilities 
to meet it.

    What is CBP's staffing target for CBP officers in 2018, and how 
does that compare with the latest staffing target from CBP's Workload 
Staffing Model?

    Answer. CBP's top mission support priority is recruiting, hiring, 
and sustaining a world-class law enforcement workforce, and CBP 
Officers are a fundamental element of that effort. CBP's estimated FY 
2018 Staffing Target for CBPOs is derived from historical congressional 
floors and increases to appropriations and fees, as well as alternative 
funding. The FY 2018 target of 24,147 is the goal for CBPO hiring 
efforts and represents our floor for CBPOs.

    Updated CBP Workload Staffing Model results submitted to Congress 
earlier this year continue to show a need for additional CBP Officers 
to fully meet the standards set by statute, regulation, and CBP 
policies, assuming maintenance of current processes, procedures, 
technology, and facilities. The most recent results--factoring in the 
additional 2,000 CBPOs funded by the FY 2014 DHS Appropriations Act--
show a need for 2,516 additional CBPOs above our FY 2018 target. The 
administration submitted the updated WSM earlier this year, and the 
President's FY18 budget submission states the intent to submit 
proposals for authorizing language that would provide user fee funding 
to address the funding gap for CBP Officers as we have in past years.

    Question. Have you developed a plan for addressing staffing 
shortfalls with respect to CBP officers?

    Answer. Recruiting, hiring, and sustaining our law enforcement 
workforce is our top mission support priority. CBP has developed an 
integrated plan, led by our Office of Enterprise Services and supported 
by the Office of Field Operations. Over the past 3 years, we have 
revamped our hiring efforts with over 40 process improvements that have 
dramatically decreased the time to hire.

    Our primary focus for FY18 is on enhancing our recruiting efforts 
to increase the number and quality of applicants entering our hiring 
process, to build on the positive trends in applications and success 
rate seen over the last 6 months. We have established a National 
Recruiting Command, invested in digital advertising, and identified 
uniformed personnel to serve full-time to enhance our outreach.

    To support the recruitment of CBP Officers specifically, OFO has 
established a Recruitment Crisis Action Team (RCAT), and created an OFO 
National Recruitment Strategy, which is focused on targeting the right 
applicants for the CBPO position. OFO has begun to focus recruitment 
efforts for the many vacancies on the Southwest border area.

    OFO is in the process of developing Destination Guides, Port 
Guides, and ``Day in the Life of a CBPO'' videos, all of which will be 
used at recruitment events and be available on the web in an electronic 
version. Going forward, OFO will be training all of our recruiters on 
the OFO National Recruitment Strategy, on the usage of the various 
guides, and have all recruiters target specific areas, as designated by 
OFO Headquarters.

    Question. Given the President's goal with respect to hiring Border 
Patrol agents, how will you ensure that hiring of CBP officers is not 
impacted?

    Answer. CBP continues to strengthen all aspects of its recruitment 
and hiring strategy to ensure the entire frontline--both along the 
border and at every POE--is staffed in accordance with the expanding 
complexity and demands of its mission.

    In those instances where CBP is concerned about a specific POE 
being understaffed relative to others, it will rebalance by directing 
resources from other Field Offices to fill the gap, as is evidenced by 
our recent temporary assignments to the Tucson and San Diego Field 
Offices.

    CBP is continuing work to address 1,132 CBPO positions that are 
vacant as of September 30, 2017. CBP has worked aggressively over the 
past several years to implement a multifaceted recruitment strategy 
that improves frontline hiring processes and enhances its ability to 
meet hiring goals. CBP continues to strengthen all aspects of hiring, 
which includes initiatives designed to attract more qualified 
applicants, expedite the pre-employment timeline, refine the hiring 
process to address all potential bottlenecks, and reduce the attrition 
rate of the existing workforce. Staffing the frontline with well-
qualified individuals of the highest integrity and capability remains 
the top mission support priority for CBP.

    Question. One of the important things that the 2015 Customs bill 
did--thanks in large part to the hard work of Senator Brown--was to 
close a loophole that allowed goods made with forced labor into the 
United States. That was supposed to make sure that there are no 
circumstances under which such goods can enter the commerce of the 
United States. It was the right thing to do both to protect human 
rights and to protect U.S. workers from unfair competition. However, 
enforcement of this prohibition seems to have stalled under this 
administration.

    I understand that CBP is considering regulations on this topic. If 
confirmed, will you commit to working with my staff to ensure that 
regulations are aimed at vigorous enforcement of the ban on goods made 
with forced labor from entering the United States?

    Answer. Yes. I am committed to rigorous enforcement of forced labor 
prohibitions. CBP is undertaking a regulatory review to ensure that we 
are using all CBP authorities, and other agency resources effectively 
in forced labor enforcement efforts.

    Question. What other steps are you taking to step up enforcement?

    Answer. CBP has taken a number of steps to enhance enforcement of 
forced labor in supply chains since TFTEA was enacted. CBP engaged 
specific industry sectors through our Centers of Excellence and 
Expertise and our regulatory auditors to conduct bi-directional 
education and assess best practices of risk mitigation and compliance 
related to forced labor in the global supply chain. We updated our 
internal enforcement policies to require mandatory referral to U.S. 
Immigration and Customs Enforcement, Homeland Security Investigations 
(HSI) for all allegations of forced labor. As with other criminal fraud 
referrals, CBP works closely with HSI and the Department of Justice 
(DOJ) to support these investigations. To date CBP has referred six 
forced labor allegations to HSI.

    CBP is committed to working with Congress, the private sector, 
Civil Society Organizations, and interagency stakeholders to craft the 
most effective approach to modernize the regulations to protect human 
rights and to protect U.S. workers from unfair competition. CBP has 
undertaken an active communications effort to ensure importers are 
aware of the risks associated with forced labor, what their compliance 
responsibilities are and how they can validate that their supply chains 
are free of forced labor. CBP published technical corrections to the 
forced labor regulations to remove the consumptive demand loophole and 
is now outlining substantive changes to allow for an agile enforcement 
response.

    My staff is actively engaged in the DHS-led Forced Labor 
Interagency Working Group, which includes ICE, Department of State, 
DOJ, U.S. Agency for International Development, Department of Treasury, 
General Services Administration and Department of Labor. CBP works 
closely with these agencies, when appropriate, to evaluate forced labor 
cases and allegations.

    We have also leveraged intelligence units within our Office of 
Trade and OFO's National Targeting Center, Counter Networks Division. 
In the last 2 years, CBP has detained $6,307,926 in goods suspected of 
violating 19 U.S.C. Sec. 1307. Most recently, CBP detained 11 shipments 
of seafood suspected of being processed by companies in China using the 
labor of North Korean nationals. The shipments are valued at $564,775 
and are detained at four ports of entry. Further, OFO issued an Action 
memorandum to the Centers directing them to issue requests for 
information to approximately 235 importers. This effort focuses on 
manufacturers and importers with links to the areas within China 
suspected of using the labor of North Korean nationals to manufacture 
goods destined for the United States.

    CBP also continues to meet with Civil Society Organizations to 
ensure we are aware of trends, insights, and concerns that these groups 
possess into forced labor issues. If confirmed, I will continue to 
implement aggressive and broad-based enforcement efforts to address the 
challenge of goods manufactured with forced labor entering our supply 
chain.

    Question. The Trade Facilitation and Trade Enforcement Act of 2015 
required CBP to establish a risk assessment program to adjust the 
bonding amount based on importer risk, to ensure that the customs 
revenue is collected from trade cheats that evade our laws, underpay 
duties, and then cut and run. I am not aware that any such program has 
been established to date, even though we are almost a year past the 
deadlines. At the same time, President Trump signed an executive order 
that mandated a narrower plan to provide security for the payment of 
anti-dumping and countervailing duties. I understand that plan is being 
finalized for delivery to the White House.

    Answer. CBP is actively working on implemented risk-based bonding 
as directed in TFTEA. The CBP Office of Trade (OT) has led an internal 
working group with the Centers of Excellence and Expertise and the 
Office of Finance to identify key risk factors to incorporate into the 
Risk Assessment Guidelines called for in TFTEA section 115--Importer 
Risk Assessment Program. At the same time, the OT is developing 
statistical models for risk based bonding to determine which risk 
factors have a strong statistical correlation with future AD/CVD non-
payment. CBP is currently working with the COAC Trade Enforcement and 
Revenue Committee's Bond Working Group on ways to implement enhanced 
bonding procedures as work on the statistical models progresses. OT 
plans to pilot this process in FY18. Once fully deployed, CBP will use 
the statistical results to adjust bond amounts to protect government 
revenue and apply AD/CVD orders effectively.

    The plan called for in Executive Order 13785, entitled 
``Establishing Enhanced Collection and Enforcement of Antidumping and 
Countervailing Duties and Violations of Trade and Customs Laws,'' has 
been finalized and delivered to the White House.

    Question. Presumably, you have submitted the plan mandated by the 
executive order to the President, but what are your intentions for 
complying with the mandate in the Trade Facilitation and Trade 
Enforcement Act?

    Answer. CBP is actively working to comply fully with the mandate in 
TFTEA. CBP is pursuing a rigorous analysis process to ensure that risk 
factors used in assessing importers are defensible and meaningful 
predictors of importer risk. The Office of Trade (OT) has led an 
internal working group with the Centers of Excellence and Expertise and 
the Office of Finance to identify key risk factors to incorporate into 
the Risk Assessment Guidelines called for in TFTEA section 115--
Importer Risk Assessment Program. At the same time, the OT is 
developing statistical models to determine which risk factors have a 
strong statistical correlation with future AD/CVD non-payment. The CBP 
Office of Trade plans to pilot this process in FY 2018. Once fully 
deployed, CBP will use the statistical results to adjust bond amounts 
to protect government revenue and apply AD/CVD orders effectively.

    Question. In the Trade Facilitation and Trade Enforcement Act of 
2015, we raised the de minimis threshold for imports so that when small 
businesses bring in low-value shipments they don't need to go through 
the red tape or pay duties to bring inputs or product returns into the 
countries. I was a big proponent of this because it is a huge boon for 
small businesses that don't have the resources to navigate all the 
requirements for their smaller and less frequent imports. This is 
critical to the digital economy, where very small businesses now have a 
global reach and our trade policy should support that fact.

    If confirmed, are you committed to ensuring that de minimis 
shipments remain as streamlined as possible--and that new requirements 
aren't imposed on them?

    Answer. Facilitation of cargo and support of U.S. competiveness is 
a key part of CBP's trade mission. Streamlining and promoting 
frictionless trade are CBP's goals especially in light of changing 
technologies and business processes. CBP has been working closely with 
the trade community and participating government agencies to facilitate 
low value cargo while ensuring that shipments facilitated by e-Commerce 
are complying with CBP and other agency regulatory requirements.

    Question. If confirmed, will you commit to ensuring that CBP 
aggressively pursues the adoption of similar de minimis threshold by 
our trading partners, through the World Customs Organization, trade 
agreements negotiations, and other forums?

    Answer. Harmonizing de minimis approaches with other trade partners 
would be beneficial and contribute to the reduction in supply chain 
barriers globally. CBP is working with stakeholders in the private 
sector and the WCO to share best practices and lessons learned as we 
implement the TFTEA de minimis level increase. In addition, we are 
providing subject matter expertise to the U.S. Trade Representative, as 
it pursues the negotiating objectives as expressed in TFTEA around de 
minimis.

    Question. Mr. McAleenan, as you know, the customs reauthorization 
bill signed into law last year included the Enforce Act--the product of 
years of work by this committee to address brazen evasion of U.S. trade 
laws before businesses are sunk and jobs are lost. CBP started 
implementing the Enforce Act over a year ago.

    Can you give me an update on your enforcement actions under the 
Enforce Act provisions so far?

    Answer. To date, CBP has initiated over 14 EAPA investigations and 
has reached an affirmative determination at the interim measures stage 
for each of them. These investigations cover various products, 
including wire garment hangers, wooden bedroom furniture, diamond 
sawblades, and oil country tubular goods (steel tubing). The interim 
measures taken protect the revenue, such as providing cash deposits on 
subsequent entries, suspending and extending liquidation of entries, 
rejecting entries summaries that are within the reject period, as well 
as evaluating the continuous bond and requiring single transaction 
bonds, as appropriate. In these investigations, the Trade Remedy Law 
Enforcement Directorate has coordinated more than 10 foreign onsite 
verifications, including two locations in Thailand and eight locations 
in Malaysia, among others, as well as domestic onsite verifications and 
multiple cargo exams. The onsite verifications are crucial to gather 
evidence of exporter production capability and capacity, to assess the 
information against that provided in the allegations and CBP's own 
research of the exporters and importers.

    The first EAPA allegation was filed only a few weeks after the 
regulations went into effect. CBP quickly formed a small cohesive 
investigative unit and completed its work well ahead of the statutory 
deadline for interim measures. In that first investigation, CBP 
initiated a unique investigative approach to obtain key information 
when the parties being investigated declined to participate. CBP 
reached its determination on interim measures a month ahead of the 
statutory deadline and issued its final determination to the parties to 
the investigation on August 14, 2017. The notice explained that there 
was substantial evidence on the record that merchandise was entered 
into the U.S. customs territory through evasion via transshipment of 
wire hangers from China through Thailand. As a result of this 
enforcement effort, the alleger filed eight more allegations and to 
date, these investigations alone have stopped the evasion of $33 
million in anti-dumping duties annually.

    Question. In my view, the success of implementation will hinge on 
the input of stakeholders. If confirmed, do you commit to working on 
increasing transparency and opportunities for stakeholder input in 
Enforce proceedings?

    Answer. Yes. To further the transparency of the EAPA 
investigations, we have provided a website to post both our decisions 
as well as background information on the investigations. We have 
already held a workshop with industry in April 2017 and anticipate 
another in early 2018 in order to engage stakeholders. Further in 
addition to our other public outreach efforts, EAPA investigations have 
been on the agenda at our East and West Coast Symposiums for the last 2 
years and this provides another avenue for engagement with stakeholders 
on the program. I intend to listen carefully to stakeholder input and 
work closely with Congress on EAPA implementation as we continue 
forward.

    Question. I requested a report from the Government Accountability 
Office that was released in July regarding U.S. Foreign Trade Zones 
(FTZs) and CBP's oversight of compliance with U.S. trade laws in the 
FTZ program. GAO found that CBP had not assessed compliance risks 
across the FTZ program, and therefore could not analyze and respond to 
the risk. That finding is troubling given that the FTZ program 
accounted for about 11 percent, or $245 billion, of imports in 2015.

    What is CBP doing to address the shortfalls identified by GAO, and 
what are the plans for the future to ensure compliance across the FTZ 
program?

    Answer. CBP concurred with the findings of this report from GAO and 
identified the gaps with GAO as part of the program review. We were 
pleased that detailed reviews did not identify revenue losses or other 
serious issues with the program, but rather that CBP was still 
transitioning from a paper based process, monitored at the local level, 
to a much more automated process under ACE that would allow for 
modernization and automation of CBP's control processes as well. We 
have determined that we will take a multi-step approach to this review 
and update of this important oversight:

    1.  As of October 1, 2017, CBP is collecting in a centralized 
database, the results of all compliance reviews and risk assessments 
performed nationwide by ports. As per the GAO recommendation, we will 
collect the first year worth of data for the purposes of a national 
review of the risk assessment process applied to FTZ oversight.
    2.  Starting October 1, 2018, CBP will begin the comprehensive 
national FTZ risk assessment review based on the data collected for the 
Fiscal Year. That process is expected to take 90 days. At the end of 
that period, CBP will issue updated risk assessment procedures based on 
any gaps identified in the risk assessment review and implement same.

    Concurrent to the risk assessment review and collection, CBP is 
undergoing a comprehensive review of current procedures with the goal 
of using automation more effectively for oversight. Current paper 
processes are being reviewed and assessed to see if automated 
alternatives can be utilized (paper files vs. ACE reports for example) 
and determining the time frames for these implementations based on 
availability of technology. CBP has further targeted an update in the 
internal Compliance Review Handbook for March 2019.

    Question. President Trump has repeatedly said he will build a wall 
along the 2,000-mile southern border. Not only would this be extremely 
costly, but it would also require the confiscation of private lands by 
the Federal Government and would likely result in numerous legal 
challenges and environmental damage.

    A September 2017 report by the DHS Office of Immigration Statistics 
found that illegal entries were at their lowest level since 2000 and 
likely since the early 1970s. Further, numerous reports by GAO and 
other government bodies have criticized the lack of systematic 
assessment of border barrier effectiveness. In light of the significant 
drop in unauthorized entries, which began long before this 
administration, and the uncertainty of the effectiveness of border 
walls, is it optimal use of taxpayer resources to spend billions of 
dollars on a border wall?

    Answer. The border environment is dynamic and the threat situation 
is driven by adversary actions and is constantly in flux. CBP must be 
afforded flexibilities to remain agile to respond appropriately based 
on current mission needs and resourced to address capability gaps.

    Securing the border requires an integrated approach including 
infrastructure such as border wall and road access, surveillance 
technology, response capability, and personnel. The U.S. Border Patrol 
maintains a Capabilities Gap Analysis Process that begins with input 
from the sector level, and has identified the necessary capabilities to 
secure the border. The four key Master Capabilities are: domain 
awareness, impedance and denial, access and mobility, and mission 
readiness.

    A significant portion of the success we have realized over the last 
decade and a half can be attributed largely to increased deployment of 
impedance and denial infrastructure. The border wall provides an 
important and enduring capability to impede or deny illegal crossings 
in those areas where it is applied, as demonstrated in San Diego, 
Tucson, El Paso, and Yuma Sectors, but it is not effective alone, and 
is not an appropriate solution for every area of the border. It is most 
effective where there are populated areas near the line on the U.S. 
side of the border, where illegal crossers can vanish within 
residential and commercial areas.

    Where it is applied, the border wall must be supported by the 
ability to detect activity through advanced surveillance technology, 
and the ability to respond effectively with mobile, trained personnel. 
In this way, the most effective means of achieving operational control 
of the border does not rely on any single capability, piece of 
technology, or infrastructure. It is a mixture of all of those things, 
executed by a properly trained and properly equipped mission ready 
workforce.

    USBP will continue to utilize the Capabilities Gap Analysis Process 
to identify mission needs and offer courses of action to fill gaps--
impedance, technology, people--or a balance of all three depending on 
available resources. We will build a wall where it is prudent and 
effective and the design will change based on the environment and 
operational needs. We will deploy technology to produce domain 
awareness of illegal criminal activity exposing our citizens to risk. 
We will increase the hiring and deployment of new and relocate existing 
agents to both areas of increased threat and increased activity. A 
comprehensive view of all border threats, risks and activity is 
essential.

    The significant improvements in border security over the past 10-15 
years are promising, and reflect the benefits of sustained investment 
in border security capabilities based on operational requirements, 
combined with the effective operational strategies applied by the U.S. 
Border Patrol, along with improvements in enforcement policies and 
consequence delivery. Despite these improvements, we continue to see 
over 25,000 apprehensions of illegal crossings per month between ports 
of entry, as well as increasing amounts of hard narcotics seizures. 
These threats--over 830 people a day--include previously deported 
criminals, hardened smugglers employed by ruthless cartels, and other 
potential security risks. It remains CBP's responsibility to 
effectively interdict and deter these crossings, in concert with 
immigration enforcement partners and supported by appropriations and 
authorities from Congress as we strive toward operational control, the 
effective deterrence or interdiction of all illegal crossings. The 
impedance and denial capability provided by border wall remains an 
important component of that effort.

    Question. This is now the third administration that you have served 
under within CBP and its predecessor agency the U.S. Customs Service. 
Have you ever recommended the building of a border wall?

    Answer. During the Bush administration, when I served as Director 
of Antiterrorism and Senior Counselor to then-Commissioner Robert C. 
Bonner, I was involved with, and supported, the development of U.S. 
Border Patrol resource requirements to enhance security on the 
Southwest border. Those requirements, developed in support of the 
budget processes and security initiatives during the 2004-2006 time 
frame, included investments in border wall and security infrastructure 
in key high-traffic sectors such as Tucson, AZ, and were largely 
supported by bipartisan majorities and the Secure Fence Act. Then, as 
now, I relied on the recommendations of the operators in the field who 
identified key capabilities needed to enhance border security.

    Additionally, during my tenure as Deputy Commissioner, CBP 
requested funding for, and invested approximately $70 million to 
replace approximately 10 miles of legacy pedestrian barrier in Naco and 
San Luis, AZ as well as Sunland Park, NM.

    Question. A fundamental task of CBP is to collect revenue. CBP's 
collection of tariffs on imports is the second largest source of 
revenue for the Federal Government. In addition, CBP's revenue 
collection protects U.S. businesses and workers. Much of the 
uncollected revenue comes from foreign goods subject to anti-dumping 
and countervailing duty orders put in place to protect U.S. 
manufacturers from unfair trade practices. Congress said in the Trade 
Enforcement bill that revenue collection is a priority trade issue.

    If confirmed, what will you do to make revenue collection a 
priority, particularly when that revenue is also collected to protect 
American workers and business?

    Answer. Duty collection is a critical component of revenue and AD/
CVD enforcement, which are both priorities for CBP. CBP targets revenue 
and AD/CVD risks by relying on data informed analysis for underpayment 
of duties due to various types of evasion schemes to include 
misclassification, undervaluation, failing to file AD/CVD entries, and 
illegal transshipment. CBP is exploring creative ways to adjust bonding 
requirements to mitigate the risk of non-payment that certain importers 
present, collaborating with our Surety trade chain partners. CBP has 
identified options for risk-based bonding as part of its implementation 
of section 115 of the Trade Facilitation and Trade Enforcement Act 
(TFTEA) (Pub. L. 114-125). CBP's intent is to use this new TFTEA 
authority to statistically predict the risk of future non-payment of 
duties, taxes, and fees and adjust bond amounts to protect government 
revenue and apply AD/CVD orders effectively. In addition, as required 
by Executive Order 13785, DHS has submitted a report to the White House 
outlining a plan for risk-based bonding to provide greater security to 
secure payments of final AD/CVD and other unpaid bills. CBP has 
automated the securing of bonds within ACE (e-Bonds) that centralizes 
CBP's management of bonds and ensures bonds are properly executed thus 
facilitating the collection of monies owed that are secured by bonds.

    When CBP identifies revenue risks from AD/CVD imports, CBP is 
proactively requesting additional security in the form of single 
transaction bonds from importers. Despite repeated court challenges, 
CBP continues these efforts to secure AD/CVD revenue. CBP has also been 
successful in recent years in taking sureties to court to collect 
delinquent AD/CVD when sureties do not fulfill their legal obligation 
to pay amounts owed. CBP has had great success in aggressively pursuing 
sureties in these cases to establish a clear monetary incentive for 
sureties to make prompt payment upon demand. CBP will continue to 
actively pursue collection of uncollected AD/CVD and regular duties 
against delinquent importers and sureties.

    Question. Illegal logging doesn't just hurt the environment, it 
hurts sawmill workers in Oregon and around the country who have to 
compete with an influx of cheap stolen wood. I have fought for years to 
stop trade in illegally harvested timber. As you know, the enforcement 
legislation Congress passed last year requires Customs agents to be 
trained in detection and seizure of illegally traded fish, wildlife, 
and plants.

    Can you provide an update on your work with experts such as the 
World Wildlife Fund and the Environmental Investigation Agency to 
develop and implement an effective training module on illegal logging 
and begin trainings, so that America's port officers are fully equipped 
to deal with illegal trade in wood products?

    Answer. An Illegal Logging Issues Seminar was held in New Orleans 
in September 2017, for key CBP personnel, with the assistance of the 
World Wildlife Fund (WWF), DOJ, CBP Laboratory and Scientific Services, 
and the Industrial and Manufacturing Materials Center of Excellence and 
Expertise. The seminar presented a comprehensive overview of illegal 
logging issues, global priority threats, and specific species for 
priority. Based on participant feedback received at this seminar, CBP 
will refine this training module further and present it more broadly 
via webinar to CBP field personnel nationwide in FY 2018.

                                 ______
                                 
              Questions Submitted by Hon. Debbie Stabenow
    Question. I continue to be concerned about countries that break the 
rules and evade U.S. trade laws. Last Congress, the Enforce and Protect 
Act was signed into law as part of an effort to crack down on duty 
evasion. Duty evasion has affected businesses and workers in numerous 
industries, including in Michigan. It is critical that we work together 
to ensure our trade laws are being enforced.

    How will you ensure that we are effectively countering duty 
evasion?

    Answer. To date, CBP has initiated over 14 Enforce and Protect Act 
(EAPA) investigations, and has reached an affirmative determination at 
the interim measures stage for each of them. These investigations cover 
various products, including wire garment hangers, wooden bedroom 
furniture, diamond sawblades, and oil country tubular goods (steel 
tubing). The interim measures taken protect the revenue, such as 
providing cash deposits on subsequent entries, suspending and extending 
liquidation of entries, rejecting entries summaries that are within the 
reject period, as well as evaluating the continuous bond and requiring 
single transaction bonds, as appropriate. In these investigations, the 
Trade Remedy Law Enforcement Directorate has coordinated more than 10 
foreign onsite verifications, including two locations in Thailand and 
eight locations in Malaysia, among others, as well as domestic onsite 
verifications and multiple cargo exams. The onsite verifications are 
crucial to gather evidence of exporter production capability and 
capacity, to assess the information against that provided in the 
allegations and CBP's own research of the exporters and importers.

    The first EAPA allegation was filed only a few weeks after the 
regulations went into effect. CBP quickly formed a cohesive 
investigative unit and completed its work well ahead of the statutory 
deadline for interim measures. In that first investigation, CBP 
initiated a unique investigative approach to obtain key information 
when the parties being investigated declined to participate. CBP 
reached its determination on interim measures a month ahead of the 
statutory deadline and issued its final determination to the parties to 
the investigation on August 14, 2017. The notice explained that there 
was substantial evidence on the record that merchandise was entered 
into the U.S. customs territory through evasion via transshipment of 
wire hangers from China through Thailand. As a result of this 
enforcement effort, the alleger filed eight more allegations and to 
date, these investigations alone have stopped the evasion of $33 
million AD duties annually.

    Question. Will you commit to fully implementing the law so that 
affected industries and workers are able to participate in the process 
for duty evasion cases?

    Answer. Yes, CBP is fully committed to implementing EAPA.

    Question. The U.S. sugar industry supports 142,000 jobs across the 
country, including thousands of jobs in Michigan. Unfortunately, our 
producers have been hurt by very low prices and volatility caused by 
Mexico dumping large volumes of sugar on the U.S. market. I am hopeful 
that this dumping will be stopped by the revised antidumping and 
countervailing duty suspension agreements negotiated earlier this year. 
However, the success of the agreements will largely depend on Customs 
and Border Protection adequately enforcing them.

    If confirmed, will you commit to working closely with the 
Departments of Agriculture and Commerce to monitor and enforce these 
agreements, and make enforcement of these suspension agreements a 
priority for CBP?

    Answer. Yes; I can commit, if confirmed, to work closely with USDA 
to monitor and enforce the revised antidumping and countervailing duty 
suspension agreements negotiated with Mexico earlier this year.

    Question. I appreciated our earlier discussion about the importance 
of CBP working closely with the Department of Agriculture's Animal and 
Plant Health Inspection Service (APHIS) to protect farmers from 
invasive pests and diseases. Agriculture is Michigan's second-largest 
industry, and our farmers are increasingly facing these threats. For 
example, our cherry growers have been grappling with the damage caused 
by spotted-wing drosophila for several years now. Just last week, USDA 
confirmed the presence of a new invasive pest, the European cherry 
fruit fly, in upstate New York.

    If confirmed, will you commit to a strong partnership with APHIS at 
the border to protect our farmers?

    Answer. Yes, I will continue to commit to a strong partnership with 
APHIS. With regards to preventing the introduction of nonnative 
destructive pests into the United States, the CBP-APHIS relationship is 
symbiotic in nature. Strong collaboration with APHIS is an integral 
component to the overall success of the mission. APHIS has the 
scientific resources needed to effectively assess risk and promulgate 
agriculture safeguarding regulations, whereas CBP has the autonomy and 
operational capability needed for immediate implementation and action.

                                 ______
                                 
              Questions Submitted by Hon. Robert Menendez
    Question. I am troubled by the allegations that U.S. Customs and 
Border Protection officers at Newark Liberty International Airport 
subjected new officers to what is being described as ``hazing'' 
rituals. On September 13th, three CBP officers were arrested and 
charged with forcibly assaulting, impeding, intimidating, and 
interfering with two men identified as victims who were both CBP 
officers at the time the incidents occurred. The three officers who 
have been charged were members of the Passenger Enforcement Rover Team, 
or PERT, a specialized unit within CBP which is tasked with preventing 
passengers from bringing illegal items into the United States. The 
alleged assaults took place at Newark Liberty International Airport on 
top of what has been described as a ``rape table.''

    You committed to me in private that you were well aware of this 
situation and found this conduct unacceptable. While charges have been 
filed against these three CBP officers, what actions has CBP taken to 
ensure that Newark Liberty International Airport is not only safe for 
CBP officers, but the people who utilize the airport on a daily basis?

    Answer. Following the allegations at Newark Liberty International 
Airport, swift and decisive action was taken by the Office of Field 
Operations (OFO). Significant changes were made to U.S. Customs and 
Border Protection (CBP) management at Newark International Liberty 
Airport. Eleven CBP employees, including three supervisors, were 
immediately placed on administrative duty and their firearms, badges, 
and access to sensitive databases were suspended while DHS's Office of 
the Inspector General investigated the allegations. Also, on May 11, 
2017, the Passenger Enforcement Rover Team in Newark was disbanded. 
Managers and Enforcement Team trainers from John F. Kennedy 
International Airport were assigned to Newark to review and assess 
operations, provide training, and assist with the reorganization of 
Newark's Enforcement Team. Additionally, port chaplaincy, peer support 
programs, and on-site Employee Assistance Program training and 
counseling have been made available to CBP employees in Newark.

    In May 2017, the OFO Executive Director for Operations issued a 
memorandum and a muster to the Directors of Field Operations reminding 
all employees of the Standards of Conduct for CBP employees, stressing 
that U.S. Customs and Border Protection (CBP) employees are responsible 
for their actions. CBP employees, to include supervisors and managers, 
were reminded not to engage in or promote, criminal, infamous, 
dishonest, or notoriously distasteful conduct, or any conduct 
prejudicial to the government on or off duty. The muster noted that all 
employees are required to immediately report inappropriate behavior by 
other employees. This muster reiterated that the failure to operate 
under a zero tolerance environment may lead to disciplinary actions. In 
addition, memoranda and musters were issued reminding all employees of 
the requirement to act professionally when processing all persons 
entering and exiting the country.

    CBP increased Headquarters and local management oversight into 
complaints which serves to quickly identify employees who are 
potentially at risk of participating in behavior that would be 
indicative of egregious misconduct. Please be assured that CBP takes 
all allegations of employee misconduct seriously. Every CBP employee is 
required to immediately report misconduct to his or her supervisor or 
other management official, the Office of Professional Responsibility 
(OPR), or the DHS OIG. In addition, CBP's Standards of Conduct 
stipulate that nothing in the Standards should be construed or applied 
to interfere with an employee's right to communicate with their 
congressional representatives and to engage in activity protected by 
the Whistleblower Protection Act. Moreover, CBP's policies and 
practices support the protection of employees who fulfill their 
obligation to report misconduct. To promote awareness, CBP has 
distributed materials regarding whistleblower rights and posted 
information in prominent locations within CBP offices. Additionally, 
CBP requires all employees to complete training at least every 2 years 
regarding their rights and remedies under antidiscrimination, 
retaliation, and whistleblower protection laws.

    CBP's most valuable attributes in protecting the American people 
are the integrity and professionalism of its workforce. The alleged 
acts of a limited number of individuals at Newark Liberty International 
Airport could tarnish the reputation of the nearly 60,000 dedicated CBP 
employees who take the utmost pride in performing their duties with 
vigilance, integrity, and professionalism, in order to earn and 
maintain the public's trust. CBP's focus on employee accountability and 
transparency is only as good as its commitment to exemplifying and 
standing by those principles.

    Question. How are you assuring the public that the officers whose 
duty it is to identify dangerous contraband and threats to national 
security are not compromised in any way after three of their members 
have been charged with a serious crime?

    Answer. If allowed to stand without investigation or action, the 
allegations could have undermined the reputation of the thousands of 
CBP Officers who take the utmost pride in performing their duties with 
vigilance, integrity, and professionalism, in order to earn and 
maintain the public's trust. In response, I ensured that appropriate 
management actions were taken and that CBP's Office of Professional 
Responsibility fully supported the Office of Inspector General 
investigation.

    Question. According to reports, the new officers were initially 
reluctant to file a complaint about this hazing ritual, since the 
officers committing the acts were well connected within CBP. How can 
you prevent similar behavior in the future and will you commit to 
putting procedures in place to ensure this type of conduct is 
discovered sooner and officers feel comfortable reporting abuses?

    Answer. These allegations were ultimately routed through the CBP 
Joint Intake Center and CBP's swift and decisive action serves as an 
example for those that may be reluctant to come forward that the 
process to file these complaints does work. I am committed, if 
confirmed, to ensuring that every CBP employee feels that they can 
immediately report misconduct to his or her supervisor or other 
management official, the Office of Professional Responsibility (OPR) or 
the DHS OIG.

    In addition, CBP's Standards of Conduct stipulate that nothing in 
the Standards should be construed or applied to interfere with an 
employee's right to communicate with their congressional 
representatives and to engage in activity protected by the 
Whistleblower Protection Act. Moreover, CBP's policies and practices 
support the protection of employees who fulfill their obligation to 
report misconduct. To promote awareness, CBP has distributed materials 
regarding whistleblower rights and posted information in prominent 
locations within CBP offices. Additionally, CBP requires all employees 
to complete training at least every 2 years regarding their rights and 
remedies under antidiscrimination, retaliation and whistleblower 
protection laws.

    Question. Please provide any updated training or operational 
changes that are being considered or are currently in place.

    Answer. Shortly after the alleged misconduct became known to OFO, 
musters geared toward both managers and employees were issued to each 
employee reiterating the Standards of Conduct and the Office of Human 
Resources Management Table of Offenses for unprofessional and 
disruptive behavior. CBP has distributed materials regarding 
whistleblower rights and posted information in prominent locations 
within CBP offices. OFO also maintains a robust professionalism program 
at each Field Office, with over 200 Professionalism Service Managers 
(PSMs) nationwide. OFO Headquarters conducts routine conference calls 
with all PSMs to discuss topics of concern and best practices on how to 
avoid and address unprofessional and disruptive behavior. Finally, CBP 
requires all employees to complete training at least every 2 years 
regarding their rights and remedies under antidiscrimination, 
retaliation and whistleblower protection laws. As part of this 
training, employees are advised of the avenues for reporting wrongdoing 
and the resources available to assist them with any questions or 
concerns about discrimination, retaliation, mismanagement, waste, 
fraud, or abuse.

    Question. While charges have been filed against three CBP Officers, 
there were reports of other CBP Officers who complained of assault or 
harassment by their coworkers at the Newark Liberty International 
Airport. In particular, one female officer stated that she was tied to 
a chair, put into confinement, and had a gun pointed at her. Is the 
Inspector General still investigating incidents at the Newark Liberty 
International Airport?

    Answer. I must defer questions on the status of any ongoing OIG 
investigations to the Inspector General. For CBP's part, CBP OPR 
Headquarters became aware of the alleged misconduct in Newark on or 
about January 23, 2017, when the allegations were reported via email to 
CBP's OPR. In accordance with DHS Management Directive 810.1, the 
information was forwarded immediately to the DHS Office of Inspector 
General (OIG), which opened an investigation. CBP's OPR has actively 
supported the DHS OIG investigation.

    Question. If so, what is the status of these investigations?

    Answer. It would be more appropriate to defer any questions on the 
status of any OIG investigations to the Inspector General.

    Question. We discussed at our meeting reports that a number of 
border officials are making factually incorrect statements to those 
fleeing persecution and arriving at our borders. Human Rights First 
published a report ``Crossing the Line'' documenting examples of asylum 
seekers being turned away from the border without the proper protocol 
being followed. A lawsuit was filed against Secretary Kelly at the 
Department of Homeland Security and you as Acting Commissioner of the 
United States Customs and Border Protection. The lawsuit alleges that 
CBP officials have systematically violated U.S. law and binding 
international human rights law by refusing to allow asylum seekers who 
present themselves at ports of entry along the U.S.-Mexico border and 
assert their intention to apply for asylum or a fear of returning to 
their home country the ability to seek protection in the United States.

    What action has CBP taken to correct these issues and ensure that 
officers are complying with the law?

    Answer. Over the last 2 years, CBP has referred over tens of 
thousands of applicants for admission who expressed fear of return to 
U.S. Citizenship and Immigration Services for review by an asylum 
officer. CBP carries out its mission of border security while adhering 
to U.S. and legal international obligations for the protection of 
vulnerable and persecuted persons. The laws of the United States, as 
well as international treaties to which we are a party, allow people to 
seek asylum on the grounds that they are being persecuted outside of 
the United States because of their race, religion, nationality, 
membership in a particular social group, or political opinion. CBP 
understands the importance of complying with these laws designed to 
protect some of the world's most vulnerable populations, and takes its 
legal obligations seriously. Accordingly, CBP has designed policies and 
procedures based on these legal standards, in order to protect 
vulnerable and persecuted persons in accordance with these legal 
obligations. All CBP officers must comply with all law and policy, 
investigations are initiated whenever specific complaints are received, 
and appropriate disciplinary action may be taken against those who do 
not follow law and policy.

    Question. What steps will you commit to taking to ensure that this 
practice ends immediately across the southern border?

    Answer. CBP takes any allegation of employee misconduct very 
seriously. All complaints against officers, regardless of the mode 
through which they are received, are recorded and investigated, and 
appropriate action is taken against CBP employees who are found to have 
violated agency policy. Additionally, CBP's Office of Professional 
Responsibility (OPR) has been actively engaged with Non-Governmental 
Organizations (NGOs) to identify and investigate incidents alleging 
that persons were prevented or discouraged from making claims of fear 
to CBP.

    Question. Do you think that border officials are properly trained 
in their role of referring asylum seekers and our asylum policies?

    Answer. Over the last 2 years, CBP has referred over tens of 
thousands of applicants for admission who expressed fear of return to 
U.S. Citizenship and Immigration Services for review by an asylum 
officer. In the vast majority of cases, CBP carries out its mission of 
border security while adhering assiduously to U.S. and legal 
international obligations for the protection of vulnerable and 
persecuted persons. CBP recognizes the importance of thoroughly 
training our frontline officers and agents. Both Border Patrol Agents 
(BPAs) and Customs and Border Protection Officers (CBPOs) receive 
training on the proper processing, treatment, and referral of aliens 
who express a fear of return. This training begins at the Academies, 
and is reinforced through Post Academy training and the periodic 
issuance of memoranda and musters.

    Question. What steps have you taken or will you take to ensure that 
both Border Patrol agents and Office of Field Operations officers are 
trained on referrals of asylum seekers?

    Answer. Both Border Patrol Agents (BPAs) and Customs and Border 
Protection Officers (CBPOs) receive training on the proper processing, 
treatment, and referral of aliens who express a fear of return. This 
training begins at the Academies, and is reinforced through Post 
Academy training and the periodic issuance of memoranda and musters.

    Question. Will you issue written guidance to the field to make 
clear U.S. legal obligations are being fulfilled and border enforcement 
policies and practices do not dissuade or prevent genuine asylum-
seekers from legally seeking protection in the United States?

    Answer. CBP issues periodic guidance to the field reminding CBP 
Officers and Agents of their legal obligations towards those who 
express a fear of return, and has done so recently. If confirmed, I 
will ensure that continued guidance is communicated.

    Question. In 2015, the Office on Inspector General expressed 
concern that DHS was violating international law by referring 
individuals who expressed fear of persecution for criminal prosecution 
for illegal entry and/or re-entry before DHS determined whether the 
individuals might have a valid claim for persecution under U.S. law. 
Additionally, a recent article reported that a young woman who was 
tortured and raped after being turned away from the United States was 
charged with criminal re-entry when she attempted to cross the border a 
third time seeking asylum.\4\
---------------------------------------------------------------------------
    \4\ Stanton, John, ``All it Takes is Torture,'' Buzzfeed News, 
October 10, 2017, https://www.buzzfeed.com/johnstanton/a-young-woman-
was-tortured-and-raped-after-being-turned?utm
_term=.euNYok8X9Z#.kiagKodxm7.

    What action has CBP taken to correct these issues and ensure that 
---------------------------------------------------------------------------
officers are complying with the law?

    Answer. It is CBP's policy to treat all individuals in a 
professional manner and with dignity and respect, consistent with U.S. 
laws and international obligations. According to U.S. law and CBP 
policy, if an officer or agent encounters an individual who is not 
lawfully present or who is seeking admission, at or between ports of 
entry, the person is amenable to expedited removal, pursuant to section 
235(b)(1) of the Immigration and Nationality Act. If an individual 
expresses a fear of being returned to his or her home country, CBP 
officers and agents record verbal and non-verbal indications of fear 
and refer the person for an interview with a U.S. Citizenship and 
Immigration Services (USCIS) Asylum Officer. CBP officers and agents do 
not make any determination on the validity of such claims.

    In any instance in which an applicant for admission may be subject 
to a criminal charge, CBP consults with local U.S. Attorney's Office 
(USAO). The USAO, given specific facts/circumstances, will make a 
determination as to whether to take a case for criminal prosecution. 
Criminal prosecution proceeds separately from any administrative 
processing, including expedited removal/credible fear, by CBP.

    Question. What steps have you taken or will you take to ensure that 
Border Patrol agents and Office of Field Operations officers are 
trained on this legal obligation and how referral of asylum-seekers for 
prosecution violates U.S. law?

    Answer. Both Border Patrol Agents (BPAs) and Customs and Border 
Protection Officers (CBPOs) receive training on the proper processing, 
treatment, and referral of aliens who express a fear of return. This 
training begins at the Academies, and is reinforced through Post 
Academy training and the periodic issuance of memoranda and musters.

    Question. What written or oral guidance has been given to CBP 
employees regarding enforcement of priorities and the exercise of 
prosecutorial discretion apart from the January 25th executive order on 
interior enforcement and Secretary Kelly's February 20th memo to you 
and the other DHS agency heads?

    Answer. Following Executive Orders 13767 and 13768 and the 
Secretary's Implementation Directions of February 20, 2017 the Chief of 
the U.S. Border Patrol and the Executive Assistant Commissioner of the 
Office of Field Operations issued respective guidance that reiterated 
the Secretary's rescission of the November 20, 2014 memorandum 
entitled, ``Exercising Prosecutorial Discretion With Respect to 
Individuals Who Came to the United States as Children and With Respect 
to Certain Individuals Who Are the Parents of U.S. Citizens or 
Permanent Residents.'' Additionally, this guidance reiterated the 
administration's enforcement policy that criminal aliens have 
demonstrated their disregard for the rule of law and as such are a 
priority for removal. CBP policy directs the referral for criminal 
prosecution of any alien whom our officers and agents have a reason to 
believe has committed a criminal offense and directs the initiation of 
removal proceedings against any alien who is subject to such removal 
under the Immigration and Nationality Act.

    Question. Does CBP refer all apprehended cases to ICE regardless of 
whether an individual presents a public safety threat?

    Answer. OFO processes all applicants for admission at Ports of 
Entry (POEs) under section 235 of the Immigration and Nationality Act 
(INA). Depending on the particular enforcement action taken, an 
applicant for admission who has been found inadmissible may or may not 
be referred to ICE Enforcement and Removal Operations (ERO). Under 
section 235(b) of the INA, an inadmissible applicant for admission who 
is subject to expedited removal, but who has not expressed a fear of 
return, may be removed by CBP officers at a POE, or may be referred to 
ICE to effectuate their removal, where additional coordination is 
required. Aliens who are permitted to withdraw their application for 
admission, pursuant to section 235(a)(4), are also generally not 
referred to ICE ERO.

    Under section 235(b)(1) of the INA, inadmissible applicants for 
admission who are subject to expedited removal, but who express a fear 
of return, are referred for a Credible Fear interview and must be 
referred to ICE ERO for detention.

    U.S. Border Patrol processes all aliens arrested between the ports 
of entry according to policies and procedures set forth by law and 
agency regulations (Immigration and Nationality Act sections 287, 240, 
and 235, Border Patrol Handbook, and M-68). Aliens apprehended between 
the ports of entry who are subject to expedited removal and who have 
not expressed a fear of return may be removed without a referral to 
ICE. Under section 235(b)(1) of the INA, inadmissible applicants for 
admission who are subject to expedited removal, but who express a fear 
of return, are referred for a Credible Fear interview and are referred 
to ICE ERO. Adults, family units, and unaccompanied alien children all 
require specific needs for detention and processing which are followed 
by all BPAs and their supervisors.

    Additionally, CBP officers and agents will take enforcement action 
against all aliens encountered in the course of their duties who enter 
illegally or who do not have a lawful status to remain in the United 
States. Such action includes the arrest or apprehension of aliens whom 
CBP has reason to believe have entered or who remain in the United 
States in violation of immigration laws. Such action also includes the 
referral for criminal prosecution of any alien whom CBP has reason to 
believe has committed a criminal offense, and the initiation of removal 
proceedings against any alien who is subject to removal under any 
provision of the INA. CBP officers and agents coordinate with ICE/ERO 
for referrals for detention.

    Question. CBP has authority to stop and question individuals within 
100 miles of the border. CBP also sets up checkpoints and conducts 
roving patrols where many times lawful residents and U.S. citizens are 
subjected to racial profiling and harassment. What have you done or how 
will you ensure individuals are not subjected to racial profiling or 
other impermissible profiling? Please include details in your response 
about whether there have been CBP trainings and/or data collection 
reforms in response to the Department of Justice's December 2014 
Guidance for Federal Law Enforcement.\5\
---------------------------------------------------------------------------
    \5\ Fact Sheet: U.S. Department of Justice Racial Profiling 
Guidance, December 8, 2014, https://www.dhs.gov/news/2014/12/08/fact-
sheet-us-department-justice-racial-profiling-guidance.

    Answer. CBP is committed to the fair, impartial and respectful 
treatment of all, and has memorialized its commitment to 
nondiscrimination in existing policies, including the February 2014 CBP 
Policy on Nondiscrimination in Law Enforcement Activities and All Other 
Administered Programs. This policy was developed to implement DHS 
Policy on Nondiscrimination in Law Enforcement Activities and All Other 
Administered Programs and prohibits the consideration of race or 
ethnicity in law enforcement, investigation, and screening activities, 
in all but the most exceptional circumstances. To further implement 
---------------------------------------------------------------------------
CBP/DHS Policy, CBP took the following actions:

          Initiated an antidiscrimination awareness campaign through 
        payroll notice statements, the IDS, and the CBPnet;
          Developed and delivered muster module for enforcement 
        personnel on anti-profiling in security screen and enforcement 
        activities; and
          Coordinated with the Office of Training and Development 
        (OTD) to update training material for law enforcement 
        personnel.

    CBP's Standards of Conduct further highlights CBP's prohibition on 
bias-motivated conduct and explicitly requires that ``Employees will 
not act or fail to act on an official matter in a manner which 
improperly takes into consideration an individual's race, color, age, 
sexual orientation, religion, sex, national origin, or disability, 
union membership, or union activities.''

    The use of race and ethnicity information in violation of this 
policy may subject CBP employees to discipline under the Standards of 
Conduct.

    Question. Press reports indicate that Border Patrol agents detained 
Rosa Maria Hernandez, a 10-year old child with cerebral palsy after an 
emergency surgery. CBP agents reportedly stopped the ambulance at an 
interior border checkpoint on October 24, 2017 as it was travelling 
from Laredo, TX, to Driscoll Children's Hospital in Corpus Christi. 
Following Rosa Maria's surgery, Federal agents took her into custody 
and placed her in a San Antonio detention facility.

    Is it the policy of CBP to routinely detain ambulances?

    Answer. No, it is not the policy of CBP to routinely detain 
ambulances. U.S. Border Patrol sectors and stations routinely work with 
medical providers and emergency transportation companies to coordinate 
an expedited inspection when provided advanced notice. These actions 
are conducted with strict adherence to policy and regulations found in, 
but not limited to the Border Patrol Handbook and local agreements 
guided by national policy.

    Many press reports regarding the Rosa Maria Hernandez encounter 
have been inaccurate. Rosa Maria was traveling in white sedan with an 
adult male driver and adult female passenger. Agents subsequently 
determined that Rosa was an ``unaccompanied alien child'' (UAC), since 
she (a) had no lawful immigration status, (b) is under the age of 18, 
and (c) had no parent or legal guardian in the United States available 
``to provide care and physical custody.''

    The William Wilberforce Trafficking Victims Protection 
Reauthorization Act of 2008 (TVPRA) provides certain protections for 
vulnerable minors, including requiring agencies to promptly take steps 
to notify the Office of Refugee Resettlement (ORR) of the U.S. 
Department of Health and Human Services (HHS), and erring on the side 
of involving ORR for the protection of the minor. Indeed, the TVPRA 
leaves no discretion for any Federal agency to decline to turn over a 
UAC in its custody to ORR, or to otherwise transfer custody of that UAC 
to any individual or entity other than ORR. Thus, once CBP determined 
that Rosa Maria's parents were not present and would not appear to take 
custody of her, and therefore that she was a UAC, CBP was obligated by 
law to transfer her into the custody of ORR.

    Question. Does CBP consider an ambulance a ``sensitive location'' 
as outlined in the 2011 memorandum entitled ``Enforcement Actions at or 
Focused on Sensitive Locations''?

    Answer. During any law enforcement operation, preservation of life 
and the safety of the public are the first considerations. Although an 
ambulance is not considered a sensitive location per our current 
policy, and USBP has seen various methods of smuggling through 
checkpoints to include emergency vehicles, common carriers, commercial 
vehicles, etc., CBP understands the nature and sensitivity of 
legitimate emergency medical service vehicles traveling through USBP 
checkpoints. It is CBPs policy and practice that we should endeavor to 
assist other agencies when possible, and close coordination with 
emergency medical services and local hospitals is key to ensuring that 
both CBP and other agencies continue to operate effectively and 
efficiently to accomplish their missions, especially in regard to 
providing lifesaving medical treatment of any person that CBP might 
encounter.

    Question. Should you be confirmed, how will you instruct CBP agents 
with regard to the treatment of ambulances?

    Answer. USBP sectors and stations routinely work with medical 
providers and emergency transportation companies to coordinate an 
expedited inspection when provided advanced notice. These actions are 
conducted with strict adherence to policy and regulations found in, but 
not limited to the Border Patrol Handbook and local agreements guided 
by national policy. If confirmed, I will work to ensure that CBP's 
policy is effectively communicated to partner emergency responders in 
affected areas. CBP will continue to take the appropriate enforcement 
actions, but will continue to coordinate to ensure that no such action 
impedes the legitimate medical treatment or lifesaving efforts of local 
emergency medical services, traveling through USBP checkpoints.

    Question. The 2011 memorandum ``Enforcement Actions at or Focused 
on Sensitive Locations'' includes hospitals in its definition of a 
``sensitive location.'' Please explain why that guidance was violated 
in Rosa Maria's case.

    Answer. Enforcement actions were not conducted at a sensitive 
location, which in this case was Driscoll Children's Hospital. The 
unaccompanied child was encountered and taken into custody at an 
immigration checkpoint--a CBP operational location--and was already in 
Border Patrol custody when she was escorted to the hospital so that she 
could receive her scheduled medical care. Because no parent or guardian 
of Rosa Maria was present at either the checkpoint or hospital, and no 
parent or guardian of Rosa Maria contacted Border Patrol during this 
time, CBP reasonably determined that Rosa Maria was a UAC at the time 
she was encountered at the checkpoint and remained a UAC while in 
Border Patrol custody at the hospital. As such, CBP was obligated by 
law to place Rosa Maria into the care of the U.S. Department of Health 
and Human Services Office of Refugee Resettlement after her medical 
procedure.

    Question. How many agents were present during the escort of Rosa 
Maria to the hospital, during her surgery and recovery, and during her 
detention and transfer to San Antonio?

    Answer. Agency policy requires two (2) agents are present.

    Question. Does CBP consider the medical needs of minors when making 
determinations regarding detention?

    Answer. CBPOs and Agents take every action necessary to ensure the 
safety and welfare of individuals in our custody, and adheres to the 
requirements of Federal law, regulation, and policy, including the 
TVPRA.

    Question. In the past 10 years, our government has spent more 
taxpayer dollars on border security than at any other point in its 
history. Since 2000, the U.S. Border Patrol budget has increased by 245 
percent. At the same time, apprehensions are at lows not observed since 
the 1970s.

    Should Congress take greater account of the evolving border 
dynamics when assessing if money should be spent on a border wall and 
additional border patrol agents?

    Answer. The border environment is dynamic, and the threat situation 
is driven by adversary actions and is constantly in flux. CBP must be 
afforded flexibilities to remain agile to respond appropriately based 
on current mission needs and resourced to address capability gaps.

    Securing the border requires an integrated approach including 
infrastructure such as border wall and road access, surveillance 
technology, response capability, and personnel. The U.S. Border Patrol 
maintains a Capabilities Gap Analysis Process that begins with input 
from the sector level, and has identified the necessary capabilities to 
secure the border. The four key Master Capabilities are: Domain 
Awareness, Impedance and Denial, Access and Mobility, and Mission 
Readiness.

    A significant portion of the success we have realized over the last 
decade and a half can be attributed largely to increased deployment of 
impedance and denial infrastructure. The border wall provides an 
important and enduring capability to impede or deny illegal crossings 
in those areas where it is applied, as demonstrated in San Diego, 
Tucson, El Paso, and Yuma Sectors, but it is not effective alone, and 
is not an appropriate solution for every area of the border. It is most 
effective where there are populated areas near the line on the U.S. 
side of the border, where illegal crossers can vanish within 
residential and commercial areas.

    Where it is applied, the border wall must be supported by the 
ability to detect activity through advanced surveillance technology, 
and the ability to respond effectively with mobile, trained personnel. 
In this way, the most effective means of achieving operational control 
of the border does not rely on any single capability, piece of 
technology, or infrastructure. It is a mixture of all of those things, 
executed by a properly trained and properly equipped mission ready 
workforce.

    USBP will continue to utilize the Capabilities Gap Analysis Process 
to identify mission needs and offer courses of action to fill gaps--
impedance, technology, people--or a balance of all three depending on 
available resources. We will build the wall where it is prudent and 
effective and the design will change based on the environment and 
operational needs. We will deploy technology to produce domain 
awareness of illegal criminal activity exposing our citizens to risk. 
We will increase the hiring and deployment of new and relocate existing 
agents to both areas of increased threat and increased activity. A 
comprehensive view of all border threats, risks and activity is 
essential.

    The significant improvements in border security over the past 10-15 
years are promising, and reflect the benefits of sustained investment 
in border security capabilities based on operational requirements, 
combined with the effective operational strategies applied by the U.S. 
Border Patrol, along with improvements in enforcement policies and 
consequence delivery. Despite these improvements, we continue to see 
over 25,000 apprehensions of illegal crossings per month between ports 
of entry, as well as increasing amounts of hard narcotics seizures. 
These threats--over 830 people a day--include previously deported 
criminals, hardened smugglers employed by ruthless cartels, and other 
potential security risks. It remains CBP's responsibility to 
effectively interdict and deter these crossings, in concert with 
immigration enforcement partners and supported by appropriations and 
authorities from Congress as we strive toward operational control, the 
effective deterrence or interdiction of all illegal crossings. The 
impedance and denial capability provided by the border wall remains an 
important component of that effort.

    Question. By what specific metrics will you evaluate the 
effectiveness and fiscal responsibility of various methods used for 
border security, including walls, fences, levees, personnel at and 
between ports, aerostats, drones, and manned aircraft?

    Answer. USBP conducts an annual Capability Gaps Analysis Process 
(CGAP) to identify gaps and other trends between the ports of entry. 
Once the gaps have been identified, analyzed and prioritized, USBP 
views these gaps through the lens of available resources including 
personnel, persistent surveillance, and impedance and denial (i.e., the 
wall)--to address those threats. The time to procure and available 
funding shape the immediate response, while we address the long-term 
strategic needs. We use metrics like the Interdiction Effectiveness 
Rate \6\ and State of the Border risk analysis to guide and shape the 
balancing of resources to meet the actions of the extremely nimble 
transnational criminal organizations. ``Operational Control'' of the 
border, as directed by both the Secure Fence Act of 2006 (8 U.S.C. 
1701) and Executive Order 13767 (section 4),\7\ is an additional metric 
that is used to guide our prioritized investment. When balancing 
competing interests, DHS and CBP will use these and other specific 
methodologies to identify and validate border control initiatives and 
investments. Moving forward, we will include ``Operational Control'' of 
the border as an additional metric, directed by both the Secure Fence 
Act of 2006 (8 U.S.C. 1701) and Executive Order 13767 (section 4),\8\ 
to guide our prioritized investment. When balancing competing 
interests, DHS and CBP will use specific methodologies to identify and 
validate border control initiatives and investments.
---------------------------------------------------------------------------
    \6\ Interdiction Effectiveness Rate (IER) is the percent of 
detected illegal entrants who were apprehended or turned back after 
illegally entering the United States between Southwest border ports of 
entry. IERs are calculated by taking the sum of apprehensions and 
turnbacks, and dividing by the sum of apprehensions, turnbacks, and 
gotaways.
    \7\ The Secure Fence Act and the executive order both define 
``operational control'' as the ``Prevention of all unlawful entries 
into the United States.''
    \8\ The Secure Fence Act and the executive order both define 
``operational control'' as the ``Prevention of all unlawful entries 
into the United States.''

---------------------------------------------------------------------------
    Question. Will you make this analysis public?

    Answer. Annually, CBP makes many statistics and metrics available 
to the public and we will continue to promote transparency where and 
when we can while protecting the men and women defending the Nation. 
The submission of many of these metrics and others to Congress is 
required by statute as well.

    Question. A 2016 OECD report showed that nearly half a trillion 
dollars in global trade is made up of counterfeited and pirated goods 
and that U.S. companies are the biggest victims, falling prey to fully 
20 percent of the knockoffs. The OECD also reported postal parcels are 
the top method of shipping these fake goods, amounting to 62% of 
seizures from 2011 to 2013. Will you commit to working with me to 
address this growing threat, and to make sure that CBP devotes the 
resources necessary to combat the problem?

    Answer. Yes, I can commit to working with you to address these 
enforcement issues, if confirmed. CBP is committed to addressing the 
growing challenges in the mail and express environments, particularly 
with respect to the opioid crisis and IPR violations. To that end, CBP 
and the United States Postal Service signed an MOU on September 1, 
2017, outlining roles and responsibilities between the agencies and 
better aligning out enforcement efforts. Additionally, my staff and I 
have worked closely with the Postmaster General, Megan Brennan, and her 
staff to cultivate a more robust relationship and enhance our ability 
to function in tandem. Including the development of relevant 
legislation and outreach to international partners and world 
organizations such as the Universal Postal Union to allow for the 
collection of advanced electronic data or AED.

    Furthermore, CBP is currently conducting special operations in the 
International Mail Facility environments throughout the year focusing 
on IPR enforcement and we will continue to conduct these operations. 
CBP is also looking to increase staffing at the International Mail 
Facilities to help address the increased volume of shipments.

    Question. Last Congress, various Senators as well as companies and 
industries expressed concerns about duty evasion. We ultimately passed 
the Enforce and Protect Act to address those concerns. We need to make 
sure that we're fully and effectively countering duty evasion, and that 
affected industries and workers are able to meaningfully participate in 
this process. Given the importance of the Enforce and Protect Act to 
many Senators on this committee, will you work with us to ensure our 
concerns about duty evasion are addressed and that the law is fully 
implemented so that domestic industry can participate actively in duty 
evasion investigations?

    Answer. If confirmed, I can assure you that I will continue to work 
with you to detect and deter duty evasion. Part of that effort will 
include CBP's continued vigorous enforcement of the Enforce and Protect 
Act (EAPA) which CBP has been effectively and dutifully implementing 
over the past year. To date, CBP has initiated over 14 EAPA 
investigations, all of which have resulted in interim measures. These 
investigations cover various products, including wire garment hangers, 
wooden bedroom furniture, diamond sawblades, and oil country tubular 
goods (steel tubing). The interim measures taken protect the revenue, 
such as providing cash deposits on subsequent entries, suspending and 
extending liquidation of entries, rejecting entries summaries that are 
within the reject period, as well as evaluating the continuous bond and 
requiring single transaction bonds, as appropriate. In these 
investigations, the Trade Remedy Law Enforcement Directorate has 
coordinated more than 10 foreign onsite verifications, including two 
locations in Thailand and eight locations in Malaysia, among others, as 
well as domestic onsite verifications and multiple cargo exams. The 
onsite verifications are crucial to gather evidence of exporter 
production capability and capacity, to assess the information against 
that provided in the allegations and CBP's own research of the 
exporters and importers.

    The first EAPA allegation was filed only a few weeks after the 
regulations went into effect. CBP quickly formed a small cohesive 
investigative unit and completed its work well ahead of the statutory 
deadline for interim measures. In that first investigation, CBP 
initiated a unique investigative approach to obtain key information 
when the parties being investigated declined to participate. CBP 
reached its determination on interim measures a month ahead of the 
statutory deadline and issued its final determination to the parties to 
the investigation on August 14, 2017. The notice explained that there 
was substantial evidence on the record that merchandise was entered 
into the U.S. customs territory through evasion via transshipment of 
wire hangers from China through Thailand. As a result of this 
enforcement effort, the alleger filed eight more allegations and to 
date, these investigations alone have stopped the evasion of $33 
million AD duties annually.

    Question. A recent article, citing a speech you gave in June, said 
that during a 5-day interagency operation at JFK Airport, CBP and its 
partner agencies found that 43 percent of shipments inspected were non-
compliant. As I understand it, these shipments were express and mail 
shipments under the de minimis threshold--not traditional freight. 
While I agree that de minimis shipments should come in duty-free, they 
should not be free from enforcement. How does CBP plan to address the 
issue of inspecting express and mail shipments and ensuring that all 
products sold in the United States--regardless of their value--comply 
with regulatory requirements and do not infringe on U.S. companies' 
intellectual property rights?

    Answer. Everyday, millions of Americans make online purchases, 
often not realizing that they are, in fact, importing. Since 2000, the 
number of Americans shopping online has increased nearly fourfold, up 
from 22 percent to 79 percent. As the agency with physical control over 
U.S. imports, CBP continues to adapt to the growth of de minimis 
shipments and imports through e-commerce business to ensure a safe and 
secure trade system that supports the U.S. economy. To address these 
evolving challenges, CBP officially established the E-Commerce and 
Small Business Branch within the Office of Trade and directed it to 
develop and implement a new e-commerce strategy. The developed 
strategic goals and objectives, will position CBP to address the 
challenges in the e-commerce environment now and into the future. 
Additional intellectual property rights (IPR) exams and special 
operations targeting the small package environment in both express 
carrier environment as well as in international mail will help to 
address the critical need to continue to focus on IPR enforcement. By 
strengthening the partnership with Homeland Security Investigations at 
the National Intellectual Property Rights Center (IPRC), CBP will 
direct targeting and operational resources to areas of greatest 
concern. CBP will also work with the U.S. Postal Service to increase 
the amount of advanced electronic data received from foreign posts and 
work to identify emerging technologies that can provide enhanced 
inspection capabilities of parcels.

                                 ______
                                 
            Questions Submitted by Hon. Robert P. Casey, Jr.
    Question. Mr. McAleenan, our domestic steel industry continues to 
face unfair and illegal competition from counties like China, who not 
only export heavily subsidized products to the United States and around 
the world, but have also engaged in state-sponsored cyber-enabled 
economic espionage. These are not the actions of a Nation respectful of 
market principles.

    Unfortunately, the Commerce Department's section 232 investigation 
into imported steel and aluminum has stalled despite repeated calls to 
take action by our steel industry, as well as me and other members of 
Congress. This delay has made a bad situation worse--imports of steel 
are now higher than they were last year as importers try to get product 
into the United States before any remedy order goes into effect. If 
Commerce and President Trump do eventually take action, Customs will be 
tasked with enforcing such remedies, which is all the more critical 
given the current surge in imports.

    To what degree are you coordinating with Commerce, USTR and the 
White House to ensure Customs is prepared to both enforce these import 
restrictions and also identify and address any gaming or transshipment 
that may stem from these restrictions?

    Answer. CBP has coordinated with the Department of Commerce and the 
International Trade Commission (ITC) to be prepared to address 
technical implementation issues. CBP's National Targeting and Analysis 
Groups (NTAGs) are prepared to identify and address risks related to 
``gaming'' or trans-shipments that might occur to avoid these 
restrictions when implemented.

    Question. Nothing we ask you to do is simple or easy. You are on 
the front lines of protecting our domestic industrial base from imports 
of illegally subsidized goods--identifying transshipped goods and 
properly imposing anti-dumping and countervailing duties are critical 
components of those efforts.

    Answer. AD/CVD Enforcement is a priority for CBP, and CBP 
aggressively pursues all allegations and indications of evasion of 
anti-dumping and countervailing duty orders.

    Question. Can you describe how the sophistication of these efforts 
have evolved?

    Answer. AD/CVD evasion often involves sophisticated fraudulent 
activity that takes place outside of the United States, including the 
creation of fraudulent information and documents that are transmitted 
to CBP with the entry information. Goods are illegally transshipped to 
hide the identity of the parties involved in the transaction. The 
countries that are used to facilitate the illegal transshipment often 
vary. Parties also constantly look for and test potential loopholes in 
complex AD/CVD requirements.

    Question. How have you and your agents responded to the evolving 
dynamics?

    Answer. In order to verify and obtain proof of AD/CVD evasion, 
including illegal transshipment, CBP employs document reviews, cargo 
examinations, scientific testing, audits, and partnering with U.S. 
Immigration and Customs Enforcement (ICE) and foreign customs 
authorities. When CBP identifies types of AD/CVD evasion that are 
potential criminal violations, CBP refers issues to ICE and supports 
ICE criminal investigations. CBP also partners with the U.S. Department 
of Commerce on AD/CVD enforcement, and works closely with the trade to 
obtain market intelligence and commodity expertise. On an 
organizational level, CBP has stood up 10 Centers of Excellence and 
Expertise (Centers), which have a strong focus on commodity-based AD/
CVD orders and centralize AD/CVD activities for importers aligned with 
the respective industry sector. The Centers are increasing uniformity 
and expertise across CBP for the administration of AD/CVD entries and 
AD/CVD enforcement.

    CBP has also been addressing evasion through implementation of the 
EAPA investigations. By centralizing the EAPA investigations under the 
Office of Trade's Trade Remedy Law Enforcement Directorate (TRLED), CBP 
has been able to ensure that any concerns occurring in the 
investigations are readily addressed, as well as to provide better 
communication and coordination among the various units within CBP that 
are working these investigations. TRLED, being at Headquarters is also 
better positioned to coordinate with other government agencies, such as 
the U.S. Department of Commerce, as well as other foreign governments 
to facilitate the exchange of information in these investigations.

    Question. Please also discuss any tools you have which are 
particularly helpful in addressing these challenges, including those 
provided in the 2016 customs bill.

    Answer. CBP takes an agency-wide approach to enforcing AD/CVD laws 
and utilizes national assets and numerous tools from across the agency 
to enforce AD/CVD. The combination of techniques and tools are targeted 
on the specific evasion schemes. CBP audits are used in many cases of 
AD/CVD evasion, and in FY 2017, identified $27.1 million in AD/CVD 
discrepancies with $2.2 million collected to date. The Enforce and 
Protect Act, which was part of the Trade Facilitation and Trade 
Enforcement Act of 2015 (TFTEA) provided new means for the trade to 
provide AD/CVD evasion allegations to CBP, and for CBP to pursue these 
allegations, and is already proving effective. TFTEA also gave CBP new 
tools and impetus around risk-based bonding. Finally, civil penalties 
provide a means to penalize and deter AD/CVD evasion. In FY 2017, CBP 
levied 43 monetary penalties totaling over $253.6 million on importers 
for fraud, gross negligence, and negligence for AD/CVD violations. CBP 
is also applying law enforcement targeting, intelligence, and 
analytical techniques towards its trade enforcement mission.

    Question. In your view, what are the most significant challenges to 
you and your agency in the area of trade enforcement in the coming 
years?

    Answer. The most significant challenges to CBP in the area of trade 
enforcement come from the dramatic changes ongoing in the global supply 
chain. The most prevalent is the dramatic growth in e-Commerce and 
direct to consumer imports. E-Commerce is largely responsible for the 
increase in the volume of small shipments entering the U.S. stream of 
commerce. As the agency with physical control over U.S. imports, CBP 
must adapt to the growth of imports through e-commerce business. The 
potential threat of harm to the public due to the challenges in the e-
commerce environment is real. From terrorist plots that have involved 
small packages to the seizure of thousands of non-compliant goods with 
health and safety issues, CBP must continue to address threats in e-
commerce shipments to preempt such risks to the Nation's safety and 
security.

    The impact to our markets and U.S. manufacturers of global 
overcapacity of products, such as steel from China, along with 
predatory market practices are two additional dynamics that create 
major incentives for trade evasion and complicate detection and 
enforcement efforts. Further, detection of forced labor in supply 
chains is challenging given limited visibility into second and third 
tier suppliers to foreign manufacturers. With the authorities granted 
in TFTEA, a commitment to use all of CBP's law enforcement tools and 
expertise, and additional resources, CBP will work to meet these 
challenges.

    Question. In June, the Drug Enforcement Administration reported 
that 4,642 fatal drug overdoses occurred in 2016 in Pennsylvania, a 37% 
increase from 2015. University of Pittsburgh researchers analyzed a 
regional database and found that in 54% of the deaths, fentanyl was 
among the drugs involved. In the last weekend of June, two Pennsylvania 
hospitals treated 51 patients for overdoses in 48 hours. Toxicology 
reports are pending, but investigators suspect the drugs contain 
fentanyl or carfentanyl. It is clear that fentanyl and carfentanyl pose 
a serious and increasing threat to ongoing efforts to curb the opioid 
crisis.

    Do you agree that unlawful importation of fentanyl and synthetic 
fentanyls poses a growing threat to the Nation's health and security?

    Answer. I agree strongly; the seizure statistics, along with 
reports from law enforcement partners and communities across the 
country, point to an area of growing concern. Within CBP, we are taking 
active steps to address the unlawful importation of these substances. 
Increased and sustained investments in our scientific infrastructure to 
detect and identify these substances will support the containment of 
this risk. These investments will be utilized to plan and implement 
capabilities to mitigate the immediate impact of fentanyls to users, 
their families, and their communities.

    The importation of fentanyl--and other synthetic opioids--will 
continue to pose a significant threat to the Nation's health and 
security. Driven by the potential profits and growing demand, 
transnational criminal organizations (TCOs) based in Mexico and small 
criminal groups in the United States will likely seek to increase the 
amount of fentanyl they smuggle into the country. We assess that 
Mexican cartels will attempt to expand their fentanyl operations and 
continue to move low-concentration, multi-kilogram shipments across the 
SWB. At the same time, the amount of low-weight/high-concentration 
fentanyl shipments arriving directly in the United States via mail/
express consignment operations will also rise. This smuggling method is 
characterized by small criminal groups and individuals based in the 
United States whose ability to leverage the Internet--especially the 
``dark web''--allows them to obtain synthetic opioids directly from 
overseas suppliers with relative ease and anonymity.

    CBP's National Targeting Center (NTC) is where advance data and 
access to law enforcement and intelligence records converge to 
facilitate the targeting of travelers and items of cargo that pose the 
highest risk to our security--in all modes of inbound transportation. 
The NTC takes in large amounts of data and uses sophisticated targeting 
tools and subject matter expertise to analyze, assess, and segment risk 
at every stage in the cargo/shipment and travel life cycles. NTC 
leverages classified, law enforcement, commercial, and open-source 
information in unique, proactive ways to identify high-risk travelers 
and shipments at the earliest possible point prior to arrival in the 
United States and plays a key role in targeting the opioid supply. The 
NTC works closely with interagency Federal and international partners 
on joint initiatives aimed at targeting the opioid supply chain.

    CBP will also enhance its risk segmentation based on data analytics 
and data mining by expanding an advanced data pilot in the 
international mail environment. Other efforts include prioritizing 
targeting efforts to disrupt, degrade, and dismantle transnational 
criminal organizations and illicit networks producing and distributing 
fentanyl and its analogues.

    Question. As CBP Commissioner, what steps will you undertake to 
interdict fentanyl and synthetic fentanyls from entering the United 
States?

    Answer. According to provisional data from the Centers for Disease 
Control and Prevention, in 2016, drug overdoses were the leading cause 
of accidental death in the United States, with opioids accounting for 
over 20,000 fatalities. Aligned with those increases, CBP has seen a 
sharp increase in fentanyl seizures coming through our land ports of 
entry and through express consignment and international mail 
facilities. In FY 2017, CBP's Office of Field Operations seized more 
than double the amount of fentanyl, a 153 percent increase.

    Recognizing this trend and our critical role, in July 2017, I 
directed the development of a comprehensive and integrated strategy to 
enhance CBP's ability to target and interdict opioids entering the 
United States. CBP will continue to arrest and interdict all persons 
and contraband the entered into the U.S. illegally while conducting 
border security operation, as well as through counter-network 
operations to target and interdict the organizations involved in the 
smuggling of opioids at each node in the supply chain based on 
intelligence. I would also like to emphasize that ensuring that CBP 
personnel are properly equipped to conduct these interdictions in a 
safe and efficient manner must remain a top priority. To that end, CBP 
is working with partner agencies to identify personal protective 
measures and testing equipment to ensure officer safety while 
intercepting and accurately identifying fentanyl in the field.

    CBP is focused on allocating internal resources to interdict 
fentanyl, in all forms, so as to prevent them from entering the United 
States. CBP is also working with partner agencies to identify personal 
protective measures and testing equipment to ensure officer safety 
while intercepting and accurately identifying fentanyl in the field. 
CBP is the first Federal law enforcement agency in the United States to 
train canines to detect fentanyl. CBP currently has over 100 canines 
trained to detect fentanyl and is planning to expand fentanyl training 
to existing teams that operate in the border security environment as 
well as ensuring all new canine teams have the ability to detect 
fentanyl.

    CBP is also looking for new and innovative technology to 
presumptively identify fentanyl in the field. The Field Triage Infrared 
Reachback program continues to be the most effective means to 
presumptively identify new fentanyl analogues as it integrates virtual 
scientists with frontline officers. Reachback scientists are able to 
interpret data and recognize threats even if the spectra of these new 
threats do not exist in established libraries. Additionally, 
Gemini<SUP>TM</SUP> presumptive testing devices have been deployed 
which is currently the only device on the market which is able to 
utilize Raman and Fourier Transform Infrared Spectrometer (FTIR) 
technology for presumptive identification purposes. CBP has procured 82 
additional presumptive testing devices which will be deployed to field 
offices nationwide. However, deployment will be heavily focused on the 
mail/express courier operations and Southwest border.

    CBP has conducted many successful special enforcement operations. 
These enforcement operations have bolstered the interdiction of 
narcotics on the Southwest border, international mail and express 
courier facilities. Operation Hybrid II was conducted in Tucson, AZ 
from September 10-23, 2017. Operation Hybrid I was conducted in Laredo, 
TX in May 2017. Operation Hybrid bolsters CBP Field Offices with 
personnel, intelligence, and equipment to interdict hard drugs and 
other contraband being smuggled by pedestrians, privately owned 
vehicles, commercial busses, and the Secure Electronic Network for 
Travelers Rapid Inspection (SENTRI) Lanes. During Operation Hybrid I 
and II, Laboratory and Scientific Services (LSS) deployed a mobile 
laboratory to perform more rigorous testing for the presence of 
fentanyl in loads that were interdicted.

    CBP also conducted Operation Crush in the express courier 
facilities in Memphis, TN; Cincinnati, OH; and Louisville, KY from 
August 23-September 15, 2017. CBP collaborated with other components 
and external agencies by leveraging enforcement, targeting, 
investigations, science, and intelligence to identify and disrupt 
individuals smuggling hard narcotics in the express courier 
environment. CBP will expand Operation Crush to international mail 
facilities beginning with the Chicago and New York Field Offices.

    In addition to our internal operations, CBP will continue 
international engagement to reduce the supply chain in source countries 
through operational efforts and diplomatic engagement, specifically 
with China, Mexico, and Central and South America. To address serious 
gaps in information associated with fentanyl in Mexico, CBP conducted a 
fentanyl workshop focusing on the Southwest border and Mexico in 
September 2017 in Tucson, AZ. CBP is working with representatives of 
Australia, Canada, New Zealand, and the United Kingdom to exchange 
lessons learned, smuggling trends and best practices related to 
fentanyl. Subject Matter Experts from the participating countries are 
working together to conduct focus meetings discussing information such 
as officer safety, testing/detection, and substance analysis/
exchange of spectra.

    Lastly, I would note that CBP stands ready to assist Congress on 
legislative solutions to ensure CBP and its Federal partners are well 
equipped with the appropriate authorities, information sharing, and 
resources to amplify our enforcement efforts and best address this 
emerging threat.

    Question. Reports indicate that the terrorist group ISIS has sold 
cultural artifacts and antiquities on the black market to help finance 
their operations in Iraq and Syria. In 2016, the Protect and Preserve 
International Cultural Property Act became Pub. L. 114-151. I sponsored 
this legislation in the Senate, which imposed restrictions on the 
import of cultural artifacts from Syria and sought to improve 
interagency coordination in stopping black market antiquities from 
entering the United States.

    Do you believe that addressing the illegal import of cultural 
property into the United States, especially if they can be traced back 
to terrorist groups, should be a priority for CBP?

    Answer. Yes, CBP is committed to protecting cultural property, 
heritage, arts and antiquities by developing and coordinating 
comprehensive U.S. border enforcement efforts, and working closely with 
Immigration and Customs Enforcement, Homeland Security Investigations. 
To do so, CBP coordinates with a host of domestic and international 
partners to combat illicit cultural property through a variety of fora, 
at the strategic and tactical levels, to include the exchange of 
intelligence, identification of anomalies, trends, and violations in 
the global supply chain to target high-risk shipments and promote 
compliance. The main forum for CBP domestic coordination with U.S. 
Government agencies is the Department of State-led Cultural Heritage 
Coordinating Committee (CHCC), to include its several working groups, 
such as the Cultural Antiquities Task Force (CATF), to which CBP shares 
situational awareness to all regarding ongoing and planned CBP 
activities. In recent decades, the United States also has entered into 
international agreements with other countries in an effort to limit the 
trafficking of artistic, archaeological, and ethnological material. CBP 
enforces these agreements through collaboration with other U.S. Federal 
agencies, foreign governments and international organizations, e.g., 
the World Customs Organization.

    Question. If confirmed, will you commit to implementing Pub. L. 
114-151 in a manner that holds accountable those who would illegally 
import cultural artifacts while allowing the legal, legitimate trade in 
cultural property to continue?

    Answer. CBP aggressively enforces existing U.S. import restrictions 
on trafficked cultural property, art, and antiquities (CPAA), to 
include enforcing Pub. L. 114-151; effecting seizures of trafficked 
cultural property attempted to be imported to, exported from, or 
trafficked through the United States in violation of law; pursuing 
civil administrative penalties against violative parties; and 
supporting Department of State repatriation of trafficked antiquities 
to the rightful countries of origin. In order to monitor and detect 
high risk activity, and specifically to pinpoint illicit cultural 
property, CBP uses predictive analysis to identify suspicious 
importations, leverages actionable intelligence obtained through 
partner government agencies and industry collaboration to identify 
high-risk transactions and performs national targeting to identify 
high-risk transactions.

    In the process, CBP also actively supports criminal investigations 
by ICE Homeland Security Investigations (HSI) of the trafficking of 
antiquities for sale in the United States, e.g., by conducting data 
analysis, targeting, examinations, joint enforcement operations at and 
beyond the border and referring interdictions of cultural property to 
ICE HSI for investigative consideration. This close coordination also 
assists ICE HSI with the identification, arrest, and conviction of 
criminals and associated transnational criminal organizations 
responsible for illicit antiquities trafficking.

    Question. If confirmed, will you report to this committee on CBP's 
seizures of cultural artifacts pursuant to Pub. L. 114-151?

    Answer. Yes, CBP routinely tracks and conducts after-action 
analysis of cultural property seizures, in part to inform its related 
risk analysis efforts, and is readily able to report to the committee 
regarding DHS seizures of cultural artifacts, both those of CBP and 
ICE. As CBP works closely with ICE during the cultural property 
interdiction, detention and seizure process in most instances, the CBP 
reporting and attribution of cultural property seizures typically is at 
the departmental level, viewed as a collaborative CBP and ICE effort. 
After CBP detains cultural property, CBP contacts ICE so that ICE may 
conduct a preliminary investigation to determine whether the detained 
property is in violation of and imported contrary to law. CBP also 
requests that ICE locate and identify an appropriate subject matter 
expert to examine the property to make a preliminary determination 
regarding the authenticity of the artifact or object. By routinely 
collaborating with ICE, CBP is able to combat criminal organizations 
that traffic in illicit cultural property and conduct coordinated ICE/
CBP enforcement operations at and beyond the border.

    Question. What additional resources, training, or authorizations do 
you believe CBP Officers need to effectively apply Pub. L. 114-151 and 
other relevant statutes?

    Answer. Pursuant to the Trade Facilitation and Trade Enforcement 
Act of 2015 (Pub. Law No: 114-125), section 606, CBP is mandated to 
train its personnel regarding the enforcement of illicitly trafficked 
cultural property, archaeological or ethnological materials. CBP 
continues to work in conjunction with its partner government agencies, 
ICE, Department of State and the Smithsonian Institute, to rapidly 
expand and pursue greater awareness and education throughout CBP of 
cultural property, arts and antiquities theft and illicit trafficking; 
to increase the number of trained resources dedicated to cultural 
property protection; and to ensure a sufficient cadre of CBP personnel 
nationwide with expertise devoted to targeting and processing cultural 
property cases.

                                 ______
                                 
             Questions Submitted by Hon. Michael F. Bennet
    Question. President Trump's proposed wall would be extremely costly 
and would require the Federal Government to confiscate private lands. 
It would also likely involve numerous legal challenges, environmental 
damage, and expensive ongoing maintenance. While President Trump has 
insisted that the cost of the wall would be around $12 billion, a DHS 
report released earlier this year estimates the cost at $21.6 billion, 
not including maintenance.

    What are the costs of building a wall along the entire southern 
border--both in terms of price and its effect on trade?

    Answer. At this time, CBP cannot provide a total cost for border 
wall construction. CBP is currently developing a comprehensive 
assessment of potential requirements for the border wall as part of the 
Border Security Improvement Plan required by the FY 2017 Omnibus. That 
said, the Southwest border is a dynamic environment and each mile of 
border requires a tailored solution. Costs will vary depending on the 
type of barrier required by the terrain, traffic, and threats.

    We do not anticipate that the construction of a border wall will 
impact on the flow of commerce at our ports of entry and have not 
historically seen impacts to trade with past infrastructure 
investments. In fact, we continue to make significant progress with our 
Mexican partners to facilitate cross border trade and on August 23, 
2017, CBP and Mexico Customs (SAT) signed a ``Memorandum of 
Understanding'' (MOU) regarding ``Unified Cargo Processing'' (UCP). UCP 
is a program which allows for joint inspections (either inbound or 
outbound operations) by CBP personnel with foreign Customs personnel on 
U.S. soil.

    SAT currently lacks the infrastructure in Mexico to process all the 
cargo and UCP allows for a single operational location. Instead of 
trucks carrying cargo making multiple stops, in both Mexico and the 
United States, UCP allows for a single streamlined inspection that 
reduces wait times significantly and enhances security. It also fosters 
information exchange on customs and security issues with Mexican 
Customs. UCP with SAT is operational at the Laredo (truck, air, and 
rail cargo), Rio Grande City (truck cargo), Texas; Nogales (truck and 
rail cargo), Douglas (truck cargo), San Luis (truck cargo), Arizona; 
and Calexico (truck cargo), California, ports of entry. CBP is in 
discussion with SAT on potential UCP expansion to El Paso, Columbus, 
Santa Teresa, Brownsville, Progresso, Pharr, Eagle Pass, Otay Mesa, 
Tecate, Phoenix, and Port Fouchon (ocean cargo) ports of entry. These 
potential UCP locations will be jointly determined by CBP and SAT based 
upon operational impact, available personnel, and available space.

    The UCP has helped reduce truck crossing wait times. Some trucking 
companies reported to CBP that they have seen the crossing time reduced 
from 3 hours to around 30 minutes.

    Question. What metrics will you use to evaluate the cost 
effectiveness of various methods to secure the border?

    Answer. USBP conducts an annual Capability Gap Analysis Process 
(CGAP) to identify gaps and other trends between the ports of entry. 
Once the gaps have been identified, analyzed, and prioritized, USBP 
views these gaps through the lens of available resources including 
personnel, persistent surveillance, and impedance and denial (i.e., the 
wall)--to address those threats. The time to procure and available 
funding shape the immediate response, while we address the long-term 
strategic needs. We use metrics like the Interdiction Effectiveness 
Rate \9\ and State of the Border risk analysis to guide and shape the 
balancing of resources to meet the actions of extremely nimble 
transnational criminal organizations. ``Operational Control'' of the 
border, as directed by both the Secure Fence Act of 2006 (8 U.S.C. 
1701) and Executive Order 13767 (section 4),\10\ is an additional 
metric that is used to guide our prioritized investment. When balancing 
competing interests, DHS and CBP will use these and other specific 
methodologies to identify and validate border control initiatives and 
investments.
---------------------------------------------------------------------------
    \9\ Interdiction Effectiveness Rate (IER) is the percent of 
detected illegal entrants who were apprehended or turned back after 
illegally entering the United States between Southwest border ports of 
entry. IERs are calculated by taking the sum of apprehensions and 
turnbacks, and dividing by the sum of apprehensions, turnbacks, and 
gotaways.
    \10\ The Secure Fence Act and the executive order both define 
``operational control'' as the ``Prevention of all unlawful entries 
into the United States.''

    Moving forward, we will include ``Operational Control'' of the 
border as an additional metric, directed by both the Secure Fence Act 
of 2006 (8 U.S.C. 1701) and Executive Order 13767 (section 4),\11\ to 
guide our prioritized investment. When balancing competing interests, 
DHS and CBP will use specific methodologies to identify and validate 
border control initiatives and investments. These requirements will be 
further justified in the President's annual budget request as we move 
forward.
---------------------------------------------------------------------------
    \11\ The Secure Fence Act and the executive order both define 
``operational control'' as the ``Prevention of all unlawful entries 
into the United States.''

    Question. Would this include walls, fences, personnel at and 
---------------------------------------------------------------------------
between ports, aerostats, drones, and manned aircraft?

    Answer. Yes; we will evaluate our success on achieving operational 
control based on the effectiveness of our multi-layered approach 
supported with all of the aforementioned resources. Layering resources 
strategically enables the U.S. Border Patrol to detect, identify, 
classify, and track persons entering the U.S. illegally between the 
POEs and effect the appropriate response and resolution to secure our 
Nation's borders. This approach utilizes manpower, technology, and 
tactical infrastructure deployed in areas of greatest risk to ensure 
the highest degree of success. A constant cycle of conducting 
intelligence analysis, capability gap analysis, and mission analysis 
ensures that resources are providing the expected results, or need 
revisiting.

    Question. Will you commit to making this analysis public?

    Answer. Annually, CBP makes many statistics and metrics available 
to the public and we will continue to promote transparency where and 
when we can while protecting the men and women defending the Nation. 
The submission of many of these metrics and others to Congress is 
required by statute as well.

    Question. A few months ago, I was in Mexico visiting officials 
regarding our bilateral relationship. In addition to border security, 
we discussed the heroin and opioid crisis and the changing nature of 
the drug flow to the United States. As much as 94 percent of the heroin 
entering America comes through Mexico. Fentanyl is also entering 
America through Mexico from places like China. And labs in Mexico are 
using precursor chemicals that are smuggled into the country to produce 
fentanyl. One expert told us that not only can a large amount of heroin 
fit into luggage, but compared to other substances, it is difficult to 
trace.

    Given this, what are the challenges facing your agents on the front 
lines in tracking the flow of drugs across the border?

    Answer. Mexico is the United States' third biggest commercial 
partner. The border between the United States and Mexico remains the 
world's busiest land border with both legitimate trade and travel and 
smuggling endeavors. Mexican drug trafficking organizations (DTOs) are 
poly-drug organizations that traffic heroin, methamphetamine, synthetic 
drugs, cocaine, and marijuana throughout the United States. DTOs use 
established transportation routes and distribution networks controlling 
drug trafficking routes across the Southwest border (SWB). Mexican DTOs 
exploit the large volume of pedestrian, cargo, and vehicular traffic to 
smuggle drugs across the SWB by every imaginable means.

    Some of the challenges our officers must overcome is that our 
enhanced border enforcement posture at the POEs has forced DTOs to find 
new and innovative smuggling methods. To address these unique 
challenges, OFO is currently implementing Special Enforcement 
Operations designed to identify and disrupt drug smuggling at a POE 
through adaptable, intensified, and multi-layered narcotics smuggling 
operations over a designated period. CBP realizes effective risk 
management requires working closely with many Federal, State, and local 
enforcement partners in a ``whole-of-government'' approach. This 
approach will help us address gaps in intelligence and improve risk 
management and enforcement actions.

    CBP has made significant investments and improvements to our drug 
detection and interdiction technology and targeting capabilities. CBP 
utilizes non-intrusive inspection technology for the inspection and 
presumptive testing of unknown substances to immediately identify 
narcotic substances, to include Fentanyl.

    Question. What additional tools do you need to stop those drugs 
from entering the U.S. market?

    Answer. As America's unified border agency, CBP has a critical role 
in the Nation's efforts to keep fentanyl and other dangerous drugs out 
of the hands of the American public while ensuring safety of CBP's 
frontline officers. CBP is working with partner agencies to identify 
presumptive testing equipment and personal protective measures to 
ensure officer safety while intercepting and accurately identifying 
fentanyl in the field. CBP has evaluated and deployed systems to 
enhance interdiction rates while delivering training to officers and 
agents. CBP continuously analyzes fentanyl trafficking routes and 
interdiction rates across U.S. POEs to identify the most appropriate 
requirements and equipment to detect, identify, and interdict these 
dangerous drugs. CBP's current efforts include:

          Expanding CBP's naloxone program to locations where opioids 
        may be handled by CBP personnel to ensure officer and agent 
        safety.
          Developing and implementing training to ensure officers and 
        agents are aware of the risks involved with these drugs and 
        understand how to handle them.
          Expanding CBP's Laboratories and Scientific Services 
        Directorate (LSSD) capacity to provide 24-7 reachback support 
        to officer and agents in the field.
          Implementing a mobile laboratory capability at additional 
        field locations.
          Procuring sophisticated laboratory equipment that can be 
        used to analyze narcotics seizure.
          Procuring and deploying field testing equipment technology.

                                 ______
                                 
               Questions Submitted by Hon. Mark R. Warner
    Question. Customs and Border Protection has guidance meant to limit 
routine immigration enforcement in sensitive places such as schools, 
hospitals, and churches. Yet, earlier this year, undocumented 
immigrants were arrested leaving an overnight shelter program at a 
church in Virginia.

    What is your approach to enforcement in sensitive locations, 
including hospitals, schools, and churches?

    Answer. CBP's sensitive locations policy remains in place and I 
have no plans to change it at this time. I fully support our officers 
and agents' efforts to enforce the laws of the United States through 
their dedicated efforts in the field. Our policy has protective 
measures for certain locations to ensure that the interruption of daily 
lives of most Americans is reduced to the greatest extent possible.

    Question. Do you believe there are any areas that should be off 
limits to enforcement actions? Do you plan to ensure that sensitive 
locations remain protected?

    Answer. CBP's priority mission is to keep terrorists and their 
weapons from entering the United States. CBPOs and Border Patrol Agents 
enforce all applicable U.S. laws, including against illegal 
immigration, narcotics smuggling, and illegal importation. Inevitably, 
enforcement actions and investigative activities may, at times, lead to 
an apprehension at or near community locations or establishments which 
have been deemed as sensitive locations. CBP policy does not preclude 
its Officers and Agents from conducting enforcement actions at or near 
these locations, but directs that careful consideration be undertaken, 
including consultation with supervisors where appropriate. In all 
cases, Agents and Officers are expected to exercise sound judgment and 
common sense while taking appropriate action, and exigent circumstances 
requiring an Agent or Officer to enter a sensitive location must be 
reported immediately to ensure visibility and oversight. CBPOs and BPAs 
do not actively patrol or station themselves outside of locations 
deemed sensitive under CBP policy.

    Question. One issue highlighted to me by community leaders in 
Virginia is the difficulty they face in getting clear guidance on the 
administration's policies on immigration.

    Would you commit to holding a field office meeting with community 
leaders in Virginia?

    Answer. Yes. In October, I met with a number of non-governmental 
organizations from around the country to discuss some of these very 
issues and I would be happy to have our personnel that oversee CBP 
activities in Virginia meet with community leaders and answer any 
question that fall within our agency's purview. My Assistant 
Commissioner for Congressional Affairs will coordinate with your staff 
to arrange a meeting.

    Question. The administration has called for the hiring of 5,000 
additional Border Patrol Agents--an approximately 25% increase. 
Achieving this level of hiring will be difficult for a number of 
reasons--including the fact that we currently have fewer agents than 
authorized statutory levels. I'm concerned that we're risking security 
to speed up this process.

    Has the Department conducted a recent independent analysis of 
current workforce needs?

    Answer. USBP continues to refine its staffing methodology to 
determine its requirements to conduct border enforcement operations. 
USBP is currently working on the Personnel Requirements Determination 
(PRD). This decision tool will support a staffing model with expert 
field input and a combination of existing data and field input. Absent 
this decision tool and corresponding staffing model, USBP utilized 
existing apprehension data and effectiveness ratios, as well as hours 
spent patrolling the U.S. border. This information, combined with 
decision-maker judgement and experience, allows for both quantitative 
and qualitative analysis to ultimately inform the proposed increase for 
additional personnel. The PRD will answer: (1) what conditions and 
workload are significantly related to current staffing levels; (2) what 
do SMEs say are the current, minimal, optimal, and OPCON levels for 
staffing and what evidence exists to support these estimates; (3) what 
would be the optimal distribution of additional BPAs across sectors and 
stations based on operational conditions; and (4) as conditions and 
workload change, what are the effects on staffing requirements by 
sector, station, and zone.

    Question. A CBP spokesperson noted that CBP has shortened the 
hiring process from 18 months to 5 months. Is this accurate?

    Answer. Yes, CBP has worked tirelessly to streamline the hiring 
process and saw a 65 percent reduction in the time to hire from a high 
watermark of 469 days in January 2016 to a current average of 160-165 
days through hiring hubs where we are able to streamline many of those 
processes. In 2015, CBP launched its hiring hub pilot program to 
resolve difficulties in scheduling and coordination among various 
agency components compressing several months' worth of processing steps 
into just a few days. In FY 2017, CBP incorporated lessons learned from 
the hiring hub program into a new expedited hiring process that is now 
being used for all frontline applicants.

    Question. If so, where did the time savings come from?

    Answer. The majority of the time savings came from reducing 
internal bottlenecks and improved scheduling capabilities. It's 
important to note that CBP's end-to-end reengineering of the frontline 
hiring process included more than 40 process improvement initiatives 
implemented since 2015. In addition to the aforementioned hiring hub 
model, CBP also implemented several other process improvements to 
streamline the process, add capacity, enhance the use of technology, 
and leverage advanced data analytics.

    Question. Estimates show that the construction of a physical wall 
along the Southern border could total at least $22 billion, which the 
American taxpayer would have to pay for. As I communicated to the U.S. 
Department of Homeland Security in April, I'm concerned about the 
administration's proposals to divert money from TSA and FEMA programs 
that are currently protecting U.S. citizens.

    How will CBP prioritize protecting our national security at all of 
our borders?

    Answer. CBP uses risk management to inform long-term planning and 
resource decisions, which subsequently enable CBP to enhance operations 
and achieve the agility that it needs to detect and respond to threats 
in the border environment. In assessing risk at and between the POEs, 
CBP emphasizes a threat-based approach that identifies and evaluates 
threats enabling CBP to prepare, respond, and resolve any border 
encounter or threat more effectively.

    CBP's risk-based approach to investing and guiding operational 
activity has improved U.S. border security over the last decade. For 
example, the number of apprehensions between the POEs has been a useful 
surrogate for the total number of people attempting to cross the border 
illegally. Overall, the apprehension numbers have trended downward as 
CBP has applied capabilities and new investments to increase border 
security. Apprehensions have dropped in locations where CBP has applied 
more resources. CBP also utilizes a risk-based approach to support the 
expansion of Preclearance operations. Airports interested in the 
program are evaluated and prioritized against core requirements for 
Preclearance expansion, which include national security benefit to the 
United States, travel facilitation benefit, feasibility, and strategic 
impact.

    Financial resources are not always sufficiently available to 
support all desired border security initiatives. When fiscal 
constraints arise, CBP's risk management approach enables a tailored 
mix of resources that provides the highest possible levels of border 
security across all the U.S. border environments that CBP is charged 
with securing.

    To ensure the appropriate mix of resources, CBP continuously 
develops and enhances governance and business processes to facilitate 
risk-informed decisions. At the enterprise level, CBP is enhancing its 
performance management processes so that programs, investments, and 
acquisitions will be measured for reaching the desired outcomes. CBP is 
incorporating intelligence and risk-management principles into its 
planning, programming, budget, and accountability (PPBA) business 
process. Incorporating intelligence and risk management into PPBA 
enables decisions to be more well-informed and risk-based.

    CBP has also looked to find innovative solutions working with 
private partners to ensure that we are able to meet operational 
demands. The permanent authorization of a public private partnership 
pilot that began in 2013 is a testament to this. Under the reimbursable 
services program, we have been able to bridge the gap between services 
CBP is able to provide through appropriated levels of funding and level 
of services desired by stakeholders. Many of the RSP stakeholders have 
been able to realize business goals such as decreased wait times for 
travelers, increased volume of travelers and trade, as well as 
processing of travel and trade outside normal port hours.

    Question. Do you agree that sacrificing funding for these crucial 
programs in order to build a physical wall could hamper our national 
security?

    Answer. I recognize that homeland security and meeting the 
challenge to secure our Nation's borders cannot be met through one 
single entity or approach alone. CBP is responsible for establishing 
and justifying its own operational requirements, while the Department 
and the Office of Management and Budget are responsible for balancing 
these requirements against the other operational priority requirements 
and availability of finite resources.

                                 ______
                                 
                Questions Submitted by Hon. Bill Nelson
    Question. For States like Florida that have major ports and 
airports handling large amounts of international travelers and 
commerce, it is critical that we have sufficient CBP Officers to 
quickly move people and goods. This has been expressed to me time and 
time again, most recently by Orlando International Airport, as well as 
ports throughout my State. Will you commit to prioritizing resources to 
ensure that States like mine have the port officers they need?

    Answer. I recognize your concerns specific to Florida staffing, and 
would emphasize that I am committed to ensuring all of our ports of 
entry are appropriately resourced to adequately address increases in 
trade and travel. I will remain focused on having the right mix of 
resources at and between our Nation's POEs. As the CBP mission 
continues to evolve to meet the threat to the Nation and facilitate 
legitimate trade and travel, we must continually assess personnel 
staffing requirement.

    Currently, CBP utilizes its Workload Staffing Model (WSM) to ensure 
CBPO staffing resources are aligned within the existing threat 
environments, while maximizing cost efficiencies. The WSM is a data-
driven model that incorporates the most recent year's workload data to 
determine staffing requirements and considers factors for future 
facility enhancements and projected volume growth in cross-border 
commercial and passenger traffic. Updated WSM results continue to show 
a need for additional OFO capability to fully meet the standards set by 
statute, regulation, and CBP policies, assuming maintenance of current 
processes, procedures, technology, and facilities. The most recent 
results--factoring in the additional 2,000 CBPOs funded by the FY 2014 
Omnibus--show a need for 2,516 additional CBPOs through FY 2018. The 
administration's submission of the updated 2017 WSM demonstrated an 
important commitment to the requirements it identified, as did the 
statement of intent in the President's FY18 budget to submit proposals 
for authorizing language that would provide user fee funding to address 
the gap as we have in past years.

    At the same time, CBP is continuing to address 1,132 CBPO positions 
that are vacant as of September 30, 2017. It is my top mission support 
priority, and will remain so if confirmed, to achieve full authorized 
and funding staffing levels for all frontline law enforcement 
positions.

    CBP has worked aggressively over the past several years to 
implement a multifaceted recruitment strategy that improves frontline 
hiring processes and enhances its ability to meet hiring goals. CBP 
continues to strengthen all aspects of hiring, which includes 
initiatives designed to attract more qualified applicants, expedite the 
pre-employment timeline, refine the hiring process to address all 
potential bottlenecks, and reduce the attrition rate of the existing 
workforce. Staffing the frontline with well-qualified individuals of 
the highest integrity remains a top priority for CBP.

    Additionally, CBP continues to implement Business Transformation 
Initiatives (BTIs) by focusing on faster processing in the air, 
pedestrian, vehicle, and cargo environments. CBP makes a concerted 
effort to implement the newest and most advanced technologies at the 
Nation's POEs to create efficiencies. Along with technological 
advancements, CBP is deploying biometrics and processing enhancements 
and expanded Trusted Traveler Programs. These transformative 
initiatives and technological advancements provide the platform from 
which CBP can achieve operational success in the face of increased 
border and air traffic, budget constraints, and demand for new and 
expanded services at existing and proposed POEs. CBP's BTIs have saved 
more than 1 million inspectional hours through FY 2016 and are 
estimated to save more than 500,000 inspectional hours or (over 400 
CBPOs) through FY 2018.

    To support increased staffing needs, CBP continues implementation 
of alternative funding strategies to increase revenue sources. CBP 
continues to support the Donations Acceptance Program and the 
Reimbursable Services Program made permanent with the enactment of the 
Cross-Border Trade Enhancement Act of 2016 (Pub. L. 114-279).

    Since the pilot program began in 2013, CBP's Reimbursable Services 
Program has entered into agreements with more than 60 stakeholders, 
providing over 368,000 additional processing hours at the request of 
our stakeholders-accounting for the processing of more than 8 million 
travelers and over 1.1 million personal and commercial vehicles. In 
2017, CBP tentatively selected 64 stakeholders across 54 ports of entry 
for participation in the RSP (34 air POEs, four for air and sea POEs, 
one for land POE, and 15 for sea POE). To date the CBP Donations 
Acceptance Program (DAP) has approved 17 donation proposals totaling 
$150 million in planned public and private sector investment in U.S. 
POEs and important CBP initiatives. Ten of the 17 proposals have been 
approved since enactment of the Cross-Border Trade Enhancement Act in 
December 2016, while the others were approved under a predecessor pilot 
authority provided by Congress. The 10 DAP projects range from 
infrastructure improvements, partnerships for the provision of 
biometrics services, and data and donations of luggage for canine 
training purposes. Partnerships entered into under DAP have and will 
continue to enhance border security and promote the safe and efficient 
flow of passenger travel and commercial trade.

    CBP continues to see a steady stream of applications for new 
agreements under this legislation, so while recent results have been 
very encouraging, continued growth and expanded utilization of this 
program is expected to allow CBP to approve new and enhanced services, 
which could not be provided without the Cross-Border Trade Enhancement 
Act.

    Question. A number of reports allege that CBP officials are not 
following the legal process for people seeking political asylum who 
arrive at our borders. There are reports that asylum seekers have been 
turned away by Border Patrol agents without an opportunity to present 
their asylum claims. This is particularly concerning as Venezuelans 
flee a political, humanitarian, and economic crisis that is worsening 
by the day and Cubans continue to seek shelter from a repressive Castro 
regime. Will you commit to making sure that asylum seekers are not 
turned away at the border?

    What steps will you take to make sure your agents are actually 
following CBP policies on the ground?

    Answer. Over the last 2 years, CBP has referred over tens of 
thousands of applicants for admission who expressed fear of return to 
U.S. Citizenship and Immigration Services for review by an asylum 
officer. CBP carries out its mission of border security while adhering 
to U.S. and legal international obligations for the protection of 
vulnerable and persecuted persons. The laws of the United States, as 
well as international treaties to which we are a party, allow people to 
seek asylum on the grounds that they are being persecuted outside of 
the United States because of their race, religion, nationality, 
membership in a particular social group, or political opinion. CBP 
understands the importance of complying with these laws, and takes its 
legal obligations seriously. Accordingly, CBP has designed policies and 
procedures based on these legal standards, in order to protect 
vulnerable and persecuted persons in accordance with these legal 
obligations. All CBP officers must comply with all law and policy, and 
appropriate disciplinary action may be taken against those who do not.

    All complaints against officers or agents, regardless of the mode 
through which they are received, are recorded and investigated, and 
appropriate action is taken against CBP employees who are found to have 
violated agency policy. Additionally, CBP's Office of Professional 
Responsibility (OPR) has been actively engaged with Non-Governmental 
Organizations (NGOs) to identify and investigate incidents alleging 
that persons were prevented or discouraged from making claims of fear 
to CBP.

    Additionally, both Border Patrol Agents (BPAs) and Customs and 
Border Protection Officers (CBPOs) receive training on the proper 
processing, treatment, and referral of aliens who express a fear of 
return. This training begins at the Academies, and is reinforced 
through Post Academy training and the periodic issuance of memoranda 
and musters. CBP also issues periodic guidance to the field reminding 
CBPOs and BPAs of their legal obligations towards those who express a 
fear of return.

    Question. There is an epidemic in my State of Florida, and that is 
the opioid crisis. Overdose deaths from heroin and fentanyl are hitting 
record levels. A lot of it is coming in from China, and last week the 
Justice Department indicted a big drug trafficking ring, including some 
folks in Florida. This is a start, but what we need is a comprehensive 
approach, as well as sufficient resources to truly fight this epidemic. 
I've supported additional funding that's already reaching local 
communities, and this week I cosponsored legislation to boost that 
funding even more. What specifically is CBP doing to help fight this 
crisis?

    Answer. According to provisional data from the Centers for Disease 
Control and Prevention, in 2016, drug overdoses were the leading cause 
of accidental death in the United States, with opioids accounting for 
over 20,000 fatalities. Aligned with those increases, CBP has seen a 
sharp increase in fentanyl seizures coming through our land ports of 
entry and through express consignment and international mail 
facilities. In FY 2017, CBP's Office of Field Operations seized more 
than double the amount of fentanyl, a 153-percent increase, than seized 
in FY 2016. Recognizing this trend and our critical role, in July 2017 
I directed the development of a comprehensive and integrated strategy 
to enhance CBP's ability to target and interdict opioids entering the 
United States. CBP will continue to arrest and interdict all persons 
and contraband entering into the U.S. illegally while conducting border 
security operation, as well as through counter-network operations to 
target and interdict the organizations involved in the smuggling of 
opioids at each node in the supply chain based on intelligence. I would 
also like to emphasize that ensuring that our CBP Officers and Agents 
are properly equipped to conduct these interdictions in a safe and 
efficient manner must remain a top priority. To that end, CBP is 
working with partner agencies to identify personal protective measures 
and testing equipment to ensure officer safety while intercepting and 
accurately identifying fentanyl in the field.

    CBP is greatly focused on allocating internal resources to 
interdict fentanyl, in all forms, so as to prevent them from entering 
the United States. CBP is the first Federal law enforcement agency in 
the United States to train canines to detect fentanyl. CBP currently 
has over 100 canines trained to detect fentanyl and is planning to 
expand fentanyl training to existing teams that operate in the border 
security environment as well as ensuring all new canine teams have the 
ability to detect fentanyl.

    CBP is constantly looking for new and innovative technology to 
presumptively identify fentanyl in the field. The Field Triage Infrared 
Reachback program continues to be the most effective means to 
presumptively identify new fentanyl analogues as it integrates virtual 
scientists with frontline officers. Reachback scientists are able to 
interpret data and recognize threats even if the spectra of these new 
threats do not exist in established libraries. Additionally, 
Gemini<SUP>TM</SUP> presumptive testing devices have been deployed 
which is currently the only device on the market which is able to 
utilize Raman and Fourier Transform Infrared Spectrometer (FTIR) 
technology for presumptive identification purposes. CBP has procured 82 
additional presumptive testing devices which will be deployed to field 
offices nationwide. However, deployment will be heavily focused on the 
mail/express courier operations and Southwest border.

    CBP has conducted many successful special enforcement operations. 
These enforcement operations have bolstered the interdiction of 
narcotics on the Southwest border, international mail and express 
courier facilities. Operation Hybrid II was conducted in Tucson, AZ 
from September 10-23, 2017. Operation Hybrid I was conducted in Laredo, 
TX in May 2017. Operation Hybrid bolsters CBP Field Offices with 
personnel, intelligence, and equipment to interdict hard drugs and 
other contraband being smuggled by pedestrians, privately owned 
vehicles, commercial busses, and the Secure Electronic Network for 
Travelers Rapid Inspection (SENTRI) Lanes. During Operation Hybrid I 
and II, Laboratory and Scientific Services (LSS) deployed a mobile 
laboratory to perform more rigorous testing for the presence of 
fentanyl in loads that were interdicted.

    CBP also conducted Operation Crush in the express courier 
facilities in Memphis, TN; Cincinnati, OH; and Louisville, KY from 
August 23-September 15, 2017. CBP collaborated with other components 
and external agencies by leveraging enforcement, targeting, 
investigations, science, and intelligence to identify and disrupt 
individuals smuggling hard narcotics in the express courier 
environment. CBP will expand Operation Crush to international mail 
facilities beginning with the Chicago and New York Field Offices.

    In addition to our internal operations, CBP will continue 
international engagement to reduce the supply chain in source countries 
through operational efforts and diplomatic engagement, specifically 
with China, Mexico, and Central and South America. To address serious 
gaps in information associated with fentanyl in Mexico, CBP conducted a 
fentanyl workshop focusing on the Southwest border and Mexico in 
September 2017 in Tucson, AZ. CBP is working with representatives of 
Australia, Canada, New Zealand, and the United Kingdom to exchange 
lessons learned, smuggling trends and best practices related to 
fentanyl. Subject matter experts from the participating countries are 
working together to conduct focus meetings discussing information such 
as officer safety, testing/detection, and substance analysis/
exchange of spectra.

    Lastly I would note that CBP stands ready to assist Congress on 
legislative solutions to ensure CBP and its Federal partners are well 
equipped with the appropriate authorities, information sharing, and 
resources to amplify our enforcement efforts and best address this 
emerging threat.

    Question. I was in Puerto Rico recently and took a helicopter into 
the remote areas to see the conditions on the ground. Our fellow 
Americans are struggling to survive and desperately need our help. We 
need to get supplies into the hardest hit, remote areas of the island. 
Please describe CBP's efforts to date in Puerto Rico.

    Answer. In October I also visited CBP operations and personnel in 
Florida, the U.S. Virgin Islands, and Puerto Rico. The magnitude of the 
damage caused by both Hurricanes Irma and Maria is devastating. I was 
humbled by the response of the CBP personnel who live and work in these 
affected areas, putting mission first and assisting residents/neighbors 
who were in desperate need.

    In support of Federal Emergency Management Agency (FEMA) and other 
Federal, State, and local partners, CBP has provided support to various 
Emergency Support Functions (ESFs) including Transportation (ESF-1), 
Communications (ESF-2), Emergency Management (ESF-5), Logistics support 
(ESF-7), Search and Rescue (ESF-9), Public Security and Safety/Law 
Enforcement (ESF-13),\12\ and External Affairs (ESF-15). CBP deployed 
224 employees with the Surge Capacity Force in support of FEMA's 
hurricane responses to Harvey, Irma, and Maria--specifically 150 CBP 
officers and agents were deployed to Puerto Rico to contribute to the 
relief effort. CBP distributed over 121,154 ready-to-eat meals, 770,262 
bottles of water and 536 generators. CBP deployed subject matter 
experts to support FEMA's intergovernmental affairs mission to engage 
with local political leaders, local government officials, and non-
governmental organizations across Puerto Rico's 78 municipalities.
---------------------------------------------------------------------------
    \12\ CBP deployed 75 law enforcement personnel (performing a wide 
variety of missions) in support of FEMA's Emergency Support Function 13 
(ESF-13; Public Safety and Security). Teams provided direct Federal 
assistance to Puerto Rico police departments as well as force 
protection for Disaster Medical Assistance Teams (DMAT).

    CBP air assets have been instrumental in logistical support of 
emergency response personnel and equipment for the whole-of-government 
response. CBP's Air and Marine Operations (AMO) UH-60 Blackhawk 
helicopters have been instrumental in providing food, water, and 
supplies in remote areas where vehicles or other modes of 
transportation was unable to access. In fact, helicopters were the only 
way these lifesaving supplies were able to be distributed to places 
needing urgent care items. Not only were areas being resupplied, AMO 
aircraft and crew played a crucial role in rescue operations in and 
around Puerto Rico. AMO employees flew almost 2,000 hours, on nine (9) 
---------------------------------------------------------------------------
different categories of airframes, completing 287 separate missions.

    CBP will continue to support the on-going relief efforts in and 
around Puerto Rico and provide assistance to the Island for the 
foreseeable future.

    Question. What is CBP's long-term plan for helping FEMA and DOD?

    Answer. CBP ``organically'' has assets in Puerto Rico including, 
but not limited to, San Juan and Aguadilla. CBP intends to continue to 
carry out its mission and partner with FEMA and Department of Defense 
(DOD) to assist as needed based on evolving (if not slowly improving) 
conditions. For example, CBP maintains support to the FEMA National 
Response Coordination Center (NRCC) and is continuing to monitor and 
support requests for aerial assets if or when needed.

    In support of FEMA (via DOJ's Bureau of Alcohol, Tobacco, Firearms, 
and Explosives) CBP is currently the last deployed Federal law 
enforcement team to remain on the island and has assisted various 
Puerto Rico entities including but not limited to the Puerto Rico 
Police Department in an effort to stabilize its local police force and 
facilitate a return to normal operations. This team will demobilize 
when FEMA is able to determine the need for Federal support is no 
longer required.

    Local Puerto Rico CBP personnel have and will continue to engage 
with their local counterparts and assess local recovery requirements. 
CBP through its Lead Field Coordinator (LFC) Diane Sabatino (Director 
of Miami Field Operations) maintains daily communication with its 
Puerto Rico based counterparts and similarly, remains in communication 
with its Headquarters counterparts to respond to local recovery needs 
where CBP is able to provide support.

    CBP as the largest Federal law enforcement agency in the United 
States is equipped with assets and special response teams. CBP has a 
close relationship with FEMA and we will remain available to support 
disaster responses around the country.

                                 ______
                                 
                Questions Submitted by Hon. Rob Portman
    Question. Before the Enforce and Protect Act (EAPA) was signed into 
law, CBP's system for investigating duty evasion was opaque and 
cumbersome. EAPA creates an open process which essentially gives CBP a 
year to finish investigations. It has been great to see some success--
CBP's efforts on wire coat hangers, diamond sawblades, and oil country 
tubular goods comes to mind. Thank you for your work on these 
investigations. However, at the same time, there is still more that can 
be done under the EAPA framework.

    Could you comment broadly on how EAPA has helped CBP address duty 
evasion?

    Answer. The Enforce and Protect Act (EAPA) established a formal 
process for CBP to investigate allegations of evasion of anti-dumping 
and countervailing duty orders (AD/CVD). Specifically, it provides for 
a transparent administrative proceeding parties can both participate 
in, and learn the outcome of, a relevant investigation. The transparent 
nature of these investigations has had several benefits, such as 
encouraging importers to participate once they see the public record 
being compiled in the investigation.

    Further, under this newly established process, CBP created various 
web-based allegation solutions. For example, EAPA-related allegations 
may be submitted to CBP via email and CBP also created a website to 
post background information, new updates, and decisions made in the 
EAPA investigations. This permits real time communication with the 
trade on important developments in the EAPA program.

    Additionally, by centralizing the EAPA investigations under the 
Office of Trade's Trade Remedy Law Enforcement Directorate (TRLED), CBP 
has been able to ensure that any concerns occurring in the 
investigations are readily addressed, as well as to provide better 
communication and coordination among the various units within CBP that 
are working these investigations. TRLED, being at Headquarters is also 
better positioned to coordinate with other government agencies, such as 
the U.S. Department of Commerce, as well as other foreign governments 
to facilitate the exchange of information in these investigations.

    Question. And mindful of the fact that you have stated CBP's belief 
that these reforms would take additional legislation, do you believe 
that the use of Administrative Protective Orders (APOs) or permitting 
allegations of duty evasion to be filed even when the importer is 
unknown, would be helpful at curtailing duty evasion?

    Answer. The EAPA interim final regulations currently require the 
identification of the importer in the allegation because a party might 
argue that CBP's identification of the importer's name violates the 
Trade Secrets Act. Thus, a legislative change exempting this from the 
Trade Secrets Act would permit CBP to reveal the identity of the 
importer who may be entering merchandise as to evasion and avoid 
potential violation of the Trade Secrets Act. CBP has developed a 
legislative proposal that is currently being vetted through the 
interagency clearance process.

    This would be extremely helpful in curtailing duty evasion. As more 
importers become aware of the use of public data in these 
investigations, they will actively work to shield their identity and 
hinder the ability of allegers to bring allegations. Closing this 
loophole means that the alleger need only to identify the scheme and 
parties involved, but not necessarily the actual importer of record in 
order for CBP to investigate the allegation and publicly bring the 
importer of record into the investigation.

    An APO provides the ability for parties' attorneys (not the parties 
themselves) to review and comment upon business confidential 
information in the course of a proceeding. The benefit that this may 
add is that the representatives for the importer and alleger may be 
able to more fully comment upon the other's submissions after having 
received the unredacted version. Administering such a manually 
intensive process would take our limited resources away from our 
investigations, it could potentially hinder our ability to conduct 
these investigations, rather than facilitate them if such a requirement 
were added without the resources necessary to administer an APO 
process. Additionally, we currently serve documents to parties via 
email as those documents contain only public information. Service of 
documents with business confidential information may require us to 
implement an electronic case management system, which would require 
additional resources and time to establish. Furthermore, CBP currently 
lacks necessary statutory authority to adopt an APO process.

    Question. As you know one of the intended benefits of the Enforce 
and Protect Act was to incorporate more stakeholder input to better 
target duty evasion. In the enacted Trade Facilitation and Trade 
Enforcement Act, under the EAPA guidelines the agency committed to a 
establish trade enforcement task force to address issues of concern to 
stakeholders.

    Are you aware if this task force has been established?

    Answer. In May 2016, CBP established a Trade Enforcement Task Force 
to address AD/CVD evasion. Effective October 1, 2017, this function was 
incorporated into a permanent Enforcement Operations Division within 
the Trade Remedy Law Enforcement Directorate, Office of Trade. This new 
division is responsible for intake and investigation of all EAPA 
allegations. This division also conducts regular outreach to the trade 
community to discuss best practices for submitting an EAPA allegation 
and answer any questions.

    Question. On March 31, 2017 President Trump issued an executive 
order entitled ``Establishing Enhanced Collection and Enforcement of 
Antidumping and Countervailing (AD/CV) Duties and Violations of Trade 
and Customs Laws.'' The order directs the development of a report in 
consultation with the Departments of Treasury and Commerce and the U.S. 
Trade Representative.

    What is the agency doing with regard to this executive order?

    Answer. The plan called for in Executive Order 13785, entitled 
``Establishing Enhanced Collection and Enforcement of Antidumping and 
Countervailing Duties and Violations of Trade and Customs Laws,'' was 
transmitted by DHS to the White House during the week of September 11, 
2017. The report was developed in consultation with the Department of 
Treasury, the Department of Commerce, the U.S. Trade Representative, 
DOJ and ICE.

    Question. Has the report already been delivered to the President?

    Answer. DHS has completed the report, entitled ``Establishing 
Enhanced Collection and Enforcement of Antidumping and Countervailing 
(AD/CV) Duties and Violations of Trade and Customs Laws'' and 
transmitted to the White House the week of September 11, 2017.

    Question. Section 307 of the Tariff Act bans the import of any 
products made with forced labor. In the last Congress, the committee 
took further action to strengthen section 307's ban by passing the 
Trade Facilitation and Trade Enforcement Act into law, which included 
language that closed a loophole that had been allowing goods made by 
human trafficking victims to be imported into the United States. In 
doing so, Congress made clear that human trafficking is unacceptable, 
and we should not be furthering this exploitation by accepting products 
produced with forced labor.

    However, in spite of Congress's direction to support trafficking 
victims and protect American workers by robust enforcement of section 
307, CBP only issued four Withhold Release Orders (WROs) last year and 
none yet this year. Human Rights First estimated $142 billion worth of 
products made by forced labor are coming into the country each year, 
and the current level of engagement from CBP on this issue is simply 
insufficient.

    Will you commit to prioritizing the enforcement of the section 307 
ban, including through issuing WROs?

    Answer. Yes, if confirmed, during my tenure CBP will prioritize the 
enforcement of section 307 including the issuance of WROs. To that end, 
CBP is actively self-initiating forced labor investigations to protect 
vulnerable populations and prevent goods produced with forced labor 
from entering into our supply chains. We are developing information 
internally and collaborating with interagency partners to self-initiate 
these important cases. We are currently evaluating several potential 
circumstances where withhold release orders could be appropriate.

    Question. As you know, the cruise business is new to the Great 
Lakes, with Great Lakes ports accepting cruise ship passengers for the 
first time in 2015. The Port of Cleveland first accepted cruise ship 
passengers earlier this year. I am pleased that CBP has worked with the 
Great Lakes ports on methods to process incoming passengers from cruise 
vessels during these early stages, such as jump kits and temporary 
structures. Such methods were approved by CBP as temporary alternatives 
with an understanding that permanent structures may need to be built in 
the future as the cruise business grows. Therefore, the sudden decision 
made by CBP in April to deny cruise ships into Great Lakes ports that 
lacked permanent facilities would have shut down the cruise business in 
the Great Lakes. I appreciate CBP's recognition that this decision was 
sudden and unworkable, and was reversed. I understand that CBP is now 
working with the Great Lakes ports on plans to accept cruise passengers 
in 2018.

    Can you provide an update on the discussions on how passengers will 
be processed at Great Lakes ports in the 2018 shipping season?

    Answer. On October 18th, I met with Michigan Governor Rick Snyder 
to talk through these concerns and I know our Director of Field 
Operations will continue the dialogue locally. CBP continues to work 
with cruise lines operating in the Great Lakes to design and implement 
workable and viable solutions for the processing of passengers and 
crew. Due to the varying infrastructure around the Great Lakes there 
most likely will be several solutions depending on the passenger and 
crew processing environment. Current numbers reflect that a total of 25 
cruises took place in FY 2017, a total of 3,313 passengers and 1,896 
crew members were processed. There were no adverse actions during the 
FY 2017 cruise season indicating a lower risk traveler. CBP will 
continue to work with the appropriate stake holders during the winter 
months to develop plans for the FY 2018 cruise season.

    Question. Has CBP made any long term decisions about the use of 
portable jump kit technologies as a temporary method to accept 
passengers?

    Answer. CBP continues to research new technology that enhances and 
enables CBP to maintain security of the United States while 
facilitating lawful trade and travel. While portable jump kits were the 
available technology and were utilized as a temporary solution, 
technology and new pilot programs in the marine environment could 
provide other solutions to the processing of passengers and crew. CBP 
cannot commit to the continued use of jump kits as we are moving 
forward with innovative technology.

    Question. Moving forward, can you commit to working with the Great 
Lakes ports on a long term and cost-effective solution that will aid in 
the growth of the cruise business in the Great Lakes while 
acknowledging, as CBP has in the past, that temporary methods may be 
necessary in the short term?

    Answer. Yes, in addition to the discussions for the 2018 cruise 
season, I will commit to exploring long term and cost-effective 
solutions, such as the Donation Acceptance Program which may be 
effective in addressing the current lack of processing facilities which 
would enable CBP to continue its services to the Great Lakes cruising 
industry.

                                 ______
                                 
                 Questions Submitted by Hon. John Thune
    Question. How will the CBP balance the needs of port and cargo 
security with growing commerce in a supply chain that requires 
efficiency in and around our ports in order for goods to move through 
the larger system?

    Answer. CBP will continue to employ a layered risk-management 
approach--relying on advanced electronic information, analytics, non-
intrusive inspection technology, and trade community and international 
partnerships--to address threats in the supply chain at the earliest 
possible point and facilitate the flow of the lawful trade through 
ports of entry. CBP is committed to providing a secure gateway for 
international trade, eliminating supply chain barriers at the border, 
and developing transformation to enhance the movement of goods through 
concerted partnership with experts in the trade community.

    Question. Hiring veterans has been a useful tool to streamline the 
CBP hiring and assignment process. How can CBP continue to promote and 
utilize veterans in the CBP workforce to ensure the secure and 
efficient movement of goods within a complex supply chain?

    Answer. A key element in CBP's Hiring Strategy is a focus on 
recruiting transitioning service-members, veterans, and disabled 
veterans for both frontline law enforcement and mission support 
occupations. CBP uses direct hiring authorities for qualified veterans. 
In FY 2017, veterans represented over a quarter (28.95 percent) of the 
total workforce and almost one-third (31.64 percent) of new hires. 
Veterans with a compensable disability of 30 percent or more 
represented 6.5 percent of the CBP workforce, and constituted a little 
over 10 percent of new hires.

    In close partnership with the Department of Defense, CBP attends 
national military conferences and advertises in military publications 
and on military oriented websites to attract veterans. CBP conducts 
recruitment and outreach activities at military installations and 
affiliated organizations to include establishing CBP Recruitment 
Offices at Ft. Campbell, KY; Ft. Drum, NY; Ft. Hood, TX; and Ft. Bliss, 
TX to pilot a concept for attracting additional veterans. CBP fully 
intends to expand these pilot locations in hopes of offering America's 
service members more physical access to CBP recruiters allowing them a 
great place to build a career. In addition to this concept CBP 
currently conducts expedited hiring hubs monthly for veterans at 
military installations.

    In FY 2017, CBP recruiters conducted 1,906 Special Emphasis 
Recruiting events, targeting active duty service-members, veterans, and 
a multitude of diversity groups at military installations, veterans' 
groups, and Historically Black Colleges and Universities (HBCUs). CBP 
uses the Veterans Recruitment Appointment (VRA), which has vastly 
streamlined the hiring process for transitioning service-members, 
veterans, and veterans with disabilities who qualify for our LEO 
positions.

    CBP is also working to standardize recruiter training to 
incorporate specific benefits that CBP offers to Veterans and 
transitioning service members. In FY 2018, this training will be 
provided to approximately 1,000 CBP Recruiters. We believe this 
training will be significant in equipping our Recruiters to more 
effectively articulate why Veterans should consider CBP as a post-
service career option. Additionally, in FY 2018 CBP will partner with 
the Department of Army Career Skills Program (CSP), which is part of 
the military life cycle that prepares Soldiers for civilian employment 
upon completion of their military service.

                                 ______
                                 
                 Prepared Statement of Hon. Ron Wyden, 
                       a U.S. Senator From Oregon
    I want to begin by thanking you for being here today. In my view, 
you're a highly qualified nominee, and I appreciate your willingness to 
take on a tough job as Commissioner of U.S. Customs and Border 
Protection. I also want to thank you for working with me to increase 
staffing at the Port of Portland to accommodate the airport's growth as 
a destination for international flights, including a new flight from 
Mexico which I hope will be finalized soon. Portland's struggle with 
adequate staffing illustrates the acute need to hire more blue uniforms 
to enforce our trade laws and facilitate travel. I hope that is 
something you will continue to focus on.

    There are two specific issues I want to touch on in my opening 
remarks today with respect to CBP. The first is trade enforcement.

    This administration has talked a tough game when it comes to trade, 
but its record to date has not lived up to that talk. In my view, if 
you're genuinely serious about getting trade done right, step one is 
vigorously enforcing the laws on the books. Customs and Border 
Protection is on the front line of that effort.

    Last year, the Trade Facilitation and Trade Enforcement Act was 
signed into law. The Finance Committee wrote that legislation because 
it was clear the trade enforcement mission at CBP was getting short 
shrift, and that was a major threat to red, white, and blue jobs.

    Our legislation was all about making sure CBP was fast enough and 
equipped to keep up with modern-day trade cheats, who are determined to 
undercut American workers by evading our trade laws. A lot of good work 
was done to put those tools into effect in the months after the bill 
was signed, but it seems like many of those efforts have stalled under 
this President. That needs to change. Trade enforcement is about 
constant vigilance and staying ahead of the new tactics used by trade 
cheats to get around our laws.

    But when I look at the administration's plans for CBP, once again 
it seems trade enforcement is an afterthought. The White House seems a 
lot more focused on throwing money at a border patrol army and 
prototypes for a border wall that may never get built. Trade 
enforcement is going to fall by the wayside and jobs will disappear if 
the administration stays on this course.

    It doesn't matter what kind of deals you propose or what laws you 
put on the books if you're not serious about enforcing them.

    There's a lot of work for Mr. McAleenan, from rooting out products 
made with forced labor, to preventing trade in illegally-harvested 
timber and wildlife, to protecting the health and safety of consumers 
who use imported products. I look forward to working with him to make 
sure that CBP is effectively enforcing our trade laws on those issues 
and more.

    The second topic I want to address this morning deals with searches 
at the border. There has been an onslaught of reports this year about 
Americans being stopped at the border and forced to unlock their 
personal electronic devices for inspections that clearly invade 
personal privacy.

    Senator Paul and I introduced a bill in April called the Protecting 
Data at the Border Act. Our bill requires law enforcement to get a 
warrant before searching a device at the border, and it comes with 
strong protections to let Americans know when and how they consent to 
having their devices searched.

    In my judgment, this ought to be a common-sense step, especially 
since the Supreme Court has already ruled that law enforcement needs a 
warrant to search a phone after an arrest.

    Bottom line, our constitutional rights do not disappear at the 
border. So I'm looking forward to addressing this issue in questions.

    As I wrap up, let me again thank you, Mr. McAleenan, for joining 
the Committee today and being willing to serve. You are a strong 
nominee and I look forward to hearing your plans for the agency if 
confirmed.

                                 ______
                                 

                             Communications

                              ----------                              


                    Letter From Norman W. Harris III
October 19, 2017

U.S. Senate
Committee on Finance
Dirksen Senate Office Bldg.
Washington, DC 20510-6200

Re:  Hearing to consider the nomination of Kevin K. McAleenan, of 
Hawaii, to be Commissioner of United States Customs and Border 
Protection, Department of Homeland Security

To the Honorable Senate Committee on Finance,

As a licensed Customs house broker, serial number 11389, since 1989 I 
support the nomination of Kevin K. McAleenan to be Commissioner of 
United Customs and Border Protection, Department of Homeland Security.

Acting Commissioner McAleenan has worked well with the trade community 
for the facilitation of efficient goods movement. He is a skilled 
communicator and a strong leader.

I had the opportunity as Education Chair for the Los Angeles Customs 
Brokers and Freight Forwarders Association (LACBFFA) to work directly 
with Mr. McAleenan in his capacity of Area Port Director in Los Angeles 
arranging for workshops that benefitted the local trade community.

Respectfully,

Norman W. Harris III

                                 ______
                                 
  Los Angeles Customs Brokers and Freight Forwarders Association, Inc.

                         320 Pine Avenue, #1050

                          Long Beach, CA 90802

                          Phone: 714-316-5270

                           Fax: 714-632-5405

                        Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4e272028210e222f2d2c28282f60213c29">[email&#160;protected]</a>

                        Website: www.lacbffa.org

October 19, 2017

Senator Orrin Hatch                 Senator Ron Wyden
Chairman                            Ranking Member
U.S. Senate                         U.S. Senate
Committee on Finance                Committee on Finance
219 Dirksen Senate Office Building  219 Dirksen Senate Office Building
Washington, DC 20510                Washington, DC 20510

Dear Chairman Hatch and Ranking Member Wyden:

The Los Angeles Customs Brokers and Freight Forwarders Association, 
Inc. is the premier organization in southern California for 
international trade and U.S. Customs issues, and its more than 300 
company members, employing over 5,000 individuals, file more than 95% 
of all import entries in the Los Angeles Customs District. We have had 
the pleasure of working with Acting Commissioner McAleenan since his 
days with Customs and Border Protection (CSP or Customs) in Los 
Angeles. We wholeheartedly support Mr. McAleenan as the next 
Commissioner of CBP.

Over the last several years, the responsibilities of CBP have become 
ever more complex and challenging, and so having someone lead the 
agency who starts out being intimately familiar with its personnel and 
functions is a major plus for the agency, but equally so for the trade.

Mr. McAleenan long ago displayed his capabilities to prudently balance 
the competing interests and efforts of CBP whether related to the 
efficient functioning of the agency or its efforts related to national 
security and trade facilitation, all the while keeping in mind the 
importance of the country's economic prosperity.

The roll-out of the Automated Commercial System has made great strides 
towards completion, while under Mr. McAleenan's leadership, CBP has 
shown it can work successfully with some 40+ agencies and address both 
import and export industry needs. CBP is also close to completion of 
its implementation of the Centers for Excellence and Expertise, while 
still focusing on the latest threats, whether arising from terrorism, 
or related to national security, the current opioid crisis or the more 
traditional commercial considerations such as the de minimis dilemma, 
free trade agreement and other more traditional areas of trade 
compliance, such as revenue collection and antidumping/countervailing 
duty cases.

Taken together, these and Mr. McAleenan's other accomplishments, and 
those of the agency, make it clear he is the right choice for 
Commissioner of Customs and Border Protection, and we strongly support 
his nomination.

Respectfully,

Wayne Wagner
President, Los Angeles Customs Brokers and Freight Forwarders, Inc.

                                 ______
                                 
        United States Council for International Business (USCIB)

                      1212 Avenue of the Americas

                        New York, NY 10036-1689

                            212-354-4480 tel

                            212-575-0327 fax

                             www.uscib.org

                                                   November 2, 2017

STATEMENT FOR THE RECORD

    The United States Council for International Business (USCIB) was 
pleased with the recent nomination of Customs and Border Protection's 
(CBP) Kevin K. McAleenan as Commissioner of CBP, and the recent 
announcement of his confirmation hearing. We believe that Mr. McAleenan 
is the answer for skilled, professional, knowledgeable, and continued 
strong leadership of CBP. Under his leadership, CBP has seen increased 
visibility within the Administration. He is the answer to consistency 
in approach and forward movement of dealing with the challenges and 
complexities of trading environment in the United States. USCIB is 
strongly supportive of McAleenan and his prompt confirmation.

    Acting Commissioner since January 20, 2017, Mr. McAleenan has a 
proven track record of leading the largest law enforcement agency, 
charged with enforcing more than 500 regulations for 45 plus government 
agencies. Moreover, Mr. McAleenan is the first nominee selected from 
within the agency ranks in recent memory, and brings with him well over 
a decade of experience within CBP, having served in such leadership 
roles as: Area Port Director of Los Angeles International Airport, 
Acting Assistant Commissioner of CBP's Office of Field Operations, 
Deputy Commissioner, and most recently as Acting Commissioner. In 2005 
and 2015, respectively, Mr. McAleenan received a Service to America 
Medal, Call to Service Award, and a Presidential Rank Award. Since 
2006, Mr. McAleenan has been a member of the U.S. Government's Senior 
Executive Service. Mr. McAleenan is well suited for the role as CBP 
Commissioner and is no stranger to the challenges and complexities of 
directing CBP core missions of counterterrorism, border security, and 
trade enforcement, while facilitating both the flow of trade and travel 
of people.

    Mr. McAleenan's nomination demonstrates clear Administration 
support for the well-oiled CBP leadership team that is in place. It is 
the consistency of a leadership team along with Mr. McAleenan's proven 
knowledge, hands-on experience and previous leadership roles within CBP 
and one of its legacy agencies that make him uniquely qualified to 
successfully serve in a permanent capacity, as CBP Commissioner.

    During the USCIB leadership meeting with the Acting Commissioner 
earlier this year, Mr. McAleenan, was illustrative of his 
professionalism, understanding of issues being faced by members of the 
trade community, as well as exemplar of his willingness to engage 
stakeholders. USCIB Customs and Trade Facilitation Chair, Jerry Cook, 
Hanes Brands; said, ``We believe that the Acting Director's background 
in facilitation will be good for the trade and CBP. Kevin McAleenan is 
the right man for the job,'' said USCIB President and CEO Peter M. 
Robinson. ``As Acting Commissioner, he has demonstrated strong, skilled 
and knowledgeable direction to CBP. Under his leadership, the agency is 
positioned to effectively move forward in addressing the challenges and 
complexities of the trading environment in the United States.''

    Among other topics, we encourage the Commissioner, if confirmed, to 
continue to focus on: securing a meaningful Border Interagency 
Executive Council (BIEC) and BIEC External Engagement Committee (EEC) 
mechanism; effectively completing implementation of final core ACE 
(U.S. Single Window) deployment; improving the import process for e-
commerce from a trade facilitation and enforcement perspective in a 
manner that facilitates legitimate trade; partnering with industry on 
forced labor concerns; implementing all Trade Facilitation and Trade 
Enforcement Act (TFTEA) requirements; tackling industry concerns 
related to customs valuation; and working towards the fulfillment of 
the Centers of Excellence and Expertise (CEEs).

    The United States Council for International Business (USCIB) 
promotes open markets, competitiveness and innovation, sustainable 
development and corporate responsibility, supported by international 
engagement and regulatory coherence. Its members include U.S. based 
global companies and professional services firms from every sector of 
our economy, with operations in every region of the world. With a 
unique global network--encompassing the International Chamber of 
Commerce (ICC), the International Organization of Employers (IOE), and 
the Business and Industry Advisory Committee to the OECD (BIAC)--USCIB 
provides business views to policy makers and regulatory authorities 
worldwide, and works to facilitate international trade and investment.

    USCIB also provides a range of business services, including ATA 
Carnet trade services for temporary imports and exports, to facilitate 
overseas trade and investment in partnership with CBP.

    With our unique perspective, we look forward to continuing to work 
with and help Customs meet its goals and objectives and stand ready to 
continue to serve as a relevant CBP stakeholder, and provide both 
subject matter expertise and practitioner support on topics of interest 
to Customs and to our membership. Again, we urge quick action and a 
swift vote of support in the U.S. Senate to confirm Kevin K. McAleenan 
as Commissioner of U.S. Customs and Border Protection (CBP). We believe 
he is the right choice to lead the agency.

    In closing, we thank Mr. McAleenan for his dedication to CBP and 
willingness to serve. With the passage of TFTEA and the increased 
importance of strong Customs leadership, we trust that under Mr. 
McAleenan CBP will continue to partner with industry and relevant 
stakeholders to address the complexities and challenges of today's 
trade environment. In the words of Jerry Cook, ``under Kevin's 
leadership, CBP will get its swagger back.''

Sincerely,

United States Council for International Business

                                   [all]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
